No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

LEAGUE OF UNITED LATIN
AMERICAN CITIZENS, ET AL.,
Petitioners,
v.

EDWARDS AQUIFER AUTHORITY, ET AL.,
Respondents.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Allison J. Riggs
Counsel of Record
Jaclyn A. Maffetore
Jeffrey Loperfido
SOUTHERN COALITION FOR
SOCIAL JUSTICE
1415 West Highway 54, Suite 101
Durham, North Carolina 27707
(919) 323-3909
allisonriggs@southerncoaltion.org

Luis Vera
LULAC National
General Counsel
THE LAW OFFICES OF
LUIS ROBERTO VERA, JR.,
& ASSOCIATES
1325 Riverview Towers
111 Soledad
San Antonio, Texas 78205

Chad W. Dunn
BRAZIL & DUNN
3303 Northland Drive, Suite 205
Austin, Texas 78731
Counsel for Petitioners

Dated: November 26, 2019

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
In its Avery v. Midland County, Hadley v.
Junior College District, and Morris v. Board of
Estimate line of cases, this Court has held that
political units are subject to the Fourteenth
Amendment’s equal population rule for electoral
districts. In its Salyer and Ball cases, the Court
created a narrow exception for certain political units
to diverge from that population equality rule when
the electoral franchise is highly restricted, and those
allowed to participate in the election are electing
representatives who would perform functions more
closely associated with non-governmental entities. In
the four decades since recognizing this exception, the
Court has not articulated an effective test for lower
courts to determine which line of authority governs a
political unit with representatives who are chosen
through open-franchise elections, and whose power is
more akin to traditional government functions. The
questions presented are thus:
1. Whether the Salyer-Ball exception to the oneperson,
one-vote
population
equality
requirement ought to apply to local
government
representatives
chosen
in
unrestricted, open-franchise popular elections.
2. Where the narrow Salyer-Ball exception does
apply, what limits are necessary to ensure that
voters who bear the overwhelming burden of
financing a special purpose unit of government,
which exercises at least some general
governmental
powers,
are
not
unconstitutionally deprived of an equally
weighted vote compared to those who bear no
such financial burden but reap the benefit of

ii
that special purpose
governmental power.

unit’s

exercise

of

3. Whether an electoral scheme designed to afford
more weight to voters based exclusively on the
geographical region where they reside can ever
pass muster under rational basis review.

iii
PARTIES TO THE PROCEEDING
Petitioners, the plaintiff-appellants below, are
the League of United Latin American Citizens, Maria
Martinez, Jesse Alaniz, Jr., and Ramiro Navara.
Respondents are the Edwards Aquifer
Authority, the defendant-appellee below, and the City
of San Marcos, the City of Uvalde, Uvalde County,
New Braunfels Utilities, and the Guadalupe-Blanco
River Authority, who were intervenor defendantsappellees in the proceedings below.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6, Petitioners who are
non-governmental non-profit corporations and
individual Texas residents state that no parent or
publicly held company owns 10% or more of their
stock or interest.
STATEMENT OF RELATED CASES
Petitioners are aware of no other related case.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ..........................iii
CORPORATE DISCLOSURE STATEMENT ...........iii
STATEMENT OF RELATED CASES ......................iii
TABLE OF CONTENTS............................................ iv
TABLE OF AUTHORITIES ..................................... vii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED......................................... 1
STATEMENT OF THE CASE ................................... 3
1.

The History of the Edwards Aquifer
and its Governmental Management ........... 3

2.

Purpose and Powers of the Edwards
Aquifer Authority ........................................ 6

3.

District Court Proceedings.......................... 8

4.

Fifth Circuit Ruling .................................. 10

REASONS FOR GRANTING THE WRIT ............... 12
I.

A Decision from This Court Is Necessary
to Clarify the Scope of the Salyer-Ball
Exception to the Fundamental
Constitutional Guarantee of One
Person, One Vote ...................................... 13

v
a.

This Court’s Precedent Plainly
Counsels Against Applying the
Salyer-Ball Exception in an
Open-Franchise Representative
Election, but Clarification from
this Court Would Resolve
Tensions
Between
Circuit
Rulings ........................................... 14

b.

The Fifth Circuit’s Overbroad
Application of the Salyer-Ball
Exception
Adds
to
an
Inconsistent Body of LowerCourt Caselaw that Requires
this Court’s Intervention ............... 20

c.

The Fifth Circuit’s Decision
Further
Creates
Circuit
Conflict by Approving Regional
Favoritism as an Acceptable
Justification for Population
Deviations in Violation of the
One-Person, One-Vote Mandate .... 27

II.

The Decision of the Fifth Circuit
Creates Tension with Texas’s Own
Interpretation of the EAA as It Relates
to the Property Rights of Texans ............. 29

III.

This Case is an Ideal Vehicle to
Resolve the Question Presented .............. 31

CONCLUSION ......................................................... 34

vi
APPENDIX:
Published Opinion of
The United States Court of Appeals
For the Fifth Circuit
entered August 28, 2019 ..................... 1a
Order of
The United States District Court
For the Western District of Texas
Re: Granting Defendants’ Motion for
Summary Judgment; Denying Plaintiffs’
Joint Motion for Partial Summary
Judgment; and Dismissing the Equal
Protection Claims Against the EAA
entered June 18, 2018 ....................... 31a
Order of
The United States District Court
For the Western District of Texas
Re: Dismissal and Final Judgment
entered July 17, 2018 ........................ 65a
TEX. CONST. art. XVI, § 59 ........................... 67a
Edwards Aquifer Authority Act .................. 72a
Expert Report of Stephen Ansolabehere
dated November 15, 2013 ............... 216a
Supplemental Expert Report of
Stephen Ansolabehere
dated April 9, 2016 .......................... 280a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Abate v. Mundt,
403 U.S. 182 (2004) .................................. 28, 29
Avery v. Midland Co.,
390 U.S. 474 (1967) ............................ 12, 16, 17
Baker v. Reg’l High Sch. Dist. No. 5,
520 F.2d 799 (2d Cir. 1975) ..................... 22, 23
Ball v. James,
451 U.S. 355 (1981) ................................ passim
Barshop v. Medina Cty. Underground
Water Conservation Dist.,
925 S.W.2d 618 (Tex. 1996) ............................. 3
Bd. of Estimate v. Morris,
489 U.S. 688 (1989) ...................... 18, 19, 20, 25
Carlson v. Wiggins,
675 F.3d 1134 (8th Cir. 2012) ........................ 32
City of White Settlement v. Super Wash, Inc.,
198 S.W.3d 770 (Tex. 2006) ........................... 26
Education/Instruccion, Inc. v. Moore,
503 F.2d 1187 (2d Cir. 1974) ......................... 22
Edwards Aquifer Auth. v. Bragg,
421 S.W.3d 118 (Tex. App. 2013)................... 30
Edwards Aquifer Auth. v. Chem. Lime, Ltd.,
291 S.W.3d 392 (Tex. 2009) ......................... 4, 5

viii
Edwards Aquifer Auth. v. Day,
369 S.W.3d 814 (Tex. 2012) ........................... 30
Gray v. Sanders,
372 U.S. 368 (1963) ............................ 12, 15, 17
Gurley v. Rhoden,
421 U.S. 200 (1975) ........................................ 29
Hadley v. Junior College District of
Metropolitan Kansas City, Mo.,
397 U.S. 50 (1970) .................................. passim
Hellebust v. Brownback,
42 F.3d 1331 (10th Cir. 1994) ...... 23, 24, 27, 28
Kessler v. Grand Cent. Dist. Mgmt. Ass’n.,
158 F.3d 922 (2d Cir. 1998) ...................... 32-33
Kessler v. Grand Cent. Dist. Mgmt. Ass’n.,
960 F. Supp. 760 (S.D.N.Y. 1997) .................. 33
Larios v. Cox,
300 F. Supp. 2d 1320 (N.D. Ga. 2004) ..... 27, 28
Luna v. Cty. of Kern,
291 F. Supp. 3d 1088 (E.D. Ca. 2018) ........... 27
Pittman v. Chicago Bd. of Educ.,
64 F.3d 1098 (7th Cir. 1995) .......................... 21
Raleigh Wake Citizens Ass’n v.
Wake Cnty. Bd. of Elections,
827 F. 3d 333 (4th Cir. 2016) ......................... 27
Reynolds v. Sims,
377 U.S. 533 (1964) ............................ 12, 20, 28
Salyer Land Co. v. Tulare Lake
Basin Water Storage Dist.,
410 U.S. 719 (1973) ................................ passim

ix
Sierra Club v. Lujan,
No. MO-91-CA-069,
1993 U.S. Dist. LEXIS 3361
(W.D. Tex., Jan. 30, 1993) ............................... 4
Tex. Bay Cherry Hill, L.P. v.
City of Fort Worth,
257 S.W.3d 379 (Tex. Ct. App. 2008)............. 26
Town of Lockport v. Citizens for
Community Action, Inc.,
430 U.S. 259 (1977)................................................... 10
Vander Linden v. Hodges,
193 F.3d 268 (4th Cir. 1999) .............. 25, 26, 27
Wesberry v. Sanders,
376 U.S. 1 (1964) ............................................ 12
CONSTITUTIONAL PROVISIONS
Tex. Const. Art. XVI, § 59 ...................................... 2, 4
Tex. Const. Art. XVI, § 59(a) ...................................... 3
U.S. CONST. amend. XIV ............................................. 1
STATUTES
28 U.S.C. § 1254(1) ..................................................... 1
28 U.S.C. § 1331.......................................................... 8
OTHER AUTHORITIES
Nicholas Bauroth, Hide in Plain Sight:
The Uneven Proliferation of Special Districts
Across the United States by Size and Function,
39 Pub. Admin. Q. 295 (2015) .................................. 33
Edwards Aquifer Authority Act ....................... passim

x
Chance Sparks, Proliferation of Special Districts,
APA Texas Chapter, https://legistarwebproduction.s3.amazonaws.com/uploads/
attachment/pdf/45988/TxAPA_Proliferation
(last visited Nov. 23, 2019) ....................................... 33
Voting Rights Act § 2 .................................................. 8
Voting Rights Act § 5 .................................................. 5

1
PETITION FOR A WRIT OF CERTIORARI
The League of United Latin American Citizens
(“LULAC”), Maria Martinez, Jesse Alaniz, Jr., and
Ramiro Nava respectfully petition this Court for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the Court of Appeals (App. 1a30a) is reported at 937 F.3d 457. The order of the
District Court (App. 31a-64a) is reported at 313 F.
Supp. 3d 735.
JURISDICTION
The opinion of the court of appeals was entered
on August 28, 2019. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
This case involves the
Constitution, Amendment XIV:

United

States

All persons born or naturalized in the
United States, and subject to the
jurisdiction thereof, are citizens of the
United States and of the state wherein
they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any state
deprive any person of life, liberty, or
property, without due process of law; nor

2
deny to any person within its jurisdiction
the equal protection of the laws.
This case additionally involves Article XVI,
Section 59 of the Texas Constitution, reproduced in
Petitioners’ appendix at App. 67a-71a, and the
Edwards Aquifer Authority Act,1 reproduced in
Petitioner’s appendix at App. 72a-215a.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, 1993 Tex. Gen.
Laws 2350; as amended by Act of May 16, 1995, 74th Leg., R.S.,
ch. 524, § 1, sec. 3.03, 1995 Tex. Gen. Laws 3280; Act of May 29,
1995, 74th Leg., R.S., ch. 261, § 1, secs. 1.09, 1.091, 1.092, 1.093,
1995 Tex. Gen. Laws 2505, 2505–16; Act of May 6, 1999, 76th
Leg., R.S., ch. 163, § 1, sec. 1.094, 1999 Tex. Gen. Laws 634, 634–
35; Act of May 25, 2001, 77th Leg., R.S., ch. 1192, § 1, sec.
1.03(26), (27), 2001 Tex. Gen. Laws 2696, 2696–97; Act of May
27, 2001, 77th Leg., R.S., ch. 966, §§ 2.60–2.62, 6.01–6.05, secs.
1.03(26), (27), 1.29(e), 1.44(e), 1.115, 1.15(e), (f), 1.11(h), 1.41(e),
2001 Tex. Gen. Laws 1991, 2021–22, 2075–76; Act of June 1,
2003, 78th Leg., R.S., ch. 1112, § 6.01(4), sec. 1.12, 2003 Tex.
Gen. Laws 3188, 3193; Act of May 23, 2007, 80th Leg., R.S., ch.
510, § 1, sec. 1.081, 2007 Tex. Gen. Laws 900; Act of May 27,
2007, 80th Leg., R.S., ch. 1351, §§ 2.01– 2.11, secs. 1.11(f), (f-1),
(f-2), 1.14(a), (c), (e), (f), (h), 1.16(g), 1.19(b), 1.22(a), 1.26, 1.26A,
1.29(b), (h), (i), 1.45(a), 1.14(b), (d), 1.21, 1.29(a), (c), (d), 2007
Tex. Gen. Laws 4612, 4627– 34; Act of May 27, 2007, 80th Leg.,
R.S., ch. 1430, §§ 12.01–12.11, secs. 1.11(f), (f-1), (f-2), 1.14(a),
(c), (e), (f), (h), 1.16(g), 1.19(b), 1.22(a), 1.26, 1.26A, 1.29(b), (h),
(i), 1.45(a), 1.14(b), (d), 1.21, 1.29(a), (c), (d), 2007 Tex. Gen. Laws
5848, 5901–09; Act of May 21, 2009, 81st Leg., R.S., ch. 1080,
§ 1, sec. 1.04, 2009 Tex. Gen. Laws 2818, 2818–25; Act of May
20, 2013, 83rd Leg., R.S., ch. 783, § 1, sec. 1.033(c), (d), 2013 Tex.
Gen. Laws 1998, 1998–99; Act of May 24, 2019, 86th Leg., R.S.,
ch. ___, § 1, sec. 1.34(a)-(f), 2019 Tex. Gen. Laws ____, ____-__;
Act of May 26, 2019, 86th Leg., R.S., ch. ___, § 1, sec. 1.44(c), (e),
(c-1), (e-1), 2019 Tex. Gen. Laws ____, ____-__; Act of May 27,
2019, 86th Leg., R.S., ch. ___, §§ 1–15, secs. 1.03(20), 1.07,
1.08(a), 1.09(d), (i)-(k), 1.11(d), 1.21, 1.211, 1.26(a), 1.29(b), (f),
1.361, 1.37(j), (n), (r), 1.38, 1.46, 3.01(d), 36.205(e), 1.25(b),
36.101(1), 36.1011(e), 36.125, 36.419, 2019 Tex. Gen. Laws ____,
____-__.
1

3
STATEMENT OF THE CASE
1.

The History of the Edwards Aquifer and
its Governmental Management

In the early part of the twentieth century,
severe droughts led Texans to ratify the Conservation
Amendment to the Texas Constitution, which declared
that the conservation, preservation, and development
of all natural resources of the state are “public rights
and duties.” App. 48a. (quoting Tex. Const. Art. XVI,
§ 59(a)). To that end, the constitutional amendment
further provided for the creation of water
conservation and reclamation districts to ensure that
one of the state’s most vital resources is collected,
conserved, and made available to Texas residents.
App. 48a-49a. Under the Texas Constitution, these
conservation districts are “governmental agencies
and bodies politic and corporate with such powers of
government and with the authority to exercise such
rights, privileges and functions . . . as may be
conferred by law.” App. 67a. Seventy-five years later,
use of this constitutional authority reached its zenith
with the Texas Legislature’s creation of the powerful
Edwards Aquifer Authority.
The Edwards Aquifer is a vital natural
resource that is subject to regulation under the
Conservation Amendment of the Texas Constitution,
but the history of its regulation demonstrates how
exceptional it is compared to other water sources in
the state. The Edwards Aquifer is “a unique
underground system of water-bearing formations in
Central Texas.” Barshop v. Medina Cty. Underground
Water Conservation Dist., 925 S.W.2d 618, 623 (Tex.
1996). “Water enters the aquifer through the ground
as surface water and rainfall and leaves the aquifer

4
through well withdrawals and springflow. The Aquifer
“is the primary source of water for south central Texas
and therefore vital to the residents, industry, and
ecology of the region, the State’s economy, and the
public welfare.” Edwards Aquifer Auth. v. Chem.
Lime, Ltd., 291 S.W.3d 392, 394 (Tex. 2009).).
Throughout the 1970s and 1980s, the Aquifer
was being dangerously over-pumped to supply
drinking water for the nearly two million residents in
the growing San Antonio area, and for irrigation
water for farming efforts in the rural western areas
served by the Aquifer. The lowered water levels,
especially in two huge springs issuing from the
Aquifer, endangered numerous animal species native
to the region. App. 3a; see also, Sierra Club v. Lujan,
No. MO-91-CA-069, 1993 U.S. Dist. LEXIS 3361, *1011, 76-77 (W.D. Tex., Jan. 30, 1993). During this
period, the Edwards Underground Water District
(EUWD) ostensibly existed to govern use of the
Edwards Aquifer, but this elected body “lacked the
regulatory authority” necessary to adequately
address the problems of dwindling water supply and
resultant ecological destruction. App. 3a. In 1993, in
the wake of successful litigation under the
Endangered Species Act, the Texas Legislature used
its Conservation Amendment authority to replace the
EUWD with a new entity – the Edwards Aquifer
Authority (EAA) – with significantly more expansive
regulatory powers and a broader geographic reach.
App. 49a-50a. The Legislature passed the EAA Act
pursuant to its authority under Tex. Const. Art. XVI,
§ 59, id., “giving the Authority broad powers for the
effective control of the resource to protect terrestrial
and aquatic life, domestic and municipal water
supplies, the operation of existing industries, and the

5
economic development of the state.” Chem. Lime, Ltd.,
291 S.W.3d at 394. The Authority’s jurisdiction under
the EAA Act encompasses eight counties, broken
down roughly into three regions: (1) urban Bexar
County, with over 1.7 million residents; (2) western
agricultural counties including Uvalde, Medina, and
Atascosa, with approximately 117,000 residents; and
(3) eastern spring counties, including Hays, Comal,
Guadalupe, and Caldwell, with approximately
435,000 residents. App. 6a.
The 1993 legislation provided for an appointed
board of directors; however, this structure failed to
gain preclearance from the Department of Justice
under § 5 of the Voting Rights Act. App. 7a. The EAA
Act was therefore amended in 1995, continuing the
conferral of expansive powers but establishing a
board of directors consisting of fifteen voting members
elected from districts, plus two non-voting appointed
members. Ibid. With respect to the fifteen voting
members, the legislature designed the system such
that four directors would be elected from the
agricultural counties, four directors would be elected
from the spring counties, and seven directors would
be elected from urban Bexar county. Ibid. Each of
those regions was then divided into single-member
districts based on the number of directors allotted to
the region. App. 57a. “[T]he electoral franchise is not
limited to only permit holders or landowners with
wells;” App. 59a, rather, all qualified voters in each of
the districts are entitled to cast a vote in elections for
the EAA director from their district. As a result of this
system design, the fifteen districts are grossly
malapportioned, with an overall population deviation
of 212%. App. 292a-293a. The San Antonio urban area
of Bexar County, with 75% of the population within

6
the Aquifer’s jurisdiction, was specifically and by
design assigned a minority status on the governing
board. App. 222a-23a.
2.

Purpose and Powers of the Edwards
Aquifer Authority

The legislatively-defined purpose of the EAA
Act makes clear that the EAA board was given
unusually far-reaching powers for this kind of
political subdivision because of the Aquifer’s
uniqueness and centrality to the economic vibrancy of
the large Central Texas region. The impetus for the
EAA’s creation was the need to save the Aquifer by
establishing a comprehensive regime for conserving
water. The EAA Act states that creation of the
Authority was necessary “to protect terrestrial and
aquatic life, domestic and municipal water supplies,
the operation of existing industries, and the economic
development of the state.” App. 79a.
The failure of the EUWD showed that
extensive powers were necessary to achieve this
purpose. To that end, the EAA “has all of the powers,
rights, and privileges necessary to manage, conserve,
preserve, and protect the aquifer and to increase the
recharge of, and prevent the waste or pollution of
water in, the aquifer.” App. 108a. The general powers
of the EAA include the power to: engage in
rulemaking; close abandoned, wasteful, or dangerous
wells; regulate land use of permit and non-permit
holders; require utility permit holders to increase
costs on utility users as a conservation measure;
exercise the power of eminent domain; and many
others. App. 144a. While the EAA cannot levy taxes,
it can not only work in conjunction with the State

7
Attorney General and Texas Commission on
Environmental Quality (“TCEQ”) to issue revenue
bonds, but can (and does) raise millions of dollars in
annual revenue through the assessment of “aquifer
management fees.” App 6a.
More specifically, the EAA has the authority to
decide whether those within its jurisdiction may
withdraw groundwater from even their own property,
with limited exception, by requiring that every person
wishing to withdraw water from the Aquifer have a
permit to do so. App. 154a-55a. The EAA exercises
significant control over permit holders. For example,
the EAA requires that the water withdrawn is used
within the district, App. 187a, and according to the
terms or conditions of the permit, App. 189a.
Violation of the terms of a permit can result in the
revocation of said permit, and the assessment of
administrative penalties. App. 189-96a. Further, the
control exercised over permit holders can have a
direct impact on non-permit holders. For example, the
EAA has the authority to require that utility permitholders increase the cost passed on to utility
customers, to discourage and limit discretionary use
by permit-holders during periods of drought. App. 5a.
Significantly, the EAA has authority over
residents within the jurisdiction whether those
residents are permit-holders or not. The EAA has the
power to regulate the behavior of all residents within
its jurisdiction by virtue of its duty to conserve and
prevent pollution of the Aquifer. No person residing
within the EAA’s jurisdiction may waste water
withdrawn from the aquifer or pollute or contribute to
the pollution of the aquifer, and all residents are bound
by the laws and rules governing the EAA, regardless

8
of status as a permit-holder. App. 189a. Agents of the
Authority may enter onto any resident’s property to
enforce these prohibitions, whether to inspect and
close a dangerous well or to investigate use of
prohibited pollutants in the recharge and contribution
zones. App. 6a. And the EAA is empowered to assess
significant administrative penalties of up to $1000 a
day against non-permit-holding residents who engage
in prohibited activity. App. 191a-96a.
3.

District Court Proceedings

In June of 2012, the League of United Latin
American Citizens (“LULAC”) and Bexar County
LULAC members Jesse Alaniz, Jr., Ramiro Nava and
Maria Martinez (hereinafter, “LULAC Petitioners”)
filed suit challenging the electoral scheme of the
Edwards Aquifer Authority as violative of the oneperson, one-vote guarantee of the Fourteenth
Amendment’s Equal Protection Clause.2 App. 33a34a. The jurisdiction of the district court was invoked
under 28 U.S.C. § 1331. Specifically, LULAC
Petitioners alleged that the unusually large
population disparity among the districts from which
EAA directors are elected results in the
unconstitutional dilution of voting strength of voters
in Bexar County. On August 29, 2012, an arm of the
City of San Antonio known as the San Antonio Water
Systems (“SAWS”), which is Bexar county’s largest
water and sewer utility, successfully intervened on
LULAC’s side, also alleging a violation of the oneLULAC Petitioners additionally brought claims against the
EAA under Section 2 of the Voting Rights Act; however these
claims were voluntarily dismissed following the district court’s
summary judgment order on the one-person, one-vote claim and
are not at issue here.

2

9
person,
one-vote
guarantee.
App.
33a-34a.
Subsequently, the City of San Marcos, Uvalde
County, the City of Uvalde, New Braunfels Utilities,
and the Guadalupe-Blanco River Authority were
granted permission to intervene as defendants. Ibid.
The respective parties filed cross-motions for
summary judgment on the one-person, one-vote claim
in early 2014, and the district court heard oral
argument in June of 2014. On June 16, 2018, the
district court issued an order granting summary
judgment in favor of defendants. App. 33a.
The district court focused its legal inquiry on
whether the narrow exception to the one-person, onevote requirement of the Fourteenth Amendment laid
out by this Court in Salyer Land Co. v. Tulare Lake
Basin Water Storage Dist., 410 U.S. 719 (1973), and
Ball v. James, 451 U.S. 355 (1981) applied to the
election of the EAA’s directors. The district court first
assessed the purpose, power and authority of the
EAA, concluding that it was created for a “narrow”
purpose, and that it “does not have the authority to
exercise the sort of governmental powers that invoke
the strict demands of Reynolds,” placing particular
emphasis on the district’s inability to levy taxes. App.
54a-57a. However, after concluding that the EAA
lacked general governmental powers, the district
court did not examine whether the challenged
electoral system had a disproportionate effect on the
regions afforded greater voting power. Rather, the
district court simply applied rational basis review to
the statute creating the EAA, concluding that it
passed muster because the structure, which was
designed to give voice to the interests associated with
the three different regions, was necessary for the bill’s
passage. App. 59a-63a.

10
4.

Fifth Circuit Ruling

LULAC Petitioners appealed to the Fifth
Circuit Court of Appeals, alleging that the district
court was in error for concluding that the Salyer-Ball
exception could apply to open-franchise popular
elections of representatives from districts generally,
App. 12a, and that the district court misapplied the
narrow Salyer-Ball exception to the one-person, onevote constitutional requirement in any event. App.
17a-18a, 24a-26a. LULAC Petitioners additionally
argued that the EAA’s apportionment scheme,
designed to give greater weight to the votes of
residents in the agricultural and spring regions
simply by virtue of their geographic location, could
not satisfy rational basis review. App. 28a.
The Fifth Circuit rejected LULAC Petitioners’
argument that the Salyer-Ball exception cannot be
properly applied to an open-franchise popular
election, citing this Court’s decision in Town of
Lockport v. Citizens for Community Action, Inc., 430
U.S. 259, 261-62, 266 (1977), which centered on a
referendum on city-county government consolidation
and predated this Court’s decision in Ball, for the
proposition that “the exception enunciated in Salyer
and Ball may apply to a general election.” App. 13a &
n.8. Critically, highlighting the circuit split on this
issue, to support its conclusion, the Court below
additionally relied on decisions of the Seventh and
Second Circuit Courts of Appeals, reading these
decisions as reaching the same conclusion. App. 14a15a. The Fifth Circuit ultimately concluded that
based on the fact that “all voters may participate in
elections to the EAA board of directors, albeit with
unequal voting power” the case at hand “represents a

11
narrower departure from the principle of ‘one person,
one vote’ than in Salyer and Ball, where the franchise
was restricted to landowners and weighted according
to the value of the land owned. App. 15a.
The Fifth Circuit then turned its discussion to
application of the Salyer-Ball framework, “first
consider[ing] whether the EAA serves a ‘special
limited purpose.’” App. 15a-16a. The court below
conceded that “the EAA exercise ‘some typical
governmental powers,’” App. 16a, and has some
ability to dictate the behavior of water users and limit
use of the water once withdrawn, see App. 16a-18a.
Further, the court conceded that “[t]he EAA’s
obligation to prevent the pollution of the aquifer . . .
is more characteristic of the powers exercised by a
general governmental entity.” App. 17a. However, the
court held that the EAA’s pollution prevention powers
were only incidental to its purpose, “secondary to the
plenary environmental authority of the TCEQ and
subject to its supervision.” App. 18a-19a. Much like
the district court below, the Fifth Circuit also
emphasized the EAA’s inability to levy ad valorem
property or sales tax. App. 16a, 20a-22a. The court
thus concluded that the EAA’s “authority is
circumscribed to attain its narrowly defined purpose
to conserve aquifer water.” App. 22a.
Then, considering whether the EAA’s activities
disproportionately impact those afforded greater
voting power – the agricultural and spring counties –
the Fifth Circuit conceded that Bexar County
residents are required to “purchase water at
significantly higher rates than their rural
counterparts,” and “finance almost seventy-five
percent of the EAA’s operations” as a result.

12
However, the court rejected LULAC petitioners’
argument that this constituted a disproportionate
burden on Bexar County voters, concluding that the
expenses, passed through permit-holder SAWS, were
merely “incidental effects.” App. 24a-26a. Finding
thus that the one-person, one-vote principle does not
apply, the Fifth Circuit held that the EAA’s electoral
scheme designed to protect regional interests was
necessary to effectuate the passage of the law in the
first instance, and therefore survived rational basis
review. App. 27a-29a.
REASONS FOR GRANTING THE WRIT
This Court has long held that the right to vote
and have one’s vote counted is a bedrock principle of
our democracy, and that “[o]ther rights, even the most
basic, are illusory if the right to vote is undermined.”
Wesberry v. Sanders, 376 U.S. 1, 17 (1964). This
fundamental right is undermined “by a debasement
or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise
of the franchise.” Reynolds v. Sims, 377 U.S. 533, 555
(1964). As this Court has made plain, “[t]he
conception of political equality from the Declaration
of Independence, to Lincoln’s Gettysburg Address, to
the fifteenth, Seventeenth, and Nineteenth
Amendments can mean only one thing -- one person,
one vote.” Gray v. Sanders, 372 U.S. 368, 381 (1963).
While these principles are firm and foundational, this
Court has, in only very specific circumstances,
allowed some departure from this constitutional
demand, in order to allow very limited units of local
government to meet unique local needs. See Avery v.
Midland Co., 390 U.S. 474, 485 (1967) (collecting
cases)). Specifically, in Salyer Land Co. v. Tulare Lake

13
Basin Water Storage Dist., 410 U.S. 719 (1973), and
Ball v. James, 451 U.S. 355 (1981), this Court has
carved out a narrow exception to the one-person, onevote redistricting principle, which allows the selection
of representatives in highly specialized local units of
government – with limited power and thus limited
reach – by only those impacted by the unit’s activities.
This narrow exception has broadened over time, and
the decision of the Fifth Circuit below represents the
broadest application of the Salyer-Ball exception to
date. By applying the exception to the Edwards
Aquifer Authority, elected in an open-franchise
popular election, the court below has decided a
previously unsettled question of federal law that
strikes at the heart of our democracy – in conflict with
this Court’s precedent and other circuits’
interpretation. Not only at odds with the federal
courts, the Fifth Circuit’s decision also creates tension
with Texas’s own interpretation of the Authority’s
reach, with implications on property owners’ ability to
adequately
protect
their
interests.
This
straightforward case presents an ideal vehicle for this
Court to finally clarify when the one-person, one-vote
principle may yield without running afoul of the
Fourteenth Amendment’s Equal Protection guarantee.
I.

A
Decision
from
This
Court
Is
Necessary to Clarify the Scope of the
Salyer-Ball Exception to the Fundamental
Constitutional Guarantee of One Person,
One Vote

Since its decision issued in Ball v. James, 451
U.S. 355 (1981), this Court has not taken up a case
applying the Salyer-Ball exception to a special
purpose unit of government. In the intervening years,

14
the various circuit courts of appeals have been left to
develop the contours of the exception through
application. The result is an inconsistent body of
caselaw, reaching opposite conclusions based on
substantially similar facts, that fails to provide clear
guidance to the lawmakers seeking to design electoral
schemes and the lower courts seeking to evaluate
their constitutionality. The decision of the Fifth
Circuit Court of Appeals further exacerbates this
confusion by definitively holding that the Salyer-Ball
exception can be appropriately applied in an openfranchise popular election–in contravention of
established Supreme Court precedent interpreting
the Equal Protection Clause. A decision by this Court
is therefore necessary to clarify the circumstances
under which the one-person, one-vote mandate of the
Fourteenth Amendment may yield.
a.

This Court’s Precedent Plainly
Counsels Against Applying the
Salyer-Ball Exception in an OpenFranchise Representative Election,
but Clarification from this Court
Would Resolve Tensions Between
Circuit Rulings

Unlike the Fifth Circuit, this Court has
directed that a jurisdiction that grants the right to
vote to all eligible voters cannot be properly exempt
from the bedrock democratic principle of one person,
one vote. Therefore, a survey of this Court’s
apportionment decisions and this Court’s language in
Hadley v. Junior College District of Metropolitan
Kansas City, Mo., 397 U.S. 50 (1970), leads to the
opposite conclusion of that reached by the court
below. A decision by this Court is necessary to rectify

15
the Fifth Circuit’s recent decision with this
longstanding body of caselaw, resolve dissonant
decisions amongst the Circuit Courts of Appeals, and
to answer this important federal question with
certainty and finality.
As early as Gray v. Sanders, this Court
explained that an equal weighting of votes in an
apportionment plan is necessary to give full effect to
the guarantees of the equal protection clause.
Invalidating Georgia’s system of electing state
legislators, which afforded more weight to the votes of
those who happened to live in a rural county, this
Court admonished:
How then can one person be given twice
or ten times the voting power of another
person in a[n] . . . election merely
because he lives in a rural area or
because he lives in the smallest rural
county? Once the geographical unit for
which a representative is to be chosen is
designated, all who participate in the
election are to have an equal vote -whatever their race, whatever their sex,
whatever their occupation, whatever
their income, and wherever their home
may be in that geographical unit. This is
required by the Equal Protection Clause
of the Fourteenth Amendment. The
concept of “we the people” under the
Constitution visualizes no preferred
class of voters but equality among those
who meet the basic qualifications.
372 U.S. 368, 380 (1963).

16
This principle was later applied to units of local
government as well in Avery v. Midland Co., 390 U.S.
474, 480 (1967) (“when the State delegates
lawmaking power to local government and provides
for the election of local officials from districts specified
by statute, ordinance, or local charter, it must insure
that those qualified to vote have the right to an
equally effective voice in the election process”). The
Avery decision acknowledged the need for local
governments to “devis[e] mechanisms of local
government suitable for local needs,” and
contemplated that the one-person, one-vote principle
may yield in certain circumstances. Id. at 485.
Specifically, the courted noted that where the local
governmental unit at issue is “a special-purpose unit
of government assigned the performance of functions
affecting definable groups of constituents more than
other constituents,” “such a body may be apportioned
in ways which give greater influence to the citizens
most affected by the organization’s functions.” Id. at
483-84. However, this Court declined to extend an
exemption to the apportionment scheme of the
Commissioners Court at issue which provided more
weight to the votes of those living in rural districts,
despite the fact that the entity disproportionately
focused its attention on rural areas. In rejecting the
applicability of its hypothetical, this Court noted: “the
relevant fact is that the powers of the Commissioners
Court include the authority to make a substantial
number of decisions that affect all citizens, whether
they reside inside or outside the city limits . . . .” Id.
In Hadley v. Junior College District of
Metropolitan Kansas City, Mo., 397 U.S. 50, 58-59
(1970), this Court reaffirmed the possible exception to
the one-person, one-vote requirement it had

17
enumerated in Avery, noting that “a State may, in
certain cases, limit the right to vote to a particular
group or class of people.” Importantly, this Court
nonetheless held that the one-person, one-vote
principle applied to the district at issue, noting:
[W]hile the office of junior college trustee
differs in certain respects from those
offices considered in prior cases, it is
exactly the same in the one crucial
factor – the[] officials are elected by
popular vote. When a court is asked to
decide whether a State is required by the
Constitution to give each qualified voter
the same power in an election open to all,
there is no discernible, valid reason why
constitutional distinctions should be
drawn on the basis of the purpose of the
election.
Id. at 54 (emphasis added). This Court went on to
state unequivocally that “once a State has decided to
use the process of popular election and ‘once the class
of voters is chosen and their qualifications specified,
we see no constitutional way by which equality of
voting power may be evaded.’” Id. at 59 (quoting Gray,
372 U.S. at 381).
In Salyer Land Co. v. Tulare Lake Basin Water
Storage Dist., 410 U.S. 719 (1973), this Court
confronted for the first time a district that fell
squarely within the exception contemplated by Avery
and Hadley – a water storage district with limited
authority, elected only by the landowners responsible
for funding the district’s operations. Id. at 728. The
electoral scheme at issue allocated votes to

18
landowners – regardless of whether they lived within
the district or were “natural persons who would be
entitled to vote in a more traditional political election”
– in proportion with the land held and thus the
economic burden incurred. Id. at 729. But in
explaining its justification for exempting the district
from the requirements of one person, one vote, this
Court made an important distinction, noting that
“California has not opened the franchise to all
residents, as Missouri had in Hadley . . ., nor to all
residents with some exceptions, as New York had in
Kramer . . . . Id. at 730. Thus, in its treatment of the
district in Salyer, and its subsequent treatment of the
district in Ball v. James, 451 U.S. 355, 357 (1981),
which also restricted the franchise to landowners, this
Court did not purport to abandon the longstanding
constitutional principle it reaffirmed in Hadley:
“whenever a state or local government decides to
select persons by popular election to perform
governmental functions, the Equal Protection Clause
of the Fourteenth Amendment requires that each
qualified voter must be given an equal opportunity to
participate in that election.” 397 U.S. at 56.
Further, this Court’s later decision in Bd. of
Estimate v. Morris, 489 U.S. 688 (1989), affirming
the Second Circuit’s rejection of the New York City
Board of Estimate apportionment scheme, strongly
supports a conclusion that the one-person, one-vote
constitutional requirement applies in any popular
election where the franchise has been opened to all.
The board in Morris consisted of three members
elected citywide, plus the elected presidents of each of
the city’s five boroughs, with no regard for the
population of each borough. Id. at 690 & n.2. Just as
with the EAA, the intent of the structure was to give

19
equal voice to each of the boroughs, “accomodat[ing]
natural and political boundaries as well as local
interests.” Id. at 702. And just as with the EAA, the
result of this structure was an egregious total
population deviation – 78% or 132.9% between the
borough districts, depending upon the metric used. Id.
at 691, 701-02. To be sure, as the Fifth Circuit noted
below, App. 14a, this Court held that – despite its
inability to levy taxes – the board’s powers were
“‘general enough and ha[d] sufficient impact
throughout the district’ to require that elections to the
body comply with equal protection strictures.” Morris,
489 U.S. at 696 (quoting Hadley, 397 U.S. at 54). But
this Court, in affirming the Second Circuit, also
placed significant emphasis on the fact that the board
members were selected through open-franchise
popular election. The Second Circuit concluded that
“[b]ecause all eight officials on the board ultimately
are selected by popular vote, . . . the board’s selection
process must comply with the so called ‘one-person,
one-vote’ requirement of the reapportionment cases.”
Id.at 691. Similarly, this Court affirmed, “[t]hat the
members of New York City’s Board of Estimate
trigger this constitutional safeguard is certain. All
eight officials become members as a matter of law
upon their various elections,” and “are elected by
votes of the entire city electorate.” Id. at 694. While
the Fifth Circuit below contends that “the Court
performed the same analysis in Salyer and Ball,” App.
14a, in fact neither the Second Circuit Court of
Appeals nor this Court made any mention of either
Salyer or Ball in their analysis. It stands to reason
that this Court declined to do so because those cases,
which dealt with restricted-franchise election

20
schemes, are inapplicable to an election scheme that
opens the franchise to all eligible voters.3
b.

The Fifth Circuit’s Overbroad
Application of the Salyer-Ball
Exception Adds to an Inconsistent
Body of Lower-Court Caselaw that
Requires this Court’s Intervention

In attempting to justify its unprecedented
extension of the Salyer-Ball exception to the openfranchise popular election at issue, the Fifth Circuit
below relied on decisions from sister circuits that
purportedly reach the same conclusion. However, an
examination of these cases demonstrates that they
provide no such clear-cut justification. Further, other
federal court decisions are irreconcilably inconsistent
with the Fifth Circuit’s conclusion that the SalyerBall exception obviates the EAA’s need to comply with
the one-person, one-vote requirement – either by
demonstrating that the exception should not have
applied in the first instance, or by demonstrating that
the purported justifications for the EAA’s electoral
scheme cannot pass constitutional muster under even
the most lenient standards. The uncertainty created
by this body of federal caselaw can only be rectified by
a decision of this Court.
The Fifth Circuit below looked to decisions by
the Seventh and Second Circuit Courts of Appeals to
support its holding that “the exception may apply to a
It is also worth noting that this Court rejected as illegitimate
the City of New York’s justifications for the election scheme
grounded in local interests and the city’s history, citing
Reynolds, 377 U.S. at 579-580, for the proposition that
“[c]itizens, not history or economic interests, cast votes.” Morris,
489 U.S. at 703 n.10.

3

21
popular election of a local body of government.” App.
14a. However, neither circuit presents a case
analogous to the one at hand, where an election
scheme requires the election of representatives from
districts and affords the franchise to all eligible
voters, and as such fail to provide support for the Fifth
Circuit’s broad application of Salyer and Ball. The
first such case relied on by the Fifth Circuit below is
Pittman v. Chicago Bd. of Educ., 64 F.3d 1098 (7th
Cir. 1995), in which, by the Fifth Circuit’s telling “the
court ruled that the elections of ‘local and specialized’
school councils in Chicago were not subject to the ‘one
person, one vote’ requirement.” App. 14a. This is an
oversimplification of the issue presented in Pittman,
which is distinguishable in important respects. The
district in Pittman was not apportioned into smaller
electoral districts, but rather all residents of the
district voted for all elected representatives at-large.
64 F.3d at 1100. The non-parent resident plaintiffs in
Pittman contended that their right to vote was
“bobtailed” by a requirement that six of the elected
members be parents of children attending the school
and that only two of the members were permitted to
be non-parent residents – despite having an equal
opportunity to vote for all parent and non-parent
members.
Thus, the electoral scheme at issue in Pittman
allowed for equality of voting strength, and did not
implicate the one-person, one-vote principle in a
traditional sense, but rather required a novel
interpretation of the one-person, one-vote principle to
a restriction on candidacy. Pittman therefore fails to
provide a supporting example for the Fifth Circuit’s
holding that an electoral scheme that provides for

22
grossly unequal voting strength in an election open to
all can ever pass constitutional muster.
The Second Circuit cases cited by the court
below are similarly unhelpful for illuminating the
correct standard in the situation and hand. The Fifth
Circuit perplexingly relied on Education/Instruccion,
Inc. v. Moore, 503 F.2d 1187 (2d Cir. 1974) to support
its position; however, the government body in that
case was not elected in an open-franchise popular
election. In fact, in concluding that the one-person,
one-vote principle did not apply, the Second Circuit
principally noted that “the statute in question does
not provide for elective bodies,” and further found
that “at least some members of the council d[id] not
automatically become council members by virtue of
their election to office in their respective towns,” but
rather were appointed by local government bodies.
Education/Instruccion, Inc., therefore, stands for the
non-controversial inverse of the Fifth Circuit’s
position: that the principle of one person, one vote
does not apply to bodies with representatives who are
not elected by popular vote. The court below similarly
cited to Baker v. Reg’l High Sch. Dist. No. 5, 520 F.2d
799, 801-03 (2d Cir. 1975) as evidence that the SalyerBall “special-purpose exception” framework is
appropriately applied in the context of an openfranchise, popular election, claiming that it was
through this framework that the court found “that the
boards engaged in ‘broad . . . governmental activity.”
App. 15a n.10. But the Second Circuit did not apply
the “special-purpose exception” to the regional school
boards at issue in Baker. Far from supporting the
Fifth Circuit’s holding, the Baker decision presents an
additional conflict with the decision of the court
below. In rejecting the applicability of Salyer, the

23
Second Circuit highlighted important distinctions –
distinctions that are importantly also present
between the water district in Salyer and the EAA
here. The court stated:
The regional school boards’ impact is
general and related to all voters of the
towns as such. In Salyer, the Court was
careful to note that it was the land which
was being benefited and the landowners
only paying the costs . . . . Here we have
school districts in which those towns
which are paying the most for the
district’s support have to accept a diluted
vote in the running of the schools.
520 F.2d at 802-03. It was based on these facts –
which are clearly analogous to those before the courts
below – that the Second Circuit stated plainly that
Salyer was “simply not relevant.” See App. 24a.
(conceding that “Bexar county residents finance
almost seventy-five percent of the EAA’s operations
through the payment of aquifer management fees . . .
because they purchase water at significantly higher
rates than their rural counterparts”).
Other circuit courts of appeals have articulated
and applied readings of the Salyer-Ball exception that
plainly conflict with the Fifth Circuit’s broad
interpretation below. For example, in Hellebust v.
Brownback, the Tenth Circuit characterized the
exception as a “narrow” one, and summarized it as
follows: “the one person, one vote rule does not apply
to units of government having a narrow and limited
focus which disproportionately affects the few who are
entitled to vote.” 42 F.3d 1331, 1333 (10th Cir. 1994)

24
(emphasis added). This articulation of the exception,
which plainly requires a restricted-franchise electoral
scheme, is fundamentally at odds with the Fifth
Circuit’s holding. But setting aside the distinction
between open- and restricted-franchise election
schemes, the Hellebust decision conflicts with the
Fifth Circuit’s treatment of the EAA in other material
respects. In holding that the electorate of the Kansas
State Board of Agriculture could not be appropriately
be restricted to delegates from agricultural
organizations, the court noted that – just like the
EAA – “the Board has ‘significant’ control over the use
of water, not only by farmers and ranchers, but also
by cities, utilities, and individual non-agricultural
users,” and “agents of the Board have enforcement
authority to carry out its orders and regulations
which extend beyond the agricultural industry.” Id. at
1334. The court found unpersuasive the Board’s
argument that because it dealt exclusively with
agriculture, only agricultural interests should be
empowered to vote, noting that its “focus is not
whether some of the Board’s activities deal
exclusively with agriculture, but whether its powers
transcend that ground and materially affect residents
of Kansas who are not represented by the present
method of Board selection.” Id. Because the Tenth
Circuit answered that question in the affirmative, it
concluded that the one-person, one-vote principle
must apply.4 The Fifth Circuit below conceded that
Additionally, the Tenth Circuit’s declaration in Hellebust that
an entity’s “partial dependence on the actions of other state
entities does not restrict the range of governmental powers it
wields,” 42 F.3d at 1334, directly conflicts with the Fifth Circuit’s
conclusion that the EAA’s pollution control powers do not rise to
the level of general governmental power because they are subject
to the authority of the TCEQ. App. 18a-19a.
4

25
the residents of Bexar County feel the reach, and are
“materially affect[ed]” by the powers of the EAA, but
nonetheless saw fit to justify its decision based on who
feels the reach more. See App. 23a-24a (noting that
Bexar County landowners possess twenty-four
percent of land overlying the aquifer and that Bexar
County contains twenty one percent of the recharge
and contributing zones heavily regulated by the EAA,
but declining to apply one person, one vote because
the other regions possess more land and thus greater
portions of these regulated zones).
Similarly, the approach taken by the Fourth
Circuit Court of Appeals in Vander Linden v. Hodges,
193 F.3d 268 (4th Cir. 1999), when addressing
whether the one-person, one-vote principle applied to
South Carolina’s county legislative delegations
demonstrates a conflict with the approach taken by
the Fifth Circuit here. The court below contends that
Vander Linden does not support LULAC Petitioners’
view that the Salyer-Ball exception does not apply in
the context of an open-franchise popular elections
because of the “array” of governmental functions the
court held the delegations could exercise. App. 14a &
n.9. However, the Fifth Circuit’s focus on the number
or scope of governmental functions performed is the
exact approach that was explicitly rejected by the
Vander Linden court. See Vander Linden, 193 F.3d at
274-75 (rejecting the district court’s distinction of
Board of Estimate v. Morris on the basis that the
“delegations exercise only limited functions”). Rather,
after concluding that the delegations were in fact
elected by popular vote, the Fourth Circuit held that
the operative question was simply “do the delegations
perform governmental functions?” Id. at 275. While
the district court had erroneously discounted many

26
stipulated powers of the delegations, the Fourth
Circuit noted that even the few it did consider should
have led the district court to conclude that the oneperson, one-vote principle must apply. Specifically,
the Fourth Circuit held that the district court was in
error for failing to consider the power to make
appointments a governmental function, given that
“South Carolina law clearly regards . . . the making of
appointments[] as a governmental function.” Id.
According to Texas law, several of the powers
exercised by the EAA are considered governmental
functions. See City of White Settlement v. Super Wash,
Inc., 198 S.W.3d 770, 776 (Tex. 2006) (defining
“governmental functions generally as those that are
public in nature and performed . . . as the agent of the
state in furtherance of general law for the interest of
the public at large”). Specifically, the EAA is
authorized to engage in activities regarding the
following functions explicitly enumerated as
governmental functions under Texas law: fire
protection and control, App. 109a, health and
sanitation services, App. 108a-09a, water and sewer
service, and reservoirs and dams, App. 204a. See Tex.
Bay Cherry Hill, L.P. v. City of Fort Worth, 257
S.W.3d 379, 388 n.4 (Tex. Ct. App. 2008). In fact, the
Fifth Circuit below even conceded that the pollution
control powers of the EAA were of the type “exercised
by a general government entity.” App. 17a. Under the
Fourth Circuit’s approach in Vander Linden,
therefore, “the relative modesty” of the EAA’s powers
“in comparison to those of some other elected bodies
does not render [it] so unimportant that the one
person, one vote rule should not be applied.” 193 F.3d
at 278. Thus, the inconsistency between decisions of
the Fifth, Second and Seventh Circuits with decisions

27
from the Tenth and Fourth Circuits in Hellebust and
Vander Linden illuminate why intervention by this
Court is necessary for consistent application of federal
law by the lower courts: the operative legal analysis
in both the Tenth Circuit and the Fourth Circuit
would mandate a different result under the exact
same factual circumstances than that reached by the
Fifth Circuit below.
c.

The
Fifth
Circuit’s
Decision
Further Creates Circuit Conflict by
Approving Regional Favoritism as
an Acceptable Justification for
Population Deviations in Violation of
the One-Person, One-Vote Mandate

The conflict created and exacerbated by the
ruling below amongst federal circuit courts of appeals
is not limited to the inconsistency in the application
of the Salyer-Ball exception. The Fifth Circuit’s
conclusion that “[t]he EAA’s electoral scheme is
rationally related to the legitimate goal of protecting
the aquifer because it equitably balances the rival
interests of the agricultural, spring-flow, and urban
counties to ensure that no one region can dominate
the aquifer’s management” is also irreconcilably at
odds with the decisions of other federal courts,
including this one. See Luna v. Cty. of Kern, 291 F.
Supp. 3d 1088, 1142 (E.D. Ca. 2018); Raleigh Wake
Citizens Ass’n v. Wake Cnty. Bd. of Elections, 827 F.
3d 333, 351 (4th Cir. 2016); Larios v. Cox, 300 F. Supp.
2d 1320, 1343 (N.D. Ga. 2004). In a decision affirmed
by this Court, the Georgia Northern District Court
rejected regionalism – “favoring certain geographic
regions of a state over other regions” as a legitimate
interest that could satisfy rational basis review.

28
Larios v. Cox, 300 F. Supp. 2d 1320, 1343 (N.D. Ga.
2004). In its assessment of Georgia’s electoral
districts, which gave greater weight to the votes cast
by residents in rural counties to enhance their
political voice, the Larios court looked to this Court’s
admonition in Reynolds that “[t]he fact that an
individual lives here or there is not a legitimate
reason for overweighting or diluting the efficacy of his
vote.” 300 F. Supp. 2d at 1344-45 (quoting Reynolds,
377 U.S. at 567-68). Further, the Larios court was
counseled by this Court’s explanation in Abate v.
Mundt, followed in countless other decisions, that:
This Court has never suggested that
certain geographic areas or political
interests are entitled to disproportionate
representation. Rather, our statements
have reflected the view that the
particular circumstances and needs of a
local community as a whole may
sometimes justify departures from
strict equality. Accordingly, we have
underscored the danger of apportionment
structures that contain a built-in bias
tending to favor particular geographic
areas or political interests . . . .
Id. at 1344-45 (citing Abate v. Mundt, 403 U.S. 182,
185-86 (2004) and collecting cases). Based upon the
plainly stated precedent of this Court, the Larios
court concluded that “[a] state cannot dilute or debase
the vote of certain citizens based merely on the
fortuity of where in the state they reside any more
than it can dilute citizens’ votes based upon their race,
gender, or economic status.” 42 F.3d at 1347. Despite
this precedent, the Fifth Circuit rejected LULAC’s

29
contention that an electoral scheme that intentionally
favors or disfavors specific geographic regions cannot
satisfy rational basis review, noting that “courts have
repeatedly found that a special-purpose district
passes constitutional muster where its electoral
scheme was reasonably necessary to the formation of
the district.” App. 28a. But the court below does not
cite to a single case in which the electoral scheme that
was necessary for the district’s formation cemented in
bias by favoring “particular geographic areas or
political interests,” contrary to this Court’s warning
in Abate. 402 U.S. at 186. A decision by this Court is
necessary to clarify whether such regional favoritism
can provide a legitimate basis for an apportionment
scheme, or if, even where one person, one vote does
not apply, such a distinction violates the Equal
Protection Clause of the Constitution.
II.

The Decision of the Fifth Circuit Creates
Tension with Texas’s Own Interpretation
of the EAA as It Relates to the Property
Rights of Texans

As noted supra I.b., the Fifth Circuit’s
conclusion that the EAA “does not engage in any
general governmental activities,” App. 16a, is
fundamentally at odds with Texas’s own
interpretation of what constitutes a governmental
function. This discrepancy alone contravenes this
Court’s mandate that “a State’s highest court is the
final judicial arbiter of the meaning of state statutes.”
Gurley v. Rhoden, 421 U.S. 200, 208 (1975). But the
Fifth Circuit’s disregard of longstanding principles of
deference owed to a State’s highest court is all the
more significant when considering the way in which
the decision of the court below conflicts with the Texas

30
Supreme Court’s articulation of constitutionally
protected property rights that the EAA must balance
in carrying out its purpose. The decision below has
undermined Texas’s ability to define and defend the
property rights of its citizens, and as such, this Court
should grant the writ in order to reverse this display
of federal judicial overreach.
Under Texas law, a landowner is the absolute
owner of groundwater in place beneath his land, and
“groundwater rights are property rights subject to
constitutional protection.” Edwards Aquifer Auth. v.
Day, 369 S.W.3d 814, 832-33 (Tex. 2012); See also
Edwards Aquifer Auth. v. Bragg, 421 S.W.3d 118
(Tex. App. 2013) (“a landowner has absolute title in
severalty to the water in place beneath his land. The
only qualification of that rule of ownership is that it
must be considered in connection with the law of
capture and is subject to police regulations”). This
property right exists whether a landowner owns 100
acres in rural Uvalde County or a quarter of an acre
in suburban San Antonio. The Texas Supreme court
in Day recognized that “[u]nder the EAA, a landowner
may be deprived of all use of groundwater other than
a small amount for domestic or livestock use, merely
because he did not use water during the historic
period.” 369 S.W.3d at 841. Accordingly, such a
deprivation by the EAA may trigger the Takings
Clause, and a landowner denied a permit may be
constitutionally entitled to just compensation. Id. at
843. The Day court held that such a balance “ensures
that the problems of a limited public resource – the
water supply – are shared by the public, not foisted
onto a few.” Id. Because the EAA so heavily regulates
this property right, it is all the more critical that all
possessors of that property right be afforded an

31
equally weighted voice in how the governing body
regulates access to the groundwater.
The Fifth Circuit below recognized that all
landowners in Texas have a property interest in the
groundwater in place beneath their land. App. 23a.
However, the court concluded that because the rural
and spring counties together comprise a greater area
of land over the Aquifer, and thus “own an outsized
share of aquifer water,” the residents of these
counties can justifiably be afforded more voice in the
electoral scheme. Ibid. But an uncompensated taking
of groundwater is no more or less an infringement on
an individual landowner’s constitutionally protected
rights based on the county in which the landowner
resides. The apportionment scheme upheld by the
court below nonetheless affords a greater ability for
some Texas voters to act in preservation of their
property rights simply by virtue of the county in
which their property lies. This outcome is inconsistent
with the Texas Supreme Court’s assertion that the
burdens of maintaining a limited public resource such
as groundwater must be “shared by the public,” and a
decision from this Court is needed to protect the state
of Texas’s articulation of property rights in
groundwater from the decision below.
III.

This Case is an Ideal Vehicle to Resolve
the Question Presented

This case, unlike many of the cases relied upon
by the court below, presents a largely undisputed set
of facts and a straightforward election scheme, and
thus provides this Court with an opportunity to
provide clarity for legislative bodies and lower courts
regarding the constitutional standards applicable to

32
special purpose units of government. This case was
dispensed with at the district court level on crossmotions for summary judgment, and as such was
decided to a great extent on statutory and regulatory
language and historical transcripts that speak for
themselves. In fact, the EAA even concedes in the
instant case that its electoral districts are
malapportioned. App. 7a. And while the parties
certainly
disagree
about
the
appropriate
interpretation of state and federal law with respect to
the authorized powers of the EAA, the plain text of its
authorizing Act is beyond dispute. Thus, the
questions at issue below and now presented to this
Court are purely issues of law ripe for this Court’s
consideration.
Further, as evidenced by the Fifth Circuit’s
inability to find one, no other case analyzing the
Salyer-Ball exception has applied it to a local
jurisdiction whose district representatives are chosen
under such a straightforward and conventional openfranchise popular election framework. Local units of
government to which the Salyer-Ball exception might
apply are frequently chosen through unconventional
or hybrid electoral schemes, making them ill-suited
for resolution of the principal questions presented to
this court: whether the one-person, one-vote principle
can every appropriately yield in an open-franchise
popular election of representatives from districts, and
if so, whether justification based purely upon regional
interests can ever pass constitutional muster. See
supra I.b; see also Carlson v. Wiggins, 675 F.3d 1134,
1141 (8th Cir. 2012) (upholding under Salyer-Ball
exception an election scheme in which only members
of Iowa bar were entitled to vote for attorney members
of State Nominating commission); Kessler v. Grand

33
Cent. Dist. Mgmt. Ass’n., 158 F.3d 922 (2d Cir. 1998),
Kessler v. Grand Cent. Dist. Mgmt. Ass’n., 960 F.
Supp. 760, 766 (S.D.N.Y. 1997) (upholding under
Salyer-Ball exception an election scheme for Business
Improvement District in which franchise was
restricted to “[o]wners of record of real property,”
commercial tenants, and tenants of “dwelling units
within the district regardless of residency within
district, and denying franchise to otherwise
“interested parties” within the district”).
Moreover, now is the time for this Court to use
this ideal vehicle to provide guidance to states seeking
to create special purpose units of government and
lower courts seeking to assess the constitutional
requirements applicable to such units. Recent studies
have documented an explosive proliferation of such
forms of government, with 2,300 such units in Texas
alone. See Chance Sparks, Proliferation of Special
Districts, APA Texas Chapter, https://legistarwebproduction.s3.amazonaws.com/uploads/attachment
/pdf/45988/TxAPA_Proliferation (last visited Nov. 23,
2019); Nicholas Bauroth, Hide in Plain Sight: The
Uneven Proliferation of Special Districts Across the
United States by Size and Function, 39 Pub. Admin.
Q. 295 (2015). Because state and county governments
are increasingly relying upon this mechanism to
delegate their general governmental power, and
because this case offers the clearest presentation of
these issues, critical to ensure that local units of
government respect the constitutional rights of the
governed, this Court should grant LULAC
Petitioners’ writ.

34
CONCLUSION
For the foregoing reasons, the LULAC
Petitioners respectfully request the issuance of a writ
of certiorari to the United States Court of Appeals for
the Fifth Circuit.
Respectfully submitted,
Allison J. Riggs
Counsel of Record
Jaclyn A. Maffetore
Jeffrey Loperfido
SOUTHERN COALITION FOR
SOCIAL JUSTICE
1415 W. Hwy 54, Suite 101
Durham, North Carolina 27707
(919) 323-3909
allisonriggs@southerncoaltion.org
Luis Vera
LULAC National General Counsel
THE LAW OFFICES OF
LUIS ROBERTO VERA, JR., & ASSOCIATES
1325 Riverview Towers
111 Soledad
San Antonio, Texas 78205
Chad W. Dunn
BRAZIL & DUNN
3303 Northland Drive, Suite 205
Austin, Texas 78731

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Published Opinion of
The United States Court of Appeals
For the Fifth Circuit
entered August 28, 2019 ................................ 1a
Order of
The United States District Court
For the Western District of Texas
Re: Granting Defendants’ Motion for
Summary Judgment; Denying Plaintiffs’
Joint Motion for Partial Summary
Judgment; and Dismissing the Equal
Protection Claims Against the EAA
entered June 18, 2018 .................................. 31a
Order of
The United States District Court
For the Western District of Texas
Re: Dismissal and Final Judgment
entered July 17, 2018................................... 65a
TEX. CONST. art. XVI, § 59 ...................................... 67a
Edwards Aquifer Authority Act ............................. 72a
Expert Report of Stephen Ansolabehere
dated November 15, 2013 .......................... 216a
Supplemental Expert Report of
Stephen Ansolabehere
dated April 9, 2016..................................... 280a

1a
[ENTERED: August 28, 2019]
United States Court of Appeals
Fifth Circuit
FILED
August 28, 2019
Lyle W. Cayce
Clerk
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 18-50655
LEAGUE OF UNITED LATIN AMERICAN
CITIZENS, (LULAC); MARIA MARTINEZ; JESSE
ALANIZ, JR.; RAMIRO NAVA,
versus

Plaintiffs–Appellants,

EDWARDS AQUIFER AUTHORITY,
Defendant–Appellee,
CITY OF SAN MARCOS; CITY OF UVALDE;
UVALDE
COUNTY;
NEW
BRAUNFELS
UTILITIES, also known as NBU; GUADALUPEBLANCO RIVER AUTHORITY,
Intervenor Defendants–Appellees.
Appeal from the United States District Court for the
Western District of Texas

2a
Before HIGGINBOTHAM, SMITH, and SOUTHWICK,
Circuit Judges.
JERRY E. SMITH, Circuit Judge:
The Edwards Aquifer Authority (“EAA”) is a
conservation and reclamation district established to
regulate the groundwater of the Edwards Aquifer for
the benefit of dependent users and species. The
League of United Latin American Citizens and its
Bexar County members Maria Martinez, Jesse
Alaniz, Jr., and Ramiro Nava (collectively, “LULAC”)
sued the EAA, asserting that its electoral scheme
violated the “one person, one vote” principle of the
Equal Protection Clause of the Fourteenth
Amendment. Claiming to be a special-purpose unit of
government, the EAA countered that it was exempt
from such strictures. The district court granted
summary judgment for the EAA, finding that its
limited functions disproportionately impact those
most empowered in its elections and that its
apportionment scheme has a rational basis. We agree
and affirm.
I.
The Edwards Aquifer “is a unique underground
system of water-bearing formations.” Barshop v.
Medina Cty. Underground Water Conservation Dist.,
925 S.W.2d 618, 623 (Tex. 1996). Water enters the
aquifer as rainfall and surface water and exits
through well-withdrawals and spring discharges. Id.
As “the primary source of water for south central
Texas,” it is “vital to the residents, industry, and
ecology of the region, the State’s economy, and the
public welfare.” Edwards Aquifer Auth. v. Chem.
Lime, Ltd., 291 S.W.3d 392, 394 (Tex. 2009).

3a
During the 1980s, overdrafting of the aquifer
threatened various species that “rel[ied] upon adequate
and continuous natural flows of fresh water . . . as an
environment for their survival.” Sierra Club v. Lujan,
No. MO-91-CA-069, 1993 WL 151353, at *5 (W.D.
Tex. Feb. 1, 1993). At the time, the Edwards
Underground Water District (“EUWD”) administered
the aquifer. But it ultimately “lacked the regulatory
authority the Legislature came to believe was
essential.” Chem. Lime, 291 S.W.3d at 394.
Responding to successful litigation under the
Endangered Species Act of 1973, the Texas legislature
replaced the EUWD with the EAA in 1993, vesting it
with “broad powers ‘for the effective control of the
resource to protect terrestrial and aquatic life,
domestic and municipal water supplies, the operation
of existing industries, and the economic development
of the state.’”1
Under the Edwards Aquifer Authority Act,2 the
EAA possesses “all of the powers, rights, and
Chem. Lime, 291 S.W.3d at 394 (citation omitted); see
also Barshop, 925 S.W.2d at 624 (“The [EAA] supersedes the
[EUWD], which previously possessed limited power to govern
the aquifer.”).
1

Act of May 30, 1993, 73d Leg., R.S., ch. 626, 1993 Tex.
Gen. Laws 2350, amended by Act of May 16, 1995, 74th Leg.,
R.S., ch. 524, 1995 Tex. Gen. Laws 3280; Act of May 29, 1995,
74th Leg., R.S., ch. 261, 1995 Tex. Gen. Laws 2505; Act of May
6, 1999, 76th Leg., R.S., ch. 163, 1999 Tex. Gen. Laws 634; Act
of May 25, 2001, 77th Leg., R.S., ch. 1192, 2001 Tex. Gen. Laws
2696; Act of May 28, 2001, 77th Leg., R.S., ch. 966, §§ 2.60–2.62,
6.01–6.05, 2001 Tex. Gen. Laws 1991, 2021, 2075; Act of June 1,
2003, 78th Leg., R.S., ch. 1112, § 6.01(4), 2003 Tex. Gen. Laws
3188, 3193; Act of May 23, 2007, 80th Leg., R.S., ch. 510, 2007
Tex. Gen. Laws 900; Act of May 28, 2007, 80th Leg., R.S., ch.
1351, §§ 2.01–2.12, 2007 Tex. Gen. Laws 4612, 4627; Act of May
2

4a
privileges necessary to manage, conserve, preserve,
and protect the aquifer and to increase the recharge
of, and prevent the waste or pollution of water in, the
aquifer.” Act § 1.08(a). Those powers include the
ability to hire employees; enter contracts; issue grants
or loans for water conservation and reuse; finance,
construct, and operate dams and reservoirs; assert
the power of eminent domain; and otherwise adopt
and enforce rules necessary to execute its functions.
See id. § 1.11.
The Act prohibits the withdrawal of aquifer
water without a permit, limits the annual amount of
permitted withdrawals, “and gives preference to
‘existing user[s]’ . . . who ‘withdr[ew] and beneficially
used underground water from the aquifer on or before
June 1, 1993.’” Chem. Lime, 291 S.W.3d at 394–95
(quoting Act § 1.03(10)); see also Act §§ 1.14(c), 1.15.
An existing user who submits “a declaration of
historical use of underground water,” pays an
application fee, and “establishes by convincing
evidence beneficial use of” aquifer water is entitled to
a permit.3 Subject to the annual cap on withdrawals,
the EAA may grant “additional regular permits” after
processing existing users’ applications. Act § 1.18(a).
Currently, there are fewer than two thousand active
permit holders.
28, 2007, 80th Leg., R.S., ch. 1430, §§ 12.01–12.12, 2007 Tex.
Gen. Laws 5848, 5901; Act of May 21, 2009, 81st Leg., R.S., ch.
1080, 2009 Tex. Gen. Laws 2818; Act of May 20, 2013, 83d Leg.,
R.S., ch. 783, 2013 Tex. Gen. Laws 1998 [hereinafter the “Act”].
Id. § 1.16(b), (d). “Beneficial use” is defined broadly to
mean “the use of the amount of water that is economically
necessary for a purpose authorized by law, when reasonable
intelligence and reasonable diligence are used in applying the
water to that purpose.” Id. § 1.03(4).
3

5a
Permit holders “may not violate the terms or
conditions of the permit” or use aquifer water outside
the boundaries of the EAA. Id. §§ 1.34(a), 1.35(b).
They must meter their water usage, avoid waste, and
implement conservation plans approved by the EAA.4
During a drought, the EAA may impose “utility
pricing . . . to limit discretionary use by the customers
of water utilities” and require further “reduction of
nondiscretionary use by permitted or contractual
users.” Act § 1.26(a)(3)–(4).
The EAA has adopted rules to preserve the
quality of water in the aquifer. Specifically, the
EAA regulates the construction, operation, and
maintenance of wells that draw from the aquifer or
are drilled through it. See EAA Rules §§ 713.200–203.
The rest of its regulations, however, are limited to the
recharge5 and contributing zones,6 where pollutants
are most likely to seep into the aquifer. Within those
regions, the EAA mandates the reporting of noxious
spills and regulates facilities housing toxic substances
for commercial use. Id. §§ 713.400–401, 713.501. It
further governs the storage of hazardous substances
in large aboveground and underground storage tanks
in the recharge zone. Id. § 713.603. And it proscribes
the use of coal tar-based pavement sealant products
4 Id. §§ 1.23, 1.31(a), 1.35(c); see also EDWARDS AQUIFER
AUTHORITY, EDWARDS AQUIFER AUTHORITY RULES § 715.106
(2013) [hereinafter “EAA Rules”].

The recharge zone refers to the area where caves,
sinkholes, or other permeable features allow surface water to
enter the aquifer, risking potential pollution. See EAA Rules
§ 702.1(162).
5

The contributing zone encompasses the area “where
runoff from precipitation flows downgradient to the recharge
zone.” Id. § 702.1(52).
6

6a
in the parts of Comal and Hays Counties that overlie
the recharge and contributing zones. Id. § 713.703.
To ensure compliance with the Act and its
regulations, EAA employees “may enter private or
public property at any reasonable time,” provided
they “observe the establishment’s rules concerning
safety, internal security, and fire protection[;] . . .
notify any occupant of their presence[;] and present
proper identification.” Id. § 717.104. If a violation
has occurred, the EAA may suspend a permit, assess
an administrative penalty, or sue for an injunction or
civil penalty. Act §§ 1.36–1.38, 1.40.
The Act explicitly prohibits the EAA from
levying a property tax to finance its operations. Id.
§ 1.28(a). With the approval of the state attorney
general and the Texas Commission on Environmental
Quality (“TCEQ”), however, the EAA may issue
revenue bonds for the purchase of land or necessary
equipment. Id. § 1.28(b)–(c). Moreover, it may “assess
equitable aquifer management fees based on aquifer
use.” Id. § 1.29(b). Alternatively, other water
districts located within its boundaries may contract
with the EAA to pay its expenses through taxes
collected from water users in those districts. Id. But
in any case, the EAA may not charge “more than is
reasonably necessary for [its] administration.” Id.
The EAA’s jurisdiction covers eight counties
representing three distinct regions: (1) the western
agricultural counties of Atascosa, Medina, and
Uvalde, where approximately 117,000 persons dwell;
(2) the eastern spring-flow counties of Caldwell,
Comal, Guadalupe, and Hays, where roughly 435,000
people live; and (3) the urban county of Bexar, which
has over 1.7 million residents. Initially, the Act

7a
provided that each region would appoint three
members to the EAA board of directors. See Act of
May 30, 1993, 73d Leg., R.S., ch. 626, § 1.09, 1993 Tex.
Gen. Laws 2350, 2356–57. But the Department of
Justice (“DOJ”) denied preclearance under § 5 of the
Voting Rights Act of 1965 “due to the appointment
method of selecting the board of directors.” Barshop,
925 S.W.2d at 625. In consultation with the DOJ, the
Texas legislature amended the Act in 1995 to
establish a board of directors comprised of fifteen
popularly elected members and two appointed nonvoting members. Act § 1.09. Under the current
scheme, the agricultural and spring-flow counties
elect four directors each, whereas Bexar County elects
seven directors. Id. § 1.093.
II.
LULAC sued the EAA in 2012, claiming, inter
alia, that its electoral system contravened the
principle of “one person, one vote.” Conceding that its
electoral districts were malapportioned, the EAA
rejoined that, as a special-purpose district, it was
exempt from the “one person, one vote” requirement.
The San Antonio Water System filed a complaint as
plaintiff-intervenor, and the City of San Marcos, the
City of Uvalde, Uvalde County, New Braunfels
Utilities, and the Guadalupe-Blanco River Authority
intervened as defendants. Both sides moved for
summary judgment.
The district court denied LULAC’s motion and
granted summary judgment for the EAA, noting that
its “power and authority [wa]s limited to carrying out
its narrowly defined statutory purposes to manage,
protect, preserve, and conserve the water in the
aquifer.” Given that the per capita usage of aquifer

8a
water was significantly higher in the agricultural and
spring-flow counties than in Bexar County, the court
explained that the EAA’s activities disproportionately
affected those most advantaged in its elections. It
therefore held that, under Salyer Land Co. v. Tulare
Lake Basin Water Storage District, 410 U.S. 719
(1973), and Ball v. James, 451 U.S. 355 (1981), the
EAA is not subject to the strictures of “one person, one
vote.” Additionally, the court concluded that the
apportionment scheme was rationally related to the
EAA’s statutory goals in balancing the competing
interests of the three regions. LULAC appeals.
III.
At the heart of democratic society is “[t]he right
to vote freely for the candidate of one’s choice.”
Reynolds v. Sims, 377 U.S. 533, 555 (1964). That
right, however, “can be denied by a debasement or
dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise
of the franchise.” Id. “[A]s a basic constitutional
standard,” legislative districts must “be apportioned
on a population basis.” Id. at 568; see also Wesberry v.
Sanders, 376 U.S. 1, 8–9 (1964).
In Avery v. Midland County, 390 U.S. 474
(1968), the Court extended the principle of “one
person, one vote” to the elections of local government
officials. That case concerned the Midland County
Commissioners Court, which possessed the authority
to appoint minor officials; enter contracts; issue
bonds; set the county tax rate; adopt a county budget;
conduct elections; administer public welfare services;
establish a public housing authority; fix school
district boundaries; and construct and operate a
courthouse, jail, hospital, airport, libraries, bridges,

9a
and roads. Id. at 476–77. Though recognizing that
the Constitution is “not [a] roadblock[] in the path of
innovation, experiment, and development among
units of local government,” the Court held that
“units with general governmental powers over an
entire geographic area [may] not be apportioned
among single-member districts of substantially
unequal population.” Id. at 485–86. Because the
Commissioners Court possessed “the authority to
make a substantial number of decisions that affect all
citizens,” the Court determined that its elections
must comply with the “one person, one vote”
requirement. Id. at 484. Nevertheless, the Court
surmised the outcome might be different “[w]ere the
Commissioners Court a special-purpose unit of
government assigned the performance of functions
affecting definable groups of constituents more than
other constituents.” Id. at 483–84.
The Court reached a similar conclusion in
Hadley v. Junior College District, 397 U.S. 50 (1970).
There, the plaintiffs claimed they had been denied an
equal right to vote for junior college trustees, who
were authorized to make employment decisions, form
contracts, issue bonds, levy taxes and fees, supervise
and discipline students, review petitions to annex
school districts, condemn private property, “and in
general manage the operations of the junior college.”
Id. at 53. The Court agreed. Although those
powers were “not fully as broad as those of the”
Commissioners Court, “the trustees perform[ed]
important governmental functions” that were
“general enough and ha[d] sufficient impact” to
trigger the principle of “one person, one vote.” Id. at
53–54. Yet once again, the Court acknowledged the
possibility “that there might be some case in which a

10a
State elects certain functionaries whose duties are so
far removed from normal governmental activities and
so disproportionately affect different groups that a
popular election in compliance with Reynolds . . .
might not be required.” Id. at 56.
Such a case arose in Salyer. At issue was the
Tulare Lake Basin Water Storage District, which
covered 193,000 acres of California farmland and
contained only seventy-seven residents. Salyer, 410
U.S. at 723. Though “vested with some typical
governmental powers”—including the ability to hire
and fire employees, make contracts, issue bonds,
condemn property, and cooperate with other agencies—
the Tulare District “ha[d] relatively limited authority.”
Id. at 728 & n.7. “Its primary purpose, indeed the
reason for its existence, [wa]s to provide for the
acquisition, storage, and distribution of water for
farming in the Tulare Lake Basin.” Id. at 728. Notably,
the district “provide[d] no other general public
services such as schools, housing, transportation,
utilities, roads, or anything else of the type ordinarily
financed by a municipal body.” Id. at 728–29.
Equally importantly, “its actions disproportionately affect[ed] landowners.” Id. at 729. The
entire cost of its operations was assessed against the
land in proportion to the benefits received, and any
delinquent payments became a lien on the land itself.
Id. “In short, there [wa]s no way that the economic
burdens of district operations c[ould] fall on residents
qua residents . . . .” Id. Consequently, the Court held
that the district was not subject to the strict
requirements of Reynolds. Id. at 728. Instead, the
Court found a rational basis for permitting only
landowners to vote in the district’s elections and for

11a
apportioning such votes according to the assessed
valuation of the land.7
In Ball, 451 U.S. at 357, the Court confronted
another water reclamation district that restricted the
franchise to landowners and apportioned voting
power based on the amount of land a voter owned.
Unlike the relatively small Tulare District, however,
the Salt River Project Agricultural Improvement and
Power District covered nearly half the population of
Arizona. Id. at 365. And whereas the operating costs
of the Tulare District were assessed against the land,
the Salt River District funded its activities through
the sale of electric power and had become one of the
largest electric providers in the state. Id. at 365–66.
But those “distinctions d[id] not amount to a
constitutional difference.” Id. at 366.
After all, the Salt River District could not
impose ad valorem property or sales taxes; enact laws
governing the conduct of citizens; maintain streets or
schools; or provide sanitation, health, or welfare
services. Id. Furthermore, the district’s water
functions were “relatively narrow” because it “d[id]
not own, sell, or buy water, nor d[id] [it] control the
use of any water” once distributed. Id. at 367. Rather,
it “simply store[d] water behind its dams, conserve[d]
it from loss, and deliver[ed] it through project canals.”
Id. Moreover, “neither the existence nor size of the
District’s power business” was “constitutionally
relevant” because “the provision of electricity is not a
traditional element of governmental sovereignty”
Salyer, 410 U.S. at 730–31, 33–34. On the same day
the Court decided Salyer, it upheld a similar scheme in
Associated Enterprises, Inc. v. Toltec Watershed Improvement
District, 410 U.S. 743 (1973) (per curiam).
7

12a
and, in any event, was “incidental” to the district’s
primary purpose of conserving and delivering water.
Id. at 367–68.
As in Salyer, the Court also found that the Salt
River District disproportionately affected “the specific
class of people whom the system ma[de] eligible to
vote.” Id. at 370. Only landowners committed capital
to the district, and only they were subject to liens and
acreage-based taxes. Id. Hence, the Court upheld the
district’s voting scheme “because it [bore] a
reasonable relationship to its statutory objectives.”
Id. at 371.
The EAA does not contest that its electoral
scheme dilutes the voting power of Bexar County
residents. Instead, the parties dispute whether the
Salyer-Ball exception extends to an electoral scheme
that enfranchises all voters and, if so, whether the
EAA satisfies the two prongs of the exception.
A.
LULAC maintains that the exception is limited
to cases such as Salyer and Ball in which the
franchise is restricted. LULAC reasons that where,
as here, the franchise is open to all, LULAC contends
that the electoral scheme must conform to the
fundamental principle of “one person, one vote.” To
hold otherwise, LULAC insists, would be to invert the
narrow exception for the general rule.
Nevertheless, both Avery and Hadley
contemplated that the exception could apply to an
election open to all. Although Avery, 390 U.S. at 483–
84, involved an open-franchise election, the Court
observed that if the Commissioners Court were a
special-purpose district, it “would have to confront the

13a
question whether such a body may be apportioned in
ways which give greater influence to the citizens most
affected by the organization’s functions.” Similarly,
in Hadley, 397 U.S. at 56, the Court remarked “that a
popular election in compliance with Reynolds . . .
might not be required” for officials “whose duties are
so far removed from normal governmental activities
and so disproportionately affect different groups.”
(Emphasis added.)
Relatedly, in Town of Lockport v. Citizens for
Community Action at the Local Level, Inc., 430 U.S.
259, 261–62 (1977), the Court upheld an electoral
scheme for adopting a charter form of county
government that enfranchised all voters but weighted
the votes from city and county dwellers differently. In
doing so, the Court analogized to Salyer and
determined that the interests of city and county
residents were sufficiently different to justify the
disparity in voting strength. Id. at 266–69. Although
Lockport is not directly on point,8 it suggests that the
exception enunciated in Salyer and Ball may apply to
a general election.
LULAC rejoins that, in Board of Estimate v.
Morris, 489 U.S. 688 (1989), the Court “did not
Two features distinguished Lockport from Salyer.
First, unlike the Tulare District in Salyer, the county
government in Lockport, 430 U.S. at 260, possessed “general
government powers.” Second, whereas Salyer concerned the
election of a board of directors, Lockport involved “a ‘single-shot’
referendum” in which “the expression of voter will [wa]s direct,
and there [wa]s no need to assure that the voters’ views w[ould]
be adequately represented through their representatives in the
legislature.” Id. at 266. Hence, though Salyer was instructive,
the Court explained that it “d[id] not resolve the issues in
[Lockport].” Id. at 268.
8

14a
purport to examine whether” the Salyer-Ball
exception applied “most logically because . . . the
franchise [there] was unrestricted.” But that is a
complete mischaracterization of Morris. In holding
that elections to the Board of Estimate of the City of
New York must comport with the “one person, one
vote” requirement, the Court never implied that the
exception is relevant only in a limited-franchise
context. Instead, the Court performed the same
analysis in Salyer and Ball to determine that the
board was an entity of general governmental power.
Indeed, the Court emphasized that the board
exercised “a significant range of functions common to
municipal governments,” including the authority to
calculate property taxes, approve the city budget, and
manage land use. Id. at 694–95. Such “‘powers [we]re
general enough and ha[d] sufficient impact
throughout the district’ to require that elections to the
body comply with equal protection strictures.” Id. at
696 (quoting Hadley, 397 U.S. at 54). Far from
supporting LULAC’s strained view of Salyer and Ball,
Morris thus indicates that the exception may apply to
a popular election of a local body of government.9
At least two circuits have so held. In Pittman
v. Chicago Board of Education, 64 F.3d 1098, 1101–
03 (7th Cir. 1995), the court ruled that the elections
of “local and specialized” school councils in Chicago
were not subject to the “one person, one vote”
requirement.
Importantly, the electoral scheme
at issue granted the franchise to “all adult
LULAC likewise misreads Vander Linden v. Hodges,
193 F.3d 268 (4th Cir. 1999). That court concluded that South
Carolina’s county legislative delegations fell “within the scope of
the one person, one vote mandate,” given their array of “fiscal,
regulatory, and appointive functions.” Id. at 277–78.
9

15a
residents of the school’s district,” as well as to “all
parents whether or not residents.”10 Similarly, in
Education/Instruccion, Inc. v. Moore, 503 F.2d 1187,
1188 (2d Cir. 1974) (per curiam), the court upheld a
state statute establishing regional councils of
government comprised of the chief elected official
from each town. As the court explained, the councils
mainly performed advisory and investigative tasks
and thus “d[id] not have even the minimal
governmental powers found insufficient to invoke the
one man, one vote principle in . . . Salyer.” Id. at 1189.
We therefore decline LULAC’s invitation to
cabin the Salyer-Ball exception to cases in which the
franchise is restricted. LULAC claims that “[t]o read
this exception any more broadly [would] divorce the
rule from the unique factual moorings of Salyer and
Ball” and would permit the rare exception to swallow
the general requirement of “one person, one vote.” But
notably, the Court in those cases upheld an electoral
system that not only weighted votes differently, but
also denied the franchise entirely to certain voters. In
contrast, all voters may participate in elections to the
EAA board of directors, albeit with unequal voting
power. Consequently, this case represents a narrower
departure from the principle of “one person, one vote”
than in Salyer or Ball.
B.
Under the Salyer-Ball framework, we must
first consider whether the EAA serves a “special
Pittman, 64 F.3d at 1100. Cf. Baker v. Reg’l High Sch.
Dist. No. 5, 520 F.2d 799, 801–03 (2d Cir. 1975) (applying the
special-purpose exception to the popular elections of regional
school boards but ultimately finding that the boards engaged in
“broad . . . governmental activity”).
10

16a
limited purpose.” Salyer, 410 U.S. at 728. Much like
the water storage districts in those cases, the EAA
exercises “some typical governmental powers.” Id. at
728 & n.7; see also Ball, 451 U.S. at 366 n.11. For
example, it may hire employees; enter contracts;
administer grants or loans for water conservation and
reuse; issue revenue bonds for the purchase of land or
necessary equipment; design and operate dams and
reservoirs; and condemn private property. See Act
§§ 1.11, 1.28(b). Yet the EAA does not engage in any
general governmental activities. It cannot levy ad
valorem property or sales taxes or oversee such public
functions as schools, housing, zoning, transportation,
roads, or health and welfare services. See Morris, 489
U.S. at 694–96; Ball, 451 U.S. at 366; Salyer, 410 U.S.
at 728–29. Rather, its powers are expressly tailored
to protecting the quantity and quality of groundwater
in the Edwards Aquifer and do not extend to any
surface water or other aquifers located within its
jurisdiction.11
As LULAC concedes, the EAA largely
accomplishes its statutory purposes by regulating
fewer than two thousand permit holders. LULAC
avers that, in issuing permits and imposing
conditions thereon, the EAA not only “decid[es] who
can access the groundwater” in the first instance, but
also controls the use of the water once withdrawn. But
contrary to LULAC’s depiction, the EAA’s discretion
to grant a permit is quite limited. The Act itself caps
the total amount of permitted withdrawals each year.
Act § 1.14(c). Additionally, the Act “entitle[s]” an
See Act § 1.08(b) (“The [EAA’s] powers . . . apply only
to underground water within or withdrawn from the aquifer.
This subsection is not intended to allow the [EAA] to regulate
surface water.”).
11

17a
existing user to a permit upon filing a declaration of
historical use, paying an application fee, and
establishing a beneficial use for the water.12
Similar to the district in Ball, 451 U.S. at 367,
the EAA “do[es] not own, sell, or buy water.” Rather,
Texas landowners possess the groundwater in place
beneath their property. Edwards Aquifer Auth. v.
Day, 369 S.W.3d 814, 838 (Tex. 2012). Although the
EAA may place certain conditions on permit holders,
it does so only as necessary to fulfill its legislative
mandate to conserve aquifer water. For instance, the
EAA requires permit holders to meter their water
usage, avoid waste, implement conservation plans,
and use aquifer water within the boundaries of the
EAA. Act §§ 1.23, 1.31(a), 1.34(a), 1.35(c). It also
proscribes landscape watering during daytime hours
except “with a hand-held hose or a soaker hose.” EAA
Rules § 715.126. And during a drought, the EAA may
require permit holders to adopt utility pricing and to
reduce even nondiscretionary uses of aquifer water.
Act § 1.26(a)(3), (4). Such measures reasonably
prohibit wasteful applications of a precious resource.
But by no means does the EAA affirmatively mandate
“the use to which the landowners who are entitled to
the water choose to put it.” See Ball, 451 U.S. at 367–
68.
The EAA’s obligation to prevent the pollution
of the aquifer, however, is more characteristic of the
powers exercised by a general governmental entity.13
See Chem. Lime, 291 S.W.3d at 395; see also Act
§ 1.16(d) (providing that the EAA “shall grant a[] . . . permit” if
those conditions are met (emphasis added)).
12

See Ball, 451 U.S. at 366 (observing that the Salt River
District did not oversee any sanitation services).
13

18a
LULAC maintains that the EAA serves broad and
significant purposes in protecting the health and
sanitation of the region and in governing a natural
resource “vital to the general economy and welfare of
the State of Texas.” See Barshop, 925 S.W.2d at 623.
LULAC further contends that the EAA wields
“expansive police powers” to “regulate every person in
its jurisdiction directly” by conducting compliance
investigations and initiating civil suits to enforce the
Act.
That theory is unavailing. In Ball, 451 U.S. at
367–69 & n.12, the plaintiffs urged that the Salt River
District’s power operations and its authority over
flood control “affect[ed] all residents within District
boundaries and therefore represent[ed] the sort of
important governmental function[s] that invoke[] the
Reynolds one-person, one-vote doctrine.” The Court
disagreed. Because those functions “were stipulated
to be incidental” to the district’s “primary legislative
purpose . . . to store, conserve, and deliver water,” id.
at 368–69, they did not “transform the District into an
entity of general governmental power,” id. at 370.
Plainly put, “[n]othing in the Avery, Hadley, or Salyer
cases suggests that . . . the breadth of economic effect
of a venture undertaken by a government entity as an
incident of its narrow and primary governmental
public function can, of its own weight, subject the
entity to the one-person, one-vote requirements.” Id.
at 370.
As in Ball, the parties agree that the EAA’s
main function is to preserve the quantity of aquifer
water by regulating permit holders. What’s more, the
EAA’s powers are secondary to the plenary
environmental authority of the TCEQ and subject to

19a
its supervision.14 Hence, the EAA’s regulation of
pollutants does not render it a general governmental
body because such conduct is incidental to its primary
task of administering the permit process.
Indeed, aside from the construction and
operation of aquifer wells, the EAA’s regulation of
water quality is confined to the recharge and
contributing zones, which present the highest risk of
water contamination. Within those specific zones, the
EAA requires the reporting of toxic spills, EAA Rules
§ 713.401; prohibits the use of coal tar-based
pavement sealant products, id. § 713.703; and
regulates the storage of hazardous substances for
commercial purposes, id. § 713.501, or in large
aboveground and underground storage tanks, id.
§ 713.603. Such functions, however, are hardly
“general enough [or] have sufficient impact
throughout” the jurisdiction to warrant the strictures
of “one person, one vote.” Hadley, 397 U.S. at 54.
That the EAA may conduct inspections and bring suit
to enforce its regulations does not change the
analysis. See Act §§ 1.37–1.38, 1.40; EAA Rules
§ 717.104. As the district court rightly noted, “[i]t
would have been meaningless for the Legislature to
create the EAA without giving it the tools it needs to
carry out its duties and responsibilities.”
The holding in Kessler v. Grand Central
District Management Association, Inc., 158 F.3d 92
See TEX. WATER CODE ANN. § 5.013(a) (granting the
TCEQ “general jurisdiction” over the issuance of water rights
permits and pollution regulations, as well as “continuing
supervision” over conservation districts—such as the EAA—that
were created under article XVI, section 59 of the Texas
Constitution).
14

20a
(2d Cir. 1998), is thus instructive. Kessler involved the
Grand Central Business Improvement District, which
existed for the “limited purpose” of “promot[ing]
business activity in the district.” Id. at 94, 104. Its
management association lacked the power to impose
income or sales taxes, much less “to enact or enforce
any laws governing the conduct of persons present in
the district.” Id. at 104. Though it performed some
traditional governmental functions “in the area of
security, sanitation, and social services,” the court
held that the district’s manager was not subject to the
“one person, one vote” requirement. Id. at 105. As the
court reasoned, the manager’s “responsibility for
these functions [wa]s at most secondary to that of
[New York] City,” and its “activities in these areas
[we]re quantitatively dwarfed by those of the City.”
Id.
For example, “while the [management
association] contribute[d] to the funding of a single
outreach facility for homeless persons, the City ha[d]
an entire [d]epartment devoted to assisting the
homeless.” Id. In much the same way, the EAA’s
conduct in regulating aquifer pollutants is limited
and subservient to the general authority of the TCEQ.
Finally, LULAC complains that the EAA can
“raise billions in revenue” through aquifer
management fees, utility pricing regulation, and civil
penalties. Although those “powers are not statutorily
labeled as” a tax, LULAC posits that “the lack of any
such label is legally insignificant.” Invoking National
Federation of Independent Business v. Sebelius, 567
U.S. 519, 564 (2012) [hereinafter NFIB], LULAC
insists that the EAA’s statutory powers share “the
essential feature of any tax” in that they “produce[] at
least some revenue for the Government.”

21a
That reasoning stretches NFIB to its breaking
point. There, the Court held that the individual
mandate of the Patient Protection and Affordable
Care Act of 2010 was functionally a tax despite its
statutory label as a “penalty.” See NFIB, 567 U.S. at
564, 574. In doing so, the Court noted that the
“requirement to pay [wa]s found in the Internal
Revenue Code and enforced by the IRS, which . . .
must assess and collect it in the same manner as
taxes.”15 The individual mandate did not impose a
“prohibitory” financial burden, nor was the IRS
permitted to collect payment by “means most
suggestive of a punitive sanction, such as criminal
prosecution.” Id. at 566 (citation omitted). Because
the refusal to buy health insurance incurred no other
legal consequences, the Court thus concluded that
“the individual mandate . . . need not be read” as a
penalty. Id. at 567–68.
Conversely, aquifer management fees are not
calculated or collected in the same way as is an
income tax. Instead, such fees are “based on aquifer
use” and may not exceed what “is reasonably
necessary for the administration of the [EAA].” Act
§ 1.29(b). Although other water districts located
within its boundaries may contract with the EAA to
pay expenses “through taxes in lieu of user fees,” id.,
the EAA itself lacks the ability to tax, id. § 1.28(a).
The same is true of its utility pricing regulation.
Though the EAA may require water utilities to
NFIB., 567 U.S. at 563–64 (internal quotation marks
and citation omitted) (noting that the shared responsibility
payment “d[id] not apply to individuals who d[id] not pay federal
income taxes” and, for those who owed the payment, “its amount
[wa]s determined by such familiar factors as taxable income,
number of dependents, and joint filing status”).
15

22a
increase their pricing to limit discretionary use by
their customers, it cannot collect higher fees directly
from water users. See id. § 1.26(a)(3). And in any
event, the EAA may engage in utility pricing
regulation only during “critical period[s]” of drought.
Id. § 1.26(a).
Additionally, should a violation of the Act
occur, the EAA can suspend a permit, assess an
administrative penalty, or sue for an injunction or
civil penalty of up to $10,000 per day of a continuing
infraction. See id. §§ 1.36–1.38, 1.40. Unlike the
individual mandate, those measures “attach[]
negative” and “prohibitory” legal consequences to
wrongful conduct and are explicitly designed to deter
violations of Texas law. See NFIB, 567 U.S. at 566,
568 (citation omitted). Hence, the EAA has no taxing
power or the functional equivalent thereof. Rather,
its authority is circumscribed to attain its narrowly
defined purpose to conserve aquifer water.
C.
We next ask whether the EAA’s activities
disproportionately impact the western agricultural
and eastern spring-flow counties, whose residents are
most empowered by its elections. See Ball, 451 U.S.
at 370; Salyer, 410 U.S. at 728. The EAA’s functions
have a lopsided effect on those regions for at least four
reasons.
First, per capita usage is significantly higher in
those counties than in urban Bexar County. Between
1992 and 1994—just before the adoption of the EAA’s
current electoral scheme—the average user in the
western counties pumped three to eight times more
water than did the average user in Bexar County.

23a
Similarly, the average user in the eastern counties
consumed twice as much as did the average user in
Bexar County. Aquifer usage has remained constant
over the years. Between 2010 and 2012, the western
counties had a per capita usage that was roughly six
to twelve times that of Bexar County, whereas the
eastern counties averaged two times the per capita
usage of Bexar County. Such disparate usage shows
that residents of the agricultural and spring-flow
counties are more dependent upon the aquifer and
thus are disproportionately affected by the EAA’s
regulation thereof.
Second, under Texas law, landowners enjoy “a
constitutionally compensable interest in groundwater.”
Day, 369 S.W.3d at 838. Notably, property owners in
the agricultural and spring-flow counties collectively
possess seventy-six percent of the land overlying the
Edwards Aquifer. Consequently, they own an
outsized share of aquifer water and are
disproportionately impacted by the EAA’s efforts to
manage it.
Third, the EAA’s regulation of water quality
has little bearing on residents of Bexar County. Its
rules relating to toxic spills and facilities storing large
volumes of hazardous materials apply solely to the
recharge and contributing zones. See EAA Rules
§§ 713.401, 713.501. Yet only twenty-one percent
of those regions fall within Bexar County. The
EAA further regulates large aboveground and
underground storage tanks in the recharge zone. Id.
§ 713.603. But only ten percent of that zone intersects
Bexar County. Likewise, the ban on coal tar-based
pavement sealant products applies exclusively in
Comal and Hays Counties. Id. § 713.703. Hence,

24a
residents of the western and eastern counties
disproportionately feel the weight of the EAA’s
regulatory power.
Fourth, one of the EAA’s central purposes—
and, indeed, the impetus for its creation—was
the protection of endangered species.
See Act
§ 1.14(a)(6)–(7). A disproportionate number of those
species, however, reside in the eastern counties.
Because that region lies downstream from the
western and Bexar counties, resident human and
animal populations are directly and adversely
affected by reduced spring flow. The eastern counties
and the wildlife they contain therefore rely most on
the EAA’s conservation efforts.
In response, LULAC highlights that Bexar
County residents finance almost seventy-five percent
of the EAA’s operations through the payment of
aquifer management fees. That is so largely because
they purchase water at significantly higher rates than
their rural counterparts. Whereas the statute caps
fees at $2 per acre-foot of water actually withdrawn
for agricultural use, municipal and industrial users
pay $84 per acre-foot of water authorized to be
pumped. See id. § 1.29(e). LULAC thus maintains
that Bexar County residents, “who have the least
voting power within the EAA, are disproportionately
burdened by the fees used to support it.” According to
LULAC, that “inverse relationship of burden and
voting strength is the exact opposite of what” occurred
in Salyer and Ball, where “the groups that were
electorally advantaged . . . [also] bore the burden and
reaped the benefit” of the districts’ operations.
Yet LULAC overlooks that the burden of those
costs does not fall directly on Bexar County residents.

25a
Instead, aquifer management fees are assessed to the
San Antonio Water System which, as the permit
holder, chooses to draw water from the aquifer and to
pass on such expenses to the citizens of Bexar County.
Such indirect effects are insufficient to subject the
EAA to the “one person, one vote” requirement where
residents in the eastern and western counties are
directly and disproportionately impacted by its
activities. The advantaged class of voters for a
special-purpose district need not “be the only parties
at all affected by the operations of the entity,” nor
must “their entire economic well-being . . . depend on
that entity.” Ball, 451 U.S. at 371. Instead, what
matters is that “the effect of the entity’s operations on
them [i]s disproportionately greater than the effect on
those” with diminished voting power. Id. Such is the
case here.
LULAC yet emphasizes that the Act requires
water utilities to raise their prices to limit
discretionary use during a drought. See Act
§ 1.26(a)(3). LULAC therefore maintains that the
passing along of operation costs from municipal
permit holders to their customers is “not incidental or
indirect” but “is expressly contemplated by the text of
the . . . Act.”
That claim is unpersuasive. In Salyer, 410 U.S.
at 730, the Court similarly had “[n]o doubt” that
“residents within the district may be affected by its
activities.” But it concluded that the “argument
prove[d] too much.” Id. The Court explained, “Since
assessments imposed by the district bec[a]me a cost
of doing business for those who farm[ed] within it”—
and that cost was ultimately passed along to
consumers of the produce—“food shoppers in far away

26a
metropolitan areas [we]re to some extent likewise
‘affected’ by the activities of the district.” Id. at
730–31. Nevertheless, “[c]onstitutional adjudication
cannot rest on any such ‘house that Jack built’
foundation.” Id. at 731. Notwithstanding the
incidental effects that municipal water users may
experience, the fact remains that the economic
burden of the EAA’s operations does not fall on Bexar
County “residents qua residents.” Id. at 729.
Lastly, LULAC advances that the EAA’s efforts
to conserve aquifer water and to protect endangered
species benefit all residents, regardless of whether
the water is used for agricultural irrigation,
recreational springs, or human consumption. Citing
Hellebust v. Brownback, 42 F.3d 1331, 1335 (10th Cir.
1994), LULAC urges that where “a state agency has
the authority to affect every resident in matters
arising in their daily lives, its powers are not
disproportionate to those who vote for its officials.”
But Hellebust concerned the Kansas State Board of
Agriculture, which possessed statewide jurisdiction to
enforce approximately eighty laws governing the
quality of meat and dairy products, the use of
pesticides, and the right to divert and pump water.
Id. at 1332–33, 1335. Conversely, the EAA does not
exercise such omnibus and far-flung powers affecting
all persons at all times.
D.
Because the EAA therefore qualifies as a
special-purpose district, we ask only whether the
apportionment scheme “bears a reasonable
relationship to its statutory objectives.” Ball, 451
U.S. at 371. Rational-basis review “is not a license for

27a
courts to judge the wisdom, fairness, or logic of
legislative choices.” Heller v. Doe, 509 U.S. 312, 319
(1993) (citation omitted). Instead, “[a] statute is
presumed constitutional, and [t]he burden is on the
one attacking the legislative arrangement to negative
every conceivable basis which might support it.”16
Provided the law reasonably advances a legitimate
state interest, we will sustain the statute “even if [it]
seems unwise or works to the disadvantage of a
particular group.” Romer v. Evans, 517 U.S. 620, 632
(1996).
The EAA’s electoral scheme is rationally
related to the legitimate goal of protecting the aquifer
because it equitably balances the rival interests of the
agricultural, spring-flow, and urban counties to
ensure that no one region can dominate the aquifer’s
management. Legislative history confirms that the
legislature sought to achieve regional parity on the
EAA board of directors. For example, Representative
Robert Puente stated that the board was “structured
to . . . even out the three different interests” of the
competing regions. Debate on Tex. S.B. 1477 on the
Floor of the House, 73d Leg., R.S. 84 (May 24, 1993).
Senator Kenneth Armbrister likewise remarked that
the legislature “w[as] trying to provide a mechanism”
that would prevent the board from being “skewed one
way or the other.” Hearing on Tex. S.B. 1477 Before
the Senate Comm. on Nat. Res., 73d Leg., R.S. 13
(May 6, 1993). That concern persisted even when, in
1995, the legislature replaced the appointed nineHeller, 509 U.S. at 320 (internal quotation marks and
citations omitted); see also Salyer, 410 U.S. at 730 (considering
whether the district’s electoral scheme “was wholly irrelevant to
achievement of the regulation’s objectives” (internal quotation
marks and citation omitted)).
16

28a
member board with an elected fifteen-member
board.17
Additionally, the apportionment scheme was
likely necessary to ensure the creation of the EAA. In
their declarations before the district court, both
Puente and Armbrister reflected that the Act would
not have passed if any one region controlled a
majority of the directors or if the statute lacked the
approval of all three regions. LULAC does not contest
that political reality but retorts that “legislators may
not bargain away the constitutional voting rights of
citizens . . . in order to get legislation passed.” Citing
Romer, 517 U.S. at 634, and City of Cleburne v.
Cleburne Living Center, 473 U.S. 432, 446–47 (1985),
LULAC contends that an apportionment scheme
“predicated explicitly on favoring or disfavoring one
political[ly] unpopular group or geographic region
cannot survive even rational basis inquiry.”
Nonetheless, courts have repeatedly found that
a special-purpose district passes constitutional
muster where its electoral scheme was reasonably
necessary to the formation of the district. See, e.g.,
Ball, 451 U.S. at 371; Salyer, 410 U.S. at 731; Kessler,
158 F.3d at 108. LULAC’s reference to Romer and
Cleburne is inapposite. Unlike in those cases, there is
no suggestion that the EAA’s apportionment scheme
rested on an “irrational prejudice” or “a bare . . . desire
to harm a politically unpopular group.” Cleburne, 473
U.S. at 447, 450 (citation omitted); see also Romer,
See Debate on Tex. H.B. 3189 on the Floor of the
House, 74th Leg., R.S. 55 (May 9, 1995) (“Senate Bill 1477 was
passed out with an appointed authority with roughly one third
from each geographic region. The bill before you still stays [true]
to that compromise . . . .”).
17

29a
517 U.S. at 634. Consequently, the EAA’s electoral
system complies with the Equal Protection Clause of
the Fourteenth Amendment.
AFFIRMED.
PATRICK E. HIGGINBOTHAM, Circuit Judge,
concurring:
Lacking the requisite indicia of general
governmental powers, the Aquifer Authority is
plainly a single purpose entity, yet it is here urged
that in choosing to select its directors by election than
by appointment, the Texas Legislature stepped on the
trip wire of one person one vote—an unnecessary
mechanical reflex that would here undo the
underpinnings—and virtues—of the single purpose
doctrine.
The Aquifer Authority is charged with
protecting an extraordinary asset of the state—one
that can be depleted and lost to contamination and
misallocation. The Legislature did not choose to
create an appointive board. It rather chose to engage
the three geographical areas with the greatest
incentive to protect this unique resource, each with its
own perspectives. These competing interests are
defined by their proximity to the Aquifer—and
distinct in their draw upon it. Its balancing allocation
of members to the three distinct interests demands
accommodation in the governance of the Aquifer
Authority, spinning self-interest to the common
objective of asset protection. It bears emphasis that
this governance comes with no disenfranchisement of
voters— only a dilution of voter strength essential to
the very structure of the special purpose entity, a
dilution essential to its core purpose. And to these

30a
eyes, dilution looks past the binary liability metric of
impact attending disenfranchisement. The inquiry
does not end with a finding of vote dilution. Here,
dilution in service of preserving a common resource
results not in disenfranchisement but in effective
governance of the state’s single purpose entity.

31a
[ENTERED: June 18, 2018]

FILED
JUN 18 2018
CLERK, U.S. DISTRICT COURT
WESTERN DISTRICT OF TEXAS
BY
/s/
DEPUTY CLERK
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
LEAGUE OF UNITED
)
LATIN AMERICAN
)
CITIZENS (LULAC), et. al. )
)
Plaintiffs
)
)
and
)
)
CITY OF SAN ANTONIO, )
acting by and through the )
San Antonio Water System )
) CIVIL ACTION NO.
Intervenor-Plaintiff
)
SA-12-CA-620-OG
)
v.
)
)
EDWARDS AQUIFER
)
AUTHORITY
)
)
Defendant
)
)
and
)
)

32a
CITY OF SAN MARCOS,
CITY OF UVALDE,
COUNTY OF UYALDE,
NEW BRAUNFELS
UTILITIES and
GUADALUPE BLANCO
RIVER AUTHORITY

)
)
)
)
)
)
)
)
Intervenor-Defendants )
ORDER

Pending before the Court is the Motion for
Summary Judgment on Plaintiffs’ One Person, One
Vote Equal Protection Claim, filed by the Edwards
Aquifer Authority (“EAA”). Docket no. 119.
Intervenor-Defendants Guadalupe-Blanco River
Authority, City of Uvalde, County of Uvalde, City of
San Marcos, and New Braunfels Utilities have joined
in the EAA’s motion for summary judgment. Docket
nos. 117, 122, 124, 129, and 137. The Texas Farm
Bureau and Past and Current Members of the EAA
Board of Directors have filed amid briefs in support of
the EAA’s motion for summary judgment. Docket nos.
166, 182. The LULAC plaintiffs and San Antonio
Water System (“SAWS”) filed a joint response in
opposition to the EAA’s motion for summary
judgment (docket nos. 140-158) and the EAA filed a
reply (docket no. 169). LULAC and SAWS also filed a
response to the current and former board members’
amicus brief. Docket no. 183.
Also pending before the Court is Plaintiffs’
Joint Motion for Partial Summary Judgment on One
Person, One Vote Equal Protection Claim. Docket no.
168. The EAA filed a response (docket no. 169) and
Intervenor-Defendants Guadalupe-Blanco River

33a
Authority, New Braunfels Utilities, City of San
Marcos, City of Uvalde, and County of Uvalde joined
in the EAA’s response (docket nos. 170, 171, 172, 173,
174). Plaintiffs also filed a reply in support of their
motion for partial summary judgment. Docket no.
175.
After reviewing the record and the applicable
law, the Court finds that the EAA’s Motion for
Summary Judgment on Plaintiffs’ One Person, One
Vote Equal Protection Claim (docket no. 119) should
be granted and Plaintiffs’ Joint Motion for Partial
Summary Judgment on One Person, One Vote Equal
Protection Claim (docket no. 168) should be denied.
I.
Statement of the case
A.

The parties:

This lawsuit was filed by the League of United
Latin American Citizens (LULAC), Marie Martinez,
Jesse Alaniz, Jr. and Ramiro Nava (collectively “the
LULAC plaintiffs”) against the Edwards Aquifer
Authority in June 2012. See docket no. 1. The City of
San Antonio, acting by and through the San Antonio
Water System (“SAWS”) sought permission to
intervene as a plaintiff in August 2012, and
permission was granted. Docket nos. 8, 10. The
LULAC plaintiffs filed their First Amended
Complaint in January 2013 (docket no. 28) and their
Second Amended Complaint in March 2013 (docket
no. 38). The LULAC plaintiffs added the Secretary of
State as a party defendant in their Second Amended
Complaint. Docket no. 38. In August 2013, SAWS
filed its First Amended Complaint in Intervention,

34a
also adding the Secretary of State as a defendant.
Docket no. 70. All claims against the Secretary of
State were dismissed on March 31, 2014. Docket no.
165. Several other governmental entities have
intervened as defendants and are aligned with EAA,
including the City of San Marcos, City of Uvalde,
County of Uvalde, New Braunfels Utilities and
Guadalupe Blanco River Authority. The City of
Victoria, Past and Current Individual Members of the
EAA Board of Directors, and the Texas Farm Bureau
are not parties but they have filed amici briefs.
B.

The claims:

The LULAC plaintiffs bring two causes of
action challenging the current apportionment plan for
the single member districts used to elect directors to
the EAA. The first claim is brought under 42 U.S.C.
§ 1983 for alleged violation of the Equal Protection
Clause of the Fourteenth Amendment to the United
States Constitution; the second claim is brought
under 42 U.S.C. § 1973, Section 2 of the Voting Rights
Act, for alleged dilution of minority votes. Docket no.
38. Intervenor-Plaintiff SAWS brings only a cause of
action under the Equal Protection Clause of the
Fourteenth Amendment to the United States
Constitution (the one person, one vote claim). Docket
no. 70. Both LULAC and SAWS seek declaratory and
injunctive relief and a statutory award of attorneys
fees and costs. Docket nos. 38, 70. The parties have
agreed to stay LULAC’s cause of action under Section
2 of the Voting Rights Act and proceed with LULAC
and SAWS’ Equal Protection claim. Docket no. 68.
The motions for summary judgment address only the
Equal Protection claim.

35a
II.
Summary judgment standard
Summary judgment is proper when the
evidence shows “there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” FED. R. CIV. P. 56(a); Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 250-52 (1986). Rule
56 “mandates the entry of summary judgment, after
adequate time for discovery and upon motion, against
a party who fails . . . to establish the existence of an
element essential to that party’s case, and on which
that party will bear the burden of proof at trial.”
Curtis v. Anthony, 710 F.3d 587, 594 (5th Cir. 2013)
(quoting Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986)).
The Court must draw reasonable inferences
and construe evidence in favor of the nonmoving
party. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986). Although the
evidence is viewed in the light most favorable to the
nonmoving party, a nonmovant may not rely on
“conclusory allegations, unsubstantiated assertions,
or only a scintilla of evidence” to create a genuine
issue of material fact sufficient to survive summary
judgment. Freeman v. Tex. Dep’t of Criminal Justice,
369 F.3d 854, 860 (5th Cir. 2004).
III.
The general rule: one person, one vote
In 1963, Justice Douglas, writing for the
Supreme Court, stated that “[t]he conception of
political equality from the Declaration of
Independence, to Lincoln’s Gettysburg Address, to the

36a
Fifteenth, Seventeenth, and Nineteenth Amendments
can mean only one thing one person, one vote.” Gray
v. Sanders, 372 U.S. 368, 381 (1963). The justiciability
of a claim based on this principle was first recognized
in Baker v. Carr, 369 U.S. 186 (1962). The Supreme
Court extended the application of the one person, one
vote principle to state legislatures in Reynolds v.
Sims, 377 U.S. 533 (1964), and local governmental
units such as counties and cities in Avery v. Midland
County, 390 U.S. 474 (1968).
In Reynolds v. Sims, the Alabama Legislature
had failed to reapportion itself since 1901. 377 U.S.
at 540. After 60 years of population growth, the
legislative districts were severely malapportioned. Id.
Because the vote of individuals in overpopulated
districts carried less weight than the vote of
individuals in underpopulated districts, the voters in
disfavored areas were being deprived of their right to
an equal vote. Id. at 562-568. The Court found the
districting schemes in Alabama to be unconstitutional
and held that “[t]he Equal Protection Clause demands
no less than substantially equal state legislative
representation for all citizens, of all places as well as
of all races.” Id. at 568. Thus, “the seats in both houses
of a bicameral state legislature must be apportioned
on a population basis.” Id. This means that the State
must “make an honest and good faith effort to
construct districts. . . as nearly of equal population as
is practicable.” Id. at 577. The Court stated that “the
overriding objective must be substantial equality of
population among the various districts, so that the
vote of any citizen is approximately equal in weight to
that of any other citizen in the State.” Id. at 579. The
Court did note that state legislative districts far
outnumber congressional districts so more flexibility

37a
is permitted in apportionment of state seats. Id. at
578. The Court further noted that any deviations in
population must be based on clearly rational state
policy. Id. at 582.
Subsequent cases tested the limits of
constitutionally permissible population deviations in
apportionment plans, and the results differ based on
the proffered explanation for the deviation and
whether the record supports the explanation. See
Connor v. Finch, 431 U.S. 407 (1977) (court drawn
Senate plan and aspects of the House plan held
unconstitutional because the record showed that the
state policy of protecting the integrity of political
subdivisions and historical boundaries could have
been achieved with less deviation); see also Brown v.
Thomson, 462 U.S. 835 (1983) (one district with
substantial population deviation held constitutional
because it was based on Wyoming’s long standing,
consistently applied, and clearly legitimate state
policy of using counties as representative districts).
IV.
The Salver/Ball exception
While the one person, one vote principle is firmly
embedded in American jurisprudence, the Supreme
Court had the foresight to realize that exceptions to
the rule may arise. In Avery, the Court explained that
“[w]ere the Commissioners Court a special-purpose
unit of government assigned the performance of
functions affecting definable groups of constituents
more than other constituents, we would have to
confront the question whether such a body may be
apportioned in ways which give greater influence to
the citizens most affected by the organization’s

38a
functions.” 390 U.S. at 483-484. Under the facts in
Avery, the Court found that the Commissioners Court
had “general government powers over the entire
geographic area served by the body” and a
“substantial variation from equal population” in
drawing districts would violate the one person, one
vote principle. Id. at 484-85. However, the Court in
Avery left open the question of whether
representation in “special purpose” districts could be
apportioned based on interest rather than population.
Two years later, the Supreme Court in Hadley v.
Junior College District, 397 U.S. 50 (1970),
determined that a plan for electing junior college
trustees violated the Equal Protection Clause and
reiterated that one person, one vote is the general rule
but again acknowledged that an exception to the rule
may be recognized under a different set of facts:
We therefore hold today that as a
general rule, whenever a state or local
government decides to select persons by
popular election to perform governmental
functions, the Equal Protection Clause
of the Fourteenth Amendment requires
that each qualified voter must be given
an equal opportunity to participate in that
election, and when members of an elected
body are chosen from separate districts,
each district must be established on a
basis that will insure, as far as is
practicable, that equal numbers of
voters can vote for proportionally equal
numbers of officials. It is of course
possible that there might be some case in
which a State elects certain functionaries
whose duties are so far removed from

39a
normal governmental activities and so
disproportionately affect different groups
that a popular election in compliance
with Reynolds, supra, might not be
required, but certainly we see nothing in
the present case that indicates that the
activities of these trustees fit in that
category.
Hadley, 397 U.S. at 56.
Three years later, in Salyer Land Co. v. Tulare
Lake Basin Water Storage District, 410 U.S. 719, 720
(1973), the Supreme Court was “presented with the
issue expressly reserved in Avery.” The Salyer case
involved a water storage district that was created by
the California Legislature to provide a local response
to the problem of inadequate water supplies.1 The
water storage district’s purpose, power, and authority
was described as follows:
Such districts are authorized to plan
projects and execute approved projects for
the acquisition, appropriation, diversion,
storage, conservation, and distribution
of water. Incidental to this general
power, districts may acquire, improve,
and operate any necessary works for the
storage and distribution of water as well
as any drainage or reclamation works
connected therewith, and the generation
and distribution of hydroelectric power
may be provided for. They may fix tolls
As the Court noted, the California Legislature has the
authority to create not only water storage districts, but also
irrigation districts, water conservation districts, and flood
control districts. Salyer, 410 U.S. at 723.
1

40a
and charges for the use of water and
collect them from all persons receiving
the benefit of the water or other services
in proportion to the services rendered.
The costs of the projects are assessed
against district land in accordance with
the benefits accruing to each tract held
in separate ownership.
410 U.S. at 723-24 (internal citations and quotations
omitted). The water storage district was governed by
a board of directors elected from the divisions within
the district. Id. at 724. The Salyer plaintiffs claimed
the qualifications for voting in the elections for
directors, which were based on land ownership
rather than mere residency, violated their right to
equal protection of the laws under the Fourteenth
Amendment. After
considering the
parties’
arguments, the Court found that an exception to the
general rule was warranted and applied the rational
basis test to find the voter qualification scheme
constitutional:
We conclude that the appellee water
storage district, by reason of its
special limited purpose and of the
disproportionate effect of its activities on
landowners as a group, is the sort of
exception to the rule laid down in
Reynolds which the quoted language
from Hadley, supra, and the decision in
Avery, supra, contemplated.
***
[We] hold that the voter qualification for
water storage district elections was

41a
rationally based and did not violate the
Equal Protection Clause.
Id. at 728, 734-3 5. In its reasoning, the Court focused
on the purpose of the water storage district, its power
and authority, and the proportionality of the benefits
and burdens on the people and the land affected by its
operations. The Court explained:
The appellee district in this case,
although vested with some typical
governmental powers, has relatively
limited authority. Its primary purpose,
indeed the reason for its existence, is to
provide for the acquisition, storage, and
distribution of water for farming in the
Tulare Lake Basin. It provides no other
general public services such as schools,
housing, transportation, utilities, roads,
or anything else of the type ordinarily
financed by a municipal body. There are
no towns, shops, hospitals, or other
facilities designed to improve the quality
of life within the district boundaries, and
it does not have a fire department, police,
buses, or trains. Not only does the district
not exercise what might be thought of as
“normal governmental” authority, but
its actions disproportionately affect
landowners. All of the costs of district
projects are assessed against land by
assessors in proportion to the benefits
received. Likewise, charges for services
rendered are collectible from persons
receiving their benefit in proportion to
the services.

42a
Salyer, 410 U.S. at 728-29. The Court further
explained that “it is quite understandable that the
statutory framework for election of directors of the
[water storage district] focuses on the land benefitted,
rather than on people as such.” Id. at 729-30. Thus,
while members of the general public may be affected,
the California Legislature was reasonable to conclude
that landowners needed to be the dominant voice in
its control. Id. at 730-32. The Court framed the issue
as follows: “in the type of special district we now have
before us, the question for our determination is not
whether or not we [would have done something
differently], but instead whether... ‘any state of facts
reasonably may be conceived to justify’ California’s
decision . . .”. Id. at 732 (quoting McGowan v.
Maryland, 366 U.S. 420, 426 (1961)). The Court in
Salyer could not find the property-based voting
scheme to be “wholly irrelevant to achievement of the
regulation’s objectives.” Id. at 730. Thus, the scheme
passed the rational basis test and did not violate the
Equal Protection Clause. Id. at 735.
The Supreme Court decided a similar case on
the same day it decided the Salyer case. Associated
Enterprises, Inc. v. Toltec Watershed Imp. Dist., 410
U.S. 743, 745 (1973). Again, the Court held, based on
the reasoning in Salyer, that the watershed district
was a governmental unit of special or limited purpose
and the voting scheme in question, which entitled
only landowners to vote according to acreage, did not
violate the Equal Protection Clause. Id.
Several years later, in Ball v. James, 451 U.S.
355 (1981), the Supreme Court revisited this issue.
The Ball case involved a challenge to the
constitutionality of an Arizona statute providing that

43a
voting in elections for directors of an agricultural
improvement and power district was limited to
landowners and their voting power was apportioned
based on the number of acres owned. The Court
described the special purpose district as follows:
The public entity at issue here is the Salt
River Project Agricultural Improvement
and Power District, which stores and
delivers untreated water to the owners
of land comprising 236,000 acres in
central Arizona. The District, formed as
a governmental entity in 1937, subsidizes
its water operations by selling electricity,
and has become the supplier of electric
power for hundreds of thousands of
people in an area including a large part
of metropolitan Phoenix. Nevertheless,
the history of the District began in the
efforts of Arizona farmers in the 19th
century to irrigate the arid lands of the
Salt River Valley, and, as the parties have
stipulated, the primary purposes of the
District have always been the storage,
delivery, and conservation of water.
***
As noted by the Court of Appeals, the
services currently provided by the Salt
River District are more diverse and
affect far more people than those of the
Tulare Lake Basin Water Storage
District. Whereas the Tulare District
included an area entirely devoted to
agriculture and populated by only 77
persons, the Salt River District includes

44a
almost half the population of the State,
including large parts of Phoenix and
other cities. Moreover, the Salt River
District, unlike the Tulare District, has
exercised its statutory power to generate
and sell electric power, and has become
one of the largest suppliers of such
power in the State. Further, whereas all
the water delivered by the Tulare
District went for agriculture, roughly
40% of the water delivered by the Salt
River District goes to urban areas or is
used for nonagricultural purposes in
farming areas. Finally whereas all
operating costs of the Tulare District
were born by the voting landowners
through
assessments
apportioned
according to land value, most of the
capital and operating costs of the Salt
River District have been met through
the revenues generated by the selling of
electric power.
Ball, 451 U.S. at 357, 366. “Nevertheless, a careful
examination of the Salt River District reveal[ed] that,
under the principles of the Avery, Hadley, and Salyer
cases, these distinctions d[id] not amount to a
constitutional difference.” Id. at 366. First, the Salt
River District “did not exercise the sort of
governmental powers that invoke the strict demands
of Reynolds.” Id. Although the District could raise
money through an acreage-proportionate taxing
power or through bonds, it could not impose ad
valorem property taxes or sales tax. Id. at 360, 366. It
could not “enact any laws governing the conduct of
citizens, nor [did] it administer such normal functions

45a
of government as the maintenance of streets, the
operation of schools, or sanitation, health, or welfare
services.” Id. at 366. Second, the District’s water
functions, which were the primary and originating
purpose of the District, were relatively narrow. The
District did not own, sell, or buy water, or control the
use of the water they delivered. The District stored
the water behind its dams, conserved it from loss, and
delivered it through project canals. Alhough as much
as 40% of the water went to nonagricultural purposes,
the Court found that “the distinction between
agricultural and urban land is of no special
constitutional significance in this context.” Id. at 367.
And finally, “neither the existence nor size of the
District’s [hydroelectric] power business affect[ed] the
legality of its property-based voting scheme.” Id. at
368. The ability to generate and sell electricity did not
change the character of the District. The storage,
conservation, and delivery of water was still the
primary purpose of the District. Id. at 368-69. The
Supreme Court found that the purpose, authority,
and functions of the Salt River District justified a
departure from the strict demands of the one person,
one vote principle. Ball, 451 U.S. at 370. The voting
scheme was reasonably related to the statutory
objectives for the District and Arizona had a rational
basis for limiting the persons eligible to vote and
weighing their votes differently. Id. at 371.
The California Supreme Court, sitting en banc,
applied the Salyer/Ball exception in determining the
constitutionality of the property-based voting scheme
for the Southern California Rapid Transit District.
Southern Calif Rapid Transit Dist. v. Bolen, 822 P.2d
875, 1 Cal. 4th 654 (1992). The Court in Bolen

46a
thoroughly analyzed the Salyer/Ball exception and
observed:
No one reviewing this area of the high
court’s equal protection jurisprudence
can fail to be impressed with the result in
Ball not because the opinion represents
an analytical advance over the principles
developed in Salyer, but because it
illustrates the majority’s steadfast
willingness to adhere to the Salyer
analysis in the face of a record presenting
such compelling, if “constitutionally
irrelevant,” facts. Clearly, in light of
Ball, as far as the governmental function
analysis is concerned, the constitutionally
decisive fact is that the voting scheme at
issue reflects the “narrow primary
purpose for which the [public entity] is
created.”
Bolen, 1 Cal. 4th at 668-69 (quoting Ball, 451 U.S. at
369).
There have been cases since Salyer and Ball
with facts that did not fit within the exception, but
federal courts are well aware of the exception and its
application when circumstances warrant. See, e.g.,
Rice v. Cayetano, 528 U.S. 495, 522 (2000) (Supreme
Court found that the Salyer/Ball exception did not
apply to statewide elections for the Office of Hawaiian
Affairs, which limited voters to native Hawaiians;
rather, the Fifteenth Amendment controlled); Kessler
v. Grand Central Dist. Mgmt. Ass’n, Inc., 158 F.3d
92, 108 (2nd Cir 1998) (Second Circuit found the
Salyer/Ball exception applied to the Grand Central
Business District’s weighted voting scheme which

47a
guaranteed majority Board representation to property
owners); Hellebust v. Brownback, 824 F.Supp. 1506,
1510 (D. Kan. 1993) (Salyer/Ball exception did not
apply because the State Board of Agriculture’s
general governmental power to regulate for the
benefit of the health, safety, and welfare of all Kansas
residents made it subject to the general rule in
Reynolds), aff’d, 42 F.3d 1331 (10th Cir. 1994).
V.
The applicable standard
The threshold question is whether the strict
demands of the one person one vote principle under
Reynolds must be applied or a more relaxed rational
basis review under the Salyer/Ball exception is
appropriate.2 If the one person one vote principle is
applied, the EAA has a substantial burden of
demonstrating a compelling justification for its
apportionment scheme. If this case qualifies for an
exception to the Reynolds principle, the constitutional
test is less demanding and the Court must simply
determine whether the apportionment scheme is
rationally related to the statutory objectives of the
This Court previously held, in a final consent decree
entered in Williams v. Edwards Underground Water District, et.
al., No. SA-92-CA- 144, that “the District was established for a
special limited purpose and its functions are of the narrow,
special sort discussed in Ball v. James, 451 U.S. 355, 370 (1981).”
See Docket no. 119, exh. T (May 5, 1994). The EAA’s predecessor
(EUWD) was the named defendant when the lawsuit began; the
EAA became the statutory successor in 1993; and the consent
decree was entered in 1994. The final consent decree was later
vacated on other grounds. See Williams v. Edwards
Underground Water District, et. al., No. SA-92-CA- 144, docket
nos. 2, 3 (W.D. Tex. Feb. 7, 2012).
2

48a
EAA.3 The Court begins by looking at the creation,
purpose, power, and authority of the EAA.
A.

Creation of the EAA

Severe droughts in the early 1900’s prompted
Texas citizens to approve the Conservation
Amendment to the Texas Constitution, which calls
for the conservation and preservation of all natural
resources of the State. TEX. CONST. Art. XVI,
§ 59(a) (“The conservation and development of all
of the natural resources of this State . . . and the
preservation and conservation of all such natural
resources of the State are . . . public rights and duties;
and the Legislature shall pass all such laws as may
be appropriate thereto”); Barshop v. Medina County
Underground Water Conservation Dist., 925 S.W.2d
618, 626 (Tex. 1996). The Amendment authorizes the
Legislature to pass all such laws as may be necessary
and appropriate to protect our most precious natural
resource water. TEX. CONST. Art. XVI, § 59(b) (“There
may be created . . . such number of conservation and
reclamation districts as may be determined to be
essential”)
The Edwards Aquifer (“the aquifer”) is a
unique underground system of water-bearing geologic
formations in South-Central Texas. Barshop, 925
S.W.2d at 623. The aquifer is the primary source of
water in the region. Edwards Aquifer Auth. v. Chem.
Lime, Ltd., 291 S.W.3d 392, 394 (Tex. 2009). Water
The rational basis test has been applied in other equal
protection challenges to the EAA Act. See Barshop, 925 S.W.2d
at 631-32 (preferential allocation of water to existing users was
rationally related to the goal of protecting the aquifer by
controlling increased demand).
3

49a
enters the aquifer through the ground as surface
water and rainfall and leaves through well
withdrawals and springflow. Id. The Coma! Springs
and San Marcos Springs sit on the eastern edge of the
aquifer. Sierra Club v. Babbitt, 995 F.2d 571, 573 (5th
Cir. 1993). These springs systems are hydraulically
connected to the aquifer. The volume of flow
emanating from the springs is directly influenced by
the water level of the aquifer, which in turn is
influenced by the ratio of recharge over time to both
natural discharge through springs and artificial
discharge through wells. See id. Without regulation,
during drought conditions, withdrawals from the
aquifer increase and thereby reduce flows from the
springs. Shields v. Babbitt, 229 F.Supp.2d 638, 645
(W.D. Tex. 2000), vacated sub nom, Shields v. Norton,
289 F.3d 832 (5th Cir. 2002), cert. denied, 537 U.S.
1071 (2002). The flow from these springs is vital for
the survival of various species and feeds tributaries
that flow to the bay and estuaries in the Gulf Coast.
Id.; Sierra Club v. Lujan, 1993 WL 151353, at *33-35
(W.D. Tex. Feb. 1. 1993). “The prospect of future
droughts always lingers in the face of ever-increasing
demands for water from the aquifer.” Barshop, 925
S.W.2d at 626.
In 1993, in response to a federal court order to
protect aquifer-dependent threatened and endangered
species,4 and with “anticipated increases in the
withdrawal of water from the aquifer and the
potentially devastating effects of a drought, the
Legislature determined it was necessary, appropriate,
and a benefit to the welfare of this state to provide for
the management of the aquifer.” Barshop, 925 S.W.2d
4

Sierra Club v. Lujan, 1993 WL 151353, at *33-35.

50a
at 623-24. Thus, pursuant to its authority under
Article XVI, § 59 of the Texas Constitution, the
Legislature passed the Edwards Aquifer Authority Act
(“the EAA Act”) and “a conservation and reclamation
district, to be known as the Edwards Aquifer
Authority, [was] created in all or part of Atascosa,
Bexar, Caldwell, Comal, Guadalupe, Hays, Medina
and Uvalde counties.” The EAA Act, § 1.01 -1.02
(docket no. 119, exh. A).
B.

Purpose of the EAA

As the Supreme Court noted in Ball, “[a] key
part of the Salyer decision was that the voting scheme
for a public entity like a water district may
constitutionally reflect the narrow primary purpose
for which the district is created.” 451 U.S. at 369. In
Salyer, the “primary purpose, indeed the reason for
[the district’s] existence, [was] to provide for the
acquisition, storage, and distribution of water. . .”.
Salyer, 410 U.S. at 728. Likewise, in Ball, the primary
legislative purpose of the district was “to store,
conserve, and deliver water for use by [d]istrict
landowners, and the sole legislative reason for
making water projects public entities was to enable
them to raise revenue through interest-free bonds . . .”.
Ball, 451 U.S. at 369. In this case, the primary
purpose of the EAA is the management, protection,
preservation, and conservation of the Edwards
Aquifer, a unique and distinctive natural resource.
More specifically, § 1.01 of the Act provides:
The legislature finds that the Edwards
Aquifer is a unique and complex
hydrological system, with diverse
economic and social interests dependent
on the aquifer for water supply. In

51a
keeping with that finding, the Edwards
Aquifer is declared to be a distinctive
natural resource in this state, a unique
aquifer, and not an underground stream.
To sustain these diverse interests and
that natural resource, a special regional
management district is required for the
effective control of the resource to protect
terrestrial and aquatic life, domestic and
municipal water supplies, the operation
of existing industries, and the economic
development of the state. Use of water in
the district for beneficial purposes
requires that all reasonable measures be
taken to be conservative in water use.
Docket no. 119, exh. A (emphasis added). This Court
previously described the purpose of the EAA as
follows:
[T]he Texas Legislature created the
district in order to provide for the
conservation, preservation, protection,
and recharge of the underground waterbearing formations within the District
and the prevention of waste and
pollution of this underground water. The
District also was created to ensure
equitable allocation of underground
water among human uses and users
within the District, and to protect
aquifer-supported habitats such as San
Marcos Springs in Hays County and
Comal Springs in Comal County.
Docket no. 119, exh. T; Williams v. Edwards
Underground Water District, et. al., No. SA-92-CA-

52a
144, docket no. 2, exh. A (W.D. Tex. May 5, 1994),
vacated on other grounds, docket no. 3 (Feb. 7, 2012).5
The original legislative purpose of the EAA has not
changed.
C.

Powers and authority:

Special districts created pursuant to Article
XVI, § 59 have only such powers and authorities as
“may be conferred by law.” TEX. CONST. Art. XVI,
§ 59(b). Thus, the EAA has only those powers
expressly granted to it by the Texas Legislature.
Those powers are generally set forth in § 1.08(a) of the
Act, which states “[t]he authority has all of the
powers, rights, and privileges necessary to manage,
conserve, preserve, and protect the aquifer and to
increase the recharge of, and prevent the waste or
pollution of water in, the aquifer. The authority has
all of the rights, powers, privileges, authority,
functions, and duties provided by the general law of
this state, including Chapters 50, 51, and 52, Water
Code, applicable to an authority created under Article
XVI, Section 59, of the Texas Constitution.” Docket
no. 119, exh. A. “The authority’s powers regarding
underground water apply only to underground water
within or withdrawn from the aquifer.” § 1.08(b).
Plaintiffs describe these powers as broad and farreaching, but the EAA’s power and authority is
limited to carrying out its narrowly defined statutory
purpose to manage, protect, preserve, and conserve
the water in the aquifer.

See note 2, supra. The EAA is the statutory successor
to the EUWD. The EAA was created in 1993, prior to entry of the
1994 consent decree.
5

53a
Like the special purpose districts in Salyer and
Ball, the EAA has the power to adopt and implement
rules to exercise its authority, § 1.11(a), and the power
to enforce those rules, § 1.11(c).6 The EAA may issue
or administer grants, loans, or other financial
assistance to water users for water conservation and
water reuse; receive grants, awards, and loans for use
in carrying out its powers and duties; enter into
contracts; sue and be sued in its own name; hire an
executive director and delegate the power to hire
employees to that executive director; own real and
personal property; close abandoned, wasteful, or
dangerous wells; hold permits under state or federal
law pertaining to the Endangered Species Act; enforce
Chapter 32 of the Water Code and rules adopted
thereunder within the EAA boundaries; own and/or
operate recharge facilities as long as it does not
include a facility to re-circulate water at Comal or San
Marcos Springs; and the power of eminent domain
(which does not include the acquisition of rights to
underground water by the power of eminent domain).
§ 1.11(d), 1.24. The EAA has the duty to manage
withdrawals of water from the aquifer and monitor
withdrawal points, such as wells, through a permit
See docket no. 119, Exh. E, EAA rules, effective
December 2013. These rules implement the Act and other
applicable law and provide a framework for carrying out the
legislative mandate to manage, protect, preserve, and conserve
the water in the aquifer. The rules address, inter alia, permit
applications, administrative fees, groundwater withdrawals,
exempt wells, production wells, exportation prohibition, waste
prevention, pollution prevention, recharge/storage/recovery
projects, meters and reporting, water quality, well
construction/operation/maintenance,
well
closures,
spill
reporting, registration and storage of regulated substances,
storage tanks, water management, groundwater conservation
and reuse, conservation grants, and penalties.
6

54a
process. §§ 1.14 - 1.23. The EAA is tasked with
developing, implementing, and reviewing a
“comprehensive water management plan that
includes conservation, future supply, and demand
management plans.” § 1.25. The BAA must also have
a “critical period management plan” that addresses
discretionary and nondiscretionary use; reductions in
discretionary use; and if further reductions become
necessary, reductions of nondiscretionary use by
permitted or contractual users. § 1.26. Additionally,
the BAA must develop a “recovery implementation
program” that includes a habitat conservation plan,
§ 1.26A, and conduct research that focuses on water
quality, augmentation of springflow, enhancement of
recharge and yield, management of water resources,
water conservation, water use/reuse, drought
management, and alternative supplies of water for
users, § 1.27. The BAA “shall assess” equitable
aquifer management fees based on aquifer use to
finance its administrative expenses and programs,
§ 1.29. And the EAA may suspend permits and/or
assess penalties when aquifer water is impermissibly
withdrawn, wasted, or polluted. § 1.35 - 1.40.
The EAA cannot impose ad valorem property
taxes or sales taxes. See Ball, 451 U.S. at 366. Nor
does BAA provide general public services such as the
operation of schools, housing, transportation, public
utilities, road building and maintenance, public
sanitation, health, welfare services or anything else of
the type ordinarily financed by a municipal body. See
Ball, 451 U.S. at 366; see also Salyer, 410 U.S. at 729;
accord Kessler v. Grand Cent. Dist. Mgmt. Ass’n, Inc.,
158 F.3d 92, 104 (2nd Cir. 1998)(“GCDMA cannot be
said to exercise the core powers of sovereignty typical

55a
of a general purpose governmental body”); cf Avery,
390 U.S. at 484; cf Hadley, 397 U.S. at 53-54.
Plaintiffs contend the EAA is more akin to a
general purpose governmental body than a special
purpose district because it “controls . . . how everyone
uses [a]quifer water.” Docket no. 168, pp. 16-19. But
the EAA asserts control through permit conditions
only insofar as needed to fulfill its legislative mandate
to conserve water from the aquifer. See EAA Act
§ 1.14 (authorizations to withdraw water from the
aquifer shall be limited to “achieve water
conservation” and “maximize the beneficial use of
water available for withdrawal from the aquifer”);
§ 1.15 (each permit must specify the maximum rate
and total volume of water that the water user may
withdraw); § 1.26 (critical period management plan
must distinguish between discretionary use and
nondiscretionary use; require reductions of all
discretionary use to the maximum extent feasible;
require reduction of nondiscretionary use by
permitted or contractual users and, to the extent
further reductions are necessary, require reduction of
use in specified order). Plaintiffs also make the broad
assertion that the EAA has the “power to control how
property owners can use the surface of their land.”
Docket no. 168, p. 20. Again, however, the EAA
imposes limited restrictions only insofar as necessary
to carry out its legislative mandate to protect the
aquifer from pollution. See EAA Act, § 1.08(a)
(authority to “protect the aquifer” and “prevent the
waste or pollution of water” in the aquifer); 1.08(c) (“to
prevent pollution and enforce water quality standards
included within the authority’s boundaries and
within a buffer zone that includes all of the area less
than five miles outside of those counties, [the EAA]

56a
shall apply pollution control regulations equally and
uniformly throughout the area within the counties
and the buffer zone”); and 1.081 (“[t] o protect the
water quality of the aquifer, [the EAA] shall adopt
rules regarding the control of fires in the aquifer’s
recharge zone”). The rules implemented under this
authority include restrictions meant to keep sources
of pollution such as sewage, liquid waste, livestock or
poultry yards, cemeteries, pesticide facilities, chemical
storage, standing water, debris, and coal tar-based
pavement away from aquifer wells and prevent spills
that release into the environment within the recharge
zone of the aquifer. Docket no. 119, exh. E, EAA rules.
As Plaintiffs concede, the aquifer is “highly vulnerable
to contamination” (docket no. 168, p. 20) and the EAA
cannot carry out its duty to protect the aquifer
without implementing specific preventive measures.
But these protective measures have a special purpose
and their enforcement does not equate to a general
purpose governmental function. Plaintiffs further
allege that the EAA performs “classic governmental
functions” such as making rules, deciding which
permits to issue, and determining penalties. Docket
no. 168, pp. 21, 26-27. But this alone does not make
the EAA a general purpose governmental entity.
These functions are incidental to the EAA’s primary
purpose to manage, protect, preserve, and conserve
the water in the aquifer. It would have been
meaningless for the Legislature to create the EAA
without giving it the tools it needs to carry out its
duties and responsibilities.
The EAA is tasked with the power to carry out
the legislative mandate to manage, protect, preserve,
and conserve the water in the aquifer, but it does
not have the authority to “exercise the sort of

57a
governmental powers that invoke the strict demands
of Reynolds.” Ball, 451 U.S. at 366. The Texas
Legislature established the EAA to fulfill the Act’s
limited purpose and scope, not a broader general
governmental purpose. Because the EAA has a
limited purpose, the powers to fulfill that purpose are
also limited in scope and effect. The EAA is clearly a
special purpose district that falls within the
Salyer/Ball exception to the one person, one vote
requirement.
VI.
The BAA apportionment scheme has a rational basis
A.

The single member district apportionment
scheme:

The EAA is “governed by a board of directors
composed of 15 directors elected from the singlemember election districts.” EAA Act § 1.09. “The
elected directors serve staggered four-year terms with
as near as possible to one-half of the members’ terms
expiring December 1 of each even-numbered year.” Id.
Additionally, two nonvoting directors are appointed,
Id. § 1.091(a), making a total of 17 BAA directors – all
of whom can participate but only 15 of whom can vote.
The single-member districts used to elect the 15
voting board members are distributed among the
counties as follows: seven in Bexar County; one in
Comal County; one in Comal and Guadalupe Counties
combined; one in Hays County; one in Hays and
Caldwell Counties combined; one in Medina County;
one in Medina and Atascosa Counties combined; and
two in Uvalde County. Id. § 1.093(a)-(o).
Section 1.094 of the Act permits modification of
the district lines as follows:

58a
(a)

After each federal decennial census, or as
needed, the board may modify the district lines
described in Section 1.093 of this article. During
March or April of an even-numbered year, the
board by order may modify the district lines
described in Section 1.093 of this article to
provide that the lines do not divide a county
election precinct except as necessary to follow
the authority’s jurisdictional boundaries.

(b)

Modifications under this section may not result
in:

(c)

(1)

the dilution of voting strength of a group
covered by the federal Voting Rights Act
(42 U.S.C. Section 1973c et seq.) as
amended;

(2)

a dilution of representation of a group
covered by the federal Voting Rights Act
(42 U.S.C. Section 1973c et seq.), as
amended;

(3)

discouraging participation by a group
covered by the federal Voting Rights Act
(42 U.S.C. Section 1973c et seq.), as
amended; or

(4)

increasing or decreasing the number of
districts in any county.

A county election precinct established by a
county in accordance with Chapter 42, Election
Code, may not contain territory from more than
one authority district.

EAA Act, § 1.094.

59a
Following the 2010 census, the BAA
reconfigured the districts and the plan was approved
by the governing board in 2012. Docket no. 36, p. 5;
docket no. 72, p. 7. The EAA submitted the changes to
the United States Department of Justice for
preclearance under Section 5 of the Voting Rights Act,
and preclearance was granted. Docket no. 36, p. 5;
docket no. 119, exh. R. The redistricting in 2012 was
primarily an effort to avoid splitting precincts, which
facilitates joint elections between the EAA and the
counties within its jurisdiction. Docket no. 119, exh.
R. Subsequent elections have proceeded under the
current apportionment plan during the pendency of
this lawsuit.7
B.

Disproportionate impact and balance of interests

In Salyer, the electoral franchise was restricted
to only landowners and their votes were apportioned
according to the assessed valuation of the land. 410
U.S. at 724-25. In Ball, the franchise was limited to
landowners and their vote was weighted by the
amount of land owned. 451 U.S. at 357. In this case,
the electoral franchise is not limited to only permit
holders or landowners with wells; instead, all
residents within the jurisdictional boundaries of the
EAA are allowed to vote. However, the apportionment
scheme for the BAA board of directors is carefully
balanced to reflect the different water interests in the
subregions that are disproportionately impacted by
the EAA. In exercising its authority to manage the
aquifer, the EAA must balance discharge and
recharge, pumping and spring flow. Docket no. 119,
Although Plaintiffs seek permanent injunctive relief,
they did not seek to enjoin any elections during the pendency of
this lawsuit.
7

60a
exh. Z. The various interests, which vary by
subregion, include agricultural needs, spring flow
contributions, pumping demands, municipal use,
industrial use, protection of threatened and
endangered species, downstream protection, and
recharge. Id. When it comes to municipal use, the City
of San Antonio is responsible for the most discharge,
but the City includes only about 0.4% of the area of
the recharge zone. Id. at p. 13. Two-thirds of the
recharge occurs in the Western counties, about ten
percent in Bexar County, and most of the rest in
Comal County. Id. When it comes to per capita use,
the average person in the agricultural counties uses
approximately nine to eleven times as much water as
the average person in Bexar County, and the average
person in the spring flow counties uses more than two
times as much water as the average person in Bexar
County. Docket no. 169, p. 27; docket no. 119, exh. F,
SS. Comal and San Marcos Springs also provide the
habitat for several threatened and endangered
species. Docket no. 119, exh. Z at 28. Nearly all of the
pumping for agriculture takes place in Uvalde and
Medina counties, and irrigation pumping is highly
seasonal and extremely variable. Id. at 39. There is a
finite amount of water to meet all interests and “[a]ny
one user’s pumping quickly and directly affects the
availability of the resource for others.” Id. at 112-13.
The various interests are constantly competing for
this natural resource, and the decisions made by the
EAA’s board of directors have a disproportionate
impact on voters in different counties and subregions.
The EAA Act dictates how the districts are
apportioned and it would not have been passed “if it
was . . . a San Antonio-only bill.” Docket no. 119, exh.

61a
E, R. Puente deposition at 58:1-8.8 Nor would it have
passed “if it was too far slanted in the springs interest
or the agricultural interest.” Id. at 93:15-94:4. There
was an understanding that a balance of water
interests was needed so that “no one could control . . .
pumping permits, pumping withdrawals.” Id. at 93:323. The Texas Legislature “felt that San Antonio
controlling the Edwards Aquifer was not good for the
State of Texas” and a “balanced approach to the EAA’s
board was the right approach.” Id. at 98:25-99:13. This
balanced approach, which took urban, agricultural,
and spring flow interests into account in terms of
voting power on the board, was the primary focus of
the Legislature. Id. at 123:8-20. SAWS expressed its
agreement with this balanced approach when the bill
was being considered in the Legislature, as reflected
in SAWS legal counsel’s testimony before the Senate
Natural Resource Committee:
The governing body of the board would be
balanced among the regional interests . . .
If you compare the historical record, you
can see that among aquifer beneficiaries,
including the spring flow, usage is divided
roughly one-third, one-third, one-third,
in this fashion. Approximately one-third
of the usage of this resource is by
irrigated agriculture. Approximately
one-third of the use of this resources is
by municipal and industrial customers,
primarily located in Bexar County, but
spread throughout the five-county
region. The remaining one-third of usage
Robert Puente, former state representative and current
president and CEO of SAWS, was the original sponsor of the bill.
8

62a
constitutes usage in the eastern counties
or north eastern counties, Hays and
Comal, but primarily spring discharge
issuing from Comal and San Marcos
springs, upon which that region and
downstream users rely. The Senate Bill
1320 balances the governing board
three, three, and three among those
interests considering the Comal and
Hays County interest as representing
the spring flow requirements.
Docket no. 119, exh. K, Senate Natural Resource
Committee hearing transcript at 27:13-28:15. When
the Texas Legislature amended the Act two years
later, SAWS still agreed with the balanced interest
approach. As Mr. Puente explained, “[t]here will be an
amendment offered that changes that elected board to
a 5/7/5 board. The western counties will get an
additional member, and the eastern counties will get
an additional member; or the downstream people will
get an additional member. Bexar County specifically
will have seven members.” Docket no. 119, exh. O,
House Natural Resource Committee hearing
transcript at 2:16-25.
Since the BAA’s inception, the number of
directors has changed and the original appointment
scheme changed to a single member district electoral
scheme, but the delicate balance of subregional
interests has never changed. As cogently stated by
Intervenor-Defendant NBU, “[t]he scheme of
proportional representation designed by the
Legislature not only reflects the interest of the region,
it was the sine qua non for the legislative enactment
required to conserve and protect the water resources

63a
of the Edwards aquifer.” Docket no. 137, p. 3.
Plaintiffs want apportionment by population rather
than apportionment by subregional water interests,
but population-based representation would defeat the
purpose of the EAA and destroy the careful balance of
interests upon which it was formed. SAWS complains
that, as the largest permit holder, it bears the highest
financial impact. However, this factor does not
outweigh the others, and did not sway the Supreme
Court in Ball. 451 U.S. at 368 (“neither the existence
nor size” of the hydroelectric power business affected
the legality of the District’s voting scheme).
It is undisputed that some districts are urban
and very populated while others are rural and less
populated; however, the EAA is a special purpose
district and its apportionment plan is not subject to
the strict demands of the one person one vote
principle under Reynolds. The EAA single member
district apportionment plan is carefully balanced to
reflect the different water interests in the subregions
that are disproportionately impacted by the EAA and
thus meets the more relaxed rational basis review
under Salyer/Ball. The apportionment scheme is
rationally related to the statutory objectives of the
EAA and does not violate the Equal Protection Clause
of the Fourteenth Amendment to the United States
Constitution.
It is therefore ORDERED that the Motion for
Summary Judgment on Plaintiffs’ One Person, One
Vote Equal Protection Claim filed by the Edwards
Aquifer Authority (docket no. 119) and joined by
Intervenor-Defendants Guadalupe-Blanco River
Authority, City of Uvalde, County of Uvalde, City of
San Marcos, and New Braunfels Utilities (docket nos.

64a
117, 122, 124, 129, and 137) is GRANTED. Plaintiffs’
Joint Motion for Partial Summary Judgment on One
Person, One Vote Equal Protection Claim (docket no.
168) is DENIED. The Equal Protection claims against
the EAA, brought pursuant to 42 U.S.C. § 1983, are
DISMISSED with prejudice. SAWS has no other
pending claims. The LULAC plaintiffs shall file a
written advisory within twenty days from the date
below indicating whether they will proceed with their
Section 2 claim.
SIGNED this 18 day of June, 2018.
/s/
ORLANDO L. GARCIA
CHIEF U.S. DISTRICT JUDGE

65a
[ENTERED: July 17, 2018]

FILED
JUL 17 2018
CLERK, U.S. DISTRICT COURT
WESTERN DISTRICT OF TEXAS
BY
/s/
DEPUTY CLERK
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
LEAGUE OF UNITED
)
LATIN AMERICAN
)
CITIZENS (LULAC), et. al. )
)
Plaintiffs
)
)
and
)
)
CITY OF SAN ANTONIO, )
acting by and through the )
San Antonio Water System )
) CIVIL ACTION NO.
Plaintiff-Intervenor
)
SA-12-CA-620-OG
)
v.
)
)
EDWARDS AQUIFER
)
AUTHORITY
)
)
Defendant
)
)
and
)
)

66a
CITY OF SAN MARCOS,
CITY OF UVALDE,
COUNTY OF UYALDE,
NEW BRAUNFELS
UTILITIES and
GUADALUPE BLANCO
RIVER AUTHORITY

)
)
)
)
)
)
)
)
Defendant-Intervenors )
ORDER

On June 18, 2018, the Court granted the EAA’s
motion for summary judgment on the One Person,
One Vote Equal Protection claims. Docket no. 193.
The City of San Antonio/SAWS had no other claims,
but the LULAC plaintiffs had claims remaining. In
the summary judgment order, the Court ordered the
LULAC plaintiffs to advise the Court whether they
intended to pursue their remaining claims. On July 9,
2018, the LULAC plaintiffs filed a written advisory
stating they no longer wished to pursue their
remaining claims and requested that the Court enter
an order of dismissal without prejudice on their
Section 2 and constitutional vote dilution claims.
It is therefore ORDERED that the LULAC
plaintiffs’ Section 2 and constitutional vote dilution
causes of action are DISMISSED without prejudice.
There are no other claims remaining between the
parties. Final judgment may be entered accordingly
and this case may be closed.
SIGNED this 17 day of July, 2018.
/s/
ORLANDO L. GARCIA
CHIEF U.S. DISTRICT JUDGE

67a
Sec.
59.
CONSERVATION
AND
DEVELOPMENT OF NATURAL RESOURCES;
DEVELOPMENT OF PARKS AND RECREATIONAL
FACILITIES;
CONSERVATION
AND
RECLAMATION DISTRICTS; INDEBTEDNESS
AND TAXATION AUTHORIZED.
(a) The conservation and development of all of
the natural resources of this State, and development
of parks and recreational facilities, including the
control, storing, preservation and distribution of its
storm and flood waters, the waters of its rivers and
streams, for irrigation, power and all other useful
purposes, the reclamation and irrigation of its arid,
semiarid and other lands needing irrigation, the
reclamation and drainage of its overflowed lands, and
other lands needing drainage, the conservation and
development of its forests, water and hydro-electric
power, the navigation of its inland and coastal waters,
and the preservation and conservation of all such
natural resources of the State are each and all hereby
declared public rights and duties; and the Legislature
shall pass all such laws as may be appropriate
thereto.
(b) There may be created within the State of
Texas, or the State may be divided into, such number
of conservation and reclamation districts as may be
determined to be essential to the accomplishment of
the purposes of this amendment to the constitution,
which districts shall be governmental agencies and
bodies politic and corporate with such powers of
government and with the authority to exercise such
rights, privileges and functions concerning the subject
matter of this amendment as may be conferred by
law.

68a
(c) The Legislature shall authorize all such
indebtedness as may be necessary to provide all
improvements and the maintenance thereof requisite
to the achievement of the purposes of this
amendment. All such indebtedness may be evidenced
by bonds of such conservation and reclamation
districts, to be issued under such regulations as may
be prescribed by law. The Legislature shall also
authorize the levy and collection within such districts
of all such taxes, equitably distributed, as may be
necessary for the payment of the interest and the
creation of a sinking fund for the payment of such
bonds and for the maintenance of such districts and
improvements. Such indebtedness shall be a lien
upon the property assessed for the payment thereof.
The Legislature shall not authorize the issuance of
any bonds or provide for any indebtedness against
any reclamation district unless such proposition shall
first be submitted to the qualified voters of such
district and the proposition adopted.
(c-1) In addition and only as provided by
this subsection, the Legislature may authorize
conservation and reclamation districts to develop and
finance with taxes those types and categories of parks
and recreational facilities that were not authorized by
this section to be developed and financed with taxes
before September 13, 2003. For development of such
parks and recreational facilities, the Legislature may
authorize indebtedness payable from taxes as may
be necessary to provide for improvements and
maintenance only for a conservation and reclamation
district all or part of which is located in Bexar County,
Bastrop County, Waller County, Travis County,
Williamson County, Harris County, Galveston
County, Brazoria County, Fort Bend County, or

69a
Montgomery County, or for the Tarrant Regional
Water District, a water control and improvement
district located in whole or in part in Tarrant County.
All the indebtedness may be evidenced by bonds of the
conservation and reclamation district, to be issued
under regulations as may be prescribed by law. The
Legislature may also authorize the levy and collection
within such district of all taxes, equitably distributed,
as may be necessary for the payment of the interest
and the creation of a sinking fund for the payment of
the bonds and for maintenance of and improvements
to such parks and recreational facilities. The
indebtedness shall be a lien on the property assessed
for the payment of the bonds. The Legislature may not
authorize the issuance of bonds or provide for
indebtedness under this subsection against a
conservation and reclamation district unless a
proposition is first submitted to the qualified voters of
the district and the proposition is adopted. This
subsection expands the authority of the Legislature
with respect to certain conservation and reclamation
districts and is not a limitation on the authority of the
Legislature with respect to conservation and
reclamation districts and parks and recreational
facilities pursuant to this section as that authority
existed before September 13, 2003.
(d) No law creating a conservation and
reclamation district shall be passed unless notice of
the intention to introduce such a bill setting forth the
general substance of the contemplated law shall have
been published at least thirty (30) days and not more
than ninety (90) days prior to the introduction thereof
in a newspaper or newspapers having general
circulation in the county or counties in which said
district or any part thereof is or will be located and by

70a
delivering a copy of such notice and such bill to the
Governor who shall submit such notice and bill to the
Texas Water Commission, or its successor, which
shall file its recommendation as to such bill with the
Governor, Lieutenant Governor and Speaker of the
House of Representatives within thirty (30) days from
date notice was received by the Texas Water
Commission. Such notice and copy of bill shall also be
given of the introduction of any bill amending a law
creating or governing a particular conservation and
reclamation district if such bill (1) adds additional
land to the district, (2) alters the taxing authority of
the district, (3) alters the authority of the district with
respect to the issuance of bonds, or (4) alters the
qualifications or terms of office of the members of the
governing body of the district.
(e) No law creating a conservation and
reclamation district shall be passed unless, at the
time notice of the intention to introduce a bill is
published as provided in Subsection (d) of this section,
a copy of the proposed bill is delivered to the
commissioners court of each county in which said
district or any part thereof is or will be located and to
the governing body of each incorporated city or town
in whose jurisdiction said district or any part thereof
is or will be located. Each such commissioners court
and governing body may file its written consent or
opposition to the creation of the proposed district with
the governor, lieutenant governor, and speaker of the
house of representatives. Each special law creating a
conservation and reclamation district shall comply
with the provisions of the general laws then in effect
relating to consent by political subdivisions to the
creation of conservation and reclamation districts and
to the inclusion of land within the district.

71a
(f) A conservation and reclamation district
created under this section to perform any or all of the
purposes of this section may engage in fire-fighting
activities and may issue bonds or other indebtedness
for fire-fighting purposes as provided by law and this
constitution.
(Added Aug. 21, 1917; Subsec. (d) added Nov. 3, 1964;
Subsec. (e) added Nov. 6, 1973; Subsec. (f) added Nov.
7, 1978; Subsec. (c) amended Nov. 2, 1999; Subsec. (a)
amended and (c-1) added Sept. 13, 2003.)
(TEMPORARY TRANSITION PROVISIONS for Sec.
59: See Appendix, Note 1.)

72a

EDWARDS AQUIFER
AUTHORITY
EDWARDS AQUIFER AUTHORITY ACT
(includes amendments through September 1, 2019
effective date)
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, 1993
Tex. Gen. Laws 2350; as amended by Act of May 16,
1995, 74th Leg., R.S., ch. 524, § 1, sec. 3.03, 1995 Tex.
Gen. Laws 3280; Act of May 29, 1995, 74th Leg., R.S.,
ch. 261, § 1, secs. 1.09, 1.091, 1.092, 1.093, 1995 Tex.
Gen. Laws 2505, 2505–16; Act of May 6, 1999, 76th
Leg., R.S., ch. 163, § 1, sec. 1.094, 1999 Tex. Gen.
Laws 634, 634–35; Act of May 25, 2001, 77th Leg.,
R.S., ch. 1192, § 1, sec. 1.03(26), (27), 2001 Tex. Gen.
Laws 2696, 2696–97; Act of May 27, 2001, 77th Leg.,
R.S., ch. 966, §§ 2.60–2.62, 6.01–6.05, secs. 1.03(26),
(27), 1.29(e), 1.44(e), 1.115, 1.15(e), (f), 1.11(h),
1.41(e), 2001 Tex. Gen. Laws 1991, 2021–22, 2075–76;
Act of June 1, 2003, 78th Leg., R.S., ch. 1112,
§ 6.01(4), sec. 1.12, 2003 Tex. Gen. Laws 3188, 3193;
Act of May 23, 2007, 80th Leg., R.S., ch. 510, § 1, sec.
1.081, 2007 Tex. Gen. Laws 900; Act of May 27, 2007,
80th Leg., R.S., ch. 1351, §§ 2.01–2.11, secs. 1.11(f), (f1), (f-2), 1.14(a), (c), (e), (f), (h), 1.16(g), 1.19(b),
1.22(a), 1.26, 1.26A, 1.29(b), (h), (i), 1.45(a), 1.14(b),
(d), 1.21, 1.29(a), (c), (d), 2007 Tex. Gen. Laws 4612,
4627–34; Act of May 27, 2007, 80th Leg., R.S., ch.

73a
1430, §§ 12.01–12.11, secs. 1.11(f), (f-1), (f-2), 1.14(a),
(c), (e), (f), (h), 1.16(g), 1.19(b), 1.22(a), 1.26, 1.26A,
1.29(b), (h), (i), 1.45(a), 1.14(b), (d), 1.21, 1.29(a), (c),
(d), 2007 Tex. Gen. Laws 5848, 5901–09; Act of May
21, 2009, 81st Leg., R.S., ch. 1080, § 1, sec. 1.04, 2009
Tex. Gen. Laws 2818, 2818–25; Act of May 20, 2013,
83rd Leg., R.S., ch. 783, § 1, sec. 1.033(c), (d), 2013 Tex.
Gen. Laws 1998, 1998–99; Act of May 24, 2019, 86th
Leg., R.S., ch. ___, § 1, sec. 1.34(a)-(f), 2019 Tex. Gen.
Laws ____, ____-__; Act of May 26, 2019, 86th Leg.,
R.S. ch. ___, § 1, sec. 1.44(c), (e), (c-1), (e-1), 2019 Tex.
Gen. Laws ____, ____-__; Act of May 27, 2019, 86th
Leg., R.S., ch. ___, §§ 1–15, secs. 1.03(20), 1.07,
1.08(a), 1.09(d), (i)-(k), 1.11(d), 1.21, 1.211, 1.26(a),
1.29(b), (f), 1.361, 1.37(j), (n), (r), 1.38, 1.46, 3.01(d),
36.205(e), 1.25(b), 36.101(1), 36.1011(e), 36.125,
36.419, 2019 Tex. Gen. Laws ____, ____-__.
EDWARDS AQUIFER AUTHORITY ACT
TABLE OF CONTENTS
ARTICLE 1 ................................................................ 1
SECTION 1.01 FINDINGS AND DECLARATION
OF POLICY. .............................. 1
SECTION 1.02 CREATION. ............................... 1
SECTION 1.03 DEFINITIONS .......................... 1
SECTION 1.04 BOUNDARIES .......................... 5
SECTION 1.05 FINDINGS
RELATING
TO
BOUNDARIES ........................ 16
SECTION 1.06 FINDING OF BENEFIT ......... 16

74a
SECTION 1.07 OWNERSHIP
OF
UNDERGROUND WATER .................. 16
SECTION 1.08 GENERAL POWERS .............. 16
SECTION 1.081 FIRE CONTROL ..................... 17
SECTION 1.09 BOARD
OF
DIRECTORS;
ELECTIONS; TERMS ............. 17
SECTION 1.091 NONVOTING MEMBERS OF
BOARD .................................... 18
SECTION 1.092 TEMPORARY BOARD AND
INITIAL
ELECTION
OF
DIRECTORS ............................ 19
SECTION 1.093 SINGLE-MEMBER ELECTION
DISTRICTS .............................. 21
SECTION 1.094 MODIFICATION OF DISTRICT
LINES AFTER DECENNIAL
CENSUS .................................. 32
SECTION 1.10 SOUTH
CENTRAL
TEXAS
WATER
ADVISORY
COMMITTEE .......................... 32
SECTION 1.11 GENERALPOWERS
AND
DUTIES OF THE BOARD AND
AUTHORITY. .......................... 34
SECTION 1.115 RULEMAKING PROCEDURES
.................................................. 37
SECTION 1.12 SUNSET
COMMISSION
REVIEW .................................. 38
SECTION 1.13 REUSE AUTHORIZED. .......... 38

75a
SECTION 1.14 WITHDRAWALS ..................... 38
SECTION 1.15 PERMIT REQUIRED. ............. 40
SECTION 1.16 DECLARATIONS
OF
HISTORICAL USE; INITIAL
REGULAR PERMITS ............. 40
SECTION 1.17 INTERIM AUTHORIZATION.41
SECTION 1.18 ADDITIONAL
REGULAR
PERMITS ................................. 42
SECTION 1.19 TERM PERMITS ..................... 42
SECTION 1.20 EMERGENCY PERMITS ....... 43
SECTION 1.21 PERMIT RETIREMENT......... 43
SECTION 1.21 CONTESTED CASE HEARINGS;
REQUEST FOR REHEARING
OR
FINDINGS
AND
CONCLUSIONS ...................... 43
SECTION 1.211 DECISION; WHEN FINAL .... 44
SECTION 1.22 ACQUISITION OF RIGHTS ... 44
SECTION 1.23 CONSERVATION AND REUSE
PLANS ..................................... 45
SECTION 1.24 LOANS AND GRANTS ........... 45
SECTION 1.25 COMPREHENSIVE
MANAGEMENT PLAN .......... 46
SECTION 1.26 CRITICAL
PERIOD
MANAGEMENT PLAN .......... 46

76a
TABLE 1 CRITICAL PERIOD WITHDRAWAL
REDUCTION STAGES FOR THE
SAN ANTONIO POOL ................. 46
TABLE 2 CRITICAL PERIOD WITHDRAWAL
REDUCTION STAGES FOR THE
UVALDE POOL ............................ 47
SECTION 1.26A DEVELOPMENT OF WITHDRAWAL REDUCTION LEVELS
AND STAGES FOR CRITICAL
PERIOD
MANAGEMENT
THROUGH RECOVERY IMPLEMENTATION PROGRAM ..... 48
SECTION 1.27

RESEARCH ............................ 53

SECTION 1.28

TAX; BONDS .......................... 54

SECTION 1.29

FEES ....................................... 54

SECTION 1.30

RIVER DIVERSIONS ............ 55

SECTION 1.31

MEASURING DEVICES ....... 56

SECTION 1.32

REPORTS ............................... 56

SECTION 1.33

WELL
METERING
EXEMPTION .......................... 56

SECTION 1.34

TRANSFER OF RIGHTS ....... 57

SECTION 1.35

PROHIBITIONS ..................... 58

SECTION 1.36

ENFORCEMENT. .................. 58

SECTION 1.361 OPEN
OR
UNCOVERED
WELLS.................................... 58
SECTION 1.37 ADMINISTRATIVE PENALTY 59

77a
SECTION 1.38 INJUNCTION BY AUTHORITY
.................................................. 62
SECTION 1.39 SUIT FOR MANDAMUS ........ 62
SECTION 1.40 CIVIL PENALTY..................... 62
SECTION 1.41 REPEALER;
TRANSFERS;
RULES ..................................... 63
SECTION 1.42 EFFECT
ON
OTHER
DISTRICTS .............................. 63
SECTION 1.43 CREATION
OF
UNDERGROUND WATER CONSERVATION DISTRICT. .................. 64
SECTION 1.44 COOPERATIVE
CONTRACTS
FOR ARTIFICIAL RECHARGE
.................................................. 64
SECTION 1.45 RECHARGE DAMS................. 66
SECTION 1.46 SUIT ......................................... 66
ENDNOTES ................................................... 68
ARTICLE 2 .............................................................. 71
SECTION 2.01 DEFINITION ........................... 71
SECTION 2.02 VALIDATION. ......................... 71
SECTION 2.03 BOUNDARIES ........................ 71
SECTION 2.04 FINDING OF BENEFIT ......... 71
SECTION 2.05 POWERS. ................................. 71
SECTION 2.06 LEVY OF TAXES .................... 71
SECTION 2.07 PENDING LITIGATION ........ 72

78a
ARTICLE 3 .............................................................. 73
SECTION 3.01 LEGISLATIVE OVERSIGHT . 73
SECTION 3.02 NOTICE
OF
AVAILABLE
WATER .................................... 73
SECTION 3.03 SUNSET COMMISSION REVIEW
OF
GUADALUPE-BLANCO
RIVER AUTHORITY .............. 74
SECTION 3.04 COOPERATION. ..................... 74
ARTICLE 4 .............................................................. 75
SECTION 4.01 FINDINGS
RELATED
TO
PROCEDURAL
REQUIREMENTS ................... 75
SECTION 4.02 EFFECTIVE DATES ............... 75
SECTION 4.03 EMERGENCY ......................... 75
CHAPTER 626
S.B. No. 1477
AN ACT
relating to the creation, administration, powers,
duties, operation, and financing of the Edwards
Aquifer Authority and the management of the
Edwards Aquifer; granting the power of eminent
domain; authorizing the issuance of bonds; providing
civil and administrative penalties; and validating the
creation of the Uvalde County Underground Water
Conservation District.
Be it enacted by the Legislature of the State of
Texas:

79a
ARTICLE 1
SECTION
1.01
FINDINGS
AND
DECLARATION OF POLICY. The legislature finds
that the Edwards Aquifer is a unique and complex
hydrological system, with diverse economic and social
interests dependent on the aquifer for water supply.
In keeping with that finding, the Edwards Aquifer is
declared to be a distinctive natural resource in this
state, a unique aquifer, and not an underground
stream. To sustain these diverse interests and that
natural resource, a special regional management
district is required for the effective control of the
resource to protect terrestrial and aquatic life,
domestic and municipal water supplies, the operation
of existing industries, and the economic development
of the state. Use of water in the district for beneficial
purposes requires that all reasonable measures be
taken to be conservative in water use.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.01,
1993 Tex. Gen. Laws 2350.
SECTION
1.02
CREATION.
(a)
A
conservation and reclamation district, to be known as
the Edwards Aquifer Authority, is created in all or
part of Atascosa, Bexar, Caldwell, Comal, Guadalupe,
Hays, Medina, and Uvalde counties. A confirmation
election is not necessary. The authority is a
governmental agency and a body politic and corporate.
(b)
The authority is created under and is
essential to accomplish the purposes of Article XVI,
Section 59, of the Texas Constitution.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.02,
1993 Tex. Gen. Laws 2350, 2351.

80a
SECTION 1.03 DEFINITIONS.
article:

In this

(1)
“Aquifer” means the Edwards
Aquifer, which is that portion of an arcuate belt
of porous, water-bearing, predominately
carbonate rocks known as the Edwards and
Associated Limestones in the Balcones Fault
Zone extending from west to east to northeast
from the hydrologic division near Brackettville
in Kinney County that separates underground
flow toward the Comal Springs and San Marcos
Springs from underground flow to the Rio
Grande Basin, through Uvalde, Medina,
Atascosa, Bexar, Guadalupe, and Comal
counties, and in Hays County south of the
hydrologic division near Kyle that separates
flow toward the San Marcos River from flow to
the Colorado River Basin.
(2)
“Augmentation” means an act or
process to increase the amount of water
available for use or springflow.
(3)
“Authority” means the Edwards
Aquifer Authority.
(4)
“Beneficial use” means the use of
the amount of water that is economically
necessary for a purpose authorized by law,
when reasonable intelligence and reasonable
diligence are used in applying the water to that
purpose.
(5)
“Board” means
directors of the authority.

the

board

of

81a
(6)
“Commission” means the Texas
Natural Resource Conservation Commission.
(7)
“Conservation”
means
any
measure that would sustain or enhance water
supply.
(8)
“Diversion” means the removal of
state water from a watercourse or
impoundment.
(9)
“Domestic or livestock use” means
use of water for:
(A)
drinking,
culinary purposes;

washing,

or

(B)
irrigation of a family
garden or orchard the produce of which
is for household consumption only; or
(C)

watering of animals.

(10) “Existing user” means a person
who has withdrawn and beneficially used
underground water from the aquifer on or
before June 1, 1993.
(11) “Industrial use” means the use of
water for or in connection with commercial or
industrial activities, including manufacturing,
bottling, brewing, food processing, scientific
research and technology, recycling, production
of concrete, asphalt, and cement, commercial
uses of water for tourism, entertainment, and
hotel or motel lodging, generation of power
other than hydroelectric, and other business
activities.

82a
(12) “Irrigation use” means the use of
water for the irrigation of pastures and
commercial crops, including orchards.
(13) “Livestock”
means
animals,
beasts, or poultry collected or raised for
pleasure, recreational use, or commercial use.
(14) “Municipal use” means the use of
water within or outside of a municipality and
its environs whether supplied by a person,
privately owned utility, political subdivision, or
other entity, including the use of treated
effluent for certain purposes specified as
follows. The term includes:
(A)
the use of water for
domestic use, the watering of lawns and
family gardens, fighting fires, sprinkling
streets, flushing sewers and drains,
water parks and parkways, and
recreation, including public and private
swimming pools;
(B)
the use of water in
industrial and commercial enterprises
supplied by a municipal distribution
system without special construction to
meet its demands; and
(C)
the application of treated
effluent on land under a permit issued
under Chapter 26, Water Code, if:
(i)
the primary purpose
of the application is the treatment
or necessary disposal of the
effluent;

83a
(ii)
the application site
is a park, parkway, golf course, or
other landscaped area within the
authority’s boundaries; or
(iii) the effluent applied
to the site is generated within an
area for which the commission
has adopted a rule that prohibits
the discharge of the effluent.
(15) “Order” means any written
directive carrying out the powers and duties of
the authority under this article.
(16) “Person” means an individual,
corporation, organization, government or
governmental subdivision or agency, business
trust, estate, trust, partnership, association,
and any other legal entity.
(17) “Pollution” means the alteration
of the physical, thermal, chemical, or biological
quality of any water in the state, or the
contamination of any water in the state, that
renders the water harmful, detrimental, or
injurious to humans, animal life, vegetation,
property, or public health, safety, or welfare or
that impairs the usefulness of the public
enjoyment of the water for any lawful or
reasonable purpose.
(18) “Recharge” means increasing the
supply of water to the aquifer by naturally
occurring channels or artificial means.

84a
(19) “Reuse” means authorized use for
one or more beneficial purposes of use of water
that remains unconsumed after the water is
used for the original purpose of use and before
the water is discharged or otherwise allowed to
flow into a watercourse, lake, or other body of
state-owned water.
(20)

“Underground water” or “groundwater”
means water percolating beneath the
earth.

(21)

“Waste” means:
(A)
withdrawal of underground
water from the aquifer at a rate and in
an amount that causes or threatens to
cause intrusion into the reservoir of
water unsuitable for agricultural,
gardening, domestic, or stock raising
purposes;
(B)
the flowing or producing of
wells from the aquifer if the water
produced is not used for a beneficial
purpose;
(C)
escape of underground
water from the aquifer to any other
reservoir that does not contain
underground water;
(D)
pollution
or
harmful
alteration of underground water in the
aquifer by salt water or other deleterious
matter admitted from another stratum
or from the surface of the ground;

85a
(E)
willfully or negligently
causing, suffering, or permitting
underground water from the aquifer to
escape into any river, creek, natural
watercourse, depression, lake, reservoir,
drain, sewer, street, highway, road, or
road ditch, or onto any land other than
that of the owner of the well unless such
discharge is authorized by permit, rule,
or order issued by the commission under
Chapter 26, Water Code;
(F)
underground water pumped
from the aquifer for irrigation that
escapes as irrigation tailwater onto land
other than that of the owner of the well
unless permission has been granted by
the occupant of the land receiving the
discharge; or
(G)
for water produced from an
artesian well, “waste” has the meaning
assigned by Section 11.205, Water Code.
(22) “Well” means a bored, drilled, or
driven shaft or an artificial opening in the
ground made by digging, jetting, or some other
method where the depth of the shaft or opening
is greater than its largest surface dimension,
but does not include a surface pit, surface
excavation, or natural depression.
(23) “Well J-17” means state well
number AY-68-37-203 located in Bexar County.
(24) “Well J-27” means state well
number YP-69-50-302 located in Uvalde
County.

86a
(25) “Withdrawal” means an act or a failure
to act that results in taking water from the aquifer by
or through man-made facilities, including pumping,
withdrawing, or diverting underground water.
(26) “Agricultural use” means any use or
activity involving any of the following activities:
(A)
cultivating the soil to
produce crops for human food, animal
feed, or planting seed or for the
production of fibers;
(B)
the practice of floriculture,
viticulture, silviculture, and horticulture,
including the cultivation of plants in
containers or nonsoil media, by a
nursery grower;
(C)
raising, feeding, or keeping
animals for breeding purposes or for the
production of food or fiber, leather, pelts,
or other tangible products having a
commercial value;
(D)

wildlife management;

(E)
raising or keeping equine
animals; and
(F)
planting
cover
crops,
including cover crops cultivated for
transplantation, or leaving land idle for
the purpose of participating in any
governmental program or normal crop or
livestock rotation procedure.
(27) “Nursery grower” means a person
who grows more than 50 percent of the

87a
products that the person either sells or leases,
regardless of the variety sold, leased, or grown.
For the purpose of this definition, “grow”
means the actual cultivation or propagation of
the product beyond the mere holding or
maintaining of the item before sale or lease and
typically includes activities associated with the
production or multiplying of stock, such as the
development of new plants from cuttings,
grafts, plugs, or seedlings.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.03,
1993 Tex. Gen. Laws 2350, 2351; as amended by Act
of May 25, 2001, 77th Leg., R.S., ch. 1192, 2001 Tex.
Gen. Laws 2696; Act of May 28, 2001, 77th Leg., R.S.,
ch. 966, § 2.60, 2001 Tex. Gen. Laws 1991, 2021; as
amended by Act of May 27, 2019, 86th Leg., R.S., ch.
___, § 1, 2019 Tex. Gen. Laws ____, ____-__.
SECTION
1.04
BOUNDARIES.
The
authority includes the territory contained within the
following area:
(1)
all of the areas of Bexar, Medina,
and Uvalde counties;
(2)
all of the area of Comal County,
except that portion of the county that lies
North of the North line through the county of
Subdivision No. 1 of the Underground Water
Reservoir in the Edwards Limestone, Balcones
escarpment area, as defined by the order of the
Board of Water Engineers dated January 10,
1957;

88a
(3)
the part of Caldwell County
beginning with the intersection of Hays County
Road 266 and the San Marcos River;
THENCE southeast along the San Marcos
River to the point of intersection of Caldwell,
Guadalupe, and Gonzales counties;
THENCE southeast along the CaldwellGonzales County line to its intersection with U.S.
Highway 183;
THENCE north along U.S. Highway 183 to its
intersection with State Highway 21;
THENCE southwest along State Highway 21 to
its intersection with Hays County Road 266;
THENCE southwest along Hays County Road
266 to the place of beginning;
(4)
the part of Hays County
beginning on the northwest line of the R. B.
Moore Survey, Abstract 412, in Comal County
where it crosses the Comal County-Hays
County line northeast along the northwest line
of said Survey to the northeast corner of said
Survey in Hays County, Texas;
THENCE southeast in Hays County, Texas
across the Jas. Deloach Survey, Abstract 878, to the
most westerly northwest corner of the Presidio
Irrigation Co. Survey, Abstract 583;
THENCE northeast along the northwest line of
said Survey to its most northerly northwest corner;

89a
THENCE continuing in the same line across
the R.S. Clayton Survey 2, Block 742, to the west line
of the H. & G. N. RR. Co. Survey 1, Abstract 668;
THENCE north along the west line of said
Survey to its northwest corner;
THENCE east along the north line of said
Survey to its northeast corner;
THENCE northeast across the David Wilson
Survey 83, Abstract 476, to the southeast corner of the
F. W. Robertson Survey 71, Abstract 385;
THENCE north along the east line of said
Survey to the southwest corner of the Benjamin Weed
Survey 72, Abstract 483;
THENCE east along the south line of said
Survey to its southeast corner;
THENCE northeast across the William Gray
Survey 73, Abstract 92, and the Murray Bailey
Survey 75, Abstract 42, to the southwest corner of the
D. Holderman Survey 33, Abstract 225;
THENCE north along the west line of said
Survey to its northwest corner;
THENCE continuing in the same line to the
north line of the Day Land & Cattle Co. Survey 672;
THENCE west along said north line of said
Survey to its northwest corner, which is in the east
line of the Jesse Williams Survey 4 to the northeast
corner of said Survey;

90a
THENCE west along the north line of said
Survey to the Southwest corner of the Amos Singleton
Survey 106, Abstract 410;
THENCE north along the west lines of said
Amos Singleton Survey 106 and the Watkins Nobles
Survey 107, Abstract 346, to the northwest corner of
said Watkins Nobles Survey 107;
THENCE east along the north line of said
Survey to the southwest corner of the Jesusa Perez
Survey 14, Abstract 363;
THENCE north along the west line of said
Jesusa Perez Survey 14 to its northwest corner;
THENCE east along the north line of said
Survey to its northeast corner;
THENCE, south along the east line of said
Survey for a distance of approximately 10,000 feet to
its intersection with Ranch Road 150;
THENCE, east by southeast along Ranch Road
150 approximately 24,500 feet to its intersection with
the southern boundary line of the Andrew Dunn
Survey 9, Abstract 4;
THENCE, east along the south line of said
survey as it extends and becomes the southern
boundary line of the Morton M. McCarver Survey 4,
Abstract 10, for a distance of approximately 7,000 feet
to its intersection with Ranch Road 2770;
THENCE, south on Ranch Road 2770 for a
distance of approximately 400 feet to its intersection
with Farm-to-Market Road 171;

91a
THENCE, east along Farm-to-Market Road
171 for a distance of approximately 10,500 feet to its
intersection with Farm-to-Market Road 25;
THENCE, north by northeast along Farm-toMarket Road 25 for a distance of approximately 3,100
feet to its intersection with Farm-to-Market Road
131;
THENCE, east by southeast along Farm-toMarket Road 131 for a distance of approximately
3,000 feet to its intersection with the east line of the
Thomas G. Allen Survey, Abstract 26;
THENCE south along the east line of said
Thomas G. Allen Survey to the most northerly
northwest corner of the Elisha Pruett Survey 23,
Abstract 376;
THENCE southwest along a west line of said
Elisha Pruett Survey 23 to the west corner of said
Survey;
THENCE southeast along the southwest line of
said Survey to the north corner of the John Stewart
Survey, Abstract 14;
THENCE southwest along the northwest line
of said John Stewart Survey to its west corner;
THENCE continuing in the same line to the
most northerly southwest line of the John Jones
Survey, Abstract 263;
THENCE southeast along said southwest line
to an interior corner of said John Jones Survey;

92a
THENCE southwest along the most southerly
northwest line of said Survey to the southwest corner
of said Survey;
THENCE southeast along the south line of said
Survey to the north corner of the James W. Williams
Survey 11, Abstract 473;
THENCE southwest along the northwest line
of said James W. Williams Survey 11 to its west
corner;
THENCE southeast along the southwest line of
said Survey to the north right-of-way line of the I. &
G. N. RR.;
THENCE southwest along said right-of-way of
said I. & G. N. RR. to the Hays County- Comal County
line;
THENCE south along said county line to the
northwest line of the R. B. Moore Survey, Abstract
412, in Hays County where it crosses the Hays
County-Comal County line;
(5)
all of the territory of Hays County
contained within the following described area:
Beginning on the most southern point of Hays
County at the intersection of Hays, Comal, and
Guadalupe Counties; then continuing in a
northeasterly direction along the Hays-Guadalupe
county line to its intersection with the Hays-Caldwell
county line; then continuing along the Hays-Caldwell
county line to an intersection with Farm-to-Market
Road 150; then continuing in a northwesterly
direction along Farm-to-Market Road 150 to the
intersection with the existing southern boundary of

93a
the part of Hays County described in Subdivision (4)
of this section; then continuing in a southwesterly
direction along the existing southern boundary of the
part of Hays County described in Subdivision (4) of
this section to the intersection with the Hays-Comal
county line; then continuing in a southerly direction
along the Hays-Comal county line to the point of
beginning;
(6)
the part of Guadalupe County
beginning at the Guadalupe County- Caldwell
County-Hays County line at the San Marcos
River in the northeast corner of Guadalupe
County, Texas.
THENCE southwest along the Guadalupe
County-Hays County line to the intersect of the
Guadalupe County-Hays County-Comal County line.
THENCE southwest along the Guadalupe
County-Comal County line to the intersect of the
Guadalupe County-Comal County-Bexar County
intersect at the Cibolo creek.
THENCE south along the Guadalupe CountyBexar County line along the Cibolo creek to the
intersect of the Guadalupe County-Bexar CountyWilson County line.
THENCE south along the Guadalupe CountyWilson County line along the Cibolo creek to the
intersect and crossing of Guadalupe County Road
417.
THENCE east along Guadalupe County Road
417 to the intersect of Guadalupe County Road 417
and Guadalupe County Road 412.

94a
THENCE northeast along Guadalupe County
Road 412 to the intersect of Guadalupe County Road
412 and Guadalupe County Road 411 A.
THENCE east along Guadalupe County Road
411 A to the intersect of Guadalupe County Road 411
A and Farm-to-Market road number 725.
THENCE north along Farm-to-Market Road
725 to the intersect of Farm-to-Market Road 725 and
Interstate Highway 10.
THENCE east along Interstate Highway 10 to
the intersect of Interstate Highway 10 and State
Highway 90.
THENCE east along State Highway 90 to the
Guadalupe County-Caldwell County line at the San
Marcos river.
THENCE northwest along the Guadalupe
County-Caldwell County line along the San Marcos
river to the place of beginning;
(7)
the part of Atascosa County
beginning on the north line of the Robt. C.
Rogers Survey, at the Bexar County-Atascosa
County line, to its northwest corner, which is
the northeast corner of the F. Brockinzen
Survey, Abstract 86;
THENCE south along the east line of said
Survey passing through its southeast corner and
continuing south along the east line of the F.
Brockinzen Survey, Abstract 90, to its southeast
corner;

95a
THENCE west along the south line of said
survey to its southwest corner;
THENCE north along the west line of said F.
Brockinzen Survey to the southeast corner of the B.
Bonngartner Survey, Abstract 87;
THENCE west along the south line of said B.
Bonngartner Survey passing through its southwest
corner and continuing along the south line of the J. B.
Goettlemann Survey, Abstract 309, to the Atascosa
County-Medina County line;
THENCE north along the Atascosa CountyMedina County line to the Bexar County line;
THENCE east along the Atascosa CountyBexar County Line to the place of beginning;
and
(8)
tracts:

the following parcels:
(A)

Parcel 1, consisting of two

(i)
Tract 1 - 153-70/100
acres of land in Atascosa County,
Texas, being out of the W.L. Hurd
Original Survey No. 368; said
153-70/100 acres being more
particularly described as follows:
beginning at an iron stake set in
the Northwest corner of the
J.B. Bush 261.7 acre tract, said
corner being in the Southeast
intersection of the Lytle-Seglar

96a
and Lytle-Bexar Roads, for the
Northwest corner of this tract;
THENCE South 00° 28’ East, with the East line
of the Lytle-Seglar Road, 1767.5 feet to an iron stake
for the Southwest corner of this tract;
THENCE South 89° 27’ East 3748.8 feet to an
iron stake set for the Southeast corner of this tract,
said stake being in the West line of a 40-foot road;
THENCE North 00° 39’ West, with the West
line of said 40-foot road, 1806.9 feet to an iron stake
set in the South line of the Lytle-Bexar Road, for the
Northeast corner of this tract;
THENCE South 89° 57’ West, with the South
line of the Lytle-Bexar Road, 3742.5 feet to the place
of beginning; and
(ii)
Tract 2 - 73 acres of
land in Atascosa County, Texas,
being out of the R.C. Rogers
Survey No. 530, said 73 acres
being more particularly described
as follows:
beginning at the most Northerly
North East corner of this tract,
said corner being in the South
R/W line of State Highway No.
1518, and being South 89 degrees
02 minutes West 522.1 feet from
the intersection of this road R/W
with the West R/W of the Luckey
road;

97a
THENCE South 497.5 feet to an iron pin for
corner;
THENCE East 522.0 feet to an iron pin for a
corner in the West R/W line of said Luckey Road;
THENCE South 24 minutes east 2559.0 feet
along said Luckey Road R/W to the Southeast corner
of this tract;
THENCE South 89 degrees West 1148.6 feet to
the Southwest corner of this tract; THENCE North
2855.4 feet to a corner;
THENCE East 210.0 feet to a corner;
THENCE North 210.0 feet to a corner in the
South R/W line of State Highway No. 1518;
THENCE North 89 degrees 02 minutes East
397.0 feet along said Highway R/W to the place of
beginning; and
tracts:

(B)

Parcel 2, consisting of five

(i)
Tract 1 - 185.14
acres of land, more or less, out of
the Robert C. Rogers Sur. No. 530,
Abstr. No. 721, in Atascosa
County, Texas, described as being
all of that certain 242.025 acres of
land, more or less, described as
“First Tract” in Warranty Deed
recorded in Vol. 291, p. 120, Deed
Records, Atascosa County, Texas,
dated October 31, 1962, executed
by Mae S. Bush, et vir, to C.W.

98a
Mask,
et
ux,
and
more
particularly described by metes
and bounds as follows:
beginning at the NE corner of the
original W.P. Riley 565.3 acre
tract, more particularly described
in Warranty Deed dated June 18,
1923, executed by W.P. Riley to
B.L. Riley, recorded in Vol. 93, p.
24, Deed Records, Atascosa
County, Texas, said point also
being the NE corner of that
certain 80.675 acre tract more
particularly described by metes
and bounds in Warranty Deed
dated May 24, 1943, executed by
J.F. Riley, et ux, to J.W. Bush, Sr.,
recorded in Vol. 162, p. 125, Deed
Records, Atascosa County, Texas;
THENCE west along the south R.O.W. line of
the Lytle-New Somerset public road, 1129 feet to a
point for beginning; said beginning point being the
NE corner of said 242.025 acre subdivision, being also
the NW corner of a subdivision of 80.675 acres
heretofore conveyed to J.W. Bush, Sr.;
THENCE S. 0° 09’ E. 3075.43 feet to the SE
corner of said 242.025 acre subdivision; THENCE S.
89° 20’ W. 2489.44 feet to an inside corner;
THENCE S. 0° 34’ W. 602 feet to corner;
THENCE N. 89° 36’ W. 778 feet to the SW
corner of this tract, being also the SE corner of the
W.C. Riley 242.6 acres;

99a
THENCE N. 0° 09’ W. 3660.9 feet to the NW
corner of this tract, being also the NE corner of the
W.C. Riley 242.6 acre tract;
THENCE E. along the S. R.O.W. line of the
Lytle-New Somerset Road 3260 feet to the place of
beginning, and containing 242.025 acres of land, more
or less, being parcels 1, 2, and 3, of a subdivision of
the east portion of the said W.P. Riley original 565.3
acres of land;
LESS HOWEVER, the following:
23.20 acres of land, more less, out
of the northwest corner of the
C.W. Mask 860 acre tract of land,
said 23.20 acres of land, more or
less, more particularly described
by metes and bounds as follows:
beginning at a cedar corner post
in the south R.O.W. line of Farm
Road 1518, at station no. 325 plus
90.5 for the northwest corner of
this tract, said corner being also
the northwest corner of said 860
acre tract;
THENCE S. 89° 47’ E. 661.0 feet along a fence
line to an iron pin in a fence corner for the southeast
corner;
THENCE S. 89° 17’ W. 672.1 feet along a fence
to an iron pin in a fence corner for the southwest
corner, said corner being in the west line of the 860
acre tract;

100a
THENCE N. 0° 23’ W. 1521.6 feet along the
west line of said 860 acre tract to the place of
beginning; and
LESS 14.86 acres of land, more or less, out of
the C.W. Mask 860 acre tract of land, said 14.86 acres
of land, more or less, more particularly described by
metes and bounds as follows: beginning at a creosote
corner post in the south R.O.W. line of Farm Road
1518 at station 314 plus 96.5 on a line 661’ from
corner of C.W. Mask 860 acre tract for the NW corner
of this tract; THENCE S. 89° 47’ E. 433 feet along a
fence line on said Road 1518 south R.O.W. line to an
8” cedar corner post for the NE corner;
THENCE S. 0° 13’ W. 1504.0 feet along a fence
line to an iron pin in a fence corner for the SE corner;
THENCE S. 89° 21’ W. 426.5 feet along a fence
line to an iron pin in the fence corner for the SW
corner;
THENCE N. 0° 02’ W. 1510.6 feet along a fence
line to the place of beginning; and
LESS 6.31 acres of land, more or less, more
particularly described by metes and bounds as
follows:
beginning at a cedar corner post in the south R.O.W.
line of FM 2790 at Station 314 plus 96.5 for the
northwest corner of this tract;
THENCE S. 89° 47’ E. 275 feet along a fence on
FM 2790 south R.O.W. line to an iron pin for the
northeast corner;

101a
THENCE S. 0° 13’ W. 1000 feet to an iron pin
for the southeast corner;
THENCE N. 89° 41’ W. 275 feet to an iron pin
in a fence line, for the southwest corner;
THENCE N. 0° 13’ E. 1000 feet along an
existing fence line to the place of beginning;
and
LESS the south 12.515 acres of the above
described 242.025 acres of land, more or less;
(ii)
Tract 2 - 12.515
acres of land, more or less, out of
the Robert C. Rogers Sur No. 530,
Abstr. No. 721, in Atascosa
County, Texas, described as being
the south 12.515 acres of land,
more or less, of that certain
242.025 acres of land, more or
less, described as “First Tract” in
Warranty Deed recorded in Vol.
291, p. 120, Deed Records,
Atascosa County, Texas, dated
October 31, 1962, executed by
Mae S. Bush, et vir, to C.W. Mask,
et ux, and which 242.025 acres of
land, more or less, is more
particularly described by metes
and bounds as follows:
beginning at the NE corner of the
original W.P. Riley 565.3 acre
tract, more particularly described
in Warranty Deed dated June 18,

102a
1923, executed by W.P. Riley to B.
L. Riley, recorded in Vol. 93, p. 24,
Deed Records, Atascosa County,
Texas; said point also being the
NE corner of that certain 80.675
acre tract more particularly
described by metes and bounds in
Warranty Deed dated May 24,
1943, executed by J.F. Riley, et
ux, to J.W. Bush, Sr., recorded in
Vol. 162, p. 125, Deed Records,
Atascosa County, Texas;
THENCE west along the south R.O.W. line of
the Lytle-New Somerset public road, 1129 feet to a
point for Beginning; said Beginning point being the
NE corner of said 242.025 acre subdivision, being also
the NW corner of a subdivision of 80.675 acres
heretofore conveyed to J.W. Bush, Sr.;
THENCE S. 0° 09’ E. 3075.43 feet to the SE
corner of said 242.025 acre subdivision; THENCE S.
89° 20’ W. 2489.44 feet to an inside corner;
THENCE S. 0° 34’ W. 602 feet to corner;
THENCE N. 89° 36’ W. 778 feet to the SW
corner of this tract, being also the SE corner of the
W.C. Riley 242.6 acres;
THENCE N. 0° 09’ W. 3660.9 feet to the NW
corner of this tract, being also the NE corner of the
W.C. Riley 242.6 acre tract;
THENCE E. along the S. R.O.W. line of the
Lytle-New Somerset Road 3260 feet to the place of
beginning, and containing 242.025 acres of land, more

103a
or less, being parcels 1, 2, and 3, of a subdivision of
the east portion of the said W. P. Riley original 565.3
acres of land;
(iii) Tract 3 - 304 acres of
land, more or less, out of the
Robert C. Rogers Sur. No. 530,
Abstr. No. 721, in Atascosa
County, Texas, described as
“Second Tract” in Warranty Deed
recorded in Vol. 291, p. 120, Deed
Records, Atascosa County, Texas,
dated October 31, 1962, executed
by Mae S. Bush, et vir, to C. W.
Mask,
et
ux,
and
more
particularly described by metes
and bounds as follows:
beginning at a fence corner, the
most easterly SE corner of this
tract in the NW corner of a county
road, said fence corner being the
northeast corner of a 20 acre tract
out of the Robert C. Rogers Sur.
No. 530, Abstr. No. 721, more
particularly described by metes
and bounds in Deed dated May
31, 1985, executed by Thomas W.
Thornton, et ux, to Robert Harold
Griffin, recorded in Vol. 717, p. 92,
Deed Records, Atascosa County,
Texas; said point also being the
northeast corner of that certain
177.596 acre tract described in
Deed dated October 13, 1980,
executed by Harry E. Richardson,

104a
et al, to Thomas Warren
Thornton, et ux, recorded in Vol.
538, p. 363, Deed Records,
Atascosa County, Texas;
THENCE N. 0° 35’ E. with the west line of said
county road, 2447 feet to a fence corner, the NE corner
of this tract;
THENCE S. 89° 20’ W. with a fence, 3648 feet
to a fence corner for the NW corner;
THENCE with a fence the west line as follows:
S. 0° 34’ E. 602 feet; S. 0° 38’ E. 1836 feet, and S. 0°
19’ W. 2447 feet to a fence corner in the SW corner;
THENCE S. 89° 35’ E. with a fence, 1787 feet
to a fence corner in the west line of the county road
for the SE corner;
THENCE N. 0° 01’ W. with a fence, the west
line of said road, 2482 feet to a fence corner;
THENCE N. 89° 41’ E. with the north line of
road 1823 feet to the place of beginning;
(iv) Tract 4 - 313.8 acres
of land, more or less, composed of
lands formerly owned in part by
Martha W. White and in part by
M. E. Jordan and subsequently
owned by the Dr. R. B Touchstone
Estate, said 313.8 acres of land,
more or less, being out of the
Robert C. Rogers Sur. No. 530,
Abstr. No. 721, in Atascosa
County, Texas, and described as
“Third Tract” in Warranty Deed

105a
recorded in Vol. 291, p. 120, Deed
Records, Atascosa County, Texas,
dated October 31, 1962, executed by
Mae S. Bush, et vir, to C. W. Mask,
et ux, and more particularly
described by metes and bounds as
follows:
beginning at a fence corner, the
NE corner of this tract and the
SE corner of the Mae S. Bush
tract, as described in Deed dated
September 22, 1944, executed by
H. M. Bush, Sr., to Mae S. Bush,
recorded in Vol. 166, p. 508, Deed
Records, Atascosa County, Texas;
THENCE with a fence, the east line of this
tract, S. 0° 21’ E. 3694.8 feet to a fence corner, the SE
corner of the M.E. Jordan tract, for the SE corner of
this tract;
THENCE S. 89° 33’ W. with a fence, the south
line of the Jordan tract, 3709.4 feet to the SW corner
of the Jordan tract, the SW corner of this tract;
THENCE N. 0° 34’ E. with a fence at 1869 feet
pass common corner of the Jordan and White tract, a
distance of 3731 feet to a fence corner, the NW corner
of the White tract, for the NW corner of this tract;
THENCE N. 89° 37’ E. with a fence the north
line of the White tract, the north line of this tract,
711.8 feet to an angle in fence;
THENCE N. 89° 50’ E. continuing with said
fence, 2937.1 feet to the place of Beginning;
and

106a
(v)
Tract 5 - 5.066 acres
of land, more or less, out of the
Robert C. Roberts Sur. 530, Abstr.
No. 721, in Atascosa County,
Texas, more particularly described
by metes and bounds in Warranty
Deed dated July 31, 1992, recorded
in Vol. 854, p. 724, Deed Records,
Atascosa County, Texas, executed
by Thomas Warren Thornton, et
ux, to Jerry Kye Mask.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.04,
1993 Tex. Gen. Laws 2350, 2353; as amended by Act
of May 21, 2009, 81st Leg., R.S., ch. 1080, 2009 Tex.
Gen. Laws 2818.
SECTION 1.05 FINDINGS RELATING TO
BOUNDARIES. The legislature finds that the
boundaries and field notes of the authority form a
closure. A mistake in the field notes or in copying the
field notes in the legislative process does not affect the
organization, existence, or validity of the district or
the legality or operation of the district or its governing
body.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.05,
1993 Tex. Gen. Laws 2350, 2355.
SECTION 1.06 FINDING OF BENEFIT. (a)
The legislature finds that the water in the unique
underground system of water-bearing formations
known as the Edwards-Balcones Fault Zone Aquifer
has a hydrologic interrelationship to the Guadalupe,
San Antonio, San Marcos, Comal, Frio, and Nueces
river basins, is the primary source of water for the
residents of the region, and is vital to the general

107a
economy and welfare of this state. The legislature
finds that it is necessary, appropriate, and a benefit
to the welfare of this state to provide for the
management of the aquifer through the application of
management mechanisms consistent with our legal
system and appropriate to the aquifer system.
(b)
The legislature further finds that the
state will be benefited by exercise of the powers of the
authority and by the works and projects that are to be
accomplished by the authority under powers
conferred by Article XVI, Section 59, of the Texas
Constitution. The authority is created to serve a
public use and benefit.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.06,
1993 Tex. Gen. Laws 2350, 2355.
SECTION
1.07
OWNERSHIP
OF
UNDERGROUND WATER. The ownership and
rights of the owner of the land and the owner’s lessees
and assigns, including holders of recorded liens or
other security interests in the land, in underground
water and the contract rights of any person who
purchases water for the provision of potable water to
the public or for the resale of potable water to the
public for any use are recognized. However, action
taken pursuant to this Act may not be construed as
depriving or divesting the owner or the owner’s
lessees and assigns, including holders of recorded
liens or other security interests in the land, of these
ownership rights or as impairing the contract rights
of any person who purchases water for the provision
of potable water to the public or for the resale of
potable water to the public for any use, subject to the
rules adopted by the authority under this Act or a
district exercising the powers provided by Chapter 36,

108a
Water Code. The legislature intends that just
compensation be paid if implementation of this article
causes a taking of private property or the impairment
of a contract in contravention of the Texas or federal
constitution.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.07,
1993 Tex. Gen. Laws 2350, 2356; as amended by Act
of May 27, 2019, 86th Leg., R.S., ch. ___, § 2, 2019 Tex.
Gen. Laws ____, ____-__.
SECTION 1.08 GENERAL POWERS. (a)
The authority has all of the powers, rights, and
privileges necessary to manage, conserve, preserve,
and protect the aquifer and to increase the recharge
of, and prevent the waste or pollution of water in, the
aquifer. The authority has all of the rights, powers,
privileges, authority, functions, and duties provided
by the general law of this state, including Chapters 49
and 51, Water Code, applicable to an authority
created under Article XVI, Section 59, of the Texas
Constitution. This article prevails over any provision
of general law that is in conflict or inconsistent with
this article regarding the area of the authority’s
jurisdiction. Chapter 36, Water Code, does not apply
to the authority.
(b)
The authority’s powers regarding
underground water apply only to underground water
within or withdrawn from the aquifer. This
subsection is not intended to allow the authority to
regulate surface water.
(c)
The authority and local governments
with pollution control powers provided under
Subchapters D and E, Chapter 26, Water Code, in
order to prevent pollution and enforce water quality

109a
standards in the counties included within the
authority’s boundaries and within a buffer zone that
includes all of the area less than five miles outside of
those counties, shall apply pollution control
regulations equally and uniformly throughout the
area within the counties and the buffer zone. The
buffer zone does not include the territory within a
water management district created under Chapter
654, Acts of the 71st Legislature, Regular Session,
1989.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.08,
1993 Tex. Gen. Laws 2350, 2356; as amended by Act
of May 27, 2019, 86th Leg., R.S., ch. ___, § 3, 2019 Tex.
Gen. Laws ____, ____-__.
SECTION 1.081 FIRE CONTROL. To
protect the water quality of the aquifer, the board
shall adopt rules regarding the control of fires in the
aquifer’s recharge zone. In adopting rules under this
section, the board shall consult with fire departments
and fire marshals with jurisdiction over the recharge
zone.
Act of May 23, 2007, 80th Leg., R.S., ch. 510, 2007 Tex.
Gen. Laws 900.
SECTION 1.09 BOARD OF DIRECTORS;
ELECTIONS; TERMS. (a) The authority is
governed by a board of directors composed of 15
directors elected from the single- member election
districts described by Section 1.093 of this article and
two directors appointed as provided by Section 1.091
of this article. The elected directors serve staggered
four-year terms with as near as possible to one-half of
the members’ terms expiring December 1 of each
even- numbered year.

110a
(b)
The board shall order elections of the
appropriate number of directors to replace directors
holding elected offices whose terms are nearest
expiration to be held on the uniform election date in
November of each even-numbered year.
(c)
If a director’s position becomes vacant
for any reason, the board shall appoint a qualified
person to serve until the first election of directors
following the appointment. If the position is not
scheduled to be filled at that election, the board shall
provide for a director to be elected at that election to
serve in the position for the remainder of the
unexpired term.
(d)
Section 41.008, Election Code, does not
apply to an election held under this article.
(e)
At the initial meeting of the board
following an election of new directors, the directors
shall elect a presiding officer and other necessary
officers. Officers serve terms set by rule of the board
not to exceed two years.
(f)
An act of the board is not valid unless
adopted by the affirmative vote of a majority of the
directors who are entitled to vote when a quorum is
present. For purposes of this subsection, eight
directors who are entitled to vote constitute a quorum.
(g)
A director receives no compensation for
service on the board but is entitled to reimbursement
for actual and necessary expenses incurred in the
performance of the director’s duties.
(h)
An elected director shall hold office until
a successor has been elected and has qualified by
taking the oath of office.

111a
(i)
A member of a governing body of another
political subdivision is ineligible for appointment or
election as a director of the authority. A director of the
authority is disqualified and vacates the office of
director if the director is appointed or elected as a
member of the governing body of another political
subdivision.
(j)
For liability purposes only, a director of
the authority is considered an employee of the
authority under Chapter 101, Civil Practice and
Remedies Code, even if the director does not receive
fees of office voluntarily, by authority policy, or
through a statutory exception.
(k)
A director of the authority is immune
from suit and immune from liability for official votes
and official actions. To the extent an official vote or
official action conforms to laws relating to conflicts of
interest, abuse of office, or constitutional obligations,
this subsection provides immunity for those actions.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.09,
1993 Tex. Gen. Laws 2350, 2356; as amended by Act
of May 29, 1995, 74th Leg., R.S., ch. 261, § 1, 1995 Tex.
Gen. Laws 2505; as amended by Act of May 27, 2019,
86th Leg., R.S., ch. ___, § 4, 2019 Tex. Gen. Laws ____,
____-__.
SECTION 1.091 NONVOTING MEMBERS
OF BOARD. (a) In addition to the directors provided
by Section 1.09 of this article, the board includes two
nonvoting directors appointed as provided by this
section.
(b)
One nonvoting director shall be
appointed by a majority vote of the South Central

112a
Texas Water Advisory Committee from among the
members of the committee.
(c)
One nonvoting director shall be
appointed by the Commissioners Court of Medina
County or Uvalde County as provided by this
subsection. A nonvoting director appointed by the
Commissioners Court of Medina County must be a
resident of Medina County, and a nonvoting director
appointed by the Commissioners Court of Uvalde
County must be a resident of Uvalde County. The
Commissioners Court of Medina County shall appoint
the nonvoting director for the term beginning
December 1, 1996, and the Commissioners Court of
Uvalde County shall appoint the nonvoting director
for the term beginning December 1, 2000. Subsequent
directors shall be appointed under this subsection by
the Commissioners Courts of Medina County and
Uvalde County in alternation.
(d)
A director appointed under this section
serves a four-year term. The terms of the initial
directors appointed under this section begin
December 1, 1996, and expire December 1, 2000.
Subsequent regular appointments under this section
shall be made on or before the date of the directors
election held for the even-numbered election districts
described by Section 1.093 of this article.
Subsequently appointed directors’ terms expire
December 1 following the appointment of the
directors’ successors. If the office of a director
appointed under this section becomes vacant for any
reason, the office shall be filled by appointment as
provided by Subsection (b) or (c) of this section, as
appropriate, for the unexpired portion of the term.

113a
(e)
A director appointed under this section
is entitled to participate in and comment on any
matter before the board in the same manner as a
voting director, except that a director appointed
under this section may not vote on any matter before
the board.
(f)
A director appointed under this section
is not entitled to compensation for service on the
board but is entitled to reimbursement for actual and
necessary expenses incurred in performing the
director’s duties.
Act of May 29, 1995, 74th Leg., R.S., ch. 261, § 1, 1995
Tex. Gen. Laws 2505, 2507.
SECTION 1.092 TEMPORARY BOARD
AND INITIAL ELECTION OF DIRECTORS. (a)
Until a board is elected as provided by this section and
takes office, the authority is governed by a temporary
board that consists of:
(1)

Mr. Phil Barshop;

(2)

Mr. Ralph Zendejas;

(3)

Mr. Mike Beldon;

(4)

Ms. Rosa Maria Gonzales;

(5)

Mr. John Sanders;

(6)

Ms. Sylvia Ruiz Mendelsohn;

(7)

Mr. Joe Bernal;

(8)

Mr. Oliver R. Martin;

(9)

Mr. A. O. Gilliam;

114a
(10)

Mr. Bruce Gilleland;

(11)

Mr. Rogelio Munoz;

(12)

Mr. Doug Miller;

(13)

Ms. Paula DiFonzo;

(14)

Mr. Mack Martinez;

(15)

Ms. Jane Houghson;

(16) one temporary director appointed
by the South Central Texas Water Advisory
Committee from among the members of the
committee; and
(17) one temporary director appointed
jointly by the Commissioners Courts of Medina
County and Uvalde County who must be a
resident of one of those counties.
(b)
A temporary director appointed by the
South Central Texas Water Advisory Committee or by
the Commissioners Courts of Medina County and
Uvalde County is a nonvoting member of the
temporary board. The temporary director appointed
by the South Central Texas Water Advisory
Committee serves until the first nonvoting director
appointed under Section 1.091(b) takes office. The
temporary director appointed by the Commissioners
Courts of Medina County and Uvalde County serves
until the first nonvoting director appointed under
Section 1.091(c) of this article takes office.
(c)
If a vacancy occurs in a temporary
director’s office, except for the two nonvoting
temporary directors, the remaining directors shall

115a
appoint a person to fill the vacancy. If a vacancy
occurs in the office of one of the nonvoting temporary
directors, the body that made that director’s
appointment shall appoint a person to fill the
vacancy.
(d)
As soon as is practicable, the temporary
board shall:
(1)
meet to elect a presiding officer
and other necessary officers; and
(2)
adopt
rules
governing
authority and board procedures.

the

(e)
A temporary director receives no
compensation for service on the board but is entitled
to reimbursement for actual and necessary expenses
incurred in the performance of the director’s duties.
(f)
A temporary director is not personally
liable for any action the director takes within the
scope of the director’s office and under color of
authority granted by this article.
(g)
The temporary board shall order an
election of directors to be held on the uniform election
date in November 1996. Notwithstanding Section
1.09 of this article, the initial directors elected from
odd-numbered election districts described by Section
1.093 of this article serve terms expiring December 1,
1998, and the initial directors elected from evennumbered districts described by that section serve
terms expiring December 1, 2000.
(h)
The temporary board has all of the
authority granted to the permanent board by this
article and by general law.

116a
Act of May 29, 1995, 74th Leg., R.S., ch. 261, § 1, 1995
Tex. Gen. Laws 2505, 2507.
SECTION 1.093
SINGLE-MEMBER
ELECTION DISTRICTS. (a) District 1 is composed
of Bexar County tracts 1203, 1204, 1205.02, 1206,
1208, 1209.02, 1211.03, 1211.04, 1211.05, 1211.06,
1211.07, 1211.08, 1212.01, 1212.02, 1218.01, 1218.03,
1218.04, 1218.05, 1219.02, 1914.02, 1917, 1918.01,
and 1918.02; and that part of Bexar County tract
1205.01included in block groups 6, 7, 8, and blocks
104, 105, 106, 107, 310, 501, and 504; and that part of
Bexar County tract 1207 included in block groups 2
and 3 and blocks 104, 105, 106, 107, 108, 109, 110,
111, 112, 113, 114, 115, 116, 117, 118, 120, 121, 122,
123, 124, 125, 407, 408, 409, 410, 411, 412, 413, 414,
415, 417, 418, 419, 502, 503, 504, 505, and 506; and
that part of Bexar County tract 1209.01 included in
block groups 2 and 3 and blocks 102, 116, 117, 118,
119, 120, 121, 122, 123, 124, 125, and 132; and that
part of Bexar County tract 1210 included in block
groups 4, 5, and 6; and that part of Bexar County tract
1213 included in block groups 1 and 2; and that part
of Bexar County tract 1214.01 included in blocks
102A, 102B, 103, 104, 105, 106, 107, 108, 109, 110,
111, 112, and 113; and that part of Bexar County tract
1215.01 included in blocks 101, 102, 103, 104, 105A,
105B, 106, 108, 109, 110, 118, 119, 120, 121, 122, 123,
124, 125, 126, 201, 202, 203, 204, 205, 206, 207, 208,
209, 210, 211, 212, 213, 214, 215, 216, 217, 218, 219,
220, 221, 222, 223, 224, 225, 226, 227, 228, 229, 230,
and 231; and that part of Bexar County tract 1216.03
included in block groups 3, 4, 5, 6, and blocks 101, 102,
103A, 103B, 103C, 104, 105A, 105B, 107, 108, 109,
201B, 201C, 201E, 202, 204, 205, and 206; and that
part of Bexar County tract 1217 included in blocks

117a
101A, 101B, 101C, 101D, 111A, 111B, and 112; and
that part of Bexar County tract 1218.02 included in
block groups 1 and 3; and that part of Bexar County
tract 1219.01 included in blocks 202, 203, 204, 205,
206A, 206B, 207A, 301, 302, 303, 304, 305, 306, 307,
308, 309, 310, 311, 312, 313, 314, 315, 316, 317, and
318; and that part of Bexar County tract 1903
included in blocks 132A, 133, 134A, 134B, 134C,
134D, 135A, and 135B; and that part of Bexar County
tract 1904 included in blocks 101A, 101B, 103, 104,
and 105; and that part of Bexar County tract 1908
included in blocks 101, 102, 103, 105, 106, 107, 108,
110, 111, 112, 113, 118, 120, 122, 125, 127, 130, 201,
202, 204, 205, 208, 210, 211, 212, 216, 217, 218, 219,
220, 221, 225, 301, 302, 304, 305, 306, 307, 311, 313,
314, 315, 316, 317, 318, 319, 320, 321, and 334; and
that part of Bexar County tract 1909 included in
blocks 313, 317, 319, 320, 321, 322, 323, 324, 325, 326,
327, 328, and 329; and that part of Bexar County tract
1912 included in block groups 1, 2, 6, 7, and blocks
301, 302, 303, 304, 305, 306, 309, 310, 501, 502, 503,
504, 505, 506, 507, 508, 509, 510, and 511; and that
part of Bexar County tract 1913 included in block
groups 1, 4, 5, and blocks 201, 202, 203, 204, 205, 206,
207, 208, 209, 210, 215, 216, 217, 218, 219, 220, 221,
222, 236, 237, 244, 301, 302, 303, 304, 305, 306, 307,
308, and 310; and that part of Bexar County tract
1914.01 included in block group 1; and that part of
Bexar County tract 1914.03 included in block groups
3 and 4.
(b)
District 2 is composed of Bexar County
tracts 1102, 1201.85, 1214.02, 1301, 1302, 1303, 1305,
1306, 1307.85, 1308, 1308.84, 1309, 1310, 1311, 1312,
1313, 1314, 1315.01, 1315.02, and 1316.04; and that
part of Bexar County tract 1101 included in block

118a
groups 2, 3, 4, 5, 6, 7, and blocks 102, 103, 104, 105,
106, 107, 110, 111, 112, 113, 114, 118, 119, 120, 121,
122, 124, 125, 126, 127, 129, 130, 131, 132, 133, 134,
135, 136, 137, 138, 139, 140, 142, and 144; and that
part of Bexar County tract 1109 included in blocks
126, 130, 201, 202, 203, 204, 209, 210, 211, 212, 213,
214, 217, 220, 221, 222, 223, 224, 225, 226, 227, 228,
229, 235, 236, 237, 238, 239, 240, 241, 242, 243, 244,
245, 246, 247, 248, and 249; and that part of Bexar
County tract 1110 included in block group 1 and
blocks 201, 206, 207, 208, 209, 210, 211, 212, 213, 214,
215, 216, 217, 218, 219, 220, 221, 222, 223, 224, 225,
226, 227, 228, 229, 230, 231A, 231B, 232, 233, 234,
235, 236, 237, 238, 239, 401, 406, 407, 408, 409, 410,
415, 416, and 417; and that part of Bexar County tract
1202.85 included in block groups 1, 2, 3, 4, 5, 9, and
blocks 601, 602, 603, 604, 605, 606, 607, 608A, 608B,
610, 613, 614, 615, and 617; and that part of Bexar
County tract 1205.01 included in block groups 2 and
4 and blocks 101, 102, 103, 108, 109, 110, 111, 301,
302, 303, 304, 305, 306, 307, 308, 309, 311, 312, 313,
314, 315, 316, 317, 318, 319, 320, 502, 503, 505, 506,
507, 508, 509, 510, 511, 512, 513, 514, 515, 516, 517,
518, 519, and 520; and that part of Bexar County tract
1214.01 included in block groups 4, 5, 6, and 7; and
that part of Bexar County tract 1215.02 included in
block groups 4 and 5; and that part of Bexar County
tract 1215.03 included in block groups 3 and 4; and
that part of Bexar County tract 1304 included in block
groups 1 and 8 and blocks 201, 202, 203, 204, 205, 206,
207, 208, 209, 210, 211, 212, 213, 214B, 701, 704B,
705, 706, and 707; and that part of Bexar County tract
1404 included in blocks 408, 409, and 411; and that
part of Bexar County tract 1902 included in blocks
317 and 318; and that part of Bexar County tract 1903

119a
included in blocks 101A, 101B, 102, 103, 104, 105,
106, 107, 108, 112, 121, 122, 123, 126, 127, 132B, and
138; and that part of Bexar County tract 1904
included in blocks 102, 106, 107, 108, 109, 110, 111,
118, 122, 201, 202, 209, 210B, 301, 309, 310, 311, and
404.
(c)
District 3 is composed of Bexar County
tracts 1105, 1106, 1107, 1108, 1601, 1701, 1702, 1704,
1705, 1809.01, 1809.02, 1810.01, 1811, 1901, 1905,
1906, 1907, 1910.01, 1910.02, 1911.01, and 1911.02;
and that part of Bexar County tract 1101 included in
blocks 101, 108, and 109; and that part of Bexar
County tract 1104 included in block groups 3 and 4
and blocks 106, 202, 203, 204, and 205; and that part
of Bexar County tract 1109 included in blocks 101,
102, 103, 104, 105, 106, 107, 108, 109, 110, 111, 112,
113, 114, 115, 116, 117, 118, 119, 120, 121, 122, 123,
124, 125, 127, 128, 139, 140, 205, 206, 207, 208, 215,
216, 218, 219, 230A, 230B, 231, 232, 233, and 234; and
that part of Bexar County tract 1110 included in block
group 3 and blocks 202, 203, 204, 205, 402, 403, 404,
405, 411, 412, 413, 414, 418, 419, and 420; and that
part of Bexar County tract 1202.85 included in blocks
609, 611, 612, and 616; and that part of Bexar County
tract 1207 included in block groups 6, 7, 8, and blocks
101, 102, 103, 119, 401A, 401B, 402, 403, 404, 405,
406, 416, 420, 421, and 501; and that part of Bexar
County tract 1209.01 included in blocks 101 and 140;
and that part of Bexar County tract 1210 included in
block groups 1, 2, and 3; and that part of Bexar
County tract 1501 included in blocks 601, 602, 603,
604, 605, 606, 607, 608, 609, 610, 611, 612, 613, 614,
615, 616, 617, 618, 619, 624, 625, and 626; and that
part of Bexar County tract 1602 included in blocks
214, 303, and 310; and that part of Bexar County tract

120a
1605 included in block groups 2 and 3 and blocks 117,
and 118; and that part of Bexar County tract 1703
included in block groups 1, 2, 7, 8, and blocks 301, 302,
303, 304, 305, 306, 307, 308, 311, 312, 321, 322, 323,
324, 327, 399, 405, 406, 414, 415, 505, 506, 513, 514,
605, 606, 612, 613, 614, and 615; and that part of
Bexar County tract 1802 included in block groups 1,
2, 3, 4, 7, 8, and 9; and that part of Bexar County tract
1808 included in blocks 110B and 111; and that part
of Bexar County tract 1812 included in blocks 401,
402, 408, 409, 410, 411, and 412; and that part of
Bexar County tract 1813 included in block groups 1,
2, 3, 4, and 5; and that part of Bexar County tract
1902 included in block groups 1, 2, 4, 5, 6, 7, and
blocks 301, 302, 303, 304, 305, 306, 307, 308, 309,
310, 311, 312, 313, 314, 316, 319, 320, and 323; and
that part of Bexar County tract 1903 included in
blocks 109, 110, and 111; and that part of Bexar
County tract 1904 included in blocks 203, 204, 205,
206, 207, 208, 210A, 211, 212, 213, 214, 215, 303, 304,
305, 306, 307, 308, 312, 313, 314, 401, 402, 403, 406,
407, 408, 409, 410, 411, 412, 413, 414, 415, 416, and
417; and that part of Bexar County tract 1908
included in blocks 104, 109, 124, 126, 128, 129, 206,
207, 213, 214, 215, 222, 303, 308, 309, 310, 324, 325,
326, 327, 328, 329, 330, 331, 332, 333, 335, and 336;
and that part of Bexar County tract 1909 included in
block groups 1, 2, 4, 5, 6, 7, 8, 9, and blocks 301, 302,
303, 304, 305, 306, 307, 308, 309, 310, 311, 312, 314,
315, 316, and 318; and that part of Bexar County tract
1912 included in block group 4 and blocks 307, 308,
311, 312, 313, 314, 315, and 512; and that part of
Bexar County tract 1913 included in blocks 211, 212,
213, 214, 223, 224, 225, 226, 227, 228, 229, 230, 231,
232, 233, 234, 235, 238, 239, 240, 241, 242, 243, 309,

121a
311, 312, and 313; and that part of Bexar County tract
1914.04 included in blocks 202, 203, 204, 205, 206,
207, 302, 303, 304, 305, 306, 307, 308, 309, 310, 311,
312, 313, 314, 315, 316, and 317.
(d)
District 4 is composed of Bexar County
tracts 1617, 1719.01, 1719.02, 1719.03, 1719.04,
1719.05, 1719.06, 1817.01, 1817.03, 1817.04, 1817.05,
1817.06, 1817.07, 1817.08, 1817.09, 1817.10, 1818.01,
1818.05, 1819, 1820, 1821, 1914.05, 1915.01, 1915.02,
1916, and 1918.03; and that part of Bexar County
tract 1614.01 included in block 913B; and that part of
Bexar County tract 1616 included in block groups 1
and 2 and blocks 304, 305, and 306; and that part of
Bexar County tract 1618 included in block groups 1,
2, and 3; and that part of Bexar County tract 1720
included in block group 1 and blocks 201, 202, 203A,
203B, 204, 205, 206, 207, 208, 209, 210, 211, 212, 213,
214, 215, 216, 217, 218, 219, 220, 221, 222, 223, 224,
225, 226, 227, 228, 229, 230, 231, 232, 233, 234, 235,
236, 237, 238, 239, 240, 241, 242, 243, 244, 245, 246,
247, 248, 249, 250, 251, 252, 253, 254, 255, 256, 257,
258, 259, 260, 261, 262, 263, 264, 265, 266, 267, 268,
269, 270, 271, 272, 273, 274, 275, 276, 277, 278, 279,
280, 281, 282, 283, 284, 285, 286, 287, 288, 289, 290,
291, 292A, 292B, 293, 294, 295A, 295B, and 296; and
that part of Bexar County tract 1812 included in block
groups 1, 2, 3, 5, and blocks 403, 404, 405, 406, and
407; and that part of Bexar County tract 1815.02
included in block groups 5, 6, and 7; and that part of
Bexar County tract 1816 included in block group 2
and blocks 101A, 101B, 101C, 102A, 102B, 103, 104A,
104B, 105A, 105B, 106, 107, 108A, 109A, 110A, 111A,
112, 113, 114, 122, 136A, 136B, 143A, 143B, 305, 306,
601, and 602; and that part of Bexar County tract
1818.02 included in block groups 2, 3, 4, 5, and blocks

122a
102, 103, 104, 105, 106, 107, 108, 109, 110, 111, 112,
and 113; and that part of Bexar County tract 1818.03
included in blocks 108, 109, 110, 111, 112, 113, 114,
115, 116, 117, 118, 120A, 120B, and 301; and that part
of Bexar County tract 1818.04 included in block
groups 2, 3, 4, 5, 6, 7, and block 101; and that part of
Bexar County tract 1914.01 included in block groups
2 and 3; and that part of Bexar County tract 1914.03
included in block groups 1 and 2; and that part of
Bexar County tract 1914.04 included in block group 1
and blocks 201 and 301.
(e)
District 5 is composed of Bexar County
tracts 1216.01, 1317, 1416, 1418, 1511, 1512, 1513,
1514, 1515, 1516, 1517, 1518, 1519, 1520, 1521, 1522,
1606, 1607.85, 1610.85, 1611, 1612, 1613, 1614.85,
1615.01, 1615.02, 1619, and 1620; and that part of
Bexar County tract 1216.03 included in blocks 106A,
106B, 201D, 201F, and 203; and that part of Bexar
County tract 1216.04 included in block groups 1 and
2 and blocks 301A, 301B, 302, 303, 304, and 305; and
that part of Bexar County tract 1217 included in block
groups 2, 3, 4, 5, 6, and blocks 102A, 102B, 103, 104A,
104B, 105, 106, 107, 108, 109, 110A, and 110B; and
that part of Bexar County tract 1218.02 included in
block group 2; and that part of Bexar County tract
1219.01 included in block group 1 and blocks 201,
207B, 208, 209, 210, 319, and 320; and that part of
Bexar County tract 1316.01 included in blocks 101,
102, 103A, 103B, 103C, 103D, 103E, 104A, 104B,
104C, 105A, 105B, 106, 107A, 107B, 108A, 108B, 109,
110, 113, 114, 117, 118A, 118B, 119A, 119B, 119C,
119D, 119E, 119F, 119G, 121A, 121B, 121C, 121D,
121E, 122, 124, 133, 134, 135, 136, 137, 138A, and
138B; and that part of Bexar County tract 1316.03
included in blocks 201 and 204; and that part of Bexar

123a
County tract 1318 included in block group 3 and
blocks 214, 215, 216, 218, 401, 411, 412, 413, 414, 415,
416, 417, 418, 424, 425, 426, 427, 428, 429, and 430;
and that part of Bexar County tract 1415 included in
block 901A; and that part of Bexar County tract 1417
included in blocks 101, 102, 103, 104, 105, 106, 107,
108A, 108B, 109, 110, 111, 112, 113, 114, 115, 116,
117, 118, 119A, 119B, 120, 121, 122, 124, 125, 126,
132A, 132B, 133, 134, 135, 136, 139, 140, 141, 142,
143, and 199; and that part of Bexar County tract
1419 included in block group 2 and blocks 101, 102,
103A, 103B, 104, 105, 106, 107, 108, 109, 110, 111A,
111B, 112A, 112B, 301A, 301B, 302, 309A, 310, 311,
312, 314, 315, 316, 317, 318, 319, 320A, 320B, 321,
322, 323, 324, 325, 326, 327, 328, 329A, 329B, 330A,
330B, 331, 332, and 399; and that part of Bexar
County tract 1605 included in block groups 6, 7, 8, and
blocks 101, 102, 103, 104, 105, 106, 107, 108, 109, 110,
111, 112, 113, 114, 115, and 116; and that part of
Bexar County tract 1609 included in block groups 3,
4, 5, and blocks 207, 208, 209, 210, 211, 212, 213, 214,
215, 216, 601, 602, 603, 604, 605, 606, 607, 608, 609,
610, 611, 612, 613, and 618; and that part of Bexar
County tract 1614.01 included in blocks 913A, 913C,
and 913D; and that part of Bexar County tract 1616
included in blocks 302, 303, 307A, 307B, and 308; and
that part of Bexar County tract 1618 included in block
group 4; and that part of Bexar County tract 1703
included in blocks 313, 314, 315, 316, 317, 318, 319,
401, 402, 403, 404, 407, 408, 409, 410, 411, 412, 413,
416, 417, 418, 419, 501, 502, 503, 504, 507, 508, 509,
510, 511, 512, 515, 516, 517, 518, 601, 602, 603, 604,
607, 608, 609, 610, 611, 616, and 617; and that part of
Bexar County tract 1710 included in block groups 4,

124a
5, and 6; and that part of Bexar County tract 1720
included in block 297.
(f)
District 6 is composed of Bexar County
tracts 1103, 1215.04, 1401, 1402, 1403, 1405, 1406,
1407, 1408, 1409, 1410, 1411, 1412, 1413, 1414, 1502,
1503, 1504, 1505, 1506, 1507, 1508, 1509, 1510, 1603,
1604, and 1608; and that part of Bexar County tract
1104 included in blocks 101, 102, 103, 104, 105, 107,
108, 109, 110, 111, 112, 113, 114, 115, 201, 206, 207,
208, 209, 210, 211, 212, 213, 214, and 215; and that
part of Bexar County tract 1213 included in block
groups 3, 4, and 5; and that part of Bexar County tract
1214.01 included in block groups 2 and 3 and block
101; and that part of Bexar County tract 1215.01
included in block group 3 and blocks 107, 111, 112,
113, 114, 115, 116, 117, 127, 128, 129, 130, 131, 232,
233, 234, 235, and 236; and that part of Bexar County
tract 1215.02 included in block groups 1, 2, and 3; and
that part of Bexar County tract 1215.03 included in
block groups 1, 2, 5, 6, 7, and 8; and that part of Bexar
County tract 1216.03 included in block 201A; and that
part of Bexar County tract 1216.04 included in block
group 4 and blocks 306, 307, 308, 309, 310, 311, 312,
313, 314, 315, 316, 317, 318, 319, 320, and 321; and
that part of Bexar County tract 1304 included in block
groups 3, 4, 5, 6, and blocks 214A, 215, 220, 221, 702,
703, 704A, 720, 726, 734, 735, 736, 737, 738, 739, and
740; and that part of Bexar County tract 1316.01
included in blocks 111, 112, 115A, 115B, 116, 120A,
120B, 120C, 123A, 123B, 125, 126, 127, 128A, 128B,
128C, 129A, 129B, 130, 131A, 131B, 131C, 131D, 132,
139, 140, 141, 142, and 143; and that part of Bexar
County tract 1316.03 included in block groups 1, 3, 4,
and blocks 202, 203A, 203B, 203C, 203D, 205, 206,
207, 208, 209, 210, 211, 212, 213, 214A, 214B, 214C,

125a
214D, 214E, 215A, 215B, 216A, 216B, 217, 218, 219,
220, 221, 222, 223, 224, 225, 226, and 227; and that
part of Bexar County tract 1318 included in block
group 1 and blocks 201, 202, 203A, 203B, 204A, 204B,
205, 206A, 206B, 206C, 207A, 207B, 208, 209, 210,
211, 212, 213, 217, 219, 220, 221, 222A, 222B, 223A,
223B, 224, 225, 226, 227, 228, 229, 230, 402, 403, 404,
405, 406, 407, 408, 409, 410, 419, 420, 421, 422, and
423; and that part of Bexar County tract 1404
included in block groups 1, 2, 3, and blocks 401, 402,
403, 404, 405, 406, 407, 410, 414, 415, 423, 424, 425,
426, 428, 429, and 430; and that part of Bexar County
tract 1415 included in blocks 901B and 902; and that
part of Bexar County tract 1417 included in block
group 2 and blocks 123A, 123B, 127A, 127B, 127C,
128A, 128B, 129A, 129B, 130A, 130B, 131, 137A,
137B, 138A, and 138B; and that part of Bexar County
tract 1419 included in blocks 113A, 113B, 113C, 114,
115, 303A, 303B, 304A, 304B, 305A, 305B, 306A,
306B, 307, 308, 309B, and 313; and that part of Bexar
County tract 1501 included in block groups 1, 2, 3, 4,
5, and blocks 620, 621, 622, 623, 627, 628, and 629;
and that part of Bexar County tract 1602 included in
block group 1 and blocks 201, 202, 203, 204, 205, 206,
207, 208, 209, 210, 211, 212, 213, 215, 216, 217, 218,
219, 220, 221, 222, 223, 224, 225, 301, 302, 304, 305,
306, 307, 308, 309, 311, 312, 313, 314, 315, 316, 317,
318, 319, 320, and 321; and that part of Bexar County
tract 1605 included in block groups 4 and 5; and that
part of Bexar County tract 1609 included in block
groups 1 and 7 and blocks 201, 202, 203, 204, 205, 206,
614, 615, 616, 617, 621, and 622.
(g)
District 7 is composed of Bexar County
tracts 1706, 1707, 1708, 1709, 1711, 1712, 1713, 1714,
1715, 1716, 1717, 1718, 1801, 1803, 1804, 1805.01,

126a
1805.02, 1806, 1807.01, 1807.02, 1810.03, 1810.04,
1810.05, 1814.01, 1814.02, and 1815.01; and that part
of Bexar County tract 1616 included in block 301; and
that part of Bexar County tract 1710 included in block
groups 1, 2, 3, 7, and 8; and that part of Bexar County
tract 1802 included in block groups 5 and 6; and that
part of Bexar County tract 1808 included in block
groups 2 and 3 and blocks 101, 102, 103, 104, 105, 106,
107, 108, 109, 110A, 110C, 112, 113, 114, and 115; and
that part of Bexar County tract 1813 included in block
group 6; and that part of Bexar County tract 1815.02
included in block groups 1, 2, 3, and 4; and that part
of Bexar County tract 1816 included in block groups 4
and 5 and blocks 108B, 109B, 110B, 111B, 301, 302,
303, 304, 603, 604, 605, 606, 607, and 608; and that
part of Bexar County tract 1818.02 included in block
101; and that part of Bexar County tract 1818.03
included in block group 2 and blocks 101, 102A, 102B,
102C, 103, 104, 105, 106, 107, 119, 302, 303, 304, 305,
306, and 307; and that part of Bexar County tract
1818.04 included in blocks 102, 103, 104, 105, 106,
107, 108, 109, and 110.
(h)
District 8 is composed of that part of
Comal County tract 3101 included in block group 5
and blocks 101, 102A, 104, 105, 106, 107, 108, 109,
110, 111, 112, 113A, 115, 116, 117, 118, 119, 120, 121,
122, 123, 124, 125, 126, 130, 131, 132, 133, 134, 135,
142, 143, 144, 145, 146, 147, 148, 149, 150, 201, 202,
211, 212, 213, 214, 225, 226, 243, 244, 245, 301, 302,
303, 304, 305, 309, 310, 312, 315, 316, 317, 318, 319,
320, 321, 401, 402, 403, 404, 405, 406, 407, 408, 409,
410, 411, 412, 413, 414, 415, 416, 417, 418, 419, 420,
421, 422, 423, 424, 425, 426, 427, 428, 429, 430, and
499; and that part of Comal County tract 3102
included in block group 2 and blocks 110, 111, 118,

127a
125, 127A, 145, 146, 301, 302, 303, 304, 305, 306, 307,
308, 309, 310, 311, 312, 313, 314, 315, 316, 317, 318,
319, 320, 321, 322, 323, and 325; and that part of
Comal County tract 3103 included in blocks 112B,
212, and 520; and that part of Comal County tract
3104.01 included in block groups 3, 4, 5, 6, and blocks
102, 103, 104, 115, 201, 202, 203, 204, 205, 206, 207,
208, 209, 210, 211, 212, 213, 214, 215, 216, 217, 218,
219, 220A, 220B, 220C, 221, 222, 223, 224, and 225;
and that part of Comal County tract 3104.02 included
in blocks 201, 206, 207, 208, 302, 401, 402, 403, 404,
405, 406, 407, 408, 410, 411, 412, and 413; and that
part of Comal County tract 3105 included in blocks
110, 111, 113, 114, 115, 116, 117, 122, 123, 124, 125,
126, 127, 128, 129, 130, 135, 136, 137, 138, 139, 140,
141, 142, 144, 145, 146, 147, 148, 149, 199X, 199Y,
210, 211, 212, 218, 219, 220, and 222; and that part of
Comal County tract 3108 included in blocks 141, 142,
144, 145, 201, 202, 204, 205, 208, 212A, 212B, 214,
217, 218, 219, 220A, 220B, 220C, 221A, 221B, 222,
223A, 223B, 225, 226, 227, 228A, 228B, 228C, 229A,
229B, 230A, 230B, 231B, 232B, 251A, 251B, 252A,
and 252B.
(i)
District 9 is composed of that part of
Comal County tract 3101 included in blocks 102B,
103, 113B, 114, 127, 128, 129, 136, 137, 138, 139, 140,
141, 203, 204, 205, 206, 207, 208, 209, 210, 215, 216,
217, 218, 219, 220, 221, 222, 223, 224, 227, 306, 307,
308, 311, 313, 314, 322, 323, 324, 325, 326, 327, 431,
and 432; and that part of Comal County tract 3102
included in blocks 101, 102, 103, 104, 105, 106, 107,
108, 109, 112, 113, 114, 115, 116, 117, 119, 120, 121,
122, 123, 124, 126, 127B, 128, 129, 130, 131, 132, 133,
134, 135, 136, 137, 138, 139, 140, 141, 142, 143, 144,
147, 199, and 324; and that part of Comal County

128a
tract 3103 included in block groups 3 and 4 and blocks
101, 102, 103, 104, 105, 106, 107, 108, 109, 110, 111,
112A, 201, 202, 203, 204, 205, 206, 207, 208, 209, 210,
211, 213, 214, 501, 502, 503, 504, 505, 506, 507, 508,
509, 510, 511, 512, 513, 514, 515, 516, 517, 518, 519,
521, 522, 523, 599, 599Y, and 599Z; and that part of
Comal County tract 3104.01 included in blocks 101,
105, 106, 107, 108, 109, 110, 111, 112, 113, 114, 116,
117, 118, 119, 120, 121, 122, 123, 124, 125, 126, 199,
and 220D; and that part of Comal County tract
3104.02 included in block group 1 and blocks 202, 203,
204, 205, 209, 210, 211, 212, 213, 301, 303, 304A,
304B, 305, 306, 307, 308, 309, 310, 311, 312, 313A,
313B, 314, 409, 414, 415, 416A, 416B, and 417; and
that part of Comal County tract 3105 included in
block groups 3 and 4 and blocks 101, 102, 103, 104,
105, 106, 107, 108, 109, 112, 118, 119, 120, 121, 131,
132, 133, 134, 143, 199Z, 201, 202, 203, 204, 205, 206,
207, 208, 209, 213, 214, 215, 216, 217, and 221; and
that part of Comal County tract 3106.01 included in
blocks 189 and 190; and that part of Comal County
tract 3107 included in blocks 330, 332, 333, 334, 335,
336, 337, 338, 339, 340, 341, 342A, 342B, 343, 344A,
344B, 345, 346, 347, 348, 349, 350, 351, and 352; and
that part of Comal County tract 3108 included in
block group 3 and blocks 101A, 101B, 102, 103, 104,
105, 106A, 106B, 106C, 107, 108, 109, 110, 111, 112,
113, 114, 115, 116A, 116B, 117, 118, 119A, 119B, 120,
121, 122, 123, 124A, 124B, 124C, 124D, 124E, 125A,
125B, 126A, 126B, 127, 128, 129, 130, 131, 132, 133,
134A, 134B, 134C, 135, 136, 137, 138, 139, 140, 143,
199, 203, 206, 207, 209, 210, 211, 213A, 213B, 215A,
215B, 216A, 216B, 216C, 224, 231A, 232A, 233A,
233B, 234A, 234B, 235, 236A, 236B, 237A, 237B, 238,
239A, 239B, 239C, 240, 241, 242, 243, 244A, 244B,

129a
244C, 245A, 245B, 246, 247, 248, 249A, 249B, 250A,
250B, 253, 254A, 254B, 255A, 255B, 256A, 256B,
257A, 257B, and 258; and that part of Comal County
tract 3109 included in block group 3 and blocks 101,
102, 103, 104, 105, 106, 108, 110, 136, 137, 142, 143,
144, 145, 146, 147, 148, 149A, 149B, 150, 151, 152,
153, 154, 155, 156, 157, 158, 159, 160, 161, 162, 163,
164, 165A, 165B, 166, 167A, 167B, 168, 169A, 169B,
170, 171, 172, 173, 174, 175, 176, 177, 178, 179, 180A,
180B, 181, 182, 183, 184, 185, 186, 187, 188, 189, 190,
191, 192, 193, 194, 195, 202, 203, 204, 205, 206, 207,
208, 209, 210, 211, 212, 213, 214, 215, 216, 217, 218,
219, 220, 221, 222, 223, 224, 225, 226, 227, 228, 229,
230, 231, 232, 233, 234, 235, 236, 237, 238, 240, 241,
242, 243, 244, 245, 246, 247, 248, 249, 250, 251, 252,
253, 254, 255, 256, 257, 258, 259, 260, 261, 262, 263,
264, 265, 266, 267, 268, 269, 270, 271, 272, 273, 274,
275, 276, 277A, 277B, 277C, 277D, 277E, 278, 279A,
279B, 280, 281, 282, 283A, 283B, 284, 285, 286, 287,
288A, 288B, 289, 290, 291A, 291B, 292, 293, 294A,
294B, 295, 296, and 297; Guadalupe County tracts
2105.01, 2106.01, 2106.02, 2107.01, and 2107.03; and
that part of Guadalupe County tract 2105.02 included
in block groups 1 and 4 and blocks 201A, 201B, 201C,
202A, 202B, 203, 204, 205, 206, 207, 208, 209, 210A,
210B, 211A, 211B, 212, 213A, 213B, 213C, 213D, 214,
215A, 215B, 216A, 216B, 217A, 217B, 218A, 218B,
218C, 219, 220, 221, 222, 223, 224, 225, 226, 227A,
227B, 227C, 227D, 228, 229, 230A, 230B, 231, 232,
233, 234, 235A, 235B, 236, 237, 238, 239, 240, 241,
243, 299Y, 299Z, 301, 302, 303, 304, 305, 306, 307,
308, 309, 310, 311, 312, 313, 314, 315, 316, 317, 318A,
318B, 319, 320, 321, 322, 323, 324A, 324B, 324C,
325A, 325B, 325C, 327A, 327B, 328A, 328B, 329, 330,
331, 332, 333, 334, and 335; and that part of

130a
Guadalupe County tract 2107.04 included in block
groups 1, 2, 4, 5, 6, and blocks 301, 302, 303, 304, 305,
306, 307, 308, 309, 310, 311, 312, 313, 314, 315A,
315B, 315C, 315D, 316, 317, and 318; and that part of
Guadalupe County tract 2108 included in block
groups 6 and 7 and blocks 415, 416A, 416B, 419, 501A,
501B, 502A, 502B, 503, 504, 505, 506, 507A, 507B,
508A, 508B, 509A, 509B, 510A, 510B, 511, 512, 513,
514, 515, 516, 517, 518, 519, 520, 521, 522, 523, 524,
525, 526, 527, 528, 529A, 529B, 529C, 529D, 530, 531,
532, 533, 534A, 534B, 534C, 534D, 535A, 535B, 536A,
536B, 536C, 537A, 537B, 538, 539, 555, 556A, 556B,
557, 558A, 558B, 558C, 559, 560A, 560B, 561A, 561B,
562A, 562B, 563A, 563B, and 564. District 9 also
includes that part of Comal County tract 3106.01
included in block 194; that part of Comal County tract
3107 included in block 331; that part of Comal County
tract 3109 included in block 141; that part of
Guadalupe County tract 2105.02 included in block
242; and that part of Guadalupe County tract 2107.04
included in block 319.
(j)
District 10 is composed of that part of
Hays County tract 0101 included in blocks 137, 138,
142, 148, 237, 238, 239, 240, 241, 242, 243, 244, and
245; and that part of Hays County tract 0103.01
included in blocks 301, 302, 303, 304, 305, 306, 307,
402, 408, 409, 410, 411, 413, 503A, 503B, 504, 505,
506, 510B, 513, 514, 517A, 517B, 518, 519A, 519B,
519C, 520A, 520B, 521A, 521B, 522, 523, 525, 526A,
526B, 527, 528, 529, and 530; and that part of Hays
County tract 0103.02 included in blocks 101, 102, 103,
104, 107, 109, 110, 111, 112, 113, 114, 201, 202A,
202B, 203A, 203B, 204, 205, 207, 208, 209, 210, 211,
212, 213, 217, 218, 219, 220, 221, 222, 223, 224, 225,
226, 227, 228A, 228B, 229, 230, 231, 232, 233A, 233B,

131a
234, 235, 236, 237, 238, 239, 240, 241, 242, 243, 244,
245, 246, 247, 248, 249, 250, and 251; and that part of
Hays County tract 0104 included in block group 1 and
blocks 201, 202, 203, 204, 205, 206, 207, 208, 209, 210,
211, 212, 213, 214, 215, 301, 302, 303, 304, 305, 306B,
307, 308, 309A, 309B, 316A, 316B, 317A, 317B, 318,
319, 320, 321, 322, 323, 324, 325, 326, 327, 328, 329,
330A, 330B, 331A, 331B, 332, 333, 334, 335, 336,
337A, 337B, 338, 339, 340, 341, 342, 343, 344, 345,
346, 347, 348, 349, 350, 351, 352, 353, 354, 355, 356,
357, 358, 359, 360, 361, 362, 363, 364, 365, 366, 367,
368, 369, and 399R; and that part of Hays County
tract 0105 included in block group 2 and blocks 113,
114, 115, 117, 118, 119, 120, 121, 122, 123, 124, 125,
126, 127, 128, 129, 130, 131, 132, 133, 138, 139, 140,
141, 142, 143, 144, 145, 146, 147, 148, 149, 150, 151,
152, 153, 154, 155, 301, 302, 303, 304, 305, 306, 307,
308, 309, 310, 311, 313, 314, 408, 409A, 409B, 411,
412, 413A, 413B, 414, 415, 416A, 416B, and 417; and
that part of Hays County tract 0106 included in blocks
332, 333, 334, 335, and 337.
(k)
District 11 is composed of Caldwell
County BNA 9605 and that part of Caldwell County
BNA 9601 included in blocks 317, 318, 319, 320, 321,
322, 323, 324, 325, 326, 327, 328, 329, 330, 331, 332,
333, 335, 336, 337, 338, 339, 340, 341, 342, 343, 344,
345, 348, 349, 350, 354, 355, 356, 357, 358, 359, 360,
361, 362, 405A, 405B, 405C, 405D, 405E, 406, 407A,
407B, 408, 409, 410A, 410B, 410C, 410D, 410E, 411A,
411B, 412A, 412B, 412C, 412D, 413A, 413B, 413C,
414A, 414B, 415B, 416A, 416B, 416C, 417, 418A,
418B, 419A, 419B, 420, 421, 422A, 422B, 423, 424,
425, 426, 427, 428, 429, 430A, 430B, 431A, 431B, 432,
433, 434, 435, 436, 437, 438, 439, 440, 441A, 441B,
442, 443, 444, 445, 446, 447, 448, 449, 450, 451, 452,

132a
453, 454, 455, 456, 457, 458, 459, 460, 461, 462, 463,
464, 465, 466, 467, 468, 469, 470, 471, 472, 473, 474,
and 499; and that part of Caldwell County BNA 9602
included in blocks 209, 217, 218, 308, 309A, 309B,
309C, 310, 311, 312, 313, 314A, 314B, 314C, 314D,
315A, 315B, 316, 317, 318A, 318B, 319A, 319B, 319C,
320, 328, 329, 332, 333, and 334; and that part of
Caldwell County BNA 9603 included in block groups
3 and 4 and blocks 102, 103, 104, 105, 106, 107, 108,
109, 110, 111, 112, 113, 114, 115, 116, 118, 119, 120,
121, 122, 123, 124, 125, 126, 127, 128, 129, 202, 203,
204, 205, 206, 207, 208, 209, 210, 211, 212, 213, 217,
and 218; and that part of Caldwell County BNA 9604
included in block group 3 and blocks 102, 103, 106,
107, 108, 109, 110, 119, 120, 121, 122, 123, 201, 202,
203, 204, 205, 206, 207, 208, 209, 210, 211, 212, 213,
214, 215, 216, 217, 218, 219, 220, 221, 222, 223, 224,
227, 228, 229, 230, 231, 232, 233, 234, 235, 236, 237,
238A, 238B, 239, 240, 241, 242, 243, 244, and 245; and
that part of Caldwell County BNA 9606 included in
blocks 210, 211, 212, 213, 214, 215, 216, 217, 218, 219,
220, 221, 222, 223, 224, 225, 226, 227, 228, 229, 230,
231, 232, 233, 234, 235, 236, 237, 238, 239, 246, 288,
293, and 294; and that part of Caldwell County BNA
9607 included in block groups 4 and 5 and blocks 103,
104, 111, 112, 113, 114, 115, 116, 117, 118, 119, 120A,
120B, 134, 137, 138, 139, 140, 141, 142A, 142B, 143,
144, 145, 146, 147, 148, 149, 150, 151, 152, 153, 154,
181, 182, 183, 184, 185, 186, 187, 188, 189, 190, 191,
192, 193, 194, 195, 196, 197, 204, 205, 206, 207, 208,
212, 213, 214, 215, 216, 217, 218, 219, 220, 221, 222,
241, 242, 243, 244, 245, 246, 247, 248, 249, 250, 251,
252, 253, 258, 259, 260, 261, 262, 263, 264, 265, 266,
303, 304, 305, 306, 307, 308, 309, 310, 311, 312, 313A,
313B, 314, 315, 320, 321, 322, 323, 326, 327, 328, 329,

133a
330, 331, 332, 333, 334, 335, 336, 337, 338, 339, 340,
341, 342, 343, 344, 345, 346, and 347; Hays County
tract 0102; and that part of Hays County tract 0101
included in blocks 101, 102, 103, 104, 105, 106, 107,
108, 109, 110, 111, 112, 113, 114, 115, 116, 117, 118,
119, 120, 121, 122, 123, 124, 125, 126, 127, 128, 129,
130, 131, 132, 133, 134, 135, 136, 139, 140, 141, 143,
144, 145, 146, 147, 201, 202, 203, 204, 205, 206, 207,
208, 209, 210, 211, 212, 213, 214, 215, 216, 217, 218,
219, 220, 221, 222, 223, 224, 225, 226, 227, 228, 229,
230, 231, 232, 233, 234, 235, and 236; and that part of
Hays County tract 0103.01 included in block groups 1
and 2 and blocks 308, 309, 310, 311, 401, 403, 404,
405, 406, 407, 412, 414, 415, 416, 417, 418, 501A,
501B, 501C, 501D, 502A, 502B, 507A, 507B, 508A,
508B, 509A, 509B, 510A, 511, 512, 515, 516, and 524;
and that part of Hays County tract 0103.02 included
in blocks 105, 106, 108A, 108B, 206, 214A, 214B, 215,
and 216; and that part of Hays County tract 0104
included in blocks 216, 217, 218, 219A, 219B, 220,
221A, 221B, 306A, 310A, 310B, 311, 312, 313, 314,
and 315; and that part of Hays County tract 0105
included in blocks 101, 102, 103, 104, 105, 106, 107,
108, 109, 110, 111, 112, 116, 134, 135, 136, 137, 312,
401, 402A, 402B, 403A, 403B, 404, 405, 406, 407,
410A, 410B, 418, 419A, 419B, 420A, 420B, 421, 422,
and 423; and that part of Hays County tract 0106
included in block groups 1 and 2 and blocks 301, 302,
303, 304, 305, 306, 307, 308, 309, 310, 311, 312, 313,
314, 315, 316, 317, 318, 319, 320, 321, 322, 323, 324,
325, 326, 327, 328, 329, 330, 331, 336, 401A, 401B,
401C, 401D, 401E, 401F, 402, 403, 404, 405, 406, 407,
408, 411, 412, 413, 414, 415, 423, 424, 425, 426, 427,
428, 429, 430, 431, 432, 433, 434, 435A, 435B, 436,
437, 438, 439A, 439B, 440, 441, 442A, 442B, 442C,

134a
443, 444, 445, 446, 447, 448, 449, 450, 451, 452, 453,
454, 455, 456, 457, 458, 459, 460, 461, 462, 463, 464,
465, 466, 467, 468, 469, 470, 471, 472, 473, 474, 475,
476, and 477; and that part of Hays County tract 0107
included in block groups 1, 3, 4, and blocks 201, 202,
203, 204, 205, 206, 211, 212, 213, 214, 215, 216, 217,
218, 219, 220, 221, 222, 223, 224, 225, 226, 227, 228,
229, 230, 231, 232, 233, 234, 235, 236, 237, 238, 239,
240, 241, 242, 243, 244, 245, 246, 247, 248, 249, 250,
251, 252, 253, 254, 255A, 255B, 256, 257, 258, 259,
260, 261, 262A, 262B, 262C, 263, 264, 265, 266, 267,
268, 269, 270, 271, 272, 273, 274, 275, 276, 277, 278,
279, 280, 281, 282, 283, 284, 285, 286, 287, 288, 289,
290, 291, 292, 293A, 293B, 294, 295, and 296; and that
part of Hays County tract 0108.02 included in blocks
130, 137, 143, 144, 145, 146, 147, 148, 149, 150, 151,
152, 153, 154, 155, 156, 157, 158, 159, 160, 161, 162,
163, 164, 165, 166, 167, 168, 169, 170, 171, 172, 501,
502, 524, 525, 532, 533, 534, 655, 656, 657, 663, 664,
673, 674, 675, and 676; and that part of Hays County
tract 0109.02 included in blocks 123, 126, 127, 132B,
312, 313A, 313B, and 399; and that part of Hays
County tract 0109.04 included in block groups 2, 4, 5,
and blocks 101, 102A, 102B, 102C, 102D, 112, 113A,
113B, 113C, 114A, 114B, 114C, 115A, 115B, 301A,
301B, 302, 303, 304, 305, 306, 307, 308, 309, 310, 311,
317, 318A, 318B, 319, 320, 321, 322, 323, 324, 325,
326, 327, 328, 329, 330, 331, 332, 333A, 333B, 334,
335, 336, 337, 338, 339, 340, 341, and 342. District 11
also includes that part of Caldwell County BNA 9601
included in block 415A; that part of Hays County tract
0106 included in block 409; that part of Hays County
tract 0108.02 included in blocks 526 and 601; that
part of Hays County tract 0109.02 included in block
125; that part of Hays County tract 0109.03 included

135a
in block 223; and that part of Hays County tract
0109.04 included in block 104.
(l)
District 12 is composed of Medina
County BNA 9902 and that part of Medina County
BNA 9903 included in blocks 201A, 201B, 201C, 202,
203, 204A, 204B, 204C, 205, 206, 207, 208, 209, 210,
211, 212, 213, 214, 215, 216, 217, 218, 219, 220, 221,
222, 223A, 223B, 223C, 224, 225A, 225B, 226A, 226B,
227, 228, 229, 230, 231, 232, 233, 234, 235, 236, 237,
238, 239, 240, 241, 242A, 243, 244, 245, 247, 252, 253,
254, 255, 256, 257, 258, 259, 260, 261, 262, 263, 264,
265, 266, 267, 268, 269, 270, 271, 272, 273, 274, 275,
276, 277, 278, 279, 280, 301, 302, 303, 304, 305, 306,
307, 308, 309, 310, 311, 312, 313, 314, 315, 316, 317,
318, 319, 320, 321, 322, 323, 324, 325, 326, 327, 328,
329, 330, 331, 332, 333, 334, 335, 336, 337, 338, 339,
340, 341, 342, 343, 344, 345, 346, 347, 348, 349, 350,
351, 352, 353, 354, 355, 356, 358, 359A, 362A, 362B,
363, 364, 365, 366, 367, 368, 369, 370, 371, 372, 373,
374, 375, 376, 377, 378, 379, 380, 381, 382, 383, 384,
385, 386, 387, 388, 389, 390, 391, 392, 393, 394, 395,
396, 397, 401, 402A, 402B, 403, 404, 405, 406, 407,
408, 409, 410, 411, 412, 413, 414, 415, 416, 417, 418,
419, 420, 421, 422, 423, and 435; and that part of
Medina County BNA 9905 included in blocks 101,
102, 103, 104, 105, 106, 107, 108, 109, 110, 111, 112,
113, 114, 115, 116, 117, 118, 119, 120, 121, 122, 123,
124, 125, 126, 127, 128, 129, 130, 131, 132, 133, 134,
135, 136, 137, 138, 139, 140, 141, 142, 143, 144, 145,
146, 147, 148, 149, 150, 151, 152, 153A, 153B, 154,
155, 156, 157, 158, 159, 160, 161, 162, 163, 164, 165,
166, 167, 168, 169, 170, 171, 172, 173A, 173B, 174,
175, 176, 177, 178, 181A, 181B, 182, 201, 202, 203,
215, 222, 223, 224, 225, 235, 301, 302, 303, 307, 308,
315, 338, 350, 351, 353, 362, 430, 431, 437, 438, 439,

136a
440, 441, 442, 443, 444, 445, 446, 447, 448, 449, 450,
451, 452, 453, 454, 455, 456, 457, 461, 462, 464, 465,
466, 467, 468, 469, 470, 471, 472, 473, 474, 475, 476,
477, 478, 479, 480, 481, 482, 483, and 499; and that
part of Medina County BNA 9906 included in blocks
152, 153, 154, 155, 157, 158, 159, 160, 161, 162, 163,
164, 165, 166, 167, 168, 169, 170, 171, 172, 173, 174,
175, 176, 177, 178, 179, 180, 181, 182, 183, 184, 185,
186, 187, 188, 189, 190, 191, 192, 193, 194, 195, 196,
197, 226, 227, 228, 229, 230, 234, 235, 236, 237, 238,
239, 240, 241, 242, 243, 244, 245, 246, 247, 248, 249,
250, 251, 252, 253, 254, 255, 256, 257, 258, 259, 260,
261, 262, 263, 264, 265, 266, 267, 268, 269, 270, 271,
272, 273, and 274; and that part of Medina County
BNA 9907 included in blocks 101, 111, 112, 113, 114,
115, 116, 117, 118, 133, 134, 135, 136, 137, 138, 147,
148, 149, 150, 151, 152, 153, 154, 155, 156, 165, 211A,
212, 213, 214, 215, 219A, 219B, 220, 221, 222, 223,
224, 225, 226, 227, 228, 229, 230, 231, 321, 322, 323,
324, 325, 326, 327, 328, 329, 330, 331, 332, 340A,
340B, 341, 342, 343, 344, 345, 346, 347, 348, 349, 350,
351, 352, 353, 354, 355, 356, 357, 358A, 358B, 359,
360A, 360B, 361, 362, 363, 364, 365, 366, 367, 368,
369, 370, 371A, 371B, 372, 373, 374, 375, 376, 377,
378, 379, 380, 381, 382, 383, 384, 385, 386, 387, 388,
389, 390, 391, 392, 393, 394, 395, 396, 397, and 413A.
(m) District 13 is composed of that part of
Atascosa County BNA 9602 included in blocks 101,
102, 103, 104, 105, 106, 107, 108, 109, 110, 111, 112,
113, 114, 115, 116, 117, 118, 119, 120, 121, 122, 123,
124, 125, 126, 127, 128, 129, 130, 131, 132, 133, 134,
135, 136, 137, 138, 139, 140, 141, 142, 143, 144, 145,
146A, 146B, 147A, 147B, 207, 208, 209, 210, 211,
501A, 501B, 502, 503, 504, 505A, 505B, 506, 507A,
507B, 508A, 508B, 509, 511, 512, 513, 514, 515, 516,

137a
517, 518, 519, 520, 521, 522, 523, 524, 525, 526, 527,
528, 529, 530, 531A, 531B, 532A, 532B, 533, 534A,
534B, 535, and 536; Medina County BNAs 9901 and
9904; and that part of Medina County BNA 9903
included in block group 1 and blocks 242B, 242C,
246A, 246B, 246C, 246D, 248, 249, 250, 251, 357A,
357B, 359B, 360, 361, 424, 425, 426, 427, 428, 429,
430, 431, 432, 433, 434, 436A, 436B, and 437; and that
part of Medina County BNA 9905 included in blocks
179, 180, 183A, 183B, 184A, 184B, 185, 204, 205, 206,
207, 208, 209, 210, 211, 212, 213, 214, 216, 217, 218,
219, 220, 221, 226, 227, 228, 229, 230, 231, 232, 233,
234, 236, 237, 238, 239, 240, 241, 242, 243, 244, 304,
305, 306, 309, 310, 311, 312, 313, 314, 316, 317, 318,
319, 320, 321, 322, 323, 324, 325, 326, 327, 328, 329,
330, 331, 332, 333, 334, 335, 336, 337, 339, 340, 341,
342, 343, 344, 345, 346, 347, 348, 349, 352, 354, 355,
356, 357, 358, 359, 360A, 360B, 361, 363, 364, 365,
366, 367, 368, 369A, 369B, 370, 401, 402, 403, 404,
405, 406, 407, 408, 409, 410, 411, 412, 413, 414, 415,
416, 417, 418, 419, 420, 421, 422, 423, 424, 425, 426,
427, 428, 429, 432, 433, 434, 435, 436, 458, 459, 460,
463, 484, 485, 486, 487, 488, 489, 490, 491, 492, 493,
494, 495, 496, and 497; and that part of Medina
County BNA 9906 included in blocks 101, 102, 103,
104, 105, 106, 107, 108, 109, 110, 111, 112, 113, 114,
115, 116, 117, 118, 119, 120, 121, 122, 123, 124, 125,
126, 127, 128, 129, 130, 131, 132, 133, 134, 135, 136,
137, 138, 139, 140, 141, 142, 143, 144, 145, 146, 147,
148, 149, 150, 151, 156, 201, 202, 203, 204, 205, 206,
207, 208, 209, 210, 211, 212, 213, 214, 215, 216, 217,
218, 219, 220, 221, 222, 223, 224, 225, 231, 232, 233,
275, 276, 277, 278, 279, 280, and 281; and that part of
Medina County BNA 9907 included in blocks 102,
103, 104, 105, 106, 107A, 107B, 107C, 108, 109, 110,

138a
119, 120, 121, 122, 123, 124, 125, 126, 127, 128, 129,
130, 131, 132, 139, 140, 141, 142, 143, 144, 145, 146,
157, 158, 159, 160, 161, 162, 163, 164, 166, 167, 201,
202, 203, 204, 205, 206A, 206B, 207, 208, 209, 210,
211B, 216, 217A, 217B, 218, 232A, 232B, 233, 234,
235, 236, 237, 238, 301, 302A, 302B, 303, 304, 305,
306, 307, 308, 309A, 309B, 310, 311, 312, 313, 314,
315, 316, 317, 318, 319, 320, 333, 334, 335, 336, 337,
338, 339, 401, 402, 403, 404, 405, 406, 407, 408, 409,
410, 411, 412, 413B, 414, 415, 416, 417, 418, 419,
420A, 420B, 420C, 421, 422, 423, 424, 425, 426, 427,
428, 429, 430, 431, 432, 433, 434, 435, 436, 437, 438,
439, 440, 441, 442, 443, 444, 445, 446, 447, and 448.
District 13 also includes that part of Atascosa County
BNA 9602 included in block 510.
(n)
District 14 is composed of that part of
Uvalde County BNA 9502 included in block groups 3
and 4 and blocks 102, 103, 106, 117, 140, 142, 201,
202, 203, 204, 206, 207, 208, 209, 210, 211, 212, 213,
214, 215, 216A, 216B, 217, 218, 219, 220, 221, 222,
223, 224, 225, 226, 227, 228, 229, 230, 231, 232, 233,
234, 235, 236, 237, 238, 239A, 239B, 240, 241, 242,
243, 244, 245, 246, 247, 248, 249, 250, 251, 252, 253,
254, 255, 256, 257, 258, 259, 260, 261, 262, 263, 264,
265, 266, 267, 268, 269, 270, 271, 272, 273, 274, 278,
279, 280, 281, 282, 283, 284, 285, 286, 288, 296, 297,
299, 299R, 521, 522, 523, 524, 525, 526, 527, 528, 529,
530, 531, 532, 533, 534, 535, 536, 537, 538, 539, 540,
and 541; and that part of Uvalde County BNA 9503
included in block groups 2, 3, 4, 5, 6, and blocks 101B,
101C, 102, 103, 104, 105, 106, 107, 108, 109A, 109B,
110, 111, 112, 113, 114, 115, 116A, 116B, 116C, 117A,
117B, 118, 119, 120, 121, 122, 123, 124, 126, 133, 134,
135, 136, 137, 138, 139, 140, 141, 142, 143, 144, 145,
146, 147, 148, 149, 150, 151, 152, 153, 154, 155, 156,

139a
164A, 164B, 165, 166, 167, 168, 169, 170, 171, 172,
173, and 174; and that part of Uvalde County BNA
9504 included in block group 4 and blocks 314, 316,
and 319; and that part of Uvalde County BNA 9505
included in block groups 2 and 3 and blocks 113, 114,
115, 116, 117, 118, 119, 120, 121, 122, 123, 124, 125,
126A, 126B, 126C, 127, 128, 129, 130, 131, 132, 133,
134, 135, 136, 137, 138, 139A, 139B, 140, 141, 142A,
142B, 143A, 143B, 144, 145, 146, 147, 148, 149A,
149B, 150, 151, and 152.
(o)
District 15 is composed of Uvalde
County BNA 9501 and that part of Uvalde County
BNA 9502 included in block group 6 and blocks 101,
104, 105, 107, 108, 109, 110, 111, 112, 113, 114, 115,
116, 118, 119, 120, 121, 122, 123, 124, 125, 126, 127,
128, 129, 130, 131, 132, 133, 134, 135, 136, 137, 138,
139, 141, 143, 144, 145, 146, 147, 148, 149, 150, 151,
152, 153, 154, 155, 156, 157, 158, 159, 160, 161, 162,
163, 164, 165, 166, 167, 168, 169, 170, 171, 172, 173,
174, 175, 176, 177, 178, 179, 180, 181, 182, 183, 184,
185, 186, 187, 188, 189, 190, 191, 192, 193, 194, 195A,
195B, 196A, 196B, 197, 205, 275, 276, 277, 287, 289,
290, 291, 292, 293, 294, 295, 501, 502, 503, 504, 505,
506, 507A, 507B, 508, 509A, 509B, 509C, 510, 511,
512, 513, 514, 515, 516, 517, 518, 519, 520, 542, 543,
544, 545, 546, 547, 548, 549, 550, 551, 552, 553, 554,
555, 556, 557, 558, 559, 560, 561, 562, 563, 564, 565,
566, 567, 568, 569, 570, 571, 572, 573, 574, 575, 576,
577, 578, 579, 580, 581, 582, 583, 584, 585, 586, 587,
588, 589, 590, 591, 592, 593, 594, 595, 596, and 597;
and that part of Uvalde County BNA 9503 included in
blocks 101A, 101D, 125, 127, 128, 129, 130, 131, 132,
157A, 157B, 158, 159, 160, 161, 162, 163, 175A, and
175B; and that part of Uvalde County BNA 9504
included in block groups 1 and 2 and blocks 301, 302,

140a
303, 304, 305, 306, 307, 308, 309, 310, 311, 312, 313,
315, 317, 318, 320, 321, 322, 323, 324, 325, 326, 327,
and 328; and that part of Uvalde County BNA 9505
included in blocks 101A, 101B, 102, 103, 104, 105,
106, 107, 108, 109, 110A, 110B, 110C, 111, and 112.
(p)
Each district described by this section
includes only the part of the described geographic
area that is included in the boundaries of the
authority as provided by Section 1.04 of this article.
(q)
In this section, the terms “tract,” “block,”
“block group,” and “BNA” (block numbering area)
mean the geographic areas identified by those terms
in the Redistricting Map Data Base for the State of
Texas prepared by the Texas Legislative Council and
distributed by the council to the State Data Center,
Texas Department of Commerce, on March 22, 1991,
for public distribution by the State Data Center.
Act of May 29, 1995, 74th Leg., R.S., ch. 261, § 1, 1995
Tex. Gen. Laws 2505, 2508.
SECTION 1.094 MODIFICATION OF
DISTRICT
LINES
AFTER
DECENNIAL
CENSUS. (a) After each federal decennial census, or
as needed, the board may modify the district lines
described in Section 1.093 of this article. During
March or April of an even- numbered year, the board
by order may modify the district lines described in
Section 1.093 of this article to provide that the lines
do not divide a county election precinct except as
necessary to follow the authority’s jurisdictional
boundaries.
(b)
result in:

Modifications under this section may not

141a
(1)
the dilution of voting strength of a
group covered by the federal Voting Rights Act
(42 U.S.C. Section 1973c et seq.), as amended;
(2)
a dilution of representation of a
group covered by the federal Voting Rights Act
(42 U.S.C. Section 1973c et seq.), as amended;
(3)
discouraging participation by a
group covered by the federal Voting Rights Act
(42 U.S.C. Section 1973c et seq.), as amended;
or
(4)
increasing or decreasing
number of districts in any county.

the

(c)
A county election precinct established by
a county in accordance with Chapter 42, Election
Code, may not contain territory from more than one
authority district.
Act of May 6, 1999, 76th Leg., R.S., ch. 163, § 1, 1999
Tex. Gen. Laws 634.
SECTION 1.10 SOUTH CENTRAL TEXAS
WATER ADVISORY COMMITTEE. (a) The South
Central Texas Water Advisory Committee shall
advise the board on downstream water rights and
issues. The advisory committee consists of one
member appointed by the governing body of each of
the following counties and municipalities, except that
Atascosa County may not have a representative on
the advisory committee when the county has a
representative member on the board:
(1)

Atascosa;

(2)

Caldwell;

142a
(3)

Calhoun;

(4)

Comal;

(5)

DeWitt;

(6)

Goliad;

(7)

Gonzales;

(8)

Guadalupe;

(9)

Hays;

(10)

Karnes;

(11)

Medina;

(12)

Nueces;

(13)

Refugio;

(14)

San Patricio;

(15)

Uvalde;

(16)

Victoria;

(17)

Wilson;

(18)

the City of San Antonio;

(19)

the City of Victoria; and

(20)

the City of Corpus Christi.

(b)
A member must be a resident or
qualified voter of or engaged in business in a county
all or part of which is included in the member’s area
of representation.

143a
(c)
The reimbursement of an advisory
committee member for expenses is on the same terms
as the reimbursement of board members. An advisory
committee member is not entitled to compensation.
(d)
An advisory committee member holds
office until a successor is appointed.
(e)
The authority shall send to each
advisory committee member all the communications
of the authority that are extended to board members
and may participate in board meetings to represent
downstream water supply concerns and assist in
solutions to those concerns. Advisory committee
members may not vote on a board decision.
(f)
The advisory committee by resolution
may request the board to reconsider any board action
that is considered prejudicial to downstream water
interests. If the board review does not result in a
resolution satisfactory to the advisory committee, the
advisory committee by resolution may request the
commission to review the action. The commission
shall review the action and may make a
recommendation to the board. If the board determines
that the board’s action is contrary to an action of the
commission affecting downstream interests, the
board shall reverse itself.
(g)
The advisory committee shall meet to
organize and elect a presiding officer.
(h)
The presiding officer of the advisory
committee shall submit a report assessing the
effectiveness of the authority to the commission and
the authority by March 31 of each even - numbered
year. The report must assess the effect on

144a
downstream water rights of the management of the
aquifer. The authority shall consider the report in
managing the authority’s affairs.
(i)

The advisory committee’s duties include:

(1)
assisting
the
authority
in
developing
the
authority’s
demand
management plan for the county that the
representative represents;
(2)
assisting
the
authority
to
implement the demand management plan; and
(3)
performing
other
duties
requested by the board that the representative
may practicably perform.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.10,
1993 Tex. Gen. Laws 2350, 2357.
SECTION 1.11 GENERAL POWERS AND
DUTIES OF THE BOARD AND AUTHORITY. (a)
The board shall adopt rules necessary to carry out the
authority’s powers and duties under this article,
including rules governing procedures of the board and
authority.
(b)
The authority shall ensure compliance
with
permitting,
metering,
and
reporting
requirements and shall regulate permits.
(c)
The authority may issue orders to
enforce this article or its rules.
(d)

The authority may:

145a
(1)
issue or administer grants, loans,
or other financial assistance to water users for
water conservation and water reuse;
(2)

enter into contracts;

(3)

sue and be sued in its own name;

(4)
receive gifts, grants, awards, and
loans for use in carrying out its powers and
duties;
(5)
hire an executive director to be
the chief administrator of the authority and
other employees as necessary to carry out its
powers and duties;
(6)
delegate the power to hire
employees to the executive director of the
authority;
(7)

own real and personal property;

(8)
close abandoned, wasteful, or
dangerous wells;
(9)
hold permits under state law or
under federal law pertaining to the
Endangered Species Act of 1973 (16 U.S.C.
Section 1531 et seq.) and its amendments;
(10) enforce inside the authority’s
boundaries Chapter 1901, Occupations Code,
and rules adopted by the Texas Commission of
Licensing and Regulation under that chapter;
and
(11) require to be furnished to the
authority water well drillers’ logs that are

146a
required by Chapter 1901, Occupations Code,
to be kept and furnished to the Texas
Commission of Licensing and Regulation.
(e)
The authority shall make a good faith
effort to award to minority-owned and women-owned
businesses contracts issued under the powers and
duties granted under this section in the amount of 20
percent of the total amount of those contracts. Not
later than October 31 of every even-numbered year,
the authority shall file with the governor and each
house of the legislature a written report containing
the following information for the previous two years
for all businesses, for minority-owned and womenowned businesses classified by minority group and
within each minority group classification, by gender,
the total number of contracts issued by the authority;
the total dollar amount of those contracts; and the
total number of businesses submitting bids or
proposals relating to such contracts and to the
purpose of such contracts. In this subsection:
(1)
“Minority-owned business” means
a business entity at least 51 percent of which is
owned by members of a minority group or, in
the case of a corporation, at least 51 percent of
the shares of which are owned by members of a
minority group, and that is managed and
controlled by members of a minority group in
its daily operations.
(2)

“Minority group” includes:
(A)

African Americans;

(B)

American Indians;

147a
(C)

Asian Americans; and

(D)
Mexican Americans and
other Americans of Hispanic origin.
(3)
“Women-owned business” means
a business entity at least 51 percent of which is
owned by women or, in the case of a
corporation, at least 51 percent of the shares of
which are owned by women, and that is
managed and controlled by women in its daily
operations.
(f)
The authority may own, finance, design,
construct, operate, or maintain recharge facilities.
For the purpose of this subsection, “recharge facility”
means a dam, reservoir, or other method of recharge
project and associated facilities, structures, or works
but does not include a facility to recirculate water at
Comal or San Marcos Springs.
(f-1) The authority shall provide written
notice of the intent to own, finance, design, construct,
operate, or maintain recharge facilities to:
(1)
each groundwater conservation
district in the area in which the recharge
facility will be located;
(2)
the mayor of each municipality in
the area in which the recharge facility will be
located;
(3)
the county judge of each county in
the area in which the recharge facility will be
located; and

148a
(4)
each member of the legislature
who represents the area in which the proposed
recharge facility will be located.
(f-2) Any entity within the county in which a
recharge facility is to be constructed shall be provided
opportunity for input and allowed to provide
proposals for partnering with the authority to own,
finance, design, construct, operate, or maintain the
recharge facility.
(g)
The authority has the power of eminent
domain. The authority may not acquire rights to
underground water by the power of eminent domain.
(h)
Repealed by Act of May 28, 2001, 77th
Leg., R.S., ch. 966, § 6.03, 2001 Tex. Gen. Laws 1880,
1962.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.11,
1993 Tex. Gen. Laws 2350, 2358; as amended by Act
of May 28, 2001, 77th Leg., R.S., ch. 966, § 6.03, 2001
Tex. Gen. Laws 1991, 2075; Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.01, 2007 Tex. Gen. Laws 4612,
4627; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.01, 2007 Tex. Gen. Laws 5848, 5901; as amended
by Act of May 27, 2019, 86th Leg., R.S., ch. ___, § 5,
2019 Tex. Gen. Laws ____, ____-__.
SECTION
1.115
RULEMAKING
PROCEDURES. (a) The authority shall comply with
the procedures provided by this section in adopting
rules.
(b)
The authority shall provide, by using the
United States mail, notice of a proposed rule to all
applicants and permit holders. The authority shall

149a
publish in a newspaper of general circulation within
the boundaries of the authority notice of a public
hearing on a proposed rule at least 14 days before the
date of the public hearing on the rule. The notice must
include:
(1)
the date, time, and place of the
public hearing;
(2)
a statement of the general subject
matter of the proposed rule;
(3)
the procedures for obtaining
copies of the proposed rule and for submitting
comments; and
(4)
comments.

the

deadline

for

submitting

(c)
The board shall allow at least 45 days for
comment on a proposed rule, other than an emergency
rule, before the board adopts the rule. The board shall
consider all written comments and shall, in the order
adopting the rule, state the reasons and justification
for the rule and the authority’s responses to the
written comments.
(d)
The meeting at which a proposed rule is
adopted as a final rule must be an open meeting, and
the public must be allowed to make comments on the
proposed rule and the agency responses. A proposed
rule becomes final and effective on the 10th day after
the date the rule is adopted by the board.
(e)
Notwithstanding Subsections (b) - (d) of
this section, the board may adopt emergency rules in
anticipation of imminent harm to human health,
safety, or welfare, or if compliance with the

150a
procedures provided in Subsections (b) - (d) of this
section would prevent an effective response to
emergency aquifer or springflow conditions. The
board may adopt emergency rules five days after
providing public notice. Emergency rules are effective
immediately on adoption for a period of 120 days and
may be renewed once for not more than 60 days.
(f)
Subsections (b) - (d) of this section do not
apply to the adoption of bylaws or internal procedures
of the board and authority.
Act of May 28, 2001, 77th Leg., R.S., ch. 966, § 6.01,
2001 Tex. Gen. Laws 1991, 2075.1
SECTION 1.12 SUNSET COMMISSION
REVIEW. (a) Repealed by Act of June 1, 2003, 78th
Leg., R.S., ch. 1112, § 6.01(4), 2003 Tex. Gen. Laws
3188, 3193.

Although not codified as an amendment to the Act, §§ 6.04 and
6.05 of ch. 966 are relevant to the Rulemaking Procedures of the
Authority and provide as follows:

1

SECTION 6.04 A rule adopted by the
Edwards Aquifer Authority before the effective
date of this Act remains in effect until repealed,
amended, or readopted. Nothing contained in
this article shall be construed as repealing the
applicability of the open meetings law, Chapter
551, Government Code, or the public information
law, Chapter 552, Government Code, to the
Edwards Aquifer Authority.
SECTION 6.05 The rules in 31 T.A.C.
Part 20 shall continue in effect until replaced by
rules adopted pursuant to this article. The
secretary of state shall delete 31 T.A.C. Part 20.

151a
(b)
Repealed by Act of June 1, 2003, 78th
Leg., R.S., ch. 1112, § 6.01(4), 2003 Tex. Gen. Laws
3188, 3193.
(c)
Repealed by Act of June 1, 2003, 78th
Leg., R.S., ch. 1112, § 6.01(4), 2003 Tex. Gen. Laws
3188, 3193.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.12,
1993 Tex. Gen. Laws 2350, 2359; as amended by Act
of June 1, 2003, 78th Leg., R.S., ch. 1112, § 6.01(4),
2003 Tex. Gen. Laws 3188, 3193.
SECTION 1.13 REUSE AUTHORIZED. Any
regulation of the withdrawal of water from the aquifer
must allow for credit to be given for certified reuse of the
water. For regulatory credit, the authority or a local
underground water conservation district must certify:
(1)
the lawful use and reuse of
aquifer water;
(2)
used; and

the amount of aquifer water to be

(3)
the
amount
of
withdrawals replaced by reuse.

aquifer

Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.13,
1993 Tex. Gen. Laws 2350, 2359.
SECTION
1.14
WITHDRAWALS.
(a)
Authorizations to withdraw water from the aquifer
and all authorizations and rights to make a
withdrawal under this Act shall be limited in
accordance with this section to:

152a
(1)
aquifer;

protect the water quality of the

(2)
protect the water quality of the
surface streams to which the aquifer provides
springflow;
(3)

achieve water conservation;

(4)
maximize the beneficial use of
water available for withdrawal from the
aquifer;
(5)
recognize the extent of the hydrogeologic connection and interaction between
surface water and groundwater;
(6)
habitat;

protect

aquatic

and

wildlife

(7)
protect
species
that
are
designated as threatened or endangered under
applicable federal or state law; and provide for
instream uses, bays, and estuaries.
(b)
Repealed by Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.09, 2007 Tex. Gen. Laws 4612,
4634; Act of May 28, 2007, 80th Leg., R.S., ch. 1430, §
12.09, 2007 Tex. Gen. Laws 5848, 5908.
(c)
Except as provided by Subsections (f)
and (h) of this section and Section 1.26 of this article,
for the period beginning January 1, 2008, the amount
of permitted withdrawals from the aquifer may not
exceed or be less than 572,000 acre-feet of water for
each calendar year, which is the sum of all regular
permits issued or for which an application was filed

153a
and issuance was pending action by the authority as
of January 1, 2005.
(d)
Repealed by Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.09, 2007 Tex. Gen. Laws 4612,
4634; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.09, 2007 Tex. Gen. Laws 5848, 5908.
(e)
The
authority
may
not
allow
withdrawals from the aquifer through wells drilled
after June 1, 1993, except for replacement, test, or
exempt wells or to the extent that the authority
approves an amendment to an initial regular permit
to authorize a change in the point of withdrawal
under that permit.
(f)
If the level of the aquifer is equal to or
greater than 660 feet above mean sea level as
measured at Well J-17, the authority may authorize
withdrawal from the San Antonio pool, on an
uninterruptible basis, of permitted amounts. If the
level of the aquifer is equal to or greater than 845 feet
at Well J-27, the authority may authorize withdrawal
from the Uvalde pool, on an uninterruptible basis, of
permitted amounts.
(g)
The authority by rule may define other
pools within the aquifer, in accordance with
hydrogeologic research, and may establish index
wells for any pool to monitor the level of the aquifer
to aid the regulation of withdrawals from the pools.
(h)
To accomplish the purposes of this
article, the authority, through a program, shall
implement and enforce water management practices,
procedures, and methods to ensure that, not later
than December 31, 2012, the continuous minimum

154a
springflows of the Comal Springs and the San Marcos
Springs are maintained to protect endangered and
threatened species to the extent required by federal
law and to achieve other purposes provided by
Subsection (a) of this section and Section 1.26 of this
article. The authority from time to time as
appropriate may revise the practices, procedures, and
methods. To meet this requirement, the authority
shall require:
(1)
phased adjustments to the
amount of water that may be used or
withdrawn by existing users or categories of
other users, including adjustments in
accordance with the authority’s critical period
management plan established under Section
1.26 of this article; or
(2)
implementation of alternative
management practices, procedures, and
methods.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.14,
1993 Tex. Gen. Laws 2350, 2360; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.02, 2007
Tex. Gen. Laws 4612, 4627; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.02, 2007 Tex. Gen. Laws
5848, 5901.
SECTION 1.15 PERMIT REQUIRED. (a)
The authority shall manage withdrawals from the
aquifer and shall manage all withdrawal points from
the aquifer as provided by this Act.
(b)
Except as provided by Sections 1.17 and
1.33 of this article, a person may not withdraw water
from the aquifer or begin construction of a well or

155a
other works designed for the withdrawal of water
from the aquifer without obtaining a permit from the
authority.
(c)
The authority may issue regular
permits, term permits, and emergency permits.
(d)
Each permit must specify the maximum
rate and total volume of water that the water user
may withdraw in a calendar year.
(e)
The authority shall conduct a contested
case hearing on a permit application if a person with
a personal justiciable interest related to the
application requests a hearing on the application.
(f)
The authority shall adopt rules
establishing procedures for contested case hearings
consistent with Subchapters C, D, and F, Chapter
2001, Government Code.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.15,
1993 Tex. Gen. Laws 2350, 2360; as amended by Act
of May 28, 2001, 77th Leg., R.S., ch. 966, § 6.02, 2001
Tex. Gen. Laws 1991, 2075.
SECTION 1.16 DECLARATIONS OF
HISTORICAL
USE;
INITIAL
REGULAR
PERMITS. (a) An existing user may apply for an
initial regular permit by filing a declaration of
historical use of underground water withdrawn from
the aquifer during the historical period from June 1,
1972, through May 31, 1993.
(b)
An existing user’s declaration of
historical use must be filed on or before March 1,
1994, on a form prescribed by the board. An applicant
for a permit must timely pay all application fees

156a
required by the board. An owner of a well used for
irrigation must include additional documentation of
the number of acres irrigated during the historical
period provided by Subsection (a) of this section.
(c)
An owner of a well from which the water
will be used exclusively for domestic use or watering
livestock and that is exempt under Section 1.33 of this
article is not required to file a declaration of historical
use.
(d)
The board shall grant an initial regular
permit to an existing user who:
(1)
files a declaration and pays fees
as required by this section; and
(2)
establishes
by
convincing
evidence beneficial use of underground water
from the aquifer.
(e)
To the extent water is available for
permitting, the board shall issue the existing user a
permit for withdrawal of an amount of water equal to
the user’s maximum beneficial use of water without
waste during any one calendar year of the historical
period. If a water user does not have historical use for
a full year, then the authority shall issue a permit for
withdrawal based on an amount of water that would
normally be beneficially used without waste for the
intended purpose for a calendar year. If the total
amount of water determined to have been beneficially
used without waste under this subsection exceeds the
amount of water available for permitting, the
authority shall adjust the amount of water authorized
for withdrawal under the permits proportionately to
meet the amount available for permitting. An existing

157a
irrigation user shall receive a permit for not less than
two acre-feet a year for each acre of land the user
actually irrigated in any one calendar year during the
historical period. An existing user who has operated a
well for three or more years during the historical
period shall receive a permit for at least the average
amount of water withdrawn annually during the
historical period.
(f)
The board by rule shall consider the
equitable treatment of a person whose historic use
has been affected by a requirement of or participation
in a federal program.
(g)
The authority shall issue an initial
regular permit without a term, and an initial regular
permit remains in effect until the permit is
abandoned or cancelled.
(h)
The board shall notify each permit
holder that the permit is subject to limitations as
provided by this article.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.16,
1993 Tex. Gen. Laws 2350, 2361; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.03, 2007
Tex. Gen. Laws 4612, 4628; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.03, 2007 Tex. Gen. Laws
5848, 5902.
SECTION
1.17
INTERIM
AUTHORIZATION. (a) A person who, on the
effective date of this article, owns a producing well
that withdraws water from the aquifer may continue
to withdraw and beneficially use water without waste
until final action on permits by the authority, if:

158a
(1)
the well is in compliance with all
statutes and rules relating to well construction,
approval, location, spacing, and operation; and
(2)
by March 1, 1994, the person files
a declaration of historical use on a form as
required by the authority.
(b)
Use under interim authorization may
not exceed on an annual basis the historical,
maximum, beneficial use of water without waste
during any one calendar year as evidenced by the
person’s declaration of historical use calculated in
accordance with Subsection (e) of Section 1.16 of this
article, unless that amount is otherwise determined
by the authority.
(c)
Use under this section is subject to the
authority’s comprehensive management plan and
rules adopted by the authority.
(d)
Interim authorization for a well under
this section ends on:
(1)
entry of a final and appealable
order by the authority acting on the application
for the well; or
(2)
March 1, 1994, if the well owner
has not filed a declaration of historical use.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.17,
1993 Tex. Gen. Laws 2350, 2361.
SECTION 1.18 ADDITIONAL REGULAR
PERMITS. (a) To the extent water is available for
permitting after the issuance of permits to existing
users, the authority may issue additional regular

159a
permits, subject to limits on the total amount of
permitted withdrawals determined under Section
1.14 of this article.
(b)
The authority may not consider or take
action on an application relating to a proposed or
existing well of which there is no evidence of actual
beneficial use before June 1, 1993, until a final
determination has been made on all initial regular
permit applications submitted on or before the initial
application date of March 1, 1994.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.18,
1993 Tex. Gen. Laws 2350, 2362.
SECTION 1.19 TERM PERMITS. (a) The
authority may issue interruptible term permits for
withdrawal for any period the authority considers
feasible, but may not issue a term permit for a period
of more than 10 years.
(b)
Withdrawal of water under a term
permit must be consistent with the authority’s critical
period management plan established under Section
1.26 of this article. A holder of a term permit may not
withdraw water from the San Antonio pool of the
aquifer unless:
(1)
the level of the aquifer is higher
than 675 feet above sea level, as measured at
Well J-17;
(2)
the flow at Comal Springs as
determined by Section 1.26(c) of this article is
greater than 350 cubic feet per second; and

160a
(3)
the flow at San Marcos Springs as
determined by Section 1.26(c) of this article is
greater than 200 cubic feet per second.
(c)
A holder of a term permit may not
withdraw water from the Uvalde pool of the aquifer
unless the level of the aquifer is higher than 865 feet
above sea level, as measured at Well J-27.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.19,
1993 Tex. Gen. Laws 2350, 2362; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.03, 2007
Tex. Gen. Laws 4612, 4628; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.04, 2007 Tex. Gen. Laws
5848, 5902.
SECTION 1.20 EMERGENCY PERMITS.
(a) Emergency permits may be issued only to prevent
the loss of life or to prevent severe, imminent threats
to the public health or safety.
(b)
The term of an emergency permit may
not exceed 30 days, unless renewed.
(c)
permit.

The board may renew an emergency

(d)
The holder of an emergency permit may
withdraw water from the aquifer without regard to its
effect on other permit holders.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.20,
1993 Tex. Gen. Laws 2350, 2362.
SECTION 1.21 PERMIT RETIREMENT. (a)
Repealed by Act of May 28, 2007, 80th Leg., R.S., ch.
1351, § 2.09, 2007 Tex. Gen. Laws 4612, 4634; Act of

161a
May 28, 2007, 80th Leg., R.S., ch. 1430, § 12.09, 2007
Tex. Gen. Laws 5848, 5908.
(b)
Repealed by Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.09, 2007 Tex. Gen. Laws 4612,
4634; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.09, 2007 Tex. Gen. Laws 5848, 5908.
(c)
Repealed by Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.09, 2007 Tex. Gen. Laws 4612,
4634; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.09, 2007 Tex. Gen. Laws 5848, 5908.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.21,
1993 Tex. Gen. Laws 2350, 2362; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.09, 2007
Tex. Gen. Laws 4612, 4634; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.09, 2007 Tex. Gen. Laws
5848, 5908.
SECTION
1.21
CONTESTED
CASE
HEARINGS; REQUEST FOR REHEARING OR
FINDINGS AND CONCLUSIONS. (a) An applicant
in a contested or uncontested hearing on an
application under this Act or a party to a contested
hearing may administratively appeal a decision of the
board on an application by requesting written
findings of fact and conclusions of law not later than
the 20th day after the date of the board’s decision.
(b)
On receipt of a timely written request,
the board shall make written findings of fact and
conclusions of law regarding a decision of the board
on an application under this Act. The board shall
provide certified copies of the findings and
conclusions to the person who requested them, and to
each designated party, not later than the 20th day

162a
after the date the board receives the request. A party
to a contested hearing may request a rehearing before
the board not later than the 20th day after the date
the board issues the findings and conclusions.
(c)
A request for rehearing must be filed in
the authority’s office and must state the grounds for
the request.
(d)
If the board grants a request for
rehearing, the board shall schedule the rehearing not
later than the 45th day after the date the request is
granted.
(e)
The failure of the board to grant or deny
a request for rehearing before the 91st day after the
date the request is submitted is a denial of the
request.
Act of May 27, 2019, 86th Leg., R.S., ch. ___, § 6,
§ 1.21, 2019 Tex. Gen. Laws ____, ____-__.
SECTION 1.211 DECISION; WHEN FINAL.
(a) A decision by the board on an application under
this Act is final:
(1)
if a request for rehearing is not
filed on time, on the expiration of the period for
filing a request for rehearing; or
(2)
if a request for rehearing is filed
on time, on the date:
(A)
the board
request for rehearing; or

denies

the

(B)
the board renders a written
decision after rehearing.

163a
(b)
A timely filed motion for rehearing is a
prerequisite to a suit against the authority under
Section 1.46 of this article challenging a decision in a
contested hearing. A suit under Section 1.46 must be
filed not later than the 60th day after the date on
which the decision becomes final.
Act of May 27, 2019, 86th Leg., R.S., ch. ___, § 6,
§ 1.211, 2019 Tex. Gen. Laws ____, ____-__.
SECTION
1.22
ACQUISITION
OF
RIGHTS. (a) The authority may acquire permitted
rights to use water from the aquifer for the purposes
of:
(1)
holding those rights in trust for
sale or transfer of the water or the rights to
persons within the authority’s jurisdiction who
may use water from the aquifer;
(2)
holding those rights in trust as a
means of managing overall demand on the
aquifer; or
(3)

holding those rights for resale.

(b)
The authority may acquire and hold
permits or rights to appropriate surface water or
groundwater from sources inside or outside of the
authority’s boundaries.
(c)
Notwithstanding any other provisions of
law, the authority’s acquisition of permitted rights to
use water from the aquifer is eligible for financial
assistance from:

164a
(1)
the water supply account of the
Texas Water Development Fund under
Subchapter D, Chapter 17, Water Code;
(2)
the water loan assistance fund
under Subchapter C, Chapter 15, Water Code;
and
(3)
the revenue bond program under
Subchapter I, Chapter 17, Water Code.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.22,
1993 Tex. Gen. Laws 2350, 2362; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.05, 2007
Tex. Gen. Laws 4612, 4628; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.05, 2007 Tex. Gen. Laws
5848, 5902.
SECTION 1.23 CONSERVATION AND
REUSE PLANS. (a) The authority may require
holders of regular permits and holders of term
permits to submit water conservation plans and, if
appropriate, reuse plans for review and approval by
the authority. The board by rule shall require a plan
to be implemented after a reasonable time after a
plan’s approval.
(b)
The board shall assist
developing conservation or reuse plans.

users

in

(c)
The authority biennially shall prepare
and update enforceable and effective conservation
and reuse plans as required by this article. Not later
than January 1 of each odd- numbered year the
authority shall submit the plan to the legislature.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.23,
1993 Tex. Gen. Laws 2350, 2363.

165a
SECTION 1.24 LOANS AND GRANTS. (a)
Notwithstanding any other provision of law, the
authority is eligible as a lender district to receive
loans from the Texas Water Development Board
under the agricultural water conservation bond
program under Subchapter J, Chapter 17, Water
Code.
(b)
The authority may apply for, request,
solicit, contract for, receive, and accept gifts, grants,
and other assistance from any source for the purposes
of this article.
(c)
The authority may issue grants or make
loans to finance the purchase or installation of
equipment or facilities. If the authority issues a grant
for a water conservation, reuse, or water management
project, the authority may require the beneficiary to
transfer to the authority permitted rights to aquifer
water equal to a portion of the water conserved or
made available by the project.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.24,
1993 Tex. Gen. Laws 2350, 2363.
SECTION
1.25
COMPREHENSIVE
MANAGEMENT PLAN. (a) Consistent with Section
1.14 of this article, the authority shall develop, by
September 1, 1995, and implement a comprehensive
water management plan that includes conservation,
future supply, and demand management plans. The
authority may not delegate the development of the
plan under Section 1.42 of this article.
(b)
The authority, in conjunction with the
South Central Texas Water Advisory Committee, the
Texas Water Development Board, and underground
water conservation districts within the authority’s

166a
boundaries, shall develop a 20-year plan for providing
alternative supplies of water to the region, with fiveyear goals and objectives, to be implemented by the
authority and reviewed annually by the appropriate
state agencies and the Edwards Aquifer Legislative
Oversight Committee. The authority, advisory
committee, Texas Water Development Board, and
districts, in developing the plan, shall:
(1)
thoroughly
alternative technologies;

investigate

all

(2)
investigate
mechanisms
for
providing financial assistance for alternative
supplies
through
the
Texas
Water
Development Board; and
(3)
perform a cost-benefit and an
environmental analysis.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.25,
1993 Tex. Gen. Laws 2350, 2363.
SECTION
1.26
CRITICAL
PERIOD
MANAGEMENT PLAN. (a) The authority by rule
shall adopt a critical period management plan
consistent with Sections 1.14(a), (f), and (h) of this
article. The plan must allow irrigation use to continue
in order to permit the user to complete the irrigation
of a crop in progress.
(b)
In this section, “MSL” means the
elevation above mean sea level, measured in feet, of
the surface of the water in a well, and “CFS” means
cubic feet per second. Not later than January 1, 2008,
the authority shall, by rule, adopt and enforce a
critical period management plan with withdrawal
reduction percentages in the amounts indicated in

167a
Tables 1 and 2 whether according to the index well
levels or the Comal or San Marcos Springs flow as
applicable, for a total in critical period Stage IV of 40
percent of the permitted withdrawals under Table 1
and 35 percent under Table 2:
TABLE 1 –
CRITICAL PERIOD WITHDRAWAL
REDUCTION STAGES FOR THE SAN
ANTONIO POOL
COMAL
SAN
INDEX CRITICAL WITHDRAWAL
SPRINGS MARCOS WELL PERIOD REDUCTION –
FLOW SPRINGS J-17
STAGE
SAN
CFS
FLOW LEVEL
ANTONIO
CFS
MSL
POOL
<225

<96

<660

I

20%

<200

<80

<650

II

30%

<150

N/A

<640

III

35%

<100

N/A

<630

IV

40%

TABLE 2 –
CRITICAL PERIOD WITHDRAWAL
REDUCTION STAGES FOR THE
UVALDE POOL
WITHDRAWAL
REDUCTION –
UVALDE POOL

INDEX WELL J27 LEVEL MSL

CRITICAL
PERIOD STAGE

N/A

N/A

I

5%

<850

II

20%

<845

III

35%

<842

IV

168a
(c)
A change to a critical period stage with
higher withdrawal reduction percentages is triggered
if the 10-day average of daily springflows at the
Comal Springs or the San Marcos Springs or the 10day average of daily aquifer levels at the J-17 Index
Well drops below the lowest number of any of the
trigger levels indicated in Table 1. A change to a
critical period stage with lower withdrawal reduction
percentages is triggered only when the 10-day
average of daily springflows at the Comal Springs and
the San Marcos Springs and the 10-day average of
daily aquifer levels at the J-17 Index Well are all
above the same stage trigger level. The authority may
adjust the withdrawal percentages for Stage IV in
Tables 1 and 2 if necessary in order to comply with
Subsection (d) or (e) of this section.
(d)
Beginning September 1, 2007, the
authority may not require the volume of permitted
withdrawals to be less than an annualized rate of
340,000 acre-feet, under critical period Stage IV.
(e)
After January 1, 2013, the authority
may not require the volume of permitted withdrawals
to be less than an annualized rate of 320,000 acrefeet, under critical period Stage IV unless, after
review and consideration of the recommendations
provided under Section 1.26A of this article, the
authority determines that a different volume of
withdrawals is consistent with Sections 1.14(a), (f),
and (h) of this article in maintaining protection for
federally listed threatened and endangered species
associated with the aquifer to the extent required by
federal law.

169a
(f)
Notwithstanding Subsections (d) and (e)
of this section, the authority may require further
withdrawal reductions before reviewing and
considering the recommendations provided under
Section 1.26A of this article if the discharge of Comal
Springs or San Marcos Springs declines an additional
15 percent after Stage IV withdrawal reductions are
imposed under Subsection (b) of this section. This
subsection expires on the date that critical period
management plan rules adopted by the authority
based on the recommendations provided under
Section 1.26A of this article take effect.
(g)
Notwithstanding the existence of any
stage of an interim or final critical period adopted by
the authority under this section, a person authorized
to withdraw groundwater from the aquifer for
irrigation purposes shall, without regard to the
withdrawal reductions prescribed for that stage, be
allowed to finish a crop already planted in the
calendar year during which the critical period is in
effect.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.26,
1993 Tex. Gen. Laws 2350, 2363; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.06, 2007
Tex. Gen. Laws 4612, 4628; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.06, 2007 Tex. Gen. Laws
5848, 5903; as amended by Act of May 27, 2019, 86th
Leg., R.S., ch. ___, § 7, 2019 Tex. Gen. Laws ____,
____-__.
SECTION 1.26A DEVELOPMENT OF
WITHDRAWAL REDUCTION LEVELS AND
STAGES
FOR
CRITICAL
PERIOD
MANAGEMENT
THROUGH
RECOVERY

170a
IMPLEMENTATION
PROGRAM.
(a)
The
authority, with the assistance of Texas A&M
University, shall cooperatively develop a recovery
implementation program through a facilitated,
consensus-based process that involves input from the
United States Fish and Wildlife Service, other
appropriate federal agencies, and all interested
stakeholders, including those listed under Subsection
(e)(1) of this section. The recovery implementation
program shall be developed for the species that are:
(1)
listed
as
threatened
or
endangered species under federal law; and
(2)

associated with the aquifer.

(b)
The authority shall enter into a
memorandum of agreement with the United States
Fish and Wildlife Service, other appropriate federal
agencies, the Texas Commission on Environmental
Quality, the Parks and Wildlife Department, the
Department of Agriculture, the Texas Water
Development Board, and other stakeholders, not later
than December 31, 2007, in order to develop a
program document that may be in the form of a
habitat conservation plan used in issuance of an
incidental take permit as outlined in Subsection (d) of
this section.
(c)
The authority shall enter into an
implementing agreement with the United States Fish
and Wildlife Service, other appropriate federal
agencies, the Texas Commission on Environmental
Quality, the Parks and Wildlife Department, the
Department of Agriculture, the Texas Water
Development Board, and other stakeholders to
develop a program document that may be in the form

171a
of a habitat conservation plan used in issuance of an
incidental take permit as outlined in Subsection (d) of
this section not later than December 31, 2009.
(d)
The authority, the Texas Commission on
Environmental Quality, the Parks and Wildlife
Department, the Department of Agriculture, the
Texas Water Development Board, and other
stakeholders shall jointly prepare a program
document that may be in the form of a habitat
conservation plan used in issuance of an incidental
take permit with the United States secretary of the
interior, through the United States Fish and Wildlife
Service and other appropriate federal agencies, under
Section 4 or Section 6, Endangered Species Act of
1973 (16 U.S.C. Section 1533 or 1535), as applicable,
based on the program developed under Subsection (a)
of this section. The program document shall:
(1)
provide recommendations for
withdrawal
adjustments
based
on
a
combination of spring discharge rates of the
San Marcos and Comal Springs and levels at
the J-17 and J-27 wells during critical periods
to ensure that federally listed, threatened, and
endangered species associated with the
Edwards Aquifer will be protected at all times,
including throughout a repeat of the drought of
record;
(2)
include provisions to pursue
cooperative and grant funding to the extent
available from all state, federal, and other
sources for eligible programs included in the
cooperative agreement under Subsection (c) of

172a
this section, including funding for a program
director; and
(3)
be approved and executed by the
authority, the Texas Commission on
Environmental Quality, the Parks and Wildlife
Department, the Department of Agriculture,
the Texas Water Development Board, and the
United States Fish and Wildlife Service not
later than September 1, 2012, and the
agreement shall take effect December 31, 2012.
(e)
Texas A&M University shall assist in
the creation of a steering committee to oversee and
assist in the development of the cooperative
agreement under Subsection (c) of this section. The
steering committee must be created not later than
September 30, 2007. The initial steering committee
shall be composed of:
(1)
a representative of each of the
following entities, as appointed by the
governing body of that entity:
(A)
Authority;

the

Edwards

Aquifer

(B)
the Texas Commission on
Environmental Quality;
(C)
the Parks and Wildlife
Department;
(D)
the
Agriculture;

Department

(E)
the
Texas
Development Board;

of
Water

173a
(F)
System;

the San Antonio Water

(G)
the
River Authority;
(H)
Authority;

the

Guadalupe-Blanco
San

Antonio

River

(I)
the South Central Texas
Water Advisory Committee;
(J)

Bexar County;

(K)

CPS Energy; and

(L)
Bexar Metropolitan Water
District or its successor; and
(2)
nine
other
respectively must be:

persons

who

(A)
a representative of a holder
of an initial regular permit issued to a
retail public utility located west of Bexar
County, to be appointed by the
authority;
(B)
a representative of a holder
of an initial regular permit issued by the
authority for industrial purposes, to be
appointed by the authority;
(C)
a representative of a holder
of an industrial surface water right in
the Guadalupe River Basin, to be
appointed by the Texas Commission on
Environmental Quality;

174a
(D)
a representative of a holder
of a municipal surface water right in the
Guadalupe River Basin, to be appointed
by
the
Texas
Commission
on
Environmental Quality;
(E)
a representative of a retail
public utility in whose service area the
Comal Springs or San Marcos Springs is
located;
(F)
a representative of a holder
of an initial regular permit issued by the
authority for irrigation, to be appointed
by the commissioner of agriculture;
(G)
a representative of an
agricultural producer from the Edwards
Aquifer region, to be appointed by the
commissioner of agriculture;
(H)
a
representative
of
environmental interests from the Texas
Living Waters Project, to be appointed
by the governing body of that project;
and
(I)
a
representative
of
recreational interests in the Guadalupe
River Basin, to be appointed by the
Parks and Wildlife Commission.
(f)
The steering committee shall work with
Texas A&M University to:
(1)
establish a regular meeting
schedule and publish that schedule to
encourage public participation; and

175a
(2)
not later than October 31, 2007,
hire a program director to be housed at Texas
A&M University.
(g)
Texas A&M University may accept
outside funding to pay the salary and expenses of the
program director hired under this section and any
expenses
associated
with
the
university’s
participation in the creation of the steering committee
or subcommittees established by the steering
committee.
(h)
Where reasonably practicable or as
required by law, any meeting of the steering
committee, the Edwards Aquifer area expert science
subcommittee, or another subcommittee established
by the steering committee must be open to the public.
(i)
The steering committee appointed under
this section shall appoint an Edwards Aquifer area
expert science subcommittee not later than December
31, 2007. The expert science subcommittee must be
composed of an odd number of not fewer than seven
or more than 15 members who have technical
expertise regarding the Edwards Aquifer system, the
threatened and endangered species that inhabit that
system, springflows, or the development of
withdrawal limitations. The Bureau of Economic
Geology of The University of Texas at Austin and the
River Systems Institute at Texas State University
shall assist the expert science subcommittee. Chapter
2110, Government Code, does not apply to the size,
composition, or duration of the expert science
subcommittee.
(j)
The Edwards Aquifer area expert
science subcommittee shall, among other things,

176a
analyze species requirements in relation to spring
discharge rates and aquifer levels as a function of
recharge and withdrawal levels. Based on that
analysis and the elements required to be considered
by the authority under Section 1.14 of this article, the
expert science subcommittee shall, through a
collaborative process designed to achieve consensus,
develop recommendations for withdrawal reduction
levels and stages for critical period management
including, if appropriate, establishing separate and
possibly different withdrawal reduction levels and
stages for critical period management for different
pools of the aquifer needed to maintain target spring
discharge and aquifer levels. The expert science
subcommittee shall submit its recommendations to
the steering committee and all other stakeholders
involved in the recovery implementation program
under this section.
(k)
The initial recommendations of the
Edwards Aquifer area expert science subcommittee
must be completed and submitted to the steering
committee and other stakeholders not later than
December 31, 2008, and should include an evaluation:
(1)
of the option of designating a
separate San Marcos pool, of how such a
designation would affect existing pools, and of
the need for an additional well to measure the
San Marcos pool, if designated;
(2)
of the necessity to maintain
minimum springflows, including a specific
review of the necessity to maintain a flow to
protect the federally threatened and
endangered species; and

177a
(3)
as to whether adjustments in the
trigger levels for the San Marcos Springs flow
for the San Antonio pool should be made.
(l)
In developing its recommendations, the
Edwards Aquifer area expert science subcommittee
shall:
(1)
consider all reasonably available
science, including any Edwards Aquiferspecific studies, and base its recommendations
solely on the best science available; and
(2)
operate on a consensus basis to
the maximum extent possible.
(m) After development of the cooperative
agreement, the steering committee, with the
assistance of the Edwards Aquifer area expert science
subcommittee and with input from the other recovery
implementation program stakeholders, shall prepare
and submit recommendations to the authority. The
recommendations must:
(1)
include a review of the critical
period management plan, to occur at least once
every five years;
(2)
include
specific
monitoring,
studies, and activities that take into account
changed conditions and information that more
accurately reflects the importance of critical
period management; and
(3)
establish
a
schedule
for
continuing the validation or refinement of the
critical period management plan adopted by
the authority and the strategies to achieve the

178a
program and cooperative agreement described
by this section.
(n)
In this subsection, “recharge facility”
means a dam, reservoir, or other method of recharge
project and associated facilities, structures, or works
but does not include facilities designed to recirculate
water at Comal or San Marcos Springs. The steering
committee shall establish a recharge facility
feasibility subcommittee to:
(1)
assess the need for the authority
or any other entity to own, finance, design,
construct, operate, or maintain recharge
facilities;
(2)
formulate plans to allow the
authority or any other entity to own, finance,
design, construct, operate, or maintain
recharge facilities;
(3)
make recommendations to the
steering committee as to how to calculate the
amount of additional water that is made
available for use from a recharge project
including during times of critical period
reductions;
(4)
maximize
available
federal
funding for the authority or any other entity to
own, finance, design, construct, operate, or
maintain recharge facilities; and
(5)
evaluate the financing of recharge
facilities, including the use of management fees
or special fees to be used for purchasing or
operating the facilities.

179a
(o)
The steering committee may establish
other subcommittees as necessary, including a
hydrology subcommittee, a community outreach and
education subcommittee, and a water supply
subcommittee.
(p)
On execution of the memorandum of
agreement described by Subsection (b) of this section,
the steering committee described by Subsection (e) of
this section may, by majority vote of its members, vote
to add members to the steering committee, change the
makeup of the committee, or dissolve the committee.
If the steering committee is dissolved, the program
director hired under Subsection (f) of this section shall
assume the duties of the steering committee.
(q)
The authority shall provide an annual
report to the governor, lieutenant governor, and
speaker of the house of representatives not later than
January 1 of each year that details:
(1)
the status of the recovery
implementation program development process;
(2)
the likelihood of completion of the
recovery implementation program and the
cooperative agreement described by Subsection
(c) of this section;
(3)
the
extent
to
which
the
recommendations of the Edwards Aquifer area
expert science subcommittee are being
considered and implemented by the authority;
(4)
any other actions that need to be
taken in response to each recommendation;

180a
(5)
reasons explaining
recommendation received has
implemented; and

why any
not been

(6)
any other issues the authority
considers of value for the efficient and effective
completion of the program and the cooperative
agreement under this section.
Act of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.06,
2007 Tex. Gen. Laws 4612, 4630; Act of May 28, 2007,
80th Leg., R.S., ch. 1430, § 12.06, 2007 Tex. Gen. Laws
5848, 5904.
SECTION 1.27 RESEARCH. (a) The
authority shall complete research on the technological
feasibility of springflow enhancement and yield
enhancement that, immediately before September
1, 1993, is being conducted by the Edwards
Underground Water District.
(b)

The authority may conduct research to:

(1)
augment the springflow, enhance
the recharge, and enhance the yield of the
aquifer;
(2)
quality;

monitor

and

protect

water

(3)
manage
water
resources,
including water conservation, water use and
reuse, and drought management measures;
and
(4)
develop alternative supplies of
water for users.

181a
(c)
The
authority
may
schedule
demonstration projects for purposes of Subsection
(b)(1) of this section.
(d)
The authority may contract with other
persons to conduct research.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.27,
1993 Tex. Gen. Laws 2350, 2364.
SECTION 1.28 TAX; BONDS. (a) The
authority may not levy a property tax.
(b)
The authority may issue revenue bonds
to finance the purchase of land or the purchase,
construction, or installation of facilities or equipment.
The authority may not allow for any person to
construct, acquire, or own facilities for transporting
groundwater out of Uvalde County or Medina County.
(c)
Bonds issued by the authority are
subject to review and approval of the attorney general
and the commission. If the attorney general finds that
the bonds have been authorized in accordance with
the law, the attorney general shall approve them, and
the comptroller of public accounts shall register the
bonds. Following approval and registration, the bonds
are incontestable and are binding obligations
according to their terms.
(d)
The authority board may organize
proceeds of the bonds into funds and accounts and
may invest the proceeds as the authority board
determines is appropriate.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.28,
1993 Tex. Gen. Laws 2350, 2364.

182a
SECTION 1.29 FEES. (a) Repealed by Act of
May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.09, 2007
Tex. Gen. Laws 4612, 4634; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.09, 2007 Tex. Gen. Laws
5848, 5908.
(b)
The authority shall assess equitable
aquifer management fees based on aquifer use under
the water management plan to finance its
administrative expenses and programs authorized
under this article. Each water district governed by
Chapter 36, Water Code, that is within the authority’s
boundaries may contract with the authority to pay
expenses of the authority through taxes in lieu of user
fees to be paid by water users in the district. The
contract must provide that the district will pay an
amount equal to the amount that the water users in
the district would have paid through user fees. The
authority may not collect a total amount of fees and
taxes that is more than is reasonably necessary for
the administration of the authority. The authority
may not increase aquifer management fees by more
than eight percent per year.
(c)
Repealed by Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.09, 2007 Tex. Gen. Laws 4612,
4634; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.09, 2007 Tex. Gen. Laws 5848, 5908.
(d)
Repealed by Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.09, 2007 Tex. Gen. Laws 4612,
4634; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.09, 2007 Tex. Gen. Laws 5848, 5908.
(e)
In developing an equitable fee structure
under this section, the authority may establish
different fee rates on a per acre-foot basis for different

183a
types of use. The fees must be equitable between
types of uses. The fee rate for agricultural use shall
be based on the volume of water withdrawn and may
not be more than $2 per acre-foot. The authority shall
assess the fees on the amount of water a permit holder
is authorized to withdraw under the permit.
(f)
The authority may impose a permit
application fee not to exceed $25. The authority may
impose fees to recover administrative costs associated
with actions other than the filing and processing of
applications and registrations. The fees may not
unreasonably exceed the administrative costs.
(g)
The authority may impose a registration
application fee not to exceed $10.
(h)
Fees assessed by the authority may not
be used to fund the cost of reducing withdrawals or
retiring permits or of judgments or claims related to
withdrawals or permit retirements.
(i)
The authority and other stakeholders,
including state agencies, listed under Section 1.26A of
this article shall provide money as necessary to
finance the activities of the steering committee and
any subcommittees appointed by the steering
committee and the program director of the recovery
implementation program under Section 1.26A of this
article. The authority shall provide, as necessary, up
to $75,000 annually, adjusted for changes in the
consumer price index, to finance the South Central
Texas Water Advisory Committee’s administrative
expenses and programs authorized under this article.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.29,
1993 Tex. Gen. Laws 2350, 2364; as amended by Act

184a
of May 28, 2001, 77th Leg., R.S., ch. 966, § 2.61, 2001
Tex. Gen. Laws 1991, 2022; Act of May 28, 2007, 80th
Leg., R.S., ch. 1351, § 2.07, 2007 Tex. Gen. Laws 4612,
4633; Act of May 28, 2007, 80th Leg., R.S., ch. 1430,
§ 12.07, 2007 Tex. Gen. Laws 5848, 5908; as amended
by Act of May 27, 2019, 86th Leg., R.S., ch. ____, § 8,
2019 Tex. Gen. Laws ____, ____-__.
SECTION 1.30 RIVER DIVERSIONS. (a)
The commission may issue to an applicant a special
permit to divert water from the Guadalupe River from
a diversion point on the river downstream of the point
where the river emerges as a spring.
(b)
A permit issued to a person under this
section must condition the diversion of water from the
Guadalupe River on a limitation of withdrawals
under the person’s permit to withdraw water from the
aquifer.
(c)
A permit issued under this section must
provide that the permit holder may divert water from
the Guadalupe River only if:
(1)
the diversion is made instead of a
withdrawal from the aquifer to enhance the
yield of the aquifer; and
(2)
the diversion does not impair
senior water rights or vested riparian rights.
(d)
A permit issued in accordance with this
section is subordinate to permitted water rights for
which applications were submitted before May 31,
1993, and vested riparian rights.
(e)
Sections 11.028 and 11.033, Water Code,
do not apply to a permit issued under this section.

185a
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.30,
1993 Tex. Gen. Laws 2350, 2365.
SECTION 1.31 MEASURING DEVICES. (a)
The owner of a nonexempt well that withdraws water
from the aquifer shall install and maintain a
measuring device approved by the authority designed
to indicate the flow rate and cumulative amount of
water withdrawn by that well. This requirement may
be waived by the authority on written request by a
well owner to use an alternative method of
determining the amount of water withdrawn.
(b)
The authority is responsible for the costs
of purchasing, installing, and maintaining measuring
devices, if required, for an irrigation well in existence
on September 1, 1993.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.31,
1993 Tex. Gen. Laws 2350, 2365.
SECTION 1.32 REPORTS. Not later than
March 1 of each year, and on a form prescribed by the
authority, each holder of a permit shall file with the
authority a written report of water use for the
preceding calendar year.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.32,
1993 Tex. Gen. Laws 2350, 2366.
SECTION
1.33
WELL
METERING
EXEMPTION. (a) A well that produces 25,000
gallons of water a day or less for domestic or livestock
use is exempt from metering requirements.
(b)
Exempt wells must register with the
authority or with an underground water conservation
district in which the well is located.

186a
(c)
A well serving a subdivision requiring
platting does not qualify for an exempt use.
(d)
A well drilled on or before June 1, 2013,
for any purpose authorized under this article is
exempt from the requirement to obtain a withdrawal
permit provided that the well:
(1)
is not capable of producing more
than 1,250 gallons of water a day; or
(2)
is metered and does not produce
more than 1.4 acre-feet of water in a calendar
year.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.33,
1993 Tex. Gen. Laws 2350, 2366; as amended by Act
of May 20, 2013, 83rd Leg., R.S., ch. 783, 2013 Tex.
Gen. Laws 1998.
SECTION 1.34 TRANSFER OF RIGHTS.
(a) In this section:
(1)
“Developed
land”
means
historically irrigated land that has been
physically altered by the installation of utilities
or construction of roads, parking lots,
driveways, foundations, structures, buildings,
stormwater collection systems, public parks, or
athletic fields or by similar improvements.
(2)
“Historically
irrigated
land”
means land irrigated during the historical
period, as described by Section 1.16 of this Act,
that provided the basis for the issuance of an
initial regular permit for irrigation use and is
identified as the place of use in the initial
regular permit.

187a
(3)
“Land no longer practicable to
farm” means historically irrigated land:
(A)
that has not been irrigated
for more than five years; and
(B)
for which the owner of the
land has submitted to the authority
documentation demonstrating that
because of development on land in close
proximity to the historically irrigated
land, agricultural activities performed
on the land, including crop dusting or
other applications of pesticides, have the
potential to compromise the health and
safety of a farm operator or of persons
occupying or residing on property in
close proximity to the land.
(b)
Water withdrawn from the aquifer must
be used within the boundaries of the authority.
(c)
The authority by rule may establish a
procedure by which a person who installs water
conservation equipment may sell the water
conserved.
(d)
Except as otherwise provided by this
section, a permit holder may lease permitted water
rights, but a holder of a permit for irrigation use may
not lease more than 50 percent of the irrigation rights
initially permitted. The user’s remaining irrigation
water rights must be used in accordance with the
original permit and must pass with transfer of the
irrigated land.

188a
(e)
Subject to approval by the authority, the
owner of historically irrigated land may sever all or a
portion of the remaining water rights for the
historically irrigated land which has become
developed land in the same proportion as the
proportion of developed land and undeveloped land or
for which the owner of the historically irrigated land
has demonstrated that all or a portion of the land is
land no longer practicable to farm. Water rights used
for irrigation tied to a portion of land that cannot be
developed because of its topography or its location in
a floodplain may be included in the proportion of land
considered developed land. Water rights for use in
irrigation severed under this subsection may change
in purpose or place of use. Rules adopted to
implement this subsection may not expand the type of
land considered developed land or land considered
land no longer practicable to farm. The approval of a
severance under this section is subject to a contested
case hearing in accordance with authority rules.
(f)
The authority may adopt rules to
provide for a holder of an initial regular permit for use
in irrigation to lease all or part of the water rights for
use in irrigation granted in the initial permit to
another person for irrigating land, including land not
described in the initial regular permit, located in the
authority. Rules adopted under this subsection may
allow the holder of an initial regular permit to use the
water rights temporarily for irrigation at a location
other than the land described in the initial regular
permit.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.34,
1993 Tex. Gen. Laws 2350, 2366; as amended by Act

189a
of May 24, 2019, 86th Leg., R.S., ch. ___, § 1, 2019
Tex. Gen. Laws ____, ____-__.
SECTION 1.35 PROHIBITIONS. (a) A
person may not withdraw water from the aquifer
except as authorized by a permit issued by the
authority or by this article.
(b)
A person holding a permit issued by the
authority may not violate the terms or conditions of
the permit.
(c)
A person may
withdrawn from the aquifer.

not

waste

water

(d)
A person may not pollute or contribute
to the pollution of the aquifer.
(e)
A person may not violate this article or a
rule of the authority adopted under this article.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.35,
1993 Tex. Gen. Laws 2350, 2366.
SECTION 1.36 ENFORCEMENT. (a) The
authority may enter orders to enforce the terms and
conditions of permits, orders, or rules issued or
adopted under this article.
(b)
The authority by rule shall provide for
the suspension of a permit of any class for a failure to
pay a required fee or a violation of a permit condition
or order of the authority or a rule adopted by the
authority.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.36,
1993 Tex. Gen. Laws 2350, 2366.

190a
SECTION 1.361 OPEN OR UNCOVERED
WELLS. (a) If the owner or lessee of land on which an
open or uncovered well is located fails or refuses to
close or cap the well in compliance with Chapter 1901,
Occupations Code, and the authority’s rules:
(1)
the
authority
may
take
enforcement action as authorized by this
article to require the owner or lessee to close or
cap the well; or
(2)
a person, firm, or corporation
employed by the authority may go on the land
and close or cap the well safely and securely.
(b)
Reasonable expenses incurred by the
authority in closing or capping a well constitute a lien
on the land on which the well is located.
(c)
The lien described by Subsection (b)
arises and attaches on recordation of, in the deed
records of the county where the well is located, an
affidavit executed by any person conversant with the
facts stating the following:
(1)

the existence of the well;

(2)
the legal description of
property on which the well is located;

the

(3)
the approximate location of the
well on the property;
(4)
the failure or refusal of the owner
or lessee, after notification, to close or cap the
well before the expiration of 10 days after the
notification;

191a
(5)
the closing or capping of the well
by the authority, or by an authorized agent,
representative, or employee of the authority;
and
(6)
the expense incurred by the
authority in closing or capping the well.
(d)
This section does not affect the
enforcement of Subchapter A, Chapter 756, Health
and Safety Code.
Act of May 27, 2019, 86th Leg., R.S., ch. ____, § 9,
§ 1.361, 2019 Tex. Gen. Laws ____, ____-__.
SECTION
1.37
ADMINISTRATIVE
PENALTY. (a) The authority may assess an
administrative penalty against a person who violates
this article or a rule adopted or order issued under
this article in an amount of not less than $100 or more
than $1,000 for each violation and for each day of a
continuing violation.
(b)
In determining the amount of the
penalty, the authority shall consider:
(1)

the history of previous violations;

(2)
the amount necessary to deter
future violations;
(3)

efforts to correct the violation;

(4)
enforcement costs relating to the
violation; and
(5)
any other matters that justice
may require.

192a
(c)
If after an examination of the facts the
authority concludes that the person did commit a
violation, the authority may issue a preliminary
report stating the facts on which it based its
conclusion, recommending that an administrative
penalty under this section be imposed, and
recommending the amount of the proposed penalty.
(d)
The authority shall give written notice of
the report to the person charged with committing the
violation. The notice must include a brief summary of
the facts, a statement of the amount of the
recommended penalty, and a statement of the
person’s right to an informal review of the occurrence
of the violation, the amount of the penalty, or both.
(e)
Not later than the 10th day after the
date on which the person charged with committing
the violation receives the notice, the person may
either give the authority written consent to the
report, including the recommended penalty, or make
a written request for an informal review by the
authority.
(f)
If the person charged with committing
the violation consents to the penalty recommended by
the authority or fails timely to request an informal
review, the authority shall assess the penalty. The
authority shall give the person written notice of its
action. The person shall pay the penalty not later
than the 30th day after the date on which the person
receives the notice.
(g)
If the person charged with committing a
violation requests an informal review as provided by
Subsection (e) of this section, the authority shall

193a
conduct the review. The authority shall give the
person written notice of the results of the review.
(h)
Not later than the 10th day after the
date on which the person charged with committing
the violation receives the notice prescribed by
Subsection (g) of this section, the person may make to
the authority a written request for a hearing.
(i)
If, after informal review, a person who
has been ordered to pay a penalty fails to request a
formal hearing in a timely manner, the authority
shall assess the penalty. The authority shall give the
person written notice of its action. The person shall
pay the penalty not later than the 30th day after the
date on which the person receives the notice.
(j)
Before the expiration of 30 days after the
date the authority’s order is final as provided by
Section 2001.144(a), Government Code, the person
shall:
(1)

pay the amount of the penalty;

(2)
pay the amount of the penalty and
file a petition for judicial review contesting the
occurrence of the violation, the amount of the
penalty, or both the occurrence of the violation
and the amount of the penalty; or
(3)
without paying the amount of the
penalty, file a petition for judicial review
contesting the occurrence of the violation, the
amount of the penalty, or both the occurrence
of the violation and the amount of the penalty.

194a
(k)
Within the 30-day period, a person who
acts under Subdivision (3) of Subsection (j) of this
section may:
by:

(1)

stay enforcement of the penalty

(A)
paying the amount of the
penalty to the court for placement in an
escrow account; or
(B)
giving to the court a
supersedeas bond approved by the court
for the amount of the penalty and that is
effective until all judicial review of the
authority’s order is final; or
(2)

request the court to stay enforcement of the penalty
by:
(A)
filing with the court a
sworn affidavit of the person stating that
the person is financially unable to pay
the amount of the penalty and is
financially
unable
to
give
the
supersedeas bond; and
(B)
giving a copy of the
affidavit to the authority by certified
mail.
(l)
If the authority receives a copy of an
affidavit under Subdivision (2) of Subsection (k) of
this section, it may file with the court within five days
after the date the copy is received a contest to the
affidavit. The court shall hold a hearing on the facts
alleged in the affidavit as soon as practicable and
shall stay the enforcement of the penalty on finding

195a
that the alleged facts are true. The person who files
an affidavit has the burden of proving that the person
is financially unable to pay the amount of the penalty
and to give a supersedeas bond.
(m) If the person does not pay the amount of
the penalty and the enforcement of the penalty is not
stayed, the authority may refer the matter to the
attorney general for collection of the amount of the
penalty.
(n)
authority:

Judicial review of the order of the

(1)
is instituted by filing a petition as
provided by Subchapter G, Chapter 2001,
Government Code; and
(2)

is under the substantial evidence

rule.
(o)
If the court sustains the occurrence of
the violation, the court may uphold or reduce the
amount of the penalty and order the person to pay the
full or reduced amount of the penalty. If the court does
not sustain the occurrence of the violation, the court
shall order that no penalty is owed.
(p)
When the judgment of the court becomes
final, the court shall proceed under this subsection. If
the person paid the amount of the penalty and if that
amount is reduced or is not upheld by the court, the
court shall order that the appropriate amount plus
accrued interest be remitted to the person. The rate of
the interest is the rate charged on loans to depository
institutions by the New York Federal Reserve Bank,
and the interest shall be paid for the period beginning

196a
on the date the penalty was paid and ending on the
date the penalty is remitted. If the person gave a
supersedeas bond and if the amount of the penalty is
not upheld by the court, the court shall order the
release of the bond. If the person gave a supersedeas
bond and if the amount of the penalty is reduced, the
court shall order the release of the bond after the
person pays the amount.
(q)
A penalty collected under this section
shall be remitted to the authority.
(r)
All proceedings under this section are
subject to Chapter 2001, Government Code.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.37,
1993 Tex. Gen. Laws 2350, 2366; as amended by Act
of May 27, 2019, 86th Leg., R.S., ch. ____, § 10, 2019
Tex. Gen. Laws ____, ____-__.
SECTION
1.38
INJUNCTION
BY
AUTHORITY. (a) The authority may file a civil suit
in a state district court for an injunction or mandatory
injunction to enforce this article and the authority’s
rules. The authority may recover reasonable attorney
fees in a suit under this section.
(b)
In an enforcement action by the
authority against a governmental entity for a
violation of authority rules, the limits on the amount
of fees, costs, and penalties that the authority may
impose under this section constitute a limit of liability
of the governmental entity for the violation. This
subsection does not prohibit the recovery by the
authority of fees and costs under this article in an
action against a governmental entity.

197a
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.38,
1993 Tex. Gen. Laws 2350, 2368; as amended by Act
of May 27, 2019, 86th Leg., R.S., ch. ____, § 11, 2019
Tex. Gen. Laws ____, ____-___.
SECTION 1.39 SUIT FOR MANDAMUS.
The commission may file a civil suit for an order of
mandamus against the authority to compel the
authority to perform its duties under this article or to
compel the authority to enforce this article against a
violator. The commission may recover attorney fees
from the authority in a suit under this section.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.39,
1993 Tex. Gen. Laws 2350, 2368.
SECTION 1.40 CIVIL PENALTY. (a) The
commission or authority may file a civil action in state
district court for a civil penalty for a violation of this
article or a rule adopted or permit or order issued
under this article.
(b)
The commission or authority may
recover a civil penalty of not less than $100 or more
than $10,000 for each violation and for each day of
violation and attorney fees.
(c)
A civil penalty or attorney fees collected
by the authority under this section shall be paid to the
authority.
(d)
A civil penalty or attorney fees collected
by the commission under this section shall be
deposited to the credit of the general revenue fund.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.40,
1993 Tex. Gen. Laws 2350, 2368.

198a
SECTION 1.41 REPEALER; TRANSFERS;
RULES. (a) Chapter 99, Acts of the 56th Legislature,
Regular Session, 1959 (Article 8280-219, Vernon’s
Texas Civil Statutes), is repealed, and the Edwards
Underground Water District is abolished.
(b)
All files and records of the Edwards
Underground Water District pertaining to control,
management, and operation of the district are
transferred from the Edwards Underground Water
District to the authority on the effective date of this
article.
(c)
All real and personal property, leases,
rights, contracts, staff, and obligations of the
Edwards Underground Water District are transferred
to the authority on the effective date of this article.
(d)
On September 1, 1993, all unobligated
and unexpended funds of the Edwards Underground
Water District shall be transferred to the authority.
(e)
Repealed by Act of May 28, 2001, 77th
Leg., R.S., ch. 966, § 6.03, 2001 Tex. Gen. Laws 1991,
2075.
(f)
The authority shall be automatically
substituted for the Edwards Underground Water
District in any judicial or administrative proceeding
to which, on the effective date of this article, the
Edwards Underground Water District is a party.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.41,
1993 Tex. Gen. Laws 2350, 2368; as amended by Act
of May 28, 2001, 77th Leg., R.S., ch. 966, § 6.03, 2001
Tex. Gen. Laws 1991, 2075.

199a
SECTION 1.42 EFFECT ON OTHER
DISTRICTS. (a) An underground water conservation
district other than the authority may manage and
control water that is a part of the aquifer after the
effective date of this article only as provided in this
section. This article does not affect a water
reclamation or conservation district that manages
and controls only water from a resource other than
the aquifer.
(b)
An underground water conservation
district other than the authority may manage and
control water that is a part of the aquifer to the extent
that those management activities do not conflict with
and are not duplicative of this article or the rules and
orders of the authority.
(c)
Except as otherwise provided by this
article, the board may delegate the powers and duties
granted to it under this article. The board shall
delegate all or part of its powers or duties to an
underground water conservation district on the
district’s request if the district demonstrates to the
satisfaction of the board that:
(1)
the district has statutory powers
necessary for full enforcement of the rules and
orders to be delegated;
(2)
the district has implemented all
rules and policies necessary to fully implement
the programs to be delegated; and
(3)
the district has implemented a
system designed to provide the authority with
adequate information with which to monitor

200a
the adequacy of the district’s performance in
enforcing board rules and orders.
(d)
In making the determination under
Subsection (c) of this section, the board may consider
the district’s past performance and experience in
enforcing powers and duties delegated to it by the
board. The board may deny a request for delegation of
powers or duties by a district if the district has
previously had a delegation terminated under
Subsection (e) of this section.
(e)
If the authority determines that a
district has failed adequately to enforce or implement
any rules or orders delegated under this section, the
authority immediately shall provide to the district
notice that sets forth the reasons for its determination
and the actions that the district must take to retain
the delegated authority. Not later than the 10th day
after the date the notice is given, the district must
demonstrate its commitment and ability to take the
actions set forth in the notice. If, at the end of the 10day period, the authority does not find that the
district will adequately enforce its rules and orders,
the authority immediately shall resume full
responsibility for implementation and enforcement of
those rules and orders. The authority shall provide to
the district notice that the delegation of authority to
it has been terminated. After the termination notice
is given, the authority of the district to manage or
control water in the aquifer is limited to the authority
granted by Subsection (b) of this section.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.42,
1993 Tex. Gen. Laws 2350, 2368.

201a
SECTION
1.43
CREATION
OF
UNDERGROUND WATER CONSERVATION
DISTRICT. An underground water conservation
district may be created in any county affected by this
article as provided by Subchapter B, Chapter 52,
Water Code.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.43,
1993 Tex. Gen. Laws 2350, 2369.
SECTION
1.44
COOPERATIVE
CONTRACTS FOR ARTIFICIAL RECHARGE.
(a) The authority may contract with any political
subdivision of the state under Chapter 791,
Government Code, to provide for artificial recharge of
the aquifer, through injection wells or with surface
water subject to the control of the political
subdivision, for the subsequent retrieval of the water
by the political subdivision or its authorized assignees
for beneficial use within the authority.
(b)
The authority may not unreasonably
deny a request to enter into a cooperative contract
under this section if the political subdivision agrees
to:
(1)
file with the authority records of
the injection or artificial recharge of the
aquifer; and
(2)
provide for protection of the
quality of the aquifer water and of the rights of
aquifer users in designating the location of
injection wells or recharge dams, the methods
of injection or recharge, and the location and
type of retrieval wells.

202a
(c)
Except as provided by Subsection (c-1),
the political subdivision causing artificial recharge of
the aquifer is entitled to withdraw during any 12month period the measured amount of water actually
injected or artificially recharged during the preceding
12-month period, as demonstrated and established by
expert testimony, less an amount determined by the
authority to:
(1)
account for that part of the
artificially recharged water discharged
through springs; and
(2)
compensate the authority in lieu
of users’ fees.
(c-1) A political subdivision or municipally
owned utility causing artificial recharge of a portion
of the aquifer that contains groundwater with a total
dissolved solids concentration of more than 5,000
milligrams per liter is entitled to withdraw the
measured amount of water actually injected or
artificially recharged.
(d)
The amounts of water withdrawn under
this section are not subject to the maximum total
permitted withdrawals provided by Section 1.14 of
this article.
(e)
The authority may contract for injection
or artificial recharge under this section only if
provision is made for protecting and maintaining the
quality of groundwater in the receiving part of the
aquifer, and:
(1)
the water used for artificial
recharge is groundwater withdrawn from the
aquifer;

203a
(2)
the water is recharged through a
natural recharge feature; or
(3)
the water is injected by a
municipally owned utility owned by the City of
New Braunfels, and:
(A)
the water has a total
dissolved solids concentration of less
than 1,500 milligrams per liter and is
not domestic wastewater, municipal
wastewater, or reclaimed water as those
terms are defined by 30 T.A.C. Chapter
210, effective October 31, 2018;
(B)
the
injection
well
terminates in a portion of the aquifer
that contains groundwater with a total
dissolved solids concentration of more
than 5,000 milligrams per liter; and
(C)
if the water injected is state
water, the utility has a water right or
contract for use of the water that does
not prohibit use of the water in an
aquifer storage and recovery project.
(e-1) The injection or withdrawal of water
under Subsection (c-1) or (e)(3) must comply with
requirements imposed under Subchapter G, Chapter
27, Water Code.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.44,
1993 Tex. Gen. Laws 2350, 2369; as amended by Act
of May 28, 2001, 77th Leg., R.S., ch. 966, § 2.62, 2001
Tex. Gen. Laws 1991, 2022; as amended by Act of May

204a
26, 2019, 86th Leg., R.S., ch. ____, § 1, 2019 Tex. Gen.
Laws ____; ____-___.
SECTION 1.45 RECHARGE DAMS. (a) The
authority may own, finance, design, construct,
operate, and maintain recharge dams and associated
facilities, structures, or works in the contributing or
recharge area of the aquifer if the recharge is made to
increase the yield of the aquifer, the recharge project
does not impair senior water rights or vested riparian
rights, and the recharge project is not designed to
recirculate water at Comal or San Marcos Springs.
(b)
The commission shall determine the
historic yield of the floodwater to the Nueces River
basin. The historic yield is equal to the lesser of:
(1)
the average annual yield for the
period from 1950 to 1987; or
(2)

the annual yield for 1987.

(c)
Only the amount of floodwater in excess
of the historic yield as determined by the commission
may be impounded by a recharge dam built or
operated under this section.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 1.44,
1993 Tex. Gen. Laws 2350, 2370; as amended by Act
of May 28, 2007, 80th Leg., R.S., ch. 1351, § 2.08, 2007
Tex. Gen. Laws 4612, 4634; Act of May 28, 2007, 80th
Leg., R.S., ch. 1430, § 12.08, 2007 Tex. Gen. Laws
5848, 5908.
SECTION 1.46 SUITS. (a) A person, firm,
corporation, or association of persons affected by and
dissatisfied with any provision or with any rule or
order made by the authority is entitled to file a suit

205a
against the authority or its directors to challenge the
validity of the law, rule, or order.
(b)
Only the authority, the applicant, and
parties to a contested case hearing may participate in
an appeal of a decision on the application that was the
subject of that contested case hearing. An appeal of a
decision on a permit application must include the
applicant as a necessary party.
(c)
A suit under this section must be filed in
a court of competent jurisdiction in any county in
which the authority is located. The suit may be filed
only after all administrative appeals to the authority
are final.
(d)
The burden of proof is on the petitioner,
and the challenged law, rule, order, or act is to be
considered prima facie valid. The review on appeal is
governed by either Section 2001.038 or Section
2001.174, Government Code, as appropriate.
(e)
The authority may recover attorney’s
fees, costs for expert witnesses, and other costs
incurred by the authority before the court on the same
basis as Chapter 36, Water Code, provides for a
groundwater conservation district to recover those
fees and costs.
Act of May 27, 2019, 86th Leg., R.S., ch. ____, § 12, §
1.46, 2019 Tex. Gen. Laws ____, ____-___.
ENDNOTES
1.
Although not codified as an amendment to the
Act, §§ 2.10 and 2.11 of Act of May 28, 2007, 80th Leg.,
R.S., ch. 1351, 2007 Tex. Gen. Laws 4612, 4634 (H.B.
3) and §§ 12.10 and 12.11 of Act of May 28, 2007, 80th

206a
Leg., R.S., ch. 1430, 2007 Tex. Gen. Laws 5848, 5908
- 5909 (S.B. 3) are relevant to the Authority and
provide as follows:
SECTION 2.10 [H.B. 3]. (a) Before
January 1, 2012, a suit may not be
instituted in a state court contesting:
(1)
the
validity
or
implementation of this article; or
(2)
the
groundwater
withdrawal amounts recognized
in Section 2.02 of this Act.
(b)
If applicable, a party that
files a suit in any court shall be
automatically removed from the steering
committee established under Section
1.26A, Chapter 626, Acts of the 73rd
Legislature, Regular Session, 1993, as
added by this article.
(c)
A suit against the Edwards
Aquifer Authority may not be instituted
or maintained by a person who owns,
holds, or uses a surface water right and
claims injury or potential injury to that
right for any reason, including any
actions taken by the Edwards Aquifer
Authority to implement or enforce
Article 1, Chapter 626, Acts of the 73rd
Legislature, Regular Session, 1993, as
amended. This section does not apply to
suits brought pursuant to Section 1.45,
Chapter 626, Acts of the 73rd
Legislature, Regular Session, 1993.

207a
********************
SECTION 12.10 [S.B. 3]. (a)
Before January 1, 2012, a suit may not
be instituted in a state court contesting:
(1)
the
validity
or
implementation of this article; or
(2)
the
groundwater
withdrawal amounts recognized
in Section 1.14, Chapter 626, Acts
of the 73rd Legislature, Regular
Session, 1993, as amended by this
Act.
(b)
If applicable, a party that
files a suit in any court shall be
automatically removed from the steering
committee established under Section
1.26A, Chapter 626, Acts of the 73rd
Legislature, Regular Session, 1993, as
added by this Act.
(c)
A suit against the Edwards
Aquifer Authority may not be instituted
or maintained by a person who owns,
holds, or uses a surface water right and
claims injury or potential injury to that
right for any reason, including any
actions taken by the Edwards Aquifer
Authority to implement or enforce
Article 1, Chapter 626, Acts of the 73rd
Legislature, Regular Session, 1993, as
amended. This section does not apply to
suits brought pursuant to Section 1.45,

208a
Chapter 626, Acts of the 73rd
Legislature, Regular Session, 1993.
********************
SECTION 2.11 [H.B. 3]. The
change in law made by this article
applies only to a cause of action filed on
or after the effective date of this article.
A cause of action that is filed before the
effective date of this article is governed
by the law in effect immediately before
the effective date of this article, and that
law is continued in effect for that
purpose.
********************
SECTION 12.11 [S.B. 3]. The
change in law made by this article
applies only to a cause of action filed on
or after the effective date of this article.
A cause of action that is filed before the
effective date of this article is governed
by the law in effect immediately before
the effective date of this article, and that
law is continued in effect for that
purpose.
2.
Although not codified as an amendment to the
Act, §§ 2, 3 of Act of May 24, 2019, 86th Leg., R.S., ch.
____, 2019 Tex. Gen. Laws ____, ____-___ (H.B. 3656)
is relevant to the Authority and provides as follows:
SECTION 2 [H.B. 3656]. Rules
adopted by the Edwards Aquifer
Authority before the effective date of this

209a
Act relating to the severance of water
rights from historically irrigated land
and actions taken by the authority
under those rules are validated and
confirmed in all respects.
********************
SECTION 3 [H.B. 3656]. The
change in law made by this Act to
Section 1.34, Chapter 626, Acts of the
73rd Legislature, Regular Session,
1993, applies only to a transfer, and
the contracts or other transaction
documents of any kind related thereto,
including documents related to the
extension
of
credit,
hereinafter
collectively referred to as “transfer,”
effective on or after the effective date of
this Act. The change in law made by this
Act to Section 1.34, Chapter 626, Acts of
the 73rd Legislature, Regular Session,
1993, does not affect the validity of a
transfer effective before the effective
date of this Act. A transfer effective
before the effective date of this Act is
governed by the provisions of Chapter
626, Acts of the 73rd Legislature,
Regular Session, 1993, and the rules of
the Edwards Aquifer Authority in effect
at the time the transfer became
effective. Transfers effective before the
effective date of this Act, that have not
been rescinded, and are not subject to
pending
litigation
are
hereby
conclusively validated in all respects.

210a
ARTICLE 2
SECTION 2.01 DEFINITION. In this article,
“district” means the Uvalde County Underground
Water Conservation District.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.01,
1993 Tex. Gen. Laws 2350, 2370.
SECTION 2.02 VALIDATION. The creation
of the district and all resolutions, orders, and other
acts or attempted acts of the board of directors of the
district are validated in all respects. The creation of
the district and all resolutions, orders, and other acts
or attempted acts of the board of directors of the
district are valid as though they originally had been
legally authorized or accomplished.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.02,
1993 Tex. Gen. Laws 2350, 2370.
SECTION 2.03 BOUNDARIES. Pursuant to
the petition to the Commissioners Court of Uvalde
County, Texas, requesting the creation of the district,
the district includes the territory contained within
the boundaries of Uvalde County.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.03,
1993 Tex. Gen. Laws 2350, 2370.
SECTION 2.04 FINDING OF BENEFIT. All
the land and other property included within the
boundaries of the district will be benefited by the
validation of the district.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.04,
1993 Tex. Gen. Laws 2350, 2370.

211a
SECTION 2.05 POWERS. (a) The district has
all of the rights, powers, privileges, authority,
functions, and duties provided by the general law of
the state, including Chapters 50 and 52, Water Code,
applicable to underground water conservation
districts created under Article XVI, Section 59, of the
Texas Constitution. This article prevails over any
provision of general law that is in conflict or
inconsistent with this article.
(b)
The district may develop and implement
a drought response plan, with reasonable rules, using
water levels as observed in the Uvalde Index Well YP69-50-302.
(c)
The rights, powers, privileges, authority,
functions, and duties of the district are subject to the
continuing right of supervision of the state to be
exercised by and through the Texas Water
Commission.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.05,
1993 Tex. Gen. Laws 2350, 2370.
SECTION 2.06 LEVY OF TAXES. The levy
and collection of taxes by the district are governed by
Subchapter H, Chapter 52, Water Code, except that
the district may not levy a maintenance and operating
tax at a rate that exceeds two cents per $100 assessed
valuation unless an election held in the district
authorizes a higher rate.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.06,
1993 Tex. Gen. Laws 2350, 2370.
SECTION 2.07 PENDING LITIGATION.
This article does not apply to or affect litigation

212a
pending on the effective date of this article in any
court of competent jurisdiction in this state to which
the district is a party.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 2.07,
1993 Tex. Gen. Laws 2350, 2370.
ARTICLE 3
SECTION
3.01
LEGISLATIVE
OVERSIGHT. (a) The Edwards Aquifer Legislative
Oversight Committee is composed of:
(1)
three members of the senate
appointed by the lieutenant governor; and
(2)
three members of the house of
representatives appointed by the speaker of the
house of representatives.
(b)
The committee shall examine and report
to the legislature on the effectiveness of the state and
local governmental entities in meeting the purposes
of the Edwards Aquifer Authority.
(c)
review:

The board shall continually oversee and

(1)
the activities of the Edwards
Aquifer Authority and the implementation of
that authority’s enabling legislation;
(2)
the activities of the South Central
Texas Water Advisory Committee;
(3)
compliance with federal law
relating to threatened or endangered species
related to management of underground or
surface water in the Edwards Aquifer region;

213a
(4)
water pollution control activities
in the Edwards Aquifer region; and
(5)
the activities of soil and water
conservation districts and river authorities in
the Edwards Aquifer district that affect the
management of the aquifer.
(d)
Not later than the last business day of
each even-numbered year, the Edwards Aquifer
Authority shall prepare and deliver a report to the
committee on the authority’s operations. The report
must contain a summary of issues related to the
authority’s operations that affect the continuing
implementation of this Act or require an amendment
to this Act.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 3.01,
1993 Tex. Gen. Laws 2350, 2370; as amended by Act
of May 27, 2019, 86th Leg., R.S., ch. ____, § 13, 2019
Tex. Gen. Laws ____, ____-___.
SECTION 3.02 NOTICE OF AVAILABLE
WATER. The Texas Natural Resource Conservation
Commission shall notify the Edwards Aquifer
Authority of any water available for appropriation in
the Guadalupe-Blanco River Basin as the commission
discovers the available water.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 3.02,
1993 Tex. Gen. Laws 2350, 2371.
SECTION 3.03 SUNSET COMMISSION
REVIEW OF GUADALUPE-BLANCO RIVER
AUTHORITY.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 3.03,
1993 Tex. Gen. Laws 2350, 2371; repealed by Act of

214a
May 16, 1995, 74th Leg., R.S., ch. 524, § 1, 1995 Tex.
Gen. Laws 3280.
SECTION 3.04 COOPERATION. All state
and local governmental entities are hereby directed to
cooperate with the authority to the maximum extent
practicable so that the authority can best be able to
accomplish the purposes set forth under Article 1. The
authority shall, on or before January 1, 1995, submit
a report to the governor, lieutenant governor, and
speaker of the house of representatives evaluating the
extent to which other entities have cooperated with
and assisted the authority.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 3.04,
1993 Tex. Gen. Laws 2350, 2371..
ARTICLE 4
SECTION 4.01 FINDINGS RELATED TO
PROCEDURAL REQUIREMENTS. (a) The proper
and legal notice of the intention to introduce this Act,
setting forth the general substance of this Act, has
been published as provided by law, and the notice and
a copy of this Act have been furnished to all persons,
agencies, officials, or entities to which they are
required to be furnished by the constitution and other
laws of this state, including the governor, who has
submitted the notice and Act to the Texas Water
Commission.
(b)
The Texas Water Commission has filed
its recommendations relating to this Act with the
governor, lieutenant governor, and speaker of the
house of representatives within the required time.

215a
(c)
All requirements of the constitution and
laws of this state and the rules and procedures of the
legislature with respect to the notice, introduction,
and passage of this Act are fulfilled and accomplished.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 4.01,
1993 Tex. Gen. Laws 2350, 2371..
SECTION 4.02 EFFECTIVE DATES. This
Act takes effect September 1, 1993, except Section
1.35 of Article 1 takes effect March 1, 1994.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 4.02,
1993 Tex. Gen. Laws 2350, 2371..
SECTION
4.03
EMERGENCY.
The
importance of this legislation and the crowded
condition of the calendars in both houses create an
emergency and an imperative public necessity that
the constitutional rule requiring bills to be read on
three several days in each house be suspended, and
this rule is hereby suspended.
Act of May 30, 1993, 73rd Leg., R.S., ch. 626, § 4.03,
1993 Tex. Gen. Laws 2350, 2371.
rev. 10/22/19
11212.01011/DFRO/MISC-5/811430v.15

216a
EXPERT REPORT OF
STEPHEN ANSOLABEHERE
I. Background and Qualifications
1. I am a professor of Government in the
Department of Government at Harvard University in
Cambridge, MA. Formerly, I was an Assistant
Professor at the University of California, Los Angeles,
and I was Professor of Political Science at the
Massachusetts Institute of Technology, where I held
the Elting R. Morison Chair and served as Associate
Head of the Department of Political Science. I
directed the Caltech/MIT Voting Technology Project
from its inception in 2000 through 2004, am the
Principal
Investigator
of
the
Cooperative
Congressional Election Study, a survey research
consortium of over 250 faculty and student
researchers at more than 50 universities, and serve
on the Board of Overseers of the American National
Election Study. I am a consultant to CBS News’
Election Night Decision Desk. I am a member of the
American Academy of Arts and Sciences (inducted in
2007).
2. I have worked as a consultant to the Brennan
Center in the case McConnell v. FEC, 540 US 93
(2003). I have testified before the U. S. Senate
Committee on Rules, the U. S. Senate Committee on
Commerce, the U. S. House Committee on Science,
Space, and Technology, the U. S. House Committee on
House Administration, and the Congressional Black
Caucus on matters of election administration in the
United States. I filed an amicus brief with Professors
Nathaniel Persily and Charles Stewart on behalf of
neither party to the U. S. Supreme Court in the case

217a
of Northwest Austin Municipal Utility District
Number One v. Holder, 557 US 193 (2009). I am
consultant for the Rodriguez plaintiffs in Perez v.
Perry, currently before the District Court in the
Western District of Texas (No. 5:11-cv-00360 W. D.
Tex), and the Gonzales intervenors in State of Texas
v. United States before the District Court in the
District of Columbia (No. 1:11-cv-01303); I consulted
for the Department of Justice in State of Texas v.
Holder, before the District Court in the District of
Columbia (No. 1:12-cv-00128); I consulted for the Guy
plaintiffs in Guy v. Miller in Nevada District Court
(No. 11-OC-00042-1B, Nev. Dist. Ct., Carson City); I
am consultant for the Romo plaintiffs in Romo v.
Detzner in Florida Supreme Court (Nos. 2012-CA-412,
2012-CA-490) and Circuit Court of the Second
Judicial Circuit in Florida (No. 2012 CA 412).
3. My areas of expertise include American
government, with particular expertise in electoral
politics, representation, and public opinion, as well as
statistical methods in social sciences. I am author of
numerous scholarly works on voting behavior and
elections, the application of statistical methods in
social sciences, legislative politics and representation,
and distributive politics. This scholarship includes
articles in such academic journals as the Journal of
the Royal Statistical Society, the American Political
Science Review, the American Economic Review, the
American Journal of Political Science, Legislative
Studies Quarterly, the Quarterly Journal of Political
Science, Electoral Studies, and Political Analysis. I
have published articles on issues of election law in the
Harvard Law Review, Texas Law Review, Columbia
Law Review, New York University Annual Survey of
Law, and the Election Law Journal, for which I am a

218a
member of the editorial board. I have coauthored
three scholarly books on electoral politics in the
United States, The End of Inequality: Baker v. Carr
and the Transformation of American Politics, Going
Negative: How Political Advertising Shrinks and
Polarizes the Electorate, and The Media Game:
American Politics in the Media Age. I am coauthor
with Ted Lowi, Ben Ginsberg, and Ken Shepsle of
American Government: Power and Purpose, a college
textbook on American government. I teach PhD level
and undergraduate level courses on American
government generally, as well as more specialized
courses on elections, representation, and public
opinion, and PhD level courses on applied statistics
for social sciences.
My curriculum vita with
publications list is attached to this report.
4. I have been hired by the City of San Antonio
acting by and through the San Antonio Water System
in this case to assess representation on and the
authority of the Edwards Aquifer Authority. I am
retained for a rate of $400 per hour, which is my
standard consulting rate.
II. Sources of Information
5. I relied on information provided to me from the
Edwards Aquifer Authority (EAA) and from the EAA
website.
This information included EAA rules,
budgets, permits, and shapefiles for maps. EAA also
shared with me a report from the Texas Legislative
Council showing populations of EAA Districts in 1995
(shown in Table 1 below). The EAA provided me with
data files with information that defined the 20012011 EAA Districts and the 2012 Districts.

219a
6. I relied on information provided to me from the
San Antonio Water System (SAWS). This information
included permits and invoices for management fees.
7. I relied on information from the U. S. Bureau of
the Census, especially data files including population
counts at the level of Census blocks. These are used
in computing district populations for the 2001-2011
and the 2012 maps. I also relied on the population
projections tool of the Texas State Data Center:
http://txsdc.utsa.edu/Data/TPEPP/Projections/Data.a
spx
8. I used ArcGIS to construct maps and calculate
population statistics for districts. I was provided with
2010 block equivalence file for every district in the
2001-2011 EAA district map. I was also provided with
a shape file that defined the geographic areas
included in each district in the 2012 EAA district
map. It should be noted that the block- equivalence
files and the shape files are not the same sort of file.
The block equivalence files map the census data
directly into the districts. The shape files define areas
encompassed by the districts (i.e., how various
polygons drawn on a map define district and block
boundaries). The shape files for districts must be
overlaid on the shape files for Census areas (blocks or
block groups) in order to translate Census population
counts into districts.
9. There were various problems with the shape file
that was provided to us for the 2012 map. Figure 1
demonstrates some of the issues I encountered. First,
the shape file did not cleanly allocate polygons to
districts. Many of these appear to be blocks
corresponding to highways, and have no population.

220a
See the insets for Bexar and Medina counties on the
lower left of Figure 1. Second, the boundary of the
EAA does not correspond to existing Census Block
lines. See the inset on the lower right of Figure 1.
Most of these differences arise on the northern
boundary of the EAA in Comal and Hays Counties.
This accounts for almost all of the population
differences between the 2010 and 2012 map. Third,
there were two areas in the EAA under the 2001-2011
district map that do not appear to be in the envelope
of the EAA in the shape file for 2012. These are an
area in Comal County near the Comal-Bexar border
and an area in Atascosa County. These irregularities
create small discrepancies in population counts
between the 2001-2011 map and the 2012 map that I
was not able to resolve fully. My calculations of total
populations of districts and of the entire EAA area
reflect these discrepancies, which in total amount to
about two-tenths of one percent difference in total
population. These discrepancies have no substantive
effects on any conclusions that I reach.
10. I dealt with these discrepancies as follows. First,
I ignored all errant lines, such as highway blocks that
were not correctly allocated in the map. Second,
wherever blocks were split I divided the population of
those blocks in proportion to the geographic area on
each side of the dividing line. Other ways of
apportioning the population in split blocks made no
substantive difference. Third, I excluded the small
portions of Comal and Atascosa not in the 2012 EAA
District shapefile.

221a

222a
III. Findings
A.

Summary

11. In my opinion the EAA has general governmental
authorities. Its actions affect the general welfare of all
people in the area it governs. The disproportionate
use, as reflected in statistics on discharge of water
from the aquifer, is municipal and industrial, rather
than agricultural. Its powers extend beyond the sorts
of powers of agencies that the Supreme Court
determined to justify exceptions to Reynolds v. Sims
and subsequent one person, one vote rulings. For
example, the EAA can require reductions in water use
across all users in the event of severe droughts, it
regulates the use, transfer, and issuance of permits
for pumping water, and it regulates road
construction, fire protection, and storage facilities for
purposes of pollution prevention. (Below, see Section
D (2) and (3).)
12. The districts of the EAA exhibit enormous
population inequalities, with the most populous
district having 30 times as many people as the least
populous district. (Section E (2))
13. Existing districts do not match the legislature’s
goal of protection of the aquifer. Districts are defined
by areas and by counties. Representation is not tied
to structure of the aquifer, landownership, historic
water use, current water use, or contribution to the
operation of the activities of the EAA. (Section E (3)
and F)
14. The consequence of the district structure is that
Bexar County -- which contains 75 percent of all

223a
people in the EAA and pays for 75 percent of the
operations of the Authority -- has only 47 percent
of the seats on the Board of the EAA. (Section F)
The people who bear higher burdens for paying for
the
EAA
operations
and
programs
have
disproportionately lower voting rights.
B. Standards for Evaluation
15. My evaluation of representation in the EAA
proceeds along three lines. First, what population
deviations exist in the agency? If the EAA is
considered to fall under Reynolds v. Sims and
subsequent cases, then populations must be
sufficiently equal. Second, what governmental powers
does the EAA have? The Supreme Court has allowed
exceptions to equal population districting under very
special circumstances. Third, do the existing districts
map into any existing legal rationale for districts,
such as landownership or water use, or into the
express functions or objectives of the EAA? Even in
those exceptional cases, the voting rights and
representation were tailored to the contribution to the
function of and the operation of the agencies in
question.
16. My first line of evaluation is the degree of
equality of populations among the EAA’s districts. I
evaluate the population of districts in the EAA
against a standard of a 10 percent population
deviation between the most populous district and the
least populous district. This standard is accepted for
state legislative seats, city council districts, school
districts, and other agencies with general
governmental powers. Populations of the EAA
districts are discussed in section E below.

224a
17. My second line of evaluation is the nature of the
authority of the EAA and the burdens and benefits
resulting from its activities. In a series of cases
following Reynolds v. Sims, the Supreme Court of
the United States extended the one person, one vote
rule to utility districts, school districts, county
commissions, and a wide range of governmental
entities. (E.g., Cipriano v. City of Houma 395 U. S.
705, Avery v. Midland County 390 U. S. 474, Kramer
v. Union School District 395 U. S. 621, and Hadley v.
Junior College District 397 U. S. 50)
18. These decisions offer specific guidance about the
sorts of powers and extent of influence of a
government body that would require equal population
representation in elections. In Avery v. Midland
County, the Supreme Court of the United States held
that the one person, one vote principle extended to a
county commission because the commission’s actions
affect the citizenry broadly and because the
commission has general governmental powers. (390
U.S. 482-484) In Avery the Court enumerates some
such functions of government that are general or
normal governmental functions.
These include
administrative or budgetary decisions that affect
construction of roads, recreation facilities, hospitals,
and schools, (390 U. S. 484); the administration of
public welfare services; setting tax rates, issuing
bonds, and equalizing tax assessments; and
determining the districts of local schools and of its
own election. (390 U. S. 477) These also include
decisions not to exercise government powers, such as
to prevent the construction of an airport or a library

225a
or not to participate in a federal program (in the
Avery example a federal food stamp program). The
key feature of these programs is that they affect all
citizens of the county. (390 U. S. 484)
19. The Supreme Court of the United States has
allowed unequal district populations and unequal
distributions of voting rights in governmental
agencies that have sufficiently specific purposes,
limited powers, and do not regulate the conduct of
individuals. In my evaluation, I examine the EAA
relative to the situations in Salyer Land Company v.
Tulare Lake Basin Water Storage District 410 U. S.
719 (1973) and Ball v. James. My reading of these
opinions guides my evaluation of the circumstances of
the EAA and my examination of the basis of
representation on the Board of the EAA.
20. Salyer involved a water storage and reclamation
district in California that existed “for the purpose of
acquiring, storing, and distributing water for
farming.” (410 U. S. 719) State law allowed only
landowners to vote in the election of districts of this
water district. The Tulare Basin Water Storage
District covered “193,000 acres of intensively
cultivated, highly fertile farm land…[and] its
population consists of 17 persons, including 18
children, most of whom are employees of one or
another of the four corporations that farm 85% of the
land in the district.” (410 U. S. 723)
21. The Supreme Court of the United States held
that the specific circumstances of the Tulare Basin
Water Storage District were such that an exception to
one person, one vote might be acceptable.

226a
Specifically, an exception was allowed for two
reasons. First, the Court applied a two-pronged test
to determine whether the function of the district was
sufficiently narrow and its powers sufficiently limited
or specific:
(a) The activities of appellee district fall so
disproportionately on landowners as a
group that it is not unreasonable that the
statutory framework focuses on the land
benefited, rather than on people as such.1
410 U. S. 719, 726-728
(b) Although the appellee district has some
governmental powers, it provides none of
the general public services ordinarily
attributed to a governing body. 410 U. S.
719, 728-729.
Key criteria on which to evaluate the EAA, then, are
(i) whether the burdens and benefits for the district
operation are spread broadly or fall very
disproportionately to some people or users and (ii)
whether the EAA has powers “ordinarily attributed to
a governing body.”
22. Second, the Court stated that the voting rights in
the Tulare Lake Basin Water District were
Critical to the majority’s reasoning was the fact that the
benefits and burdens of operating the water storage system fell
disproportionately on landowners. Specifically, “The costs of the
projects are assessed against district land in accordance with the
benefits accruing to each tract held in separate ownership. Id.
§§ 46175, 46176. And land that is not benefited may be
withdrawn from the district on petition. Id. § 48029.” (410 U. S.
724)

1

227a
reasonable because they followed the rationale on
which the District was based and operated. “Since
assessments against landowners are the sole means
by which expenses of appellee district are paid, it is
not irrational to repose the franchise in landowners,
but not residents.” (410 U. S. 719, 730-31)
Key
criteria for assessing rationality of the existing
districts, then, are (i) whether the voting rights are
apportioned based on landownership, or perhaps in
the case of the EAA water rights or use, and (ii)
whether voting rights reflect who pays for the
operation of the EAA.
23. Ball v. James involved the Salt River Project
Agricultural Improvement and Power District, a
water and power district that “stores and delivers
untreated water to the owners of 236,000 acres of land
in central Arizona.” (451 U. S. 355) As with the
Tulare Lake Basin Water District, the Salt River
District is primarily a water reclamation district, and
the procedure for electing its board of directors, “in
essence, limits voting eligibility to landowners and
apportions voting power according to the amount of
land a voter owns.” (451 U. S. 357) The Court also
draws out the historical origins of the Salt River
district. “The history of the District began in the
efforts of Arizona farmers in the 19th Century to
irrigate the arid lands of the Salt River Valley,” and
the district evolved out of a private arrangement
among farmers and their agreements with the
government about setting up a public management
entity for power and water storage. (451 U.S. 357-361)
This aspect of the Court’s opinion suggests that the
historical origins of the entity may be informative

228a
about understanding the rationale for voting rights,
the second criterion above for assessing whether to
allow a districting system to be exempt from the one
person, one vote standard.
24. In Ball, the Court further clarified the criteria for
carving out an exception to the one person, one vote
standard. Specifically, it clarified further what is
meant by general governmental services and
functions and what is meant by narrow purpose.
First, the District cannot impose ad valorem
property taxes or sales taxes. It cannot enact
any laws governing the conduct of citizens, nor
does it administer such normal functions of
government as the maintenance of streets, the
operation of schools, or sanitation, or welfare
services (451 U.S., 365)
Second, ...[the Salt River] District and
Association do not own, sell, or buy water, nor
do they control the use of any water they have
delivered. The District simply stores water
behind its dams, conserves it from loss, and
delivers it through project canals.… The
constitutionally relevant fact is that all water
delivered by the Salt River District, like the
water delivered by the Tulare Lake Basin
Water Storage District, is distributed
according to land ownership, and the District
does not and cannot control the use to which
the landowners who are entitled to the water
choose to put it. (451 U.S. 367-368)
From this I extract several criteria for determining
what are general governmental functions, including

229a
(i) the power to levy ad valorem property taxes or
sales taxes, (ii) the power to enact laws governing the
conduct of citizens, and (iii) the administration of
government services or provision of public goods, such
as streets, sanitation, schools, hospitals, and welfare
services. On the matter of general versus narrow
purpose, the Court indicates that a key criterion is the
power to regulate the use of the water not just provide
for its distribution and storage.
25. In addition to holding that the Salt River District
had narrow purpose and limited powers, the Court in
Ball held that the scheme of representation reflected
that limited purpose and the “disproportionate
relationship the District’s functions bear to the
specific class of people whom the system makes
eligible to vote.” (451 U. S. 370) This indicates a
final criterion for evaluation. Even if the powers of the
EAA are limited and its purpose narrow, its districts
of the EAA Board must still reflect the
disproportionate burdens and effects of the EAA’s
functions.
C. The Edwards Aquifer
26. Edwards Aquifer is essential to all aspects of life
in South-Central Texas.
When it enacted the
Edwards Aquifer Act, the Texas State Legislature
stated that the aquifer is “vital to the general
economy and welfare of this state”:
The legislature finds that the water in the
unique underground system of water-bearing
formations known as the Edwards-Balcones
Fault Zone Aquifer has a hydrologic
interrelationship to the Guadalupe, San

230a
Antonio, San Marcos, Comal, Frio, and Nueces
river basins, is the primary source of water for
the residents of the region, and is vital to the
general economy and welfare of this state. The
legislature finds that it is necessary,
appropriate, and a benefit to the welfare of this
state to provide for the management of the
aquifer through the application of management
mechanisms consistent with our legal system
and appropriate to the aquifer system.2
27. The Edwards Aquifer is an underground artesian
aquifer that extends in an arc approximately 180
miles through South-Central Texas. Municipal,
industrial, and agricultural interests in this area
have long relied on and shared this resource. Spring
flow from the aquifer is essential for maintaining the
habitat of federally-protected endangered species.3
28. The Aquifer water is disproportionately put to
Municipal and Industrial use rather than Agriculture
(Irrigation and Livestock). According to statistics
compiled by the EAA, spring flow accounts for 38.3
percent of water discharged from the Aquifer.
Municipal and Industrial use accounts over 40
percent of water discharged from the Aquifer: 38.8
percent of Edwards Aquifer water discharged from
the Edwards Aquifer is for Municipal use and 3.4
percent is for Industrial use – a combined total of 42.2

2

Edwards Aquifer Authority Act, Section 1.06 (a).

Many reports provide background on the aquifer. The EAA’s
own website offers a succinct description of the aquifer and
its importance to the region. http://www.edwardsaquifer.org/
scientific-research-and-reports/edwards-aquifer-overview.
3

231a
percent. Irrigation and Livestock account for 18
percent and 2 percent respectively, or a combined 20
percent of water discharged from the aquifer.
Municipal and Industrial use, then, is roughly
twice as large as Agricultural use.4 This indicates to
me that Edwards Aquifer water does not
disproportionately benefit Agricultural use; instead,
the primary uses of the water are Municipal and
Industrial and Spring Flow. This is a very different
circumstance than in the Tulare Lake Basin Water
District, where Agricultural accounted for 85 percent
of water use, or the Salt River District, where
Agriculture accounted for 60 percent of water use.
29. The Edwards Aquifer provides almost all of the
water for the City of San Antonio and surrounding
counties, for all uses, and for over 2 million
people.5 More than 90 percent of the drinking water
for the City of San Antonio comes from the Edwards
Aquifer.6
30. I am not expert in geology or hydrology, but a
rudimentary understanding of the Edwards Aquifer
is helpful to assess how the representation in the EAA
reflects the structure of the Aquifer itself. My
understanding is based on historic documents
archived at the EAA website and on research reports
and articles referenced below.
http://www.edwardsaquifer.org/educators/about-the-aquifer/
water-uses

4

This calculation is the total population of the areas in the
Edwards Aquifer Authority, not the entire Aquifer.

5

https://www.saws.org/your_water/waterresources/projects/
edwards.cfm

6

232a
31. The Edwards Aquifer is divided into three zones:
(i) Recharge Zone, (ii) Artesian Zone, and (iii)
Drainage or Catchment Area.7 The Recharge Zone is
an area where rivers and streams cross the permeable
surface and go underground, where they refill the
aquifer. The Artesian Zone is an area where
underground water, under pressure is forced to the
surface and emerges through artesian wells and
springs. The Drainage or Catchment Area lies to the
north of the Recharge Zone and consists of the
Edwards Plateau, hilly terrain where rainfall feeds
creeks and rivers that cross the Recharge Zone, where
much of the water enters the Aquifer.8 See Map 1.9
32. Below the Artesian Zone lies a Saline Water (or
Bad Water) Zone.10

An excellent description of the Edwards Aquifer geology and
water flows is Burchett, C. R., Rettman, P. L., and Boning, C.
W., 1986, The Edwards Aquifer - Extremely Productive, But. A
Sole-Source Water Supply for San Antonio and Surrounding
Counties in South-Central Texas, U. S. Geological Survey and
Edwards Underground Water District, San Antonio, TX.
http://www.edwardsaquifer.org/documents/1986_Burchett-etal_
AquiferProductive-but.pdf.
See
also
Edwards
Aquifer
Authority, Hydrological Data Report for 2011, EAA, 2012,
http://www.edwardsaquifer.org/document_display_list.php?sub
Cat=49.
7

See Burchett et al. page 9, and EAA, Hydrological Data Report
for 2011, pages 4-7.

8

9

Source of Map 1 is Edwards Aquifer Authority.

See Burchett et al., pages 32 and 33, EAA, Hydrological Data
Report for 2011, pages 4-7 and 63-65.
10

233a

33. The Edwards Aquifer has several natural
ground-water divides, defined by the geology and flow
of water through the Aquifer. What is called the
Balcones Edwards Aquifer (sometimes called the San
Antonio system) within the Edwards Aquifer is
defined by a ground-water divide near Brackettville
Texas at the Western end of the San Antonio system,

234a
and a ground-water divide near Kyle, Texas, just
north of San Marcos Springs, defines the Eastern end
of this system. North of the divide at Kyle, Texas, is
the Barton Springs Edwards system, which
discharges to the Colorado River in Austin.11
34. Based on the maps from the EAA, the San
Antonio system of the Edwards Aquifer and
Catchment area contains all or part of the following
counties: Bandera, Bexar, Blanco, Comal, Edwards,
Frio, Gillespie, Hays, Kendall, Kerr, Kinney, Medina,
Real, and Uvalde.12 The northern tip of Atascosa
County, containing the city of Lytle, and the eastern
most corner of Guadalupe County lie in the Artesian
Zone (see map 1). The Artesian Zone runs through
Hays, Comal, Bexar, Atascosa, Medina, Uvalde, and
Kinney Counties (reading Map 1 East to West).
D. The Edwards Aquifer Authority
(1) Description
35. The Edwards Aquifer Authority (EAA) was
created by an Act of the Texas State Legislature in
1993 and went into effect in 1996.
36. The geographic jurisdiction of the EAA covers
most of the Artesian and Recharge Zones of the San
Antonio System of the Edwards Aquifer. The counties
included partly or entirely in the EAA are Atascosa
(part), Bexar (entire), Caldwell (part), Comal (part),
Guadalupe (part), Hays (part), Medina (entire), and
Uvalde (entire). See Map 1.
John M. Sharp, Jr., and Jay L. Banner, “The Edwards Aquifer:
A Resource in Conflict” GSA Today, Volume 7 (No. 8, August,
1997): 2-9. See especially pages 3-4.
11

12

Burchett, et al., page 2.

235a
37. The geography of the EAA follows the geography
of the San Antonio system of the Edwards Aquifer.
First, the EAA includes the boundaries of the
Artesian and Recharge Zones, except for the portion
in Kinney County. Second, the Drainage or Capture
area is largely excluded from the geographic area
represented in the EAA. These are Bandera, Blanco,
Edwards, Gillespie, Kendall, Kerr, and Real Counties.
Portions of Hays and Comal Counties that contain the
Capture area are excluded from the EAA. Third, the
EAA includes roughly half of Caldwell County even
though maps of the Aquifer show no portion of the
Artesian, Capture, or Recharge Zones in those areas.
Roughly half of Guadalupe County is in the EAA even
though only a small part (the most western corner) of
this County is in the Edwards Aquifer proper. See
Map 1.
(2) Origins
38. Both Salyer Land Company v. Tulare Lake Water
Basin District and Ball v. James involved reclamation
districts that had evolved out of private associations
of landowners to meet needs of water storage and
flood control among agricultural users. The EAA has
different origins and was created to meet general use
needs. Specifically, the EAA came about in response
to drought, in response to general needs to maintain
the water supply for all users in this area of the State,
and in response to federal enforcement of the
Endangered Species Act.
39. The precursor to the EAA was the Edwards
Underground Water District (EUWD). It was created
in 1959 in response to the worst drought on record in
Texas history, and was charged with conserving and

236a
protecting the water in the Aquifer. That district
lacked authority to restrict pumping, and the 1968
Texas Water Plan strongly discouraged overuse of the
Edwards Aquifer and recommended that withdrawals
not exceed 400,000 acre-feet per year.13 The average
recharge in 1993 was 447,600 acre-feet per year.14
40. The original composition of the EUWD included
Uvalde, Medina, Bexar, Comal and Hays Counties
originally, but Uvalde and Medina withdrew in 1989.
At the time that the EAA was created by statute in
1993, the EUWD did not include Uvalde or Medina
Counties.15 Uvalde and Medina Counties were not
part of the district out of which the EAA evolved,
which is quite a different situation than in Salyer and
Ball.
41. A second factor contributing to the creation of the
EAA was a lawsuit filed in 1991 by the Lone Star
Chapter of the Sierra Club against the U. S. Fish and
Wildlife Service to strengthen protection of
endangered species that depend on the Aquifer. (See
Sierra Club v. Babbitt 995 F. 2d 571 (1993).) In the
United States District Court in the Western District
of Texas, Judge Lucius Bunton held that protecting
endangered species in the Comal and San Marcos
Springs “requires pumping controls to avoid jeopardy
The 1968 State Water Plan is available at the website of the
Texas Water Development Board: http://www.twdb.texas.gov/
waterplanning/swp/1968/.
13

14

http://www.tceq.texas.gov/field/eapp/history.html

Tracé Etienne-Gray, "Edwards Underground Water District,”
Handbook of Texas Online (http://www.tshaonline.org/
handbook/online/articles/mwe01), accessed November 01, 2013.
Published by the Texas State Historical Association.
15

237a
to the species by maintaining aquifer levels to assure
a minimum spring flow at Comal Springs.”16 Judge
Bunton’s decision encouraged the Texas Legislature
to act: “The next session of the Texas Legislature
offers the last chance for adoption of an adequate
state plan before the ‘blunt axes’ of Federal
intervention have to be dropped.”17 Senate Bill 1477,
which created the EAA, was a direct response to this
case.18
42. The EAA did not grow out of private arrangement
among farmers and other landholders, as in the cases
of Salyer or Ball.19 Nor did it emerge with a single,
narrow purpose of maintaining agricultural resources
or of reclamation. The EAA evolved out of the EUWD
in response to general problems of water use in the
area of the San Antonio system of the Edwards
Aquifer and federal concerns about endangered
species. The EAA was provided more general and
stronger powers in order to deal with general water
use by all people in the area, pollution of the water,
and protection of endangered species.
(3) Authority
43. The mission of the EAA is to protect the Edwards
Aquifer. Specifically, it is charged with (a) conserving
Robert L. Gulley and Jenna B. Cantwell, “The Edwards
Aquifer Water Wars: The Final Chapter?” 4 Texas Water Journal
1 (February 2013), page 6.
16

17

Ibid.

Ibid, page 7. See also the website of the EAA, under the
heading legislation: http://www.edwardsaquifer.org/legislationand-rules/the-eaa-act. Accessed November 5, 2013.
18

19

See Ball v. James 451 U. S. 355, 358 (1981).

238a
and controlling the water in the Edwards Aquifer,20
(b) protecting the quality of water in the Edwards
Aquifer, and (c) protecting endangered species in the
Edwards Aquifer.
44. It is my opinion that the EAA has general
governmental powers and falls into the category of
government bodies that are required to have equal
population districting. It has powers to regulate the
use of water; it has power to regulate the conduct of
individuals; it has the power to provide general
government
services
and
to
govern
the
administration of roads, fire protection, and other
functions. It does not have the power to levy ad
valorem property taxes or sales taxes. The EAA is a
qualitatively different government entity than the
agencies in Salyer and Ball. It has much broader
powers than managing the storage and distribution of
water. It governs water use, conduct of citizens, and
administration of normal government functions.
45. First, the general legislative charge of EAA
provides broad powers. Legislative mandate grants
the EAA “all powers necessary to protect the aquifer”
(emphasis added).
SECTION 1.08 GENERAL POWERS.
(a) The authority has all of the powers,
rights, and privileges necessary to
manage, conserve, preserve, and protect
the aquifer and to increase the recharge
of, and prevent the waste or pollution of
water in, the aquifer. The authority has
all of the rights, powers, privileges,
Section 101 of the Edwards Aquifer Act says the “district is
required for effective control of the resource.”
20

239a
authority,
functions,
and
duties
provided by the general law of this state,
including Chapters 50, 51, and 52,
Water Code, applicable to an authority
created under Article XVI, Section 59, of
the Texas Constitution. This article
prevails over any provision of general
law that is in conflict or inconsistent
with this article regarding the area of
the authority’s jurisdiction.
46. Second, the EAA has the power to regulate water
use and land use, not just provide for its storage and
distribution. Specifically, the EAA implemented a
permitting system to regulate pumping from the
aquifer. Permits are based on historic use and
determinations of beneficial use. All permits,
including any new permits, must fall within the
overall limit on total actual pumping of 572,000 acrefeet per year. The EAA has mandated that municipal
and industrial users follow Best Management
Practices; the EAA has the power to mandate use
cutbacks in the event that water levels hit a critical
stage, in the event of a drought; and the EAA has the
authority to regulate water use on people’s property,
such as for landscaping. (See Section 715, especially
Subsection C, of the EAA Rules.) Under the EAA Act,
EAA enforces a prohibition on the exportation of
water from the district. The EAA has considered, but
not implemented, Impervious Cover Restrictions,
which may limit general development on the surface.
Current rules contain some restrictions on land use,
such as restrictions on the use of coal-tar in paving
and general pollution restrictions. (See Chapter 713,
Subchapter H). Further, the EAA can force individual
landowners to cap wells on their property, even if the

240a
landowner did not dig the well or use it. The landowner may be required to bear the cost. See Section
713, subchapter D. As discussed below, the EAA
further can use its fees to regulate water use. In short
the EAA can and does regulate the conduct of all
people in its jurisdiction, and it can regulate the use
of water.
47. Third, the EAA has direct power over the
provision of basic local public goods and services and
local government functions in the area. EAA rules
apply to municipal and industrial use of water
generally and identify specific municipal uses of
water in normal local government functions. (See
Section 702, 117) Examples are current EAA rules
that affect the provision of (i) fire protection (Chapter
713, Subchapter F), (ii) road construction (Chapter
713, Subchapter H), (iii) management of solid waste
and wastewater (Chapter 713, Subchapter F), (iv)
spills from above ground and under ground storage
tanks (Chapter 713, Subchapter G) and (v) provision
of education programs.21
48. Fourth, the EAA has the power to raise revenue
by levying fees on permit holders and direct fees on
pumping of water. Aquifer management fees are
based on Aquifer use, in terms of type of use and total
use. The EAA distinguishes between Municipal,
Industrial and Agricultural (Irrigation) use and
The 2013 EAA Operating Budget has a line item for
Education,
page
34.
http://www.edwardsaquifer.org/
administration/budgets. These expenditures provide for
development of educational materials and provision of education
programs for elementary, high school and college students.
For example http://data.edwardsaquifer.org/display_education_
portal.php
21

241a
charges management fees on a per acre- foot of water
basis. (Section 709.19) Fees are charged to pay for
general operations of the EAA (Section 709.23). The
General Manager of the EAA may also use fees “to
encourage water conservation,” and specifically to
encourage non-agricultural users to use less water.
(Section 709.25) In this way, fees are used both to
raise revenue for the EAA and to regulate behavior of
users.
49. The taxing authority of the EAA is limited. It
cannot levy ad valorem property taxes or sales taxes.
Rather it raises its revenue almost entirely from fees
on users and those with pumping rights. Importantly,
the revenue collected from these fees come
disproportionately from Bexar County, and
disproportionately from Municipal and Industrial, not
Agricultural users. (See Section F below.)
50. Fifth, the EAA has power to draw districts
governing its own election. It is my understanding
that the districts drawn in 2012 were constructed by
and approved by the EAA itself.
51. The EAA is granted broad governmental powers
in order to fulfill its mission of protecting the amount
of water, quality of water, and endangered species
that depend on the water of the Edwards Aquifer. The
EAA has the power to enact legislation that governs
the conduct of citizens and the normal functions of the
government, such as fire, road construction, land use,
and sanitation. The EAA specifically has the power
to regulate the use of water, such as for landscaping
or firefighting, after the water has been delivered
from the aquifer; it has the power to limit use of water
in times of drought; it has the power to use its fees to

242a
regulate use of water by municipal and industrial
users, even in the absence of drought.
D. Representation in the EAA
52. The EAA is governed by a 17-member board.
Fifteen of these members are voting- members in
making decisions of the EAA, and each is elected by
popular vote from single member districts. Two nonvoting members are appointed.
(1) Description of Districts
53. The districts of the EAA were first drawn in 1995.
They were redrawn in 2001 and 2012. Map 2 shows
the configuration of the districts drawn in 2001 and
in place as of 2010. Map 3 shows the configuration of
districts that were drawn in 2012 and are proposed as
districts to be used for the remainder of this decade.
Both maps overlay the district boundaries over the
map of the zones of the Aquifer.
54. Both the 2001-2011 district plan and the 2012
district plan follow the general approach set in place
in the 1995 plan. There are seven districts entirely
inside Bexar County, numbered 1 to 7 in both the
2001 and 2012 plans. There are four districts to the
west of Bexar County, two entirely inside Medina
County (numbers 12 and 13) and two entirely inside
Uvalde County (numbers 14 and 15). There are four
districts to the east of Bexar County, two in the area
of Comal and Guadalupe Counties and two in the area
of Hays and Caldwell Counties.

243a

244a

(2) Population
55. The standard for equal population districting in
state and local elections is that population deviations
of not more than 10 percentage points, from the most
populous to the least populous district, are permitted
across districts in government agencies with general
governmental authority.

245a
56. The populations of the 2012 districts of the EAA
differ by far more than this standard. Table 1
presents the populations of the districts in the 20012011 map, using the 2010 Census figures and the
populations of the districts in the 2012 map, using the
2010 Census figures. The total population count
differs slightly owing to irregularities in the shape
files for the 2012 districts that I was provided.
57. The most populous district in this plan has
almost 300,000 persons; the least populous district
has a population of 10,000 persons. The most
populous district, then, has 30 times as many people
as the least populous district.
58. In addition to population counts, the table
presents the ratio of each district’s population to the
ideal district population. The ideal district population
is the population of each district if all districts had
identical populations. The most populous districts – 1
and 4, both in Bexar County – have more than two
times as many people as they would under equal
population districting. The votes in these districts
count for half of what they would were the district
populations equalized.
59. The least populous districts – 10 and 15, in Hays
and Uvalde Counties, respectively – have ratios of .09
and .07. That means that these districts have
populations that are 9 percent and 7 percent of the
population that they would have under equal
population districting. To put this matter another
way, a vote cast in these districts is 11 to 14 times
more than a vote cast in the ideal district.
60. All but one of the districts in Bexar County have
more voters than they would under equal population

246a
districting. Only District 2 is close to the population
of the ideal district. All but one of the districts outside
of Bexar County have many fewer people in them
than they would under equal population districting.
District 9, which spans Comal and Guadalupe
County, is close to the population of the ideal district,
and none of the districts outside of Bexar has excess
numbers of people.
61. Revision of districts between 2010 and 2012 made
small changes in the general picture of the districting
map, and broad differences in populations remain
after redistricting. Interestingly, there was some
effort to equalize population inside Medina County.
From 2001-2011, District 13 in Medina had roughly
twice as many people as District 12. Realignment of
district boundaries made these two districts nearly
equal in population (at 24,150 and 24,424). It is
unclear why the redistricting sought to equalize
population within this one county, but left gross
population disparities between counties and within
other counties in the EAA.

Table 1. Population of EAA Districts
1995-2000 Map
District County
Population Ratio
(1990 Census)
1
Bexar
182,033
1.99
2
Bexar
107,393
1.18
3
Bexar
177,866
1.95
4
Bexar
183,051
2.01
5
Bexar
180,192
1.97
6
Bexar
178,390
1.95
7
Bexar
176,469
1.93
8
Comal
10,969
0.12
9
Comal/Guadalupe 60,931
0.67
10
Hays
11,535
0.13
11
Hays/Caldwell
47,519
0.52
12
Medina
8,840
0.10
13
Medina/Atascosa 20,721
0.23
14
Uvalde
14,953
0.16
15
Uvalde
8,387
0.09
Ideal
91,283
1.00
2001-2011 Map
Population
Ratio
(2010 Census)
318,804
2.32
121,020
0.88
190,269
1.38
440,374
3.21
237,632
1.73
211,113
1.54
195,908
1.43
11,369
0.08
152,204
1.11
13,556
0.10
92,132
0.67
16,450
0.12
32,605
0.24
15,963
0.12
10,442
0.08
137,323
1.00

2012 Map
Population Ratio
(2010 Census)
293,980
2.15
146,591
1.07
230,175
1.68
299,628
2.19
255,881
1.87
256,956
1.88
231,416
1.69
17,770
0.13
144,068
1.05
11,722
0.09
92,066
0.67
24,150
0.18
24,430
0.18
16,188
0.12
10,217
0.07
137,016
1.00

247a

248a
62. Other aspects of the redistricting map show a
small effort toward reducing population inequalities,
but not much. For example, in Comal County, roughly
6,000 people were added to District 8 in Comal
County, increasing that district’s ratio of population
relative to the ideal population from .08 to .13, and
lowering the ratio of District 9 from 1.11 to 1.05. But
District 8 is still far below the ideal, and has far less
population than District 9.
63. In Bexar County, District 4 had 440,000 persons
in 2010, and its population was reduced to 300,000;
the population of District 1 had 313,000 persons in
2010, and its population was reduced to 294,000. To
compensate, the populations of every other district in
the County were increased. The most populous
district in 2010 (District 4) had 3.7 times the
population as the least populous district (District 2).
Redistricting reduced the population disparity within
the County, but the most populous district in the
County (District 4) still has twice the population of
the least populous district (District 2). Worse still,
every district in Bexar County now has more
population than the equal population ideal.
64. Following the most recent redistricting,
population deviations remain extremely large,
despite efforts to make marginal improvements in
population disparities within some counties. The
ratio of the most populous district to the least
populous district is 30:1 under the 2012 plan.
65. Since 1995, the population disparities have
worsened. Table 1 presents the 1990 census statistics
for the 1995 EAA district lines, as calculated by the
Texas Legislative Council. In 1995, the ratio of the

249a
most population district to the least populous district
was 22:1. Following the 2012 adjustment to district
boundaries, that ratio is 30:1.
66. The population disparities have worsened within
counties. Within Bexar the ratio of the most populous
to least populous district was 1.7:1 in 1995; today it is
2.0:1. The gap in per capita representation in Hays
and Comal has also worsened over this period.
67. There is also a growing gap between Uvalde and
Medina and the other Counties. The populations of
Uvalde and Medina Counties have grown little over
the past 20 years. Hays and Comal Counties,
however, have grown rapidly. From 1990 to 2010 the
populations of the areas covered by districts 12, 13,
14, and 15 (Medina and Uvalde Counties) rose from
52,901 persons to 74,979. From 1990 to 2010
populations of the areas covered by districts 8, 9, 10,
and 11 (Comal, Caldwell, Hays, and Guadalupe
Counties) rose from 130,954 persons to 265,688.
68. The people in the western portion of the EAA
have gained representation at the expense of the
people in the eastern and central portions of the EAA
simply because of population growth. These changes
in districts do not appear to reflect changes in
landownership, water use, or the objectives of limiting
water use, protecting water quality, or protecting
endangered species.
69. This trend will continue over the coming decades
if the districts remain configured along the same lines
as they are currently. Table 2 presents population
projections for the counties in the EAA (except

250a
Atascosa). These data are generated from the Texas
State Data Center Population Projection tool.
70. Uvalde County is projected to gain 5,000 persons
from 2010 to 2030. Medina County is projected to
gain 50,000 persons. Those two counties have 4 seats.
Bexar County is projected to gain 730,000 persons.
The rising discrepancies in per capita representation
will grow not only between Bexar and the other
counties, but also between the western counties in the
EAA and the eastern counties in the EAA, especially
Hays and Comal. Hays and Comal have 4 seats
between them. Hays County is expected to gain
250,000 persons and Comal County, 100,000 persons.
In other words, over the next 20 years, Hays and
Comal are expected to gain more than 6 times as
many people as Uvalde and Medina will gain. At the
end of this time Hays and Comal will have 9 times as
many people as Uvalde and Medina, but they will
have the same representation on the EAA Board as
Uvalde and Medina. Unless there is significant
adjustment for population – an adjustment more
extensive than what was done between 2010 and 2012
– disparities in representation will continue to worsen
over the next several decades.

251a
Table 2. Projected Populations of
Counties in the EAA,
2010 to 2030
(Migration Rate = 2000-2010 Rate)
County
2010
2020
2030
Bexar
1,715,000
2,066,000 2,446,000
Caldwell
38,000
49,000
63,000
Comal
108,000
152,000
204,000
Guadalupe
134,000
186,000
253,000
Hays
157,000
258,000
406,000
Medina
46,000
57,000
69,000
Uvalde
26,000
29,000
31,000
Total
2,222,000
2,797,000 3,472,000
Source: Projections from the Texas State Data
Center
Population
Projections
online
tool.
http://txsdc.utsa.edu/Data/TPEPP/Projections/Data.a
spx.
Note: These are whole county projections. The
projections for Comal, Guadalupe and Hays are for
the entire county, rather than for the portions of those
counties in the EAA. TSDC does not offer projections
for the parts of the counties that are in the EAA
districts. Projections rounded to nearest 1,000.
71. The configuration of districts has implications for
specific types of people and water users. Table 3
presents two such examples, racial groups and city
residents. First, Hispanics are a majority of the
Voting Age Population (51.8%) in the area
encompassed by the Edwards Aquifer Authority.
Hispanics are a majority of the population in 6 of 15
(40%) of districts under the 2012 Map. Four of the 7
districts in Bexar County are majority Hispanic, and

252a
2 of the 8 districts covering the other counties are
majority Hispanic.
72. Second, people who live in cities, as designated by
the Census, and are thus Metropolitan users,
comprise 82% of the population. They are the majority
of the population in 14 of 15 districts, with the
exception being District 13 in Medina County.
Representation of municipal interests is not just a
concern of San Antonio, but of every city in the
EAA.
73. Comparison of the last column of Table 3 with the
last two columns in Table 1 reveals that the
districting scheme treats different kinds of municipal
users differently. All but one of the districts contain
populations, the majority of which dwell in cities.
That is, with the exception of District 13, city voters
are the majority of voters in each district. The city
voters in Bexar County have much less
representation than the city voters elsewhere in the
EAA precisely because every District in Bexar County
is under represented. Notably, 60 percent of people
(and 58% of the Voting Age Population) in District 15
in Uvalde County live in cities in that part of the
county.

253a
Table 3. Population Characteristics of
Districts in the 2012 EAA District Map
District County
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
EAA

Bexar
Bexar
Bexar
Bexar
Bexar
Bexar
Bexar
Comal
Comal/
Hays
Hays/
Medina/
Medina
Uvalde
Uvalde

Percent
Hispanic
VAP
31.6%
43.8%
72.0%
38.6%
66.5%
66.7%
71.8%
49.1%
25.2%
49.3%
35.0%
57.1%
36.5%
75.7%
48.2%
51.8%

Percent Percent of
Black + Population
Hispanic in Cities
VAP
37.7%
86.2%
73.4%
75.6%
76.0%
100.0%
43.7%
86.1%
71.3%
72.4%
73.2%
72.4%
77.8%
99.4%
50.8%
93.3%
30.3%
67.1%
54.1%
83.1%
40.0%
76.2%
61.2%
51.2%
37.3%
34.8%
76.1%
69.8%
48.8%
60.1%
58.6%
82.0%

(3) Other Possible Bases of Representation
74. I see no justification for the districts based on
landownership, water use, land use, or the structure
of the Aquifer. If the courts decided that the EAA had
narrow purposes and lacked general government
powers, it must still be the case that the districts of
the EAA board have a basis tied to the original
purpose of the EAA.
75. First, landownership is not the basis for voting or
representation in the EAA. In the cases of Salyer and

254a
Ball voting rights were restricted to landownership,
owing to the very narrow purpose and limited powers
of those districts. The EAA districts are not tied to
landownership and voting rights are not restricted to
landowners. Nor are the districts tied to an historic
agricultural system, such as the Farmers Association
in Ball. The analogy to Salyer and Ball, then, breaks
down entirely in considering on what basis the EAA
districts are drawn. The reasoning in Salyer and Ball,
then, cannot justify the existing EAA districts
because the voting rights and districts in the EAA are
not based on landownership, acreage, or historical
agricultural use. I am not saying that this ought to be
the basis, only that it is not.
76. Considerations based on acreage would create
further issues regarding the inequities between
Districts 8 and 10 and the rest of the area. These two
districts have very small populations and very small
acreage. (See Map 3)
77. Second, historic water use is not the basis for
voting rights or representation in the EAA.
Representation on the EAA Board does not reflect the
pumping rights established by the EAA Act. There is
no evidence that redrawing of districts from 1995
through 2012 reflects shifts in pumping rights.
78. Third, representation does not reflect the
burdens of maintaining the EAA. In the case of Ball
and Salyer, the landowners paid a disproportionate
share of the operation of those districts. In this case,
as shown in the next section, Bexar County pays for
75 percent of the operation of the EAA.
79. Fourth, representation on the EAA board does
not reflect different types of use. The rules of the EAA

255a
distinguish three types of users: Agricultural,
Municipal and Industrial, and Spring flow.
Representation of agriculture could not be the
purpose behind the districts. If it were, then
agricultural votes would be a majority of a majority of
districts. However, people in cities are the majority of
a majority of districts, both in population and voting
age population. As shown in Table 3 in only one
district are agricultural interests a majority of the
population or the voting age population.
80. Relatedly, it should be noted that according to the
2013 EAA Operating Budget, Municipal and
Industrial users pay 98 percent of the fees collected
for operating revenues of the EAA.
81. Fifth, representation does not reflect the
structure of the aquifer that the EAA was set up to
protect. One might argue that the districts are
structured so as to reflect the interests reflected in the
water itself and the structure of the aquifer. Were
that the idea behind the districts, one would expect to
see districts that reflected the features of the aquifer
in a consistent way. But that is not the case.
82. The district boundaries do not reflect the
underlying structure of the Edwards Aquifer. It is
unclear exactly what representation of the aquifer
itself would mean, but if that were the rationale I
would expect to see district lines that reflected the
Aquifer in some consistent way. For example, perhaps
every district would be an equal mix of Artesian,
Recharge, and Capture Zones. Or, every district
might be structured to reflect just one of these
interests. The lines, however, do not consistently
follow any one approach to the natural structure of

256a
the Aquifer itself. The boundary that divides Uvalde
County into Districts 14 and 15 runs north-south and
creates two districts, each of which has all three water
interests. By contrast, the boundary that divides
Medina into Districts 12 and 13 runs roughly eastwest and creates one district with only Artesian Zone
(12) and another district (13) with Artesian,
Recharge, and Capture Zones. Before redistricting,
this boundary ran more in a north-south orientation.
83. It is unclear how the districts match the
legislature’s goal of protecting water use, water
quality, and endangered species. None of the theories
I have considered, including those rooted in cases in
which acreage was the basis of representation, fits the
situation in the EAA. In any event, the EAA has
general government authority. It regulates water use
and land use, unlike the situations in Salyer and Ball.
It can regulate the conduct of individuals. Its activities
affect the administration of normal government
functions so as fire protection, roads, and sanitation.
The EAA, thus, fits under the one person, one vote rule.
E. Revenue and Policy
(1) General Findings of
Consequences of Inequality

Research

on

the

84. Academic research on the effects of unequal
population representation in democratically elected
bodies has documented the substantial and
systematic effects of unequal representation on the
decision-making of those governmental bodies and
the resulting public policies. Unequal representation
affects the opportunity to form coalitions and the
weight that any one interest or segment of society has
on government decision-making. Effects on public

257a
policy include inequities in the contribution to the
revenue of the governing body, inequities in
distribution of resources of the governing body, and
distortions in the public laws and rules in favor of
those who are overrepresented.22
(2) Revenues of the EAA
85. The revenue for the EAA comes from fees charged
to permit holders for the use of water. Permits are
classified by type of use, and fees are charged
according to that use, agricultural (irrigation),
municipal, and industrial.
86. The Texas State Legislature caps fees for
agricultural use (irrigation) at $2 per acre- foot. The
fee on all other users for EAA General Operating
Revenues is $47 per acre-foot.23 These are called
Management Fees in the filings with the EAA.
Ninety-eight percent of general revenues of the EAA
come from fees on Municipal and Industrial Users;
1.5% come from fees on irrigation.

22 The literatures on these matters are large. On revenues, see,
for example, Cary M. Atlas, Thomas W. Gilligan, Robert J.
Hendershott, and Mark A. Zupan, “Slicing the federal government
net spending pie: Who wins, who loses, and why,” American
Economic Review 85 (1995), 624-629. On policy distortion see,
for example, Matthew D. McCubbins and Thomas Schwartz,
“Congress, the Courts, and Public Policy: Consequences of the
One Man, One Vote Rule, American Journal of Political Science
32 (1988): 388-415. On distribution of public expenditures and
on distortion of policy, see, for example, Stephen Ansolabehere
and James M. Snyder, Jr., The End of Inequality, New York:
W.W. Norton, 2008, esp. Chapters 9 and 10.
23 Edwards Aquifer Authority, 2013 Operating Budget, Adopted
November 13, 2012, page 25.

258a
87. The Edwards Aquifer Habitat Conservation Plan
Fund (EAHCP) is a separate fund of approximately
$20 million in revenue.24 Revenue for this fund comes
entirely from management fees of $37 per acre-foot,
which is levied entirely on Municipal and Industrial
users. These are called “Program Fees” in the invoices
to the EAA. This brings the total charge for water use
on Municipal and Industrial users to $84 per acre- foot,
while the charge on Irrigation is just $2 per acre-foot.
88. Bexar County accounts for 75 percent of the
Aquifer Management Fees for General Operations
and 75 percent of the Program Management Fees for
the EAHCP Fund. According to the budget documents
of the EAA, there are a total of $18.2 million in
Management Fees for General Operations. The San
Antonio Area Water System (SAWS) paid $11.9
million for SAWS’s management fees and $1.7 million
for the management fees of the Bexar Metropolitan
Water District (which is now part of SAWS). Hence,
$13.6 million of the $18.2 Million management fees
collected by the EAA for General Operations – 74.7
percent – came from SAWS.25 Additionally, large
Industrial firms in Bexar County, such as Martin
Marietta Materials and Vulcan Construction Materials,
paid fees of several hundred thousand dollars, bringing
the total liability to people and firms in Bexar to well
in excess of 75 percent of total revenues.26

24

Ibid, page 5.

25 Invoices for management fees were provided to me by SAWS.
Total management fees are reported in EAA, 2013 Operating
Budget, page 22.
26

See 2009 Comprehensive Annual Financial Report, Table 4.

259a
90. Similarly, SAWS accounts for 75 percent of
program fees for the EAHCP. SAWS paid $9.4 million
in management fees for the 2013 EAHCP Program,
and another $1.3 million for the Bexar Metropolitan
Water District’s share – a total of $10.7 million in
program fees for the EAHCP. The total program
management fees collected for EAHCP by the EAA
come to $14.3 million. In other words, SAWS paid
roughly 75 percent of all program fees for the EAHCP.
91. Bexar County accounts for 75 percent of the
population of the EAA, 75 percent of the revenue of
the EAA and receives only 47 percent of the
representation on the EAA governing board. The
financial burden for the operations of the EAA are
born disproportionately by Bexar County, but that
County is not accorded a proportionate say in how
those revenues are spent or what the EAA does.
Signed,
/s/
Stephen Ansolabehere
Cambridge, MA
November 15, 2013

260a
STEPHEN DANIEL ANSOLABEHERE
Department of Government
Harvard University
1737 Cambridge Street
Cambridge, MA 02138
sda@gov.harvard.edu
EDUCATION
Harvard University
Ph.D., Political Science 1989
University of Minnesota B.A., Political Science 1984
B.S., Economics
PROFESSIONAL EXPERIENCE
ACADEMIC POSITIONS
2008-present Professor, Department of Government,
Harvard University
1998-2009
Elting Morison Professor, Department
of Political Science, MIT (Associate
Head, 2002-2005)
1995-1998
Associate Professor, Department of
Political Science, MIT
1993-1994
National Fellow, The Hoover Institution
1989-1993
Assistant Professor, Department of
Political Science, University of
California, Los Angeles
FELLOWSHIPS AND HONORS
American Academy of Arts and Sciences
Carnegie Scholar
Goldsmith Book Prize for Going Negative
National Fellow, The Hoover Institution
Harry S. Truman Fellowship

2007
2000-02
1996
1993-94
1982-86

261a
PUBLICATIONS
Books
2014

Cheap and Clean: How Americans Think
About Energy in the Age of Global Warming.
(with David Konisky). MIT Press.

2011

American Government, 12th edition, W.W.
Norton. With Benjamin Ginsberg and
Kenneth Shepsle

2008

The End of Inequality: One Person, One Vote
and the Transformation of American Politics.
W. W. Norton.

1996

Going Negative: How Political Advertising
Divides and Shrinks the American Electorate
(with Shanto Iyengar). The Free Press.

1993

Media Game:
American Politics in the
Television Age (with Roy Behr and Shanto
Iyengar). Macmillan.

Recent Articles in Refereed Journals
2013

“Race, Gender, Age, and Voting” Politics and
Governance, vol. 1, issue 2. (with Eitan Hersh)
http://www.librelloph.com/politicsandgoverna
nce/article/view/PaG-1.2.132

2013

“Regional Differences in Racially Polari]ed
Voting: Implications for the Constitutionality
of Section 5 of the Voting Rights Act” (Zith
Nathaniel Persily and Charles Stewart) 126
Harvard Law Review F 205 (2013)
http://www.harvardlawreview.org/issues/126/
april13/forum_1005.php

262a
2013

“Cooperative Survey Research” Annual
Review of Political Science (with Douglas
Rivers)

2013

“Social Sciences and the Alternative Energy
Future” Daedalus (with Bob Fri)

2013

“The Effects of Redistricting on Incumbents,”
Election Law Journal (with James Snyder)

2013

“Does Survey Mode Still Matter?” Political
Analysis (with Brian Schaffner)

2012

“Asking About Numbers: How and Why”
Political Analysis (with Erik Snowberg and
Marc Meredith). doi:10.1093/pan/mps031

2012

“Movers,
Stayers,
and
Registration”
Quarterly Journal of Political Science (with
Eitan Hersh and Ken Shepsle)

2012

“Validation: What Big Data Reveals About
Survey Misreporting and the Real Electorate”
Political Analysis (with Eitan Hersh)

2012

“Arizona Free Enterprise v. Bennett and the
Problem of Campaign Finance” Supreme
Court Review 2011(1):39-79

2012

“The American Public’s Choice” Daedalus
(with David Konisky)

2012

“Challenges
for
Technology
Daedalus (with Robert Fri)

2011

“When Parties Are Not Teams:
Party
positions in single-member district and
proportional
representation
systems”

Change”

263a
Economic
Theory
49
(March)
10.1007/s00199-011-0610-1

DOI:

2011

“Profiling Originalism” Columbia Law Review
(with Jamal Greene and Nathaniel Persily).

2010

“Partisanship,
Public
Opinion,
and
Redistricting” Election Law Journal (with
Joshua Fougere and Nathaniel Persily).

2010

“Primary Elections and Party Polarization”
Quarterly Journal of Political Science (with
Shigeo Hirano, James Snyder, and Mark
Hansen)

2010

“Constituents’ Responses to Congressional
Roll Call Voting,” American Journal of
Political Science (with Phil Jones)

2010

“Race, Region, and Stephen Ansolabehere,
Nathaniel Persily, and Charles H. Stewart
III, “Race, Region, and Vote Choice in the
2008 Election: Implications for the Future of
the Voting Rights Act” Harvard Law Review
April, 2010.

2010

“Residential Mobility and the Cell Only
Population,” Public Opinion Quarterly (with
Brian Schaffner)

2009

“Explaining Attitudes Toward Power Plant
Location,” Public Opinion Quarterly (with
David Konisky)

2009

Public risk perspectives on the geologic
storage of carbon dioxide,” International
Journal of Greenhouse Gas Control (with

264a
Gregory Singleton and Howard Herzog) 3(1):
100-107.
2008

“A Spatial Model of the Relationship Between
Seats and Votes” (with William Leblanc)
Mathematical and Computer Modeling
(November).

2008

“The Strength of Issues: Using Multiple
Measures to Gauge Preference Stability,
Ideological Constraint, and Issue Voting”
(with Jonathan Rodden and James M.
Snyder, Jr.) American Political Science
Review (May).

2008

“Access
versus
Integrity
in
Voter
Identification Requirements.”
New York
University Annual Survey of American Law,
vol 63.

2008

Voter Fraud in the Eye of the Beholder” (with
Nathaniel Persily) Harvard Law Review
(May)

2007

“Incumbency Advantages in U. S. Primary
Elections,” (with John Mark Hansen, Shigeo
Hirano, and James M. Snyder, Jr.) Electoral
Studies (September)

2007

Television and the Incumbency Advantage”
(with Erik C. Snowberg and James M.
Snyder, Jr). Legislative Studies Quarterly.

2006

“The Political Orientation of Newspaper
Endorsements” (with Rebecca Lessem and
James M. Snyder, Jr.). Quarterly Journal of
Political Science vol. 1, issue 3.

265a
2006

“Voting Cues and the Incumbency Advantage:
A Critical Test” (with Shigeo Hirano, James
M. Snyder, Jr., and Michiko Ueda) Quarterly
Journal of Political Science vol. 1, issue 2.

2006

American Exceptionalism? Similarities and
Differences in National Attitudes Toward
Energy Policies and Global Warming” (with
David Reiner, Howard Herzog, K. Itaoka, M.
Odenberger,
and
Fillip
Johanssen)
Environmental Science and Technology
(February
22,
2006),
http://pubs3.acs.org/acs/journals/doilookup?in
_doi=10.1021/es052010b

2006

“Purple America” (with Jonathan Rodden
and James M. Sn\der, Jr.)
Journal of
Economic Perspectives (Winter).

2005

“Did the Introduction of Voter Registration
Decrease Turnout?” (with David Konisky).
Political Analysis.

2005

Statistical Bias in Newspaper Reporting: The
Case of Campaign Finance” Public Opinion
Quarterly (with James M. Snyder, Jr., and
Erik Snowberg).

2005

“Studying Elections” Policy Studies Journal
(with Charles H. Stewart III and R. Michael
Alvarez).

2005

“Legislative Bargaining under Weighted
Voting” American Economic Review (with
James M. Snyder, Jr., and Michael Ting)

2005

“Voting Weights and Formateur Advantages
in Coalition Formation:
Evidence from

266a
Parliamentary Coalitions, 1946 to 2002” (with
James M. Snyder, Jr., Aaron B. Strauss, and
Michael M. Ting) American Journal of
Political Science.
2005

“Reapportionment and Party Realignment in
the American States” Pennsylvania Law
Review (with James M. Snyder, Jr.)

2004

“Residual Votes Attributable to Voting
Technologies” (with Charles Stewart) Journal
of Politics

2004

Using Term Limits to Estimate Incumbency
Advantages When Office Holders Retire
Strategically” (with James M. Snyder, Jr.).
Legislative Studies Quarterly vol. 29,
November 2004, pages 487-516.

2004

“Did Firms Profit From Soft Money?” (with
James M. Sn\der, Jr., and Michiko Ueda)
Election Law Journal vol. 3, April 2004.

2003

“Bargaining in Bicameral Legislatures” (with
James M. Snyder, Jr. and Mike Ting)
American Political Science Review, August,
2003.

2003

“Why Is There So Little Money in U.S.
Politics?” (with James M. Snyder, Jr.) Journal
of Economic Perspectives, Winter, 2003.

2002

“Equal Votes, Equal Money: Court-Ordered
Redistricting and the Public Spending in the
American States” (with Alan Gerber and
James M. Snyder, Jr.) American Political
Science Review, December, 2002.

267a
Paper awarded the Heinz Eulau award for the
best paper in the American Political Science
Review.
2002

“Are PAC Contributions and Lobbying
Linked?” (with James M. Snyder, Jr. and
Micky Tripathi) Business and Politics 4, no. 2.

2002

“The Incumbency Advantage in U.S.
Elections: An Analysis of State and Federal
Offices, 1942-2000” (with James Snyder)
Election Law Journal, 1, no. 3.

2001

“Voting Machines, Race, and Equal
Protection.” Election Law Journal, vol. 1, no.
1

2001

“Models, assumptions, and model checking in
ecological regressions” (with Andrew Gelman,
David Park, Phillip Price, and Larraine
Minnite) Journal of the Royal Statistical
Society, series A, 164: 101-118.

2001

“The Effects of Party and Preferences on
Congressional Roll Call Voting.” (with James
Snyder and Charles Stewart) Legislative
Studies Quarterly (forthcoming).
Paper awarded the Jewell-Lowenberg Award
for the best paper published on legislative
politics in 2001. Paper awarded the Jack
Walker Award for the best paper published on
party politics in 2001.

2001

“Candidate Positions in Congressional
Elections,” (with James Snyder and Charles
Stewart). American Journal of Political
Science 45 (November).

268a
2000

“Old Voters, NeZ Voters, and the Personal
Vote,” (with James Snyder and Charles
Stewart) American Journal of Political
Science 44 (February).

2000

“Soft Money, Hard Money, Strong Parties,”
(with James Snyder) Columbia Law Review
100 (April):598 - 619.

2000

“Campaign War Chests and Congressional
Elections,” (with James Snyder) Business and
Politics. 2 (April): 9-34.

1999

“Replicating Experiments Using Surveys and
Aggregate Data:
The Case of Negative
Advertising.” (with Shanto Iyengar and Adam
Simon) American Political Science Review 93
(December).

1999

“Valence Politics and Equilibrium in Spatial
Models,” (with James Snyder), Public Choice.

1999

“Money and Institutional Power,” (with
James Snyder), Texas Law Review 77 (June,
1999): 1673-1704.

1997

Incumbency Advantage and the Persistence
of Legislative Majorities,” (with Alan Gerber),
Legislative Studies Quarterly 22 (May 1997).

1996

“The Effects of Ballot Access Rules on U.S.
House Elections,” (with Alan Gerber),
Legislative Studies Quarterly 21 (May 1996).

1994

“Riding the Wave and Issue Ownership: The
Importance of Issues in Political Advertising
and News, (with Shanto Iyengar) Public
Opinion Quarterly 58:335-357.

269a
1994

“Horseshoes and Horseraces: Experimental
Evidence of the Effects of Polls on
Campaigns,” (with Shanto Iyengar) Political
Communications 11/4 (October-December):
413-429.

1994

“Does Attack Advertising Demobilize the
Electorate?”
(with Shanto Iyengar),
American Political Science Review 89
(December).

1994

“The Mismeasure of Campaign Spending:
Evidence from the 1990 U.S. House
Elections,” (with Alan Gerber) Journal of
Politics 56 (September).

1993

“Poll Faulting,” (with Thomas R. Belin)
Chance 6 (Winter): 22-28.

1991

“The Vanishing Marginals and Electoral
Responsiveness,” (with David Brady and
Morris Fiorina) British Journal of Political
Science 22 (November): 21-38.

1991

“Mass Media and Elections: An Overview,”
(with Roy Behr and Shanto Iyengar)
American Politics Quarterly 19/1 (January):
109-139.

1990

“The Limits of Unraveling in Interest
Groups,” Rationality and Society 2:394-400.

1990

“Measuring the Consequences of Delegate
Selection Rules in Presidential Nominations,”
(with Gary King) Journal of Politics 52: 609621.

270a
1989

“The Nature of Utility Functions in Mass
Publics,” (with Henry Brady) American
Political Science Review 83: 143-164.

Special Reports and Policy Studies
2010

The Future of Nuclear Power, Revised.

2006

The Future of Coal. MIT Press. Continued
reliance on coal as a primary power source
will lead to very high concentrations of carbon
dioxide in the atmosphere, resulting in global
warming. This cross-disciplinary study –
drawing on faculty from Physics, Economics,
Chemistry, Nuclear Engineering, and
Political Science – develop a road map for
technology research and development policy
in order to address the challenges of carbon
emissions from expanding use of coal for
electricity and heating throughout the world.

2003

The Future of Nuclear Power. MIT Press.
This cross-disciplinary study – drawing on
faculty from Physics, Economics, Chemistry,
Nuclear Engineering, and Political Science –
examines the what contribution nuclear
power can make to meet growing electricity
demand, especially in a world with increasing
carbon dioxide emissions from fossil fuel
power plants.

2002

Election Day Registration.” A report prepared
for DEMOS. This report analyzes the possible
effects of Proposition 52 in California based on
the experiences of 6 states with election day
registration.

271a
2001

Voting: What Is, What Could Be. A report of
the Caltech/MIT Voting Technology Project.
This report examines the voting system,
especially technologies for casting and
counting votes, registration systems, and
polling place operations, in the United States.
It was widely used by state and national
governments in formulating election reforms
following the 2000 election.

2001

An Assessment of the Reliability of Voting
Technologies.” A report of the Caltech/MIT
Voting Technology Project. This report
provided the first nationwide assessment of
voting equipment performance in the United
States. It Zas prepared for the Governor’s
Select Task Force on Election Reform in
Florida.

Chapters in Edited Volumes
2012

“Using Recounts to Measure the Accuracy of
Vote Tabulations:
Evidence from New
Hampshire
Elections,
1946-2002”
in
Confirming Elections, R. Michael Alvarez,
Lonna Atkeson, and Thad Hall, eds. New
York: Palgrave, Macmillan.

2010

“Dyadic Representation” in Oxford Handbook
on Congress, Eric Schickler, ed., Oxford
University Press.

2008

Voting Technology and Election Law” in
America Votes!, Benjamin Griffith, editor,
Washington, DC: American Bar Association.

272a
2007

“What Did the Direct Primary Do to Party
Loyalty in Congress” (with Shigeo Hirano
and James M. Snyder Jr.) in Process, Party
and Policy Making: Further New Perspectives
on the History of Congress, David Brady and
Matthew D. McCubbins (eds.), Stanford
University Press, 2007.

2007

“Election Administration and Voting Rights”
in Renewal of the Voting Rights Act, David
Epstein and Sharyn O’Hallaran, eds. Russell
Sage Foundation.

2006

“The Decline of Competition in Primary
Elections,” (with John Mark Hansen, Shigeo
Hirano, and James M. Snyder, Jr.) The
Marketplace of Democracy, Michael P.
McDonald
and
John
Samples,
eds.
Washington, DC: Brookings.

2005

“Voters, Candidates and Parties” in
Handbook of Political Economy, Barry
Weingast and Donald Wittman, eds. New
York: Oxford University Press.

2003

“Baker v. Carr in Context, 1946 – 1964” (with
Samuel Isaacharoff) in Constitutional Cases
in Context, Michael Dorf, editor. New York:
Foundation Press.

2002

“Corruption and the Growth of Campaign
Spending” (with Alan Gerber and James
Snyder). A User’s Guide to Campaign
Finance, Jerry Lubenow, editor. Rowman and
Littlefield.

273a
2001

“The Paradox of Minimal Effects,” in Henry
Brady and Richard Johnston, eds., Do
Campaigns Matter? University of Michigan
Press.

2001

“Campaigns as Experiments,” in Henry Brady
and Richard Johnson, eds., Do Campaigns
Matter? University of Michigan Press.

2000

“Money and Office,” (with James Snyder) in
David Brady and John Cogan, eds.,
Congressional Elections: Continuity and
Change. Stanford University Press.

1996

“The Science of Political Advertising,” (with
Shanto Iyengar) in Political Persuasion and
Attitude Change, Richard Brody, Diana Mutz,
and Paul Sniderman, eds. Ann Arbor, MI:
University of Michigan Press.

1995

“Evolving Perspectives on the Effects of
Campaign
Communication,”
in
Philo
Warburn, ed., Research in Political Sociology,
vol. 7, JAI.

1995

“The Effectiveness of Campaign Advertising:
It’s All in the Context,” (with Shanto Iyengar)
in Campaigns and Elections American Style,
Candice Nelson and James A. Thurber, eds.
Westview Press.

1993

Information and Electoral Attitudes: A Case
of Judgment Under Uncertainty,” (with
Shanto Iyengar), in Explorations in Political
Psychology, Shanto Iyengar and William
McGuire, eds. Durham: Duke University
Press.

274a
Working Papers
2009

“Sociotropic Voting and the Media” (with
Marc Meredith and Erik Snowberg),
American National Election Study Pilot
Study Reports, John Aldrich editor.

2007

“Public Attitudes Toward America’s Energy
Options: Report of the 2007 MIT Energy
Survey” CEEPR Working Paper 07-002 and
CANES working paper.

2006

“Constituents’
Policy
Perceptions
and
Approval of Members’ of Congress” CCES
Working Paper 06-01 (with Phil Jones).

2004

“Using Recounts to Measure the Accuracy of
Vote Tabulations:
Evidence from New
Hampshire Elections, 1946 to 2002” (with
Andrew Reeves).

2002

“Evidence
of
Virtual
Representation:
Reapportionment in California,”
(with
Ruimin He and James M. Snyder).

1999

“Why did a majority of Californians Yote to
lower their own power?” (with James Snyder
and Jonathan Woon). Paper presented at the
annual meeting of the American Political
Science Association, Atlanta, GA, September,
1999. Paper received the award for the best
paper on Representation at the 1999 Annual
Meeting of the APSA.

1999

“Has Television Increased the Cost of
Campaigns?” (with Alan Gerber and James
Snyder).

275a
1996

“Money, Elections, and Candidate Quality,”
(with James Snyder).

1996

“Party Platform Choice - Single- Member
District and Party-List Systems,” (with
James Snyder).

1995

“Messages Forgotten” (with Shanto Iyengar).

1994

Consumer Contributors and the Returns to
Fundraising: A Microeconomic Analysis,”
(with Alan Gerber), presented at the Annual
Meeting of the American Political Science
Association, September.

1992

Biases in Ecological Regression,” (with R.
Douglas Rivers) August, (revised February
1994). Presented at the Midwest Political
Science Association Meetings, April 1994,
Chicago, IL.

1992

“Using
Aggregate
Data
to
Correct
Nonresponse and Misreporting in Surveys”
(with R. Douglas Rivers). Presented at the
annual meeting of the Political Methodology
Group, Cambridge, Massachusetts, July.

1991

“The Electoral Effects of Issues and Attacks
in Campaign Advertising” (with Shanto
Iyengar). Presented at the Annual Meeting of
the American Political Science Association,
Washington, DC.

1991

“Television
Advertising
as
Campaign
Strategy:
Some Experimental Evidence”
(with Shanto Iyengar). Presented at the
Annual Meeting of the American Association
for Public Opinion Research, Phoenix.

276a
1991

“Why Candidates Attack: Effects of Televised
Advertising
in
the
1990
California
Gubernatorial Campaign,” (with Shanto
Iyengar). Presented at the Annual Meeting of
the Western Political Science Association,
Seattle, March.

1990

“Winning is Easy, But It Sure Ain’t Cheap.”
Working Paper #90-4, Center for the
American Politics and Public Policy, UCLA.
Presented
at
the
Political
Science
Departments at Rochester University and the
University of Chicago.

Research Grants
1989-1990

Markle Foundation. “A Study of the
Effects of Advertising in the 1990
California Gubernatorial Campaign.”
Amount: $50,000

1991-1993

Markle Foundation. “An Experimental
Study of the Effects of Campaign
Advertising.” Amount: $150,000

1991-1993

NSF. “An Experimental Study of the
Effects of Advertising in the 1992
California Senate Electoral.” Amount:
$100,000

1994-1995

MIT Provost Fund. “Money in Elections:
A Study of the Effects of Money
on Electoral Competition.” Amount:
$40,000

1996-1997

National
Science
Foundation.
“Campaign Finance and Political
Representation.” Amount: $50,000

277a
1997

National Science Foundation. “Party
Platforms: A Theoretical Investigation
of Party Competition Through Platform
Choice.” Amount: $40,000

1997-1998

National Science Foundation.
“The
Legislative Connection in Congressional
Campaign Finance. Amount: $150,000

1999-2000

MIT Provost Fund. “Districting and
Representation.” Amount: $20,000.

1999-2002

Sloan Foundation. “Congressional Staff
Seminar.” Amount: $156,000.

2000-2001

Carnegie
Corporation.
“The
Caltech/MIT
Voting
Technology
Project.” Amount: $253,000.

2001-2002

Carnegie Corporation. “Dissemination
of Voting Technology Information.”
Amount: $200,000.

2003-2005

National Science Foundation. “State
Elections Data Project.”
Amount:
$256,000.

2003-2004

Carnegie
Corporation.
Voting.” Amount: $279,000.

2003-2005

Knight Foundation. “Accessibility and
Security of Voting Systems.” Amount:
$450,000.

2006-2008

National Science Foundation, “Primary
Election Data Project”

2008-2009

Pew/JEHT.
“Measuring
Voting
Problems in Primary Elections, A
National Survey.” Amount: $300,000

“Internet

278a
2008-2009

Pew/JEHT. “Comprehensive Assessment
of the Quality of Voter Registration Lists
in the United States: A pilot study
proposal” (with Alan Gerber). Amount:
$100,000.

2010-2011

National
Science
Foundation,
“Cooperative Congressional Election
Study,” $360,000

2010-2012

Sloan Foundation, “Precinct-Level U. S.
Election Data,” $240,000.

2012-2014

National
Science
Foundation,
“Cooperative Congressional Election
Study, 2010-2012 Panel Study” $425,000

2012-2014

National Science Foundation, “2012
Cooperative Congressional Election
Study,” $475,000

Professional Boards
Editor, Cambridge University Press Book Series,
Political Economy of Institutions and Decisions.
Member, Board of Overseers, American National
Election Studies, 1999 to present.
Member, Board of the Reuters International School of
Journalism, Oxford University, 2007 to present.
Member, Academic Advisory Board,
Integrity Project, 2012 to present.

Electoral

Contributing Editor, Boston Review, The State of the
Nation.

279a
Associate Editor, Public Opinion Quarterly, 2012 to
present.
Editorial Board of American Journal of Political
Science, 2005 to present.
Editorial Board of Legislative Studies Quarterly,
2005 to present.
Editorial Board of Public Opinion Quarterly, 2006 to
present.
Editorial Board of the Election Law Journal, 2002 to
present.
Editorial Board of the Harvard International Journal
of Press/Politics, 1996 to 2008.
Editorial Board of Business and Politics, 2002 to
Present.
Scientific Advisory Board, Polimetrix, 2004 to 2006.
Special Projects and Task Forces
Principal Investigator, Cooperative Congressional
Election Study, 2005 – present.
MIT Energy Innovation Study, 2009-2010.
MIT Energy Initiative, Steering Council, 2007-2008
Co-Director, Caltech/MIT Voting Technology Project,
2000-2004.
Co-Organizer, MIT Seminar for Senior Congressional
and Executive Staff, 1996-2007.
MIT Coal Study, 2004-2006.
MIT Energy Research Council, 2005-2006.
MIT Nuclear Study, 2002-2004.
Voting Technology Task Force Leader, Election
Reform Initiative of the Constitution Project, 2001 to
2002.

280a
REPORT ON CITIZEN, ADULT CITIZEN
POPULATION, REGISTERED VOTERS, AND
TURNOUT IN THE ELECTORAL DISTRICTS
OF THE EDWARDS AQUIFER AUTHORITY
Stephen Ansolabehere
Professor of Government
Harvard University
Cambridge, Massachusetts
April 9, 2016
I.

STATEMENT OF INQUIRY

1.

I have been asked to examine the number of
Citizens, Citizens of Voting Age, Registered
Voters, and Turnout in each of the districts in the
electoral districts of the Edwards Aquifer
Authority.

II. BACKGROUND AND QUALIFICATIONS
2.

I am a professor of Government in the
Department of Government at Harvard
University in Cambridge, Massachusetts.
Formerly, I was an Assistant Professor at the
University of California, Los Angeles, and I was
Professor
of
Political
Science
at
the
Massachusetts Institute of Technology, where I
held the Elting R. Morison Chair and served as
Associate Head of the Department of Political
Science. At UCLA and MIT, I taught PhD-level
courses on applied statistics in the social
sciences. I directed the Caltech/MIT Voting
Technology Project from its inception in 2000
through 2004, and I am the Principal
Investigator of the Cooperative Congressional

281a
Election Study, a survey research consortium of
over 250 faculty and student researchers at more
than 50 universities. In addition, I am a
consultant to CBS News’ Election Night Decision
Desk. I am a member of the American Academy
of Arts and Sciences (inducted in 2007).
3.

I have testified before the U.S. Senate Committee
on Rules, the U.S. Senate Committee on
Commerce, the U.S. House Committee on
Science, Space, and Technology, the U.S. House
Committee on House Administration, and the
Congressional Black Caucus on matters of
election administration in the United States. I
filed an amicus brief with Professors Nathaniel
Persily and Charles Stewart on behalf of neither
party to the U.S. Supreme Court in the case of
Northwest Austin Municipal Utility District
Number One v. Holder, 557 U.S. 193 (2009). I
filed an amicus brief with Professors Nathaniel
Persily, Bernard Grofman, Charles Stewart, and
Bruce Can in support of Appellees in the case of
Evenwel v. Abbott, before the Supreme Court of
the United States (Docket Number 14-940,
Decided April 4, 2016.) I have served as a
consultant for or continue to serve as a
consultant for the following parties in the
following matters: the Brennan Center in the
case of McConnell v. FEC, 540 U.S. 93 (2003); the
Rodriguez plaintiffs in Perez v. Perry, before the
U. S. District Court for the Western District of
Texas (No. 5:11-cv-00360); the Gonzales
intervenors in State of Texas v. United States
before the U.S. District Court for the District of
Columbia (No. 1:11-cv-01303); the Department of
Justice in State of Texas v. Holder, before the

282a
U.S. District Court for the District of Columbia
(No. 1:12-cv-00128); the Department of Justice in
Veasey v. Perry, before the U.S. District Court for
the Southern Division of Texas (No.
2:13cv00193); the San Antonio Water System
intervenor in LULAC v. Edwards Aquifer
Authority in the U.S. District Court for the
Western District of Texas, San Antonio Division
(No. 5:12cv620-OLG); the Guy plaintiffs in Guy v.
Miller before the U.S. District Court for Nevada
(No.
11-OC-00042-1B);
the
Bethune-Hill
plaintiffs in Bethune-Hill v. Virginia State Board
of Elections in the U. S. District Court for the
Eastern District of Virginia (No. 3:14cv852); the
Harris plaintiffs in Harris v. McCrory before the
U. S. District Court for the Middle District of
North Carolina (No. 1:2013cv00949); the Florida
Democratic Party in In re Senate Joint
Resolution of Legislative Apportionment before
the Florida Supreme Court (Nos. 2012-CA-412,
2012-CA-490); and the Romo plaintiffs in Romo
v. Detzner before the Circuit Court of the Second
Judicial Circuit in Florida (No. 2012 CA 412).
4.

My areas of expertise include American
government, American electoral politics and
public opinion, as well as statistical methods in
social sciences. I am the author of numerous
scholarly works on voting behavior and elections,
with a particular focus on the application of
statistical methods. This scholarship includes
articles in such academic journals as the Journal
of the Royal Statistical Society, the American
Political Science Review, the American Economic
Review, the American Journal of Political
Science, Legislative Studies Quarterly, the

283a
Quarterly Journal of Political Science, Electoral
Studies, and Political Analysis. I have published
articles on issues of election law in the Harvard
Law Review, Texas Law Review, Columbia Law
Review, New York University Annual Survey of
Law, and the Election Law Journal, for which I
am a member of the editorial board. I have
coauthored three scholarly books on electoral
politics in the United States, The End of
Inequality:
Baker
v.
Carr
and
the
Transformation of American Politics, Going
Negative: How Political Advertising Shrinks and
Polarizes the Electorate, and The Media Game:
American Politics in the Media Age. I am a
coauthor with Ted Lowi, Ben Ginsberg, and Ken
Shepsle of American Government: Power and
Purpose, a college textbook on American
government. My curriculum vita with a list of
publications is attached to my initial report in
this case.
5.

I am retained at the rate of $400 per hour.

III. SOURCES OF INFORMATION
6.

I relied on population data provided by the U.S.
Bureau of the Census. The Census Bureau
produces data files for total population and
population 18 years of age or older (Voting Age
Population or VAP) from the 2010 Census
Enumeration.

7.

I relied on data on the citizen voting age
population (CVAP) from the American
Community Survey (ACS). CVAP is the number
of persons who are 18 years or older and citizens
of the United States. The Census Bureau

284a
conducts an annual survey of 3 million persons
nationwide called the (ACS) to measure
citizenship
and
other
demographic
characteristics. The Census Bureau releases a
five-year average of the ACS for purposes of
analysis at the level of block groups, which is
designed for analysis of local geographies, such
as district boundaries. I relied on the 2008-2012
ACS 5-Year Summary, which is available at
http://www.census.gov/acs/www/data_document
ation/summary_file/.
8.

I used the 2008-2012 ACS 5-Year Summary
because the mid-year is 2010, which corresponds
to the census enumeration. For further
discussion on the use of ACS to measure CVAP
in the State of Texas, see Stephen Ansolabehere,
“Response to Professor Rives Rebuttal Report on
the Use of the American Community Survey and
Estimates of the Citizen Voting Age Population,”
in Perez v. Perry, before the U. S. District Court
for the Western District of Texas (No. 5:11-cv00360), August 30, 2011.

9.

I was provided with a 2010 block equivalence file
for every district in the 2001-2011 EAA district
map. I was also provided with a shape file that
defined the geographic areas included in each
district in the 2012 EAA district map. I used
these files to determine which Census blocks are
in which electoral districts of the EAA under the
2001 map and the 2012 map.

10. The CVAP for each district was estimated as the
percent of persons within each county who are
adult citizens times the number of adult citizens

285a
in each district. An alternative estimate was
constructed using the block group level CVAP
data from the ACS. This estimate assumed that
CVAP of the split block groups (e.g., those divided
across multiple electoral districts) were split
according to the percent of persons in each block
group that resides in each district. The estimates
were very close to each other. Table 1 presents
the first estimates, as those had very low
standard errors and did not rest on assumptions
about how block groups were split.
11. The amicus brief that I filed along with
Nathaniel Persily, Bernard Grofman, Charles H.
Stewart III, and Bruce Cain in Evenwel v. Abbott
lays out my concerns with the use of ACS data
and use of registration and turnout data for
apportionment of legislative districts. I have the
same concerns with the use of the ACS data and
registration and turnout data for apportionment
of the EAA districts. Of note, the ACS estimates
of population and voting age population are not
calibrated to the 2010 Census Enumeration. The
Census Enumeration data are the standard for
estimating the population as of April of the
Census year (e.g., 2010). They offer a complete
enumeration and are not subject to sampling
error. The ACS is a very high quality survey of
approximately 3 million people (out of 300
million people) nationwide, but as a survey, the
estimates are subject to random error due to
sampling. At lower levels of aggregation (such as
block groups or districts within counties, such as
the EAA districts) there is more noise in the ACS
data than at higher levels of aggregation (such as
Congressional Districts), and thus a greater

286a
chance of discrepancies owing to sampling error.
The ACS figures released by the Bureau of the
Census are 5-year averages, and do not adjust for
trending within the population as a whole or
subgroups of the population. The aggregate
estimates of the population of the state of Texas
from the ACS 5-year average from 2008 to 2012,
for which the mid-year is 2010, and the 2010
Census Enumeration figures are very close to
each other. However, in the Texas context, the
five- year average can be inaccurate for specific
subgroups or areas among which there is more
rapid population growth than the population as a
whole. (See Stephen Ansolabehere, “Response to
Professor Rives Rebuttal Report on the Use of the
American Community Survey and Estimates of
the Citizen Voting Age Population,” in Perez v.
Perry, before the U. S. District Court for the
Western District of Texas (No. 5:11-cv-00360),
August 30, 2011.)
12. Registration and Turnout Data are from Texas
Legislative Council for 2010 and 2012, available
at ftp://ftpgis1.tlc.state.tx.us/elections/.
IV. FINDINGS
A.

VAP and CVAP

13. There was a highly unequal distribution of the
number of Adults (VAP) and Adult Citizens
(CVAP) across electoral districts in the Edwards
Aquifer Authority under the 2001-2011 Map.
Columns 3 and 4 of Table 1 present the VAP of
each of the electoral districts and the ratio of the
VAP of each district to the VAP of the ideal
district in which all districts have identical

287a
numbers of adult citizens. Columns 3 and 4 of
Table 2 present the CVAP of each of the electoral
districts and the ratio of the CVAP of each
district to the CVAP of the ideal district in which
all districts have identical numbers of adult
citizens.
14. As with my assessment of total population,
District 4 was the most under- represented
district in the 2001-2011 Map, with more than
three times as many adults and adult citizens as
the ideal district.
15. District 15 was the most over-represented
district in the 2001-2011 Map, with 7 percent
(one-fourteenth) of the ideal number adults and
of the ideal number of adult citizens.
16. Six of the seven Bexar County districts had more
adults and more adult citizens than the ideal
district under the 2001-2011 map.
17. Seven of the eight districts not in Bexar County
had fewer adults and fewer adult citizens than
the ideal district under the 2001-2011 map.
18. Each of districts 8, 10, 12, 14, and 15 had less
than 20 percent of the ideal district VAP and less
than 20 percent of the ideal CVAP under the
2001-2011 Map. That is, these districts had less
than one-fifth as many people as the ideal
district. In fact, each of these districts had less
than one-seventh as many adults or adult
citizens as the ideal district.
19. Under the current EAA electoral districts, the
2012 Map, there is a highly unequal distribution

288a
of the number of Adults and Adult Citizens.
Columns 5 and 6 of Tables 1 and 2 presents the
VAP and CVAP of each of the electoral districts
and the ratio of the VAP and CVAP of each
district to the ideal populations under an equal
apportionment of representation.
20. District 4 is the most under-represented district
in the 2012 Map, with more than two times as
many adults and adult citizens as the ideal
district.
21. District 15 is the most over-represented district
in the 2012 Map, with 7 percent (one-fourteenth)
of the ideal number adults and ideal number of
adult citizens.
22. All seven of the Bexar County districts have more
adults and more adult citizens than the ideal
district under the 2012 Map.
23. Seven of the eight districts not in Bexar County
have fewer adults and fewer adult citizens than
the ideal district under the 2012 Map.
24. Each of districts 8, 10, 12, 13, 14, and 15 has less
than 20 percent of the ideal district CVAP under
the 2012 Map. That is, these districts have less
than one- fifth as many adult citizens as the ideal
district under the current map.
25. My initial report in this case found considerable
inequalities in representation based on total
population. Here, the Adult and Adult Citizen
populations are considered as the hypothetical
(but
not
necessarily
valid)
basis
for
representation. The results in Tables 1 and 2

289a
reveal that inequalities in representation on the
same scale described in my original report exist
if one uses VAP or CVAP as the measuring rod.
Some electoral districts in the EAA have 3 times
as many Adults or Adult Citizens as they would
have under an equal VAP or equal CVAP plan,
while other districts have less than 10 percent as
many Adults or Adult Citizens as they would
have under an equal VAP or equal CVAP plan.
Across all three measures of the population of the
electorate – total population, adult population
and adult citizen population—there are
tremendous inequities in representation of
persons under the electoral districts of the EAA.
B.

Registration and Turnout

26. Another hypothetical (but not necessarily valid)
basis for measuring representation is in terms of
voters – Registered Voters and Turnout. Once
again, the electoral districts of the EAA show
high inequalities in representation of voters.
27. Tables 3 and 4 present the number of registered
voters and total turnout (the number of persons
who cast ballots) in 2012 under the 2001-2011
EAA districts and under the 2012 EAA districts.
28. There was a highly unequal distribution of the
number of registered voters and of turnout across
electoral districts in the EAA under the 20012011 Map. Columns 3 and 4 of Table 3 present
the number of Registered voters in each of the
districts under the 2001-2011 Map, and Columns
5 and 6 of Table 3 present the Total Turnout in
the 2001-2011 Map.

290a
29. District 4 was the most under-represented
district in the 2001-2011 Map in terms of total
numbers of registered voters and total turnout.
This district had more than three times as many
registered voters and numbers of people who
voted as it would have had under an
apportionment that equalized the apportionment
according to registration or turnout.
30. District 8 was the most over-represented district
in the 2001-2011 Map, using registration or
turnout as the standard for representation.
31. Six of the seven Bexar County districts had more
registered voters and fewer votes cast than the
ideal district under the 2012 Map.
32. Seven of the eight districts not in Bexar County
had fewer registered voters and fewer votes cast
than the ideal district under the 2012 Map.
33. Each of districts 8, 10, 12, 14, and 15 had less
than 20 percent of the ideal district number of
registered voters under the 2001-2011 Map. That
is, these districts had less than one-fifth as many
registered persons as the ideal district.
34. Under the 2012 Map, there is a highly unequal
distribution across districts in the number of
Registered Voters and Total Voters. Table 4
presents the number of registered voters and
total turnout in 2012 for each of the electoral
districts, as well as the ratio of the districts’
registration and turnout relative to what an
equal apportionment would imply.

291a
35. District 1 is the most under-represented district
in the 2012 Map, using registration or turnout as
the metric. This district has more than two times
as many registered voters or voters as the ideal
district.
36. District 15 is the most over-represented district
in the 2012 Map, with less than 10 percent as
many registered voters or voters as the ideal
district.
37. Six of seven Bexar County districts have more
registered voters and more voters than the ideal
district under the 2012 Map.
38. Seven of the eight districts not in Bexar County
have fewer registered voters and fewer voters
than the ideal district under the 2012 Map.
39. Each of districts 8, 10, 12, 14, and 15 has less
than 20 percent of the ideal district voter
registration and less than 20 percent of the ideal
voter turnout under the 2012 Map.
40. Tables 5 and 6 present vote registration and
turnout statistics in the EAA districts under the
2001-2011 map and un the 2012 map.
41. Under the 2001-2011 map, districts 1, 3, 4, 5, 6,
7 and 9 have registration in excess of the ideal
(equal) district registration. The remaining
districts have registration less than the ideal
district registration.
42. Under the 2012 map, districts 1, 3, 4, 5, 6, 7, and
9 have registration in excess of the ideal (equal)
district registration. The remaining districts

292a
have registration less than the ideal district
registration.
43. Under the 2001-2011 map, districts 1, 3, 4, 5, 6,
7 and 9 have turnout in excess of the ideal (equal)
district turnout. It should be noted that districts
3, 5, 7, and 11 are within 10 percent of the ideal
turnout. The remaining districts have registration
less than the ideal district registration.
44. Under the 2012 map, districts 1, 3, 4, 5, 6, 7 and
9 have turnout in excess of the ideal (equal)
district registration. The remaining districts
have registration less than the ideal district
registration.
45. The maximum deviation is the difference between
the most under represented (having excess
people) and the most over represented (having
too few people compared to the ideal district)
according to various criteria.
The criteria
examined in Table 7 are total population, adults
(VAP), adult citizens (CVAP), registration and
turnout. (For a definition of the maximum
population deviation, see Evenwel v. Abbot,
United States Supreme Court, Docket Number
14-940, Decided April 4, 2016, slip opinion, page
3, footnote 2.)
46. Under the 2001-2011 map, the maximum
deviation is 313% for total population, 309% for
adults, 310% for adult citizens, 311% for 2012
registration, 346% for 2012 turnout, 330% for
2014 registration, and 342% for 2014 turnout.
47. Under the 2012 map, the maximum deviation is
212% for total population, 209% for adults, 209%

293a
for adult citizens, 228% for 2012 registration,
266% for 2012 turnout, 232% for 2014
registration, and 280% for 2014 turnout.
48. My initial report in this case found considerable
inequalities in representation based on total
population.
Voting Age Population, Citizen
Voting Age Population, Voter registration and
Voter Turnout statistics show equally large
disparities in representation under both the
2001-2011 and 2012 EAA Electoral District Map.
Across all measures of population and
representation of voters examined there are
tremendous inequities in representation of
persons under the electoral districts of the EAA.
49. A final perspective on the inequities in
representation is to aggregate the populations in
the Bexar County districts, and compare those to
the ideal or equal population apportionment
under the 2012 Map. The EAA districts in Bexar
County have on average 178,481 adults per
district, and those districts outside of Bexar
County had on average 31,652 adults per district.
The EAA districts in Bexar County have on
average 162,470 adults citizens per district, and
those districts outside of Bexar County had on
average 30,053 adult citizens per district. The
EAA districts in Bexar County have on average
125,229 registered voters per district, and those
districts outside of Bexar County had on average
29,413 registered voters per district. The EAA
districts in Bexar County have on average 73,455
voters (in the 2012 election) per district, and
those districts outside of Bexar County had on
average 18,271 voters per district. In other

294a
words, the average EAA district in Bexar County
had more than 4 times as many people, adults,
adult citizens, registered voters or voters as the
average EAA district outside of Bexar County.
Table 1. Adult Population (VAP) of EAA Electoral
Districts, 2001-2011 Map and 2012 Map, 2010 Census
Enumeration VAP Data
2001-2011 Map
2012 Map
Adult Ratio
Adult Ratio
District County
Population (v. Population (v.
Ideal)
Ideal)
1
Bexar
238,087
2.37 218,281
2.18
2
3
4

Bexar
Bexar
Bexar

84,140
144,589
318,409

0.84 101,545
1.44 172,597
3.16 227,101

1.01
1.72
2.27

5
6
7
8

Bexar
Bexar
Bexar
Comal

169,357
151,740
144,558
8,452

1.68
1.51
1.44
0.08

180,949
184,643
164,253
13,004

1.80
1.84
1.64
0.13

9

Comal/
111,194
Guadalupe
Hays
10,839
Hays/
72,572
Caldwell
Medina
12,092

1.11 104,786

1.04

0.11 9,294
0.72 71,332

0.09
0.71

0.12 17,796

0.18

Medina/
Atascosa
Uvalde
Uvalde

24,337

0.24 18,229

0.18

11,421
7,526

0.11 11,178
0.07 7,598

0.12
0.07

100,621

1.00 100,172

1.00

10
11
12
13
14
15
Ideal

295a
Table 2. Adult Citizen Population (CVAP) of EAA
Electoral Districts,
2001-2011 Map and 2012 Map,
2008-2012 ACS CVAP Data
2001-2011 Map
2012 Map
District County

Adult Ratio Adult Ratio
Citizen
(v.
Citizen
(v.
PopulationIdeal) Population Ideal)

1

Bexar

211,694

2.29 194,989

2.12

2
3

Bexar
Bexar

80,208
126,039

0.87 97,232
1.37 152,672

1.06
1.66

4

Bexar

291,933

3.17 198,742

2.16

5
6
7

Bexar
Bexar
Bexar

157,503
140,081
129,884

1.71 169,720
1.52 170,436
1.41 153,496

1.85
1.85
1.67

8
9

Comal
8,148
Comal/
108,285
Guadalupe
Hays
9,711
Hays/
67,048
Caldwell
Medina
11,619
Medina/ 23,265
Atascosa
Uvalde
10,770
Uvalde
6,609
92,211

0.09 12,536
1.17 102,014

0.14
1.11

0.11 8,399
0.73 65,677

0.09
0.71

0.13 17,186
0.25 17,305

0.19
0.19

0.12 10,612
0.07 6,698
1.00 91,884

0.12
0.07
1.00

10
11
12
13
14
15
Ideal

296a
Table 3. 2012 Voter Registration and Turnout in
EAA Electoral Districts, Under the 2001-2011 Map

Voter Registration
Turnout
2012 Voter Ratio 2012 Ratio
District County
Registration (v.
Votes
(v.
Ideal) Cast Ideal)
1
Bexar
199,629
2.63 136,589 3.03
2
3

Bexar
Bexar

55,679
87,162

0.73 28,526
1.14 45,980

4

Bexar

242,247

3.20 158,005 3.51

5
6

Bexar
Bexar

104,546
110,102

2.23 52,278
2.00 56,936

1.16
1.26

7
8
9

Bexar
90,943
Comal
5,051
Comal/
114,090
Guadalupe
Hays
10,433
Hays/
70,076
Caldwell
Medina
6,968
Medina/ 21,922
Atascosa
Uvalde
9,308
Uvalde
6,499
75,807

1.20 45,116
0.07 2,313
1.51 78,112

1.00
0.05
1.73

0.14 5,335
0.92 39,543

0.12
0.88

0.09 4,085
0.29 13,274

0.09
0.29

0.12 4,497
0.09 3,938
1.00 45,077

0.10
0.09
1.00

10
11
12
13
14
15
Ideal

0.63
1.02

297a
Table 4. 2012 Voter Registration and Turnout in
EAA Electoral Districts, Under the 2012 Map
Voter Registration
Turnout
District County 2012 Voter Ratio 2012 Ratio
Registration (v.
Votes
(v.
Ideal) Cast Ideal)
1
Bexar
176,847
2.38 120,934 2.75
2
Bexar
68,460
0.93 36,620 0.83
3
Bexar
103,343
1.39 53,083 1.21
4
5

Bexar
Bexar

174,441
119,931

2.35 118,499 2.69
1.62 61,351 1.39

6

Bexar

119,218

1.61 62,952

1.43

7
8
9

Bexar
114,368
Comal
9,896
Comal/
109,245
Guadalupe
Hays
7,097

1.54 60,677
0.13 5,351
1.47 75,074

1.38
0.12
1.71

0.10 3,654

0.08

Hays/
Caldwell
Medina
Medina/
Atascosa
Uvalde
Uvalde

64,370

0.87 36,302

0.83

12,764
16,126

0.17 6,858
0.22 10,501

0.16
0.24

9,308
6,499

0.13 4,497
0.09 3,938

0.10
0.09

75,807

1.00 45,077

1.00

10
11
12
13
14
15
Ideal

298a
Table 5. 2014 Voter Registration and
Turnout in EAA Electoral Districts,
Under the 2001-2011 Map
Voter Registration
Turnout

1
2

Bexar
Bexar

2014 Voter Ratio 2014 Ratio
Registration (v.
Votes
(v.
Ideal) Cast Ideal)
206,832
2.57 83,048 3.53
57,562
0.71 13,762 0.52

3
4

Bexar
Bexar

91,460
271,178

1.13 27,262
3.37 92,799

1.04
3.53

5

Bexar

110,240

1.37 27,365

1.04

6
7
8

Bexar
Bexar
Comal

114,814
95,669
10,276

1.42 31,156
1.19 25,098
0.13 2,849

1.19
0.96
0.11

9

Comal/
117,186
Guadalupe
Hays
9,418

1.45 46,796

1.78

0.12 2,834

0.11

Hays/
Caldwell
Medina

76,875

0.95 26,251

1.00

5,943

0.07 2,135

0.09

Medina/
Atascosa
Uvalde

25,040

0.31 8,505

0.32

9,530

0.12 2,580

0.10

Uvalde

6,762
80,586

0.08 2,629
1.00 26,254

0.10
1.00

District County

10
11
12
13
14
15
Ideal

299a
Table 6. 2014 Voter Registration and
Turnout in EAA Electoral Districts,
Under the 2012 Map
Voter Registration
Turnout

1
2

Bexar
Bexar

2014 Voter Ratio 2014 Ratio
Registration (v.
Votes
(v.
Ideal) Cast Ideal)
190,871
2.37 75,817 2.88
73,814
0.92 18,109 0.69

3
4

Bexar
Bexar

107,776
193,394

1.34 30,978
2.40 72,845

1.21
2.77

5

Bexar

127,357

1.58 34,064

1.30

6
7
8

Bexar
Bexar
Comal

131,789
122,754
10,276

1.64 36,053
1.52 32,624
0.13 2,849

1.37
1.24
0.11

9

Comal/
121,257
Guadalupe
Hays
7,622
Hays/
69,690
Caldwell
Medina
13,368

1.50 48,704

1.86

0.09 2,215
0.86 23,704

0.08
0.90

0.17 3,902

0.15

Medina/
Atascosa
Uvalde

17,615

0.22 6,738

0.26

9,530

0.12 2,580

0.10

Uvalde

6,762
80,586

0.08 2,629
1.00 26,254

0.10
1.00

District County

10
11
12
13
14
15
Ideal

300a
Table 7. Maximum Deviation in Between
Most and Least Represented Districts’
Percentages of the Ideal Population
Maximum Deviation
Criterion

2001-2011 Map

2012 Map

Total Population
(Census, 2010)
Adults
(VAP)
(Census, 2010)
Adult
Citizens
(CVAP)
(ACS,
2008-2012)

313%

212%

309%

209%

310%

209%

Registration
2012
Turnout 2012

311%

228%

346%

266%

Registration
2014
Turnout 2014

330%

232%

342%

280%

Signed,
/s/
Stephen Ansolabehere
Cambridge, MA

April 9, 2016
Date

